<html>
<title> - DEPARTMENTS OF LABOR, HEALTH AND HUMAN SERVICES, EDUCATION, AND RELATED AGENCIES APPROPRIATIONS FOR 1998</title>
<body><pre>[House Hearing, 105 Congress]
[From the U.S. Government Printing Office]


<DOC>
 
                 DEPARTMENTS OF LABOR, HEALTH AND HUMAN
               SERVICES, EDUCATION, AND RELATED AGENCIES
                        APPROPRIATIONS FOR 1998

========================================================================

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                       ONE HUNDRED FIFTH CONGRESS

                              FIRST SESSION
                                ________

  SUBCOMMITTEE ON THE DEPARTMENTS OF LABOR, HEALTH AND HUMAN SERVICES, 
                    EDUCATION, AND RELATED AGENCIES

                 JOHN EDWARD PORTER, Illinois, Chairman

C. W. BILL YOUNG, Florida        DAVID R. OBEY, Wisconsin
HENRY BONILLA, Texas             LOUIS STOKES, Ohio
ERNEST J. ISTOOK, Jr., Oklahoma  STENY H. HOYER, Maryland
DAN MILLER, Florida              NANCY PELOSI, California
JAY DICKEY, Arkansas             NITA M. LOWEY, New York
ROGER F. WICKER, Mississippi     ROSA L. DeLAURO, Connecticut
ANNE M. NORTHUP, Kentucky        

NOTE: Under Committee Rules, Mr. Livingston, as Chairman of the Full 
Committee, and Mr. Obey, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.

S. Anthony McCann, Robert L. Knisely, Susan E. Quantius, Michael K. Myers,
                  and Francine Mack, Subcommittee Staff
                                ________

                                 PART 7B
                            (Pages 1569-2909)

               TESTIMONY OF MEMBERS OF CONGRESS AND OTHER
                INTERESTED INDIVIDUALS AND ORGANIZATIONS

                              <snowflake>

                                ________

                     U.S. GOVERNMENT PRINTING OFFICE

41-644 O                    WASHINGTON : 1997

------------------------------------------------------------------------

             For sale by the U.S. Government Printing Office            
        Superintendent of Documents, Congressional Sales Office,        
                          Washington, DC 20402                          







                       COMMITTEE ON APPROPRIATIONS                      

                   BOB LIVINGSTON, Louisiana, Chairman                  

JOSEPH M. McDADE, Pennsylvania         DAVID R. OBEY, Wisconsin            
C. W. BILL YOUNG, Florida              SIDNEY R. YATES, Illinois           
RALPH REGULA, Ohio                     LOUIS STOKES, Ohio                  
JERRY LEWIS, California                JOHN P. MURTHA, Pennsylvania        
JOHN EDWARD PORTER, Illinois           NORMAN D. DICKS, Washington         
HAROLD ROGERS, Kentucky                MARTIN OLAV SABO, Minnesota         
JOE SKEEN, New Mexico                  JULIAN C. DIXON, California         
FRANK R. WOLF, Virginia                VIC FAZIO, California               
TOM DeLAY, Texas                       W. G. (BILL) HEFNER, North Carolina 
JIM KOLBE, Arizona                     STENY H. HOYER, Maryland            
RON PACKARD, California                ALAN B. MOLLOHAN, West Virginia     
SONNY CALLAHAN, Alabama                MARCY KAPTUR, Ohio                  
JAMES T. WALSH, New York               DAVID E. SKAGGS, Colorado           
CHARLES H. TAYLOR, North Carolina      NANCY PELOSI, California            
DAVID L. HOBSON, Ohio                  PETER J. VISCLOSKY, Indiana         
ERNEST J. ISTOOK, Jr., Oklahoma        THOMAS M. FOGLIETTA, Pennsylvania   
HENRY BONILLA, Texas                   ESTEBAN EDWARD TORRES, California   
JOE KNOLLENBERG, Michigan              NITA M. LOWEY, New York             
DAN MILLER, Florida                    JOSE E. SERRANO, New York           
JAY DICKEY, Arkansas                   ROSA L. DeLAURO, Connecticut        
JACK KINGSTON, Georgia                 JAMES P. MORAN, Virginia            
MIKE PARKER, Mississippi               JOHN W. OLVER, Massachusetts        
RODNEY P. FRELINGHUYSEN, New Jersey    ED PASTOR, Arizona                  
ROGER F. WICKER, Mississippi           CARRIE P. MEEK, Florida             
MICHAEL P. FORBES, New York            DAVID E. PRICE, North Carolina      
GEORGE R. NETHERCUTT, Jr., Washington  CHET EDWARDS, Texas                 
MARK W. NEUMANN, Wisconsin             
RANDY ``DUKE'' CUNNINGHAM, California  
TODD TIAHRT, Kansas                    
ZACH WAMP, Tennessee                   
TOM LATHAM, Iowa                       
ANNE M. NORTHUP, Kentucky              
ROBERT B. ADERHOLT, Alabama            

                 James W. Dyer, Clerk and Staff Director









DEPARTMENTS OF LABOR, HEALTH AND HUMAN SERVICES, EDUCATION, AND RELATED 
                    AGENCIES APPROPRIATIONS FOR 1998

                              ----------                              


 TESTIMONY OF MEMBERS OF CONGRESS AND OTHER INTERESTED INDIVIDUALS AND 
                             ORGANIZATIONS

                              ----------                              

                                          Thursday, April 24, 1997.

                                WITNESS

EFRAIN SANCHEZ, PRESIDENT, THE NATIONAL HEP-CAMP ASSOCIATION

    Mr. Bonilla [assuming chair]. The subcommittee will come to 
order.
    My name is Henry Bonilla. I represent the State of Texas, 
Southern and Western portions.
    I would like to explain to the witnesses today that there 
is an interesting and unusual conflict that we have with the 
full Appropriations Committee that is meeting at this very 
moment, that is dealing with emergency spending for flood 
relief and for reimbursement of the Pentagon's expenses for the 
peacekeeping missions, specifically in Bosnia.
    These are what we categorize as emergency spending bills 
that are being debated right now. In fact, it is just going on 
down the hallway. That is why there will probably be no other 
members attending here this morning, with the exception of 
those that have constituents appearing before the subcommittee.
    Rest assured that every word of your testimony that is 
written and submitted for the record will be reviewed at length 
by every member of this subcommittee. It is extremely important 
that we hear your input as we make these decisions on our 
appropriations bills as we proceed this spring.
    As we begin this morning's hearing, I want to remind the 
witnesses of two provisions of the rules of the House. In 
addition to the written statement, non-Governmental witnesses 
must submit a curriculum vitae and a statement of Federal grant 
or contract funds they or the entity they represent have 
received. If you have any questions concerning the 
applicability of this provision or questions as to how to 
comply, please contact the subcommittee staff.
    Also, the witness schedule is very tight, and we will have 
to enforce the five minute rule on testimony strictly, in 
consideration for all of those witnesses appearing today. And I 
would ask that as you testify, you keep this limitation in mind 
in consideration for the other witnesses that must follow you.
    Finally, as you may have gathered, the full Committee, as I 
mentioned earlier, having a markup of this emergency spending 
bill, it may be necessary to actually recess during the hearing 
if votes do occur in the full Appropriations Committee, and if 
votes also occur on the Floor of the House of Representatives.
    So please bear with us. It could be an unusual morning, but 
we are going to proceed as quickly as possible.
    The first witness I would like to call this morning is 
actually one of my constituents that I have had the pleasure of 
working with over the last several years on issues very 
important to south Texas, and especially to the border 
community, Efrain Sanchez, who is the President of Ser Jobs for 
Progress. He is here representing the High School Equivalency 
Program.
    Efrain, you may proceed and come forward.
    He has been extremely active in this program for many, many 
years, and has proven himself to be a real leader in helping 
young people in communities along the border in southwest Texas 
with their educational endeavors. We really appreciate your 
coming here today to share your testimony before the 
subcommittee.
    Thank you.
    Mr. Sanchez. Thank you, Mr. Bonilla, and thank you for 
those kind words and for the opportunity to be here before you.
    I want to thank you for this opportunity to speak to you 
about the High School Equivalency Program, HEP, and the College 
Assistance Migrant Program, CAMP, on behalf of the National HEP 
and CAMP Association. I am the Director of Ser Jobs for 
Progress of Southwest Texas, a HEP project. Annually, our 
program serves 175 students, with between 70 and 75 percent of 
them receiving their GEDs.
    I am proud to speak about HEP and CAMP, because they are 
programs that make a difference in the lives of young people. 
These programs provide unique services to some of the most 
disadvantaged youth in our country, and do so with incredible 
success rates. There are no programs within the Federal 
Government other than HEP which recruit young migrant people 
who have dropped out of school to get back into the education 
mainstream and to earn their GED.
    Similarly, no existing Federal program other than CAMP 
actively recruits migrant high school and GED students to go to 
college, and then provides them both with targeted counseling 
services and additional stipends that they need to get through 
their first year.
    Most importantly, no other Federal programs have the 
tremendous success rates that HEP and CAMP do. Sixty-nine 
percent of HEP students successfully complete the program. A 
large majority of them go on to higher education. Of those 
students, 40 percent enroll in technical-vocational schools, 37 
percent at two year colleges, and 23 percent at four year 
institutions.
    According to Invisible Children: A Portrait of American 
Migrant Education in the United States, 30 years ago there was 
no record of a son or daughter of migrant farm workers ever 
having graduated from college. CAMP, which provides migrant 
youth real access to a college education, has steadfastly 
demonstrated its effectiveness in changing that statistic for 
today's migrant children.
    An incredible 96 percent of CAMP students complete their 
first year of college. The retention rate for CAMP students far 
outstrips that of other students. For example, at St. Edwards 
University in Austin, Texas, 83 percent of the 1993-94 CAMP 
class returned to their sophomore year, while only 68 percent 
of all freshmen returned. Seventy-three percent of CAMP 
students earn a college degree, and many continue their 
education by attending graduate school and other professional 
studies. CAMP students have a much higher college graduation 
rate than do Hispanic young people in general who complete 
college at an 8 percent rate.
    In addition to being programs that work, HEP and CAMP are 
cost effective for the Federal Government. Federal investments 
in HEP and CAMP programs clearly yield a superior return to the 
Government and the entire economy.
    Consider the following facts. HEP graduates earn on average 
$2,800 per year more than their peers with less than a high 
school diploma. Assuming a conservative tax rate of 15 percent, 
HELP graduates repay the Federal investment in their education 
in five years.
    CAMP completers earn an average of $4,100 per year more 
than their peers without a high school education. CAMP students 
who earn a bachelor's degree earn on the average of $11,000 a 
year more than their peers who have some college education.
    Assuming a very conservative tax rate of 15 percent, CAMP 
completers repay the Federal investment in their education in 
nine years. If the tax rate is 28 percent, the repayment period 
is only five years. Using the 28 percent tax ratefor CAMP 
college graduates, the repayment period is less than two years.
    The only limitations to what HEP and CAMP can accomplish 
are their meager funding levels. According to current 
statistics for the number of migrant children in elementary and 
secondary education and the present drop-out rate of migrant 
children of 55 percent, over the next 12 years, 366,000 migrant 
students will be eligible for HEP services. But because of 
funding limits, only 43,000 or 12 percent of the eligible 
students will be served.
    Statistics for CAMP are even more staggering. Out of a 
potential 244,000 eligible students, at the current funding 
level, only 4,500 students or 2 percent will receive services. 
These numbers represent an enormous loss in human potential and 
a significant deficit for our economy.
    The HEP-CAMP Association urges you to fund the programs at 
their full authorized levels of $15 million and $5 million, 
respectively. They are programs that serve the most 
disadvantaged population of students in the Nation, and that 
represent a positive investment for our economy. They are the 
epitome of what Federal programs should be. Without them, we 
would return to the days of 30 years ago, with no children of 
migrant workers graduating from college.
    Thank you for the opportunity to come before you. I will be 
happy to answer any questions you might have. And for your 
information, I have attached to my written testimony fact 
sheets on the uniqueness of HEP and CAMP projects, the services 
they provide to students and a profile of a successful HEP 
graduate.
    [The prepared statement of Efrain Sanchez follows:]

[Pages 1572 - 1575--The official Committee record contains additional material here.]


    Mr. Bonilla. Mr. Sanchez, thank you very much for your 
testimony. I do not know, to identify with what you are saying 
here a little bit, I do not know that there has been a member 
in recent memory on this subcommittee that understands what the 
migrant workers go through. As you know, some of my family have 
come to the Crystal City area, are still involved in migrant 
farm working. It is something that I grew up understanding very 
clearly. The work that you do to help these people is very 
admirable.
    They work, as you know, seven days a week, many times sunup 
to sundown, loading up the cars every year to go all the way up 
north and come all the way back, just to put food on the table. 
When an American, and these are American citizens, in case 
there is any doubt in anyone's mind, is willing to work that 
hard, it is my feeling that we ought to lend them a helping 
hand to pull themselves up and move on.
    It is certainly something that has happened in the 
situation that I am describing, with the family that I have in 
South Texas.
    So keep up the good work, and we appreciate your being here 
today.
    Mr. Sanchez. Thank you very much, Mr. Bonilla.
    Mr. Bonilla. Thank you.
                              ----------                              

                                          Thursday, April 24, 1997.

                                WITNESS

R. VIC MORGAN, HISPANIC ASSOCIATION OF COLLEGES AND UNIVERSITIES
    Mr. Bonilla. Now I would like to call Dr. Vic Morgan, 
President of Sul Ross University in the beautiful city of 
Alpine, Texas. He is here to talk about the Hispanic 
Association of Colleges and Universities, and specifically 
Hispanic serving institutions.
    Dr. Morgan, I would just like to comment that the work that 
you are doing at Sul Ross is truly outstanding. With the 
involvement that you have and the opportunities that Sul Ross 
provides for Mexican American young people that are coming 
through the West Texas area, if Sul Ross was not there, I do 
not know where they would get that opportunity. So it is hats 
off to you and for what you are doing at Sul Ross. We would be 
pleased to hear your testimony at this time.
    Mr. Morgan. Thank you, Congressman Bonilla. I really do 
appreciate your support of the Hispanic serving institutions 
and your work on the appropriations committee, the TRIO 
programs, the other programs, very significant. We need all the 
help we can get, as you understand.
    Sul Ross is a Hispanic serving institution, one of 160 in 
the country. There were 37 of these institutions that were 
funded with the HSI Title III grants at the last opportunity.
    We are only one of two, and there is a slight error in my 
printed statement, one of two institutions in your region, in 
your district in Texas, which extends from El Paso to San 
Antonio, a district of 600 miles and two-thirds of the Texas-
Mexican border. The region is approximately 50 percent Hispanic 
that we serve. It is 155,000 people in an 18 county district 
encompassing 45,000 square miles, which is roughly the size of 
the State of Pennsylvania. I do not have to tell you about 
isolation.
    I brought with me just as an illustration a phone book that 
represents seven counties in my region, 29,000 square miles, 
and this by the way does include the yellow pages. [Laughter.]
    So we are isolated, and we are remote.
    However, even at that, we are 6th in the Nation in 
producing Hispanic teachers, according to a recent article in 
Hispanic Outlook, and 23rd in producing Hispanic criminal 
justice graduates for the Nation. We do have a broad range of 
Hispanic families in our community.
    For example, the Gallego family, whom you know, the father, 
Pete, was responsible for the integration of public schools in 
Alpine, Texas. He had three children. All three have gone to 
Sul Ross. They have been five generations in Alpine.
    Two are now lawyers. One is a medical doctor, and one of 
the attorneys is of course our State representative that is 
representing us in his fourth term in Austin, Texas.
    Another typical family, relative newcomers, the Vizcaino 
family, have five children. The grandparents live inChihuahua, 
the State of Chihuahua, the father emigrated to this country. The 
family in Chihuahua lives in a community with no electricity. The 
father came to work as a concrete worker. He had five children. All 
five children have attended Sul Ross. There are four degrees among 
those, and all now are tax paying, solid citizens, members of society.
    The Texas Higher Education Coordinating Board data tells us 
that most Hispanic students who drop out of Sul Ross do not 
transfer somewhere else. They are region bound by both 
conditions of economic and family ties, and culture and other 
factors. So if we do not provide the opportunities, as a 
Hispanic serving institution, these people will not complete 
their degrees.
    At Sul Ross, and by the way, this is fairly typical of the 
Hispanic serving institutions along the border region, over 80 
percent of the undergraduates at Sul Ross qualify for financial 
need, with 40 percent of those qualifying for full need. This 
compares to a national average of about 12\1/2\ percent.
    Among colleges and universities in the country, over 50 
percent of the Hispanics in college attend an HSI, one of the 
160 institutions. We represent less than 3 percent of all 
higher education institutions. HSIs were first recognized in 
the last reauthorization of the Higher Education Act, were 
authorized for funding up to $45 million. In 1996, that funding 
was $12 million. It was reduced to $10.8 million in 1997. 
Thirty-seven institutions of the 92 that applied were funded in 
1996.
    Tough standards, difficult to get the grants, a lot of 
internal study and work goes on. As you know, the Hispanics are 
the fastest growing and the lowest average family income of any 
group recognized by the U.S. Census. Building capacity to serve 
this group more effectively must be a priority for American 
higher education, if we are going to build the work force of 
tomorrow.
    Fifty percent of the dropouts in Texas at the high school 
level are Hispanic. One of the requirements of the Title III 
development grant is to reach out to K through 12 and try to 
stem that drop-out rate. Helping HSIs is a wise investment of 
limited Federal limited resources, and will change welfare 
recipients into the tax paying citizens of tomorrow.
    Most Title III HSI programs are aimed at reducing drop-out 
rates. As I mentioned a moment ago, when Hispanic students drop 
out, they do not typically transfer some place else and finish 
a degree. They go home and take whatever work is available, 
back to their families. Our programs are aimed, as HSIs, at 
retention and retaining these students, keeping them in school, 
in a variety of ways.
    Looking at projections for the year 2030 in Texas, 46.5 
percent of the Texas population is likely to be Hispanic by the 
year 2030, compared to 35 percent Anglo and 10 percent African-
American. That projection reflects the work force of tomorrow 
for most of the border institutions. Without assistance to 
provide education for this rapidly growing population, we're 
going to fail to educate a large portion of our society.
    Your investment in HSIs will greatly enhance the capacity 
to meet the educational needs of this growing population. And 
doing so will continue to provide role models for future 
generations of Hispanic students, as well as students in all 
other ethnic groups.
    These programs do not only benefit Hispanic students. They 
benefit all the students at the receiving institutions.
    Our request is to increase the appropriation to $24 million 
to allow the existing proposals to be funded, and to provide 
resources for new applicants to receive the awards.
    Again, I appreciate the opportunity to be here and to 
provide this testimony. I would be glad to answer any 
questions.
    [The prepared statement of R. Vic Morgan follows:]

[Pages 1579 - 1585--The official Committee record contains additional material here.]


    Mr. Bonilla. Dr. Morgan, I appreciate your being here 
today. As you know, I have been on this subcommittee a champion 
of TRIO and HSIs. I am proud to say that since I have arrived 
here in Washington, we have for the first time in history been 
able to actually put a line item for funding for HSIs. And we 
are going to keep doing that.
    Budget times are tough, but I am here to tell you that we 
are going to do all we can to try to bump that number up a 
little bit. I do not know if we can get to the ones you are 
proposing, but rest assured we are going to give it every 
effort.
    Mr. Morgan. Well, we appreciate that. We know that it is a 
sound investment in the future and the economy of the country.
    Mr. Bonilla. Say hello to everyone in Alpine for me, would 
you?
    Mr. Morgan. We certainly shall.
    Mr. Bonilla. Thank you, Dr. Morgan.
    Mr. Morgan. Thank you.
    Mr. Bonilla. At this time the subcommittee will stand in 
recess. As I mentioned at the beginning, we have a debate on a 
bill next door that is going to hopefully help all the folks 
that are living in the upper Midwest with their flood problems 
and the emergency funds that they need. There are votes being 
held right now and amendments being debated, and I must go to 
the next room.
    So I will return, or another member will return, as quickly 
as possible. The committee stands in recess.
    [Recess.]
    Mr. Dickey [assuming chair]. The committee will come to 
order.
    I have been next door in a markup, if that has been 
explained to you. I will probably be pulled out of here, if we 
last that long.
                              ----------                              

                                          Thursday, April 24, 1997.

                                WITNESS

 PETER R.W. BELLERMANN, NATIONAL NEUROFIBROMATOSIS FOUNDATION, INC.

    Mr. Dickey. We have a plane connection that we want to 
make, it looks like, is it Mr. Bellermann, President of the 
National Neurofibromatosis Foundation. You have five minutes.
    Mr. Bellermann. Mr. Chairman, thank you for this courtesy. 
I might just make that plane.
    Thank you for the opportunity to report on 
neurofibromatosis, and the fight that has been waged against 
this often devastating disorder. Although familiar to you, Mr. 
Chairman, and to the members of this committee, given your past 
support, NF is still largely unfamiliar to most people in this 
country and elsewhere in the world. Yet NF is the most common 
neurological disorder caused by a single gene. It is more 
prevalent than hereditary muscular dystrophy, cystic fibrosis 
and Huntington's disease combined.
    It causes tumors to grow on the nerves anywhere on or in 
the body, and unlike most disorders, NF is characterized by a 
broad spectrum of manifestations, including disfigurement, 
blindness, deafness, loss of limbs, brain and spinal tumors, 
bone lesions, malignancies and skin tumors.
    It also leads to developmental delays and significantly to 
learning disabilities which are five times more common in NF 
than they are in the general population.
    Quite unlike most genetic problems, NF does not 
discriminate along demographic lines. It affects both sexes,all 
races and ethnic groups equally. This fact, plus the reality that 50 
percent of people with NF have no family history and represent what are 
called spontaneous mutations, means that the entire population is at 
risk for NF. Anyone's next child or grandchild could be born with 
neurofibromatosis, and that is something that can be said about very 
few genetic diseases.
    The history of NF is astonishingly brief, given its 
prevalence. Again, in 1984, the National Neurofibromatosis 
Foundation began the first research program on NF in the world. 
Now, 13 years may be almost an eternity in politics, in your 
field, but in medical science, it is a very brief period.
    Mr. Dickey. Two years is an eternity. [Laughter.]
    Mr. Bellermann. Well, in medicine it is a very brief 
moment.
    During these very short 13 years, we have made considerable 
progress in our efforts to bring this problem under control. 
What is more, this progress has been achieved with a fraction 
of the public and private resources that are available to 
combat other disorders, many of which with far lower frequency. 
To use the vernacular, NF research has been a ``good bang for 
the buck'' to all who invested in it.
    We have found the genes for the two forms of NF. We have 
identified the proteins which the two genes encode and learned 
a great deal about their functioning, both in their normal and 
abnormal state, in the mutated state. We have developed working 
animal models. By consensus, the leading scientists have 
developed a coherent strategy for moving aggressively into the 
translational phase of the research, i.e., for using the 
knowledge gained on the molecular level to develop rational, 
effective treatments.
    As significant as all this may be to us in the field, why 
should it be important to this committee, Mr. Chairman, or for 
that matter, to people elsewhere not directly affected by NF? 
Allow me to suggest three reasons.
    NF is a success story in health care, achieved over a very 
short period of time, with very modest resources. Number two, 
NF research has been pointed out as a model for both ``managing 
science.'' It represents an effective partnership between 
public agencies, most notably the U.S. Congress and the 
National Institutes of Health, private organizations such as 
the Howard Hughes Medical Institute and the National NF 
Foundation. Very importantly, the scientists and clinical 
researchers in the field who have achieved their progress by an 
unusual degree of collaboration.
    Thirdly, NF has significant potential for other very large 
patient populations. Since the NF genes are implicated in the 
signalling process that determines cell growth and cell 
differentiation, NF research has great promise for the up to 60 
million Americans who are affected by cancer.
    NF also causes learning disabilities at about five to six 
times the frequency found in the general population. Our work 
on that aspect has considerable potential to affect another 30 
million Americans.
    Mr. Dickey. You have 30 seconds.
    Mr. Bellermann. Mr. Chairman, we have had some successes in 
this field, but we need to drive the story home. Therefore, we 
respectfully request that you continue your support for this 
research and urge the NIH to continue to make it a high 
priority with commensurate increase in funding.
    But the NIH also needs muscle. Therefore, we also line up 
with the many other health care organizations in recommending 
that their overall increase in funding be ratcheted up to 9 
percent.
    Thank you very much.
    [The prepared statement of Peter Bellerman follows:]

[Pages 1589 - 1594--The official Committee record contains additional material here.]


    Mr. Dickey. Thank you, and good luck on your plane 
connection.
    Mr. Bellermann. Thank you.

                              ----------                              

                                          Thursday, April 24, 1997.

                                WITNESS

BOBBY C. SIMPSON, COUNCIL OF STATE ADMINISTRATORS OF VOCATIONAL 
    REHABILITATION

    Mr. Dickey. I would like to call also out of order Mr. 
Bobby Simpson.
    While he is coming up here, I want you all to know this is 
one of the fine citizens of our country and our State.
    Bobby Simpson is the Director of the Arkansas General 
Council of State Administrators of Vocational Rehabilitation 
Agencies, and is a man that this committee can listen to and 
believe.
    Welcome, Bobby.
    Mr. Simpson. Thank you, sir. Mr. Dickey, and other members 
of the committee, who I know would be here if they could, I 
really appreciate that wonderful introduction. And I might add, 
this is my Congressman from the great State of Arkansas, and a 
man who I have been really proud to be associated with and work 
with over the last several years.
    And I think a person who understands very much the issue 
that I want to bring to the table. I will do my best to stick 
within the five minutes. I will count on you holding me to 
that.
    I am really here speaking on behalf of the Council of State 
Administrators of Vocational Rehabilitation. That is, my 
counterparts in the 50 States and the District of Columbia and 
the territories, who run State vocational rehabilitation 
agencies, whose primary, virtually sole purpose is to assist 
people with disabilities to prepare for and enter the worldof 
work. Our whole job, as a rehabilitation agency, in essence is to 
assist people with disabilities to become tax payers as opposed to tax 
users. We are providing a wide range of services to enable people with 
disabilities to do that.
    We are a very important State-Federal partnership, our 
program is. The Federal Government provides about 88 percent of 
our money to operate public vocational rehabilitation programs. 
That is matched with a requirement of at least 22 percent from 
the States in terms of State funds. All of our States around 
the Nation readily match that money, because they see the value 
and the benefit that is derived from people with disabilities 
preparing for and entering the world of work.
    We can provide virtually any service through a lot of 
cooperative agreements with the private sector. We are doing 
business with all kinds of public and private sector entities 
in rehabilitation in order to promote and provide virtually any 
service an individual needs that will enable them to get into 
the world of work.
    However, we are in a situation where the resources simply 
are not there to meet the needs. Right now, well, for example, 
the President's budget, the Administration's budget, recommends 
$2,246,000,000 for the entire Nation for public vocational 
rehabilitation and State grants programs. This is a very 
minimal increase that has been recommended, but it is going to 
allow for no growth of this particular program, and it is going 
to really stymie us in terms of assisting additional folks with 
disabilities to prepare for and enter the world of work.
    Right now, we are only able to serve 1 out of every 20 
persons with a disability who is eligible for our program, who 
could go to work if we had the resources to serve them. We are 
forced to turn them away, 19 out of 20, essentially. That 
leaves us working with only the most severely disabled 
individuals. We are assisting them in an effective fashion to 
enter the world of work.
    What we want to come before you and request is a budget 
request of $2,500,000,000, for vocational rehabilitation State 
grants in 1998.
    Mr. Dickey. Bobby, how much of a percentage increase is 
that, do you know?
    Mr. Simpson. That is probably around, somewhere around a 7 
or 8 percent increase. I will get you the absolute specifics on 
that, sir, as to exactly how much that is.
    Mr. Dickey. Okay.
    Mr. Simpson. What that will enable us to do is serve 
another at least 150,000 individuals with disabilities, who 
could prepare for and then enter the world of work. We have got 
some good, strong justification for that, too. I have mentioned 
we only serve 1 out of every 20. There are 43 million Americans 
with disabilities in this country. The unemployment rate is 
about 66 percent, and most people with disabilities want to 
work.
    Our program is really, it is not a human service program, 
it is an investment in human potential. It is an economic 
development program. In my mind, it definitely is a deficit 
reduction program.
    For example, I have got the statistics, Congressman, for 
your district, and I want to share those with you at another 
time. For the Nation itself, in fiscal year 1996, 213,500 
people with severe disabilities and other types of disabilities 
were placed in employment through our vocational rehabilitation 
program in this country.
    In that one year alone, those 214,000 individuals earned a 
total of $2.3 billion in their first year of employment. Now, 
that is a productive, beneficial program. The Federal tax 
dollars generated by those individuals alone in that first year 
of employment was some $325 million in Federal taxes. Those 
same individuals paid $350 million in Social Security taxes 
their first year in employment. They paid $100 million in State 
income taxes. That is in the first year of going to work. Our 
program has proven to be a huge success, and over time, the 
cost of the rehabilitation program has paid back over and over 
and over again.
    I can certainly attest to you, from my own perspective, 
after my injury, I had no opportunity, I did not think. There 
was no potential for me to enter the world of work. The public 
vocational rehabilitation program gave me new life, new 
opportunity. I have paid back in terms of taxes over and over 
again the cost of my rehabilitation program. It is happening, 
many and many times over, similar to that, on a daily basis in 
our rehabilitation agencies throughout the country.
    I believe in this program, sir. If I did not, I would not 
be here today. I was scheduled to have hip surgery today. I put 
that off until tomorrow so I could be here and speak on behalf 
of the public vocational rehabilitation program. We need your 
support. With the resources, sir, I think you will see us 
assisting in reducing the deficit and be a strong economic 
development program for this country and put people with 
disabilities into the work force where they belong, as tax 
payers as opposed to tax users.
    I appreciate the time.
    [The prepared statement of Bobby Simpson follows:]

[Pages 1598 - 1604--The official Committee record contains additional material here.]


    Mr. Dickey. Now, what am I going to do about that extra 
minute I gave you? Will you pick the one I have to take it out 
of?
    Mr. Simpson. No, sir, I sure would not do that. [Laughter.]
    What I have said in the past is that, I have an obvious 
physical disability. I kind of have a secondary disability in 
that I have this southern accent, and a lot of people----
    Mr. Dickey. So it takes longer. I got you. [Laughter.]
    Thank you, Bobby. Thank you very much, and congratulations 
on your life, too.
                              ----------                              

                                          Thursday, April 24, 1997.

                               WITNESSES

ALAN R. HULL, M.D., NATIONAL KIDNEY FOUNDATION
THORNTON LAMPKINS

    Mr. Dickey. Dr. Alan Hull, NKF's immediate past president 
and President of Renal Management, Inc., representing the 
National Kidney Foundation, and someone else who has some plane 
reservation difficulties. We are going to get to you, Laurie 
Flynn, wherever you are.
    You have got five minutes--no, you have got four minutes. 
[Laughter.]
    Dr. Hull. That is all right, thank you, Congressman.
    I grew up, was born in the Red River Valley, so what you 
are doing next door is very important to me.
    Mr. Dickey. Then you have six minutes. [Laughter.]
    Dr. Hull. You hear from people like myself all the time, 
and I am the immediate past president, as you said. I brought 
with me Thornton Lampkins, who is a patient. He has been on 
dialysis for 12 years, and I thought he would go first, and 
then I will sweep up in that four minutes.
    Mr. Dickey. Mr. Lampkins, welcome.
    Mr. Lampkins. Thank you for listening to me.
    My name is Thornton Lampkins. I am 53 years old, and I have 
been on dialysis for 12 years, hemodialysis for 12 years. I 
just want to say that if we, people who like the quarter 
million of us who are on hemodialysis, have to get up every day 
and spend something like six to eight hours of our day just to 
live.
    We do well on dialysis if we can get a lot of help from the 
resources that are necessary. We feel sometimes that we are 
written off, because here lately, so many cutbacks that we do 
not get as much as we used to get on dialysis. So life span on 
dialysis seems to be a lot shorter than it used to be in this 
country.
    That is pretty much what I wanted to say.
    Mr. Dickey. You have a few minutes.
    Dr. Hull. I will be very short. The National Kidney 
Foundation represents thousands of health care professionals, 
patients like Mr. Lampkins, and a concerned public involved in 
51 affiliates throughout the country.
    Now, we really appreciate the support that Congress has 
given to the NIH. I do have a little concern, Congressman, that 
the National Institute of Diabetes, Digestive Diseases and 
Kidney, from where half our research money comes from, is 
scheduled to be one of the lowest three of the institutes. In 
the last 10 years, we have increased only 60 percent, whereas 
the NIH has gone over 80 percent.
    So that trend worries me. I just put that before you.
    Currently there are a number of studies going on in the two 
institutes we work with, the National Institute of Allergy and 
Infectious Diseases, we are looking at rejection for transplant 
patients, both in adults and in pediatrics. Very important 
studies, and the money you have supplied is doing that.
    There are two studies going on in NIDDK. One is the 
African-American study on the kidney. Mr. Lampkins' basic 
problem was hypertension. This study will, I think, give us 
some real important answers.
    In addition, we have a study on hemodialysis ongoing. It is 
overdue. It will, I think, give information that may decrease 
the amount of money that is being spent, if we get to treat the 
patients earlier.
    Then the money you have given to, again, the same institute 
for the registry, the United States Renal Data registry, very, 
very important.
    Now, in the future there is three areas that we think need 
attention paid to. One is the patients, before they get on 
dialysis, there is 250,000 on dialysis, there is 50,000 with a 
transplant, there is probably 2 million people, including many 
diabetics, who you will hear from later, who will go on to end 
stage kidney disease. We are concerned about the future of 
transplant, the donors. There is not enough donors. The money 
for xenotransplants seems thus to be very important.
    I will sum up with those things, Congressman. Hopefully we 
are in the time frame. Remember what Mr. Lampkins said.
    Thank you, Mr. Chairman.
    [The prepared statement of Alan Hull, M.D., follows:]

[Pages 1607 - 1620--The official Committee record contains additional material here.]


    Mr. Dickey. I will. Thank you, gentlemen.

                              ----------                              

                                          Thursday, April 24, 1997.

                                WITNESS

LAURIE M. FLYNN, GENOME ACTION COALITION

    Mr. Dickey. Laurie Flynn, Executive Director, National 
Alliance for the Mentally Ill, representing the Genome Action 
Coalition. You have five minutes, Laurie, and welcome.
    Ms. Flynn. Thank you very much.
    Thank you very much for the opportunity to testify this 
morning. I am Laurie Flynn, Executive Director of the National 
Alliance for the Mentally Ill, which has a membership of more 
than 140,000 people.
    I am proud today to be testifying on behalf of the Genome 
Action Coalition. Research into genetics is critically 
important across many disorders. As the mother of a young woman 
with a serious mental illness, it is important personally to me 
and my family. My family has lost two relatives in the last 
decade to suicide, and so this is an area of particular 
personal interest.
    The Genome Action Coalition is comprised of more than 100 
patient advocacy and professional groups, pharmaceutical and 
biotech companies and universities. We seek to create and to 
nurture an environment within which genomic and genetic 
research can continue to enjoy strong support, to advance our 
knowledge about human diseases, why they happen, and what we 
can do about them.
    In my written testimony, Mr. Chairman, which I have 
submitted for the record, I go into considerable depth on the 
background of the Human Genome Project, describing the science, 
and why it is important and how it relates to finding cures and 
treatment for devastating disease. Time does not permit me this 
morning to go into all of that, but there are a couple of key 
points I would like to make.
    First, the Human Genome Project is an infrastructure 
project. It is providing the pathways through which the other 
institutes, whether it is the National Institute of Mental 
Health, or the National Eye Institute, or the National Cancer 
Institute, will operate and increasingly are operating.
    Secondly, by identifying the molecular basis for diseases, 
the Humane Genome Project creates the opportunity to solve the 
mystery of why one person develops manic-depressive disorder 
and another does not, or why one person develops Alzheimer's 
disease and another does not.
    Thirdly, this is a ground breaking project involving the 
identification of more than 3 billion bits of information. It 
is currently running ahead of schedule and under budget. I do 
not know how many other Government projects can make that 
claim, but in this case, it is verifiable true.
    Mr. Chairman, with all the success this project has had to 
date and with the interim improvements in medical practice that 
it has created, there is another truth that needs to be stated. 
This work cannot be completed fast enough. Right now, as I sit 
here speaking with you, there are men, womenand children dying 
of genetic based diseases. Others are suffering terribly.
    This subcommittee has listened attentively over the last 
two weeks to representatives from many patient advocacy groups 
that are either, that are representing disorders that are 
either the direct or indirect result of genetic mutation. 
Meaning that genetic information in the cell has created a 
predisposition or directly causes a particular disease. This is 
certainly true for all major mental disorders.
    The suffering of a family in which the father is manic-
depressive is constant. The suffering of a small child with 
cystic fibrosis or primary immune deficiency is absolutely 
heart breaking. These are youngsters robbed of their childhoods 
by genes they did not choose.
    Similarly, for adults, the pain of schizophrenia and other 
severe mental illnesses, the certain death of Huntington's 
disease, the terror of breast cancer, these are all life 
destroying situations that we must address. Mr. Chairman, the 
102 members of the Genome Action Coalition are under no 
illusion that the Human Genome Project can solve these matters 
overnight. All of us have interest throughout the NIH, and we 
know that no one institute is going to solve these problems 
instantly.
    We also know that the Human Genome Project as administered 
in the NIH by the Human Genome Research Institute offers the 
greatest opportunity to prevent, treat and cure physical and 
mental illnesses that any of us has ever witnessed. When 
combined with the outstanding research being done throughout 
NIH, we can see that we are truly standing on the threshold of 
a new era of medical research and treatment.
    For this reason, the Genome Action Coalition is proud to 
support the recommendation of the Ad Hoc Group for Medical 
Research Funding, that the National Institutes of Health 
receive a 9 percent increase for 1998.
    Thank you very much, Mr. Chairman.
    [The prepared statement of Laurie Flynn follows:]

[Pages 1623 - 1630--The official Committee record contains additional material here.]


    Mr. Dickey. Let me ask you a question. Is suicide absolute 
evidence of mental illness?
    Ms. Flynn. That is a very difficult question. Suicide is 
not an absolute evidence of severe mental illness. Research, 
particularly in the last five years, has demonstrated that in 
almost all cases of suicide, there is an underlying depressive 
disorder, often that has gone unrecognized and untreated.
    Mr. Dickey. Thank you, ma'am.
    Ms. Flynn. Thank you very much, Mr. Chairman.

                              ----------                              

                                          Thursday, April 24, 1997.

                                WITNESS

MILDRED REYNOLDS, NATIONAL DEPRESSIVE AND MANIC-DEPRESSIVE ASSOCIATION

    Mr. Dickey. Mildred Reynolds, Volunteer, National 
Depressive and Manic-Depressive Association. How are you, 
Mildred. You have five minutes, and welcome.
    Ms. Reynolds. Good morning.
    I am Mildred Reynolds, both a clinical social worker who 
has worked for over 25 years with people who have mental 
illness, but I am also a consumer of these services and have 
been for over 35 years.
    I am one of those people who has benefitted greatly from 
medical research. I am here today on behalf of the National 
Depressive and Manic-Depressive Association. This is an 
organization dedicated to increasing the awareness of 
depressive illnesses, encourage those individuals who are 
affected by them and advocating for them.
    As a patient based organization, we are committed to 
educating patients, families, professionals and the public 
about the nature of depression and manic-depression as 
treatable illnesses. We try to promote self-help, we have 
groups all over the country that help to provide information 
and support to people who have the illness.
    Also, the National DMDA is an advocate for research. It is 
the only hope that people who have not yet found a satisfactory 
treatment have that they too can regain their health.
    Now rather than reiterating what is already in my written 
testimony, I would like to take a moment to share my personal 
experience. First, to express gratitude from the bottom of my 
heart for the medical research that has already been done, also 
to the Congressional leaders who saw the need to fund it.
    If it were not for that research, I would not be here 
today. In fact, I am not even sure I would be alive. Over 17 
million adults have a depressive illness each year. It also 
affects children and adolescents. No one is immune. Neither the 
rich, the famous or even the mental health professional. I 
know, because I am one.
    I experienced my first episode of major depression back in 
1960, when very little was known about depression. We did not 
have the medications that we have today. In fact, the only 
medication offered to me was a tranquilizer, which we now know 
is not effective for depression.
    Research has shown that it is a recurring illness, and it 
certainly recurred for me. I had another episode when I was on 
the faculty of the Department of Psychiatry in a medical school 
here in town. Despite my professional accomplishments, I felt 
inadequate, inferior and incompetent. Depression can wreak 
havoc with your self-esteem.
    Eventually, thanks to research, the anti-depressants became 
available. I then consulted a psychiatrist who was doing 
research part time at NIMH. He said to me, depression is a 
medical illness. What a relief that was. Because I had done so 
much psychotherapy and analysis and all of that, when that did 
not keep the depression from coming back, I thought I was just 
a weak person.
    That is why I am so pleased to wear this badge today, that 
says depression is a medical illness, not a weakness.
    The psychiatrist and I began to try an anti-depressant. It 
helped, but I still got depressed. I tried first one and then 
as a new one came out on the market, I tried it, we tried one 
then another. Until nine years later, we finally found one that 
worked well for me. You see, what works for one person does not 
necessarily work for another.
    As a matter of fact, when my picture appeared in Parade 
Magazine in an article on depression a couple of years ago, 
although my phone number was not published, I had calls from 
people all over the country, seeking, desperately seeking help.
    Mr. Dickey. You have 30 seconds.
    Ms. Reynolds. We need more research to find something that 
works for everyone.
    Therefore, on behalf of the Americans who suffer from 
depression and depend on this research, we strongly support a 
doubling of NIH appropriations over five years. This would 
require a 15 percent increase for fiscal year 1998.
    Thank you for this opportunity.
    [The prepared statement of Mildred Reynolds follows:]

[Pages 1633 - 1638--The official Committee record contains additional material here.]


    Mr. Dickey. Thank you, and thank you for sharing your 
personal experience.
                              ----------                              

                                          Thursday, April 24, 1997.

                                WITNESS

PHILIP E. CRYER, M.D., AMERICAN DIABETES ASSOCIATION

    Mr. Dickey. Dr. Phil Cryer, President of the American 
Diabetes Association.
    Dr. Cryer. Thank you, Mr. Dickey. I am Philip Cryer, 
President of the American Diabetes Association, and Director of 
the General Clinical Research Center at Washington University 
School of Medicine in St. Louis.
    Today, I represent the American Diabetes Association, which 
is a voluntary health agency committed to preventing and curing 
diabetes and improving the lives of all people affected by 
diabetes.
    As you well know, diabetes is an increasingly common, 
potentially devastating, extraordinarily expensive, treatable 
but incurable lifelong disease. An estimated 16 million 
Americans have diabetes. As many as 20 percent of those 65 
years of age or older may have diabetes, so it is 
extraordinarily common.
    Diabetes is the leading cause of blindness with its onset 
in working age adults. As has been mentioned earlier, the 
leading cause of kidney failure requiring dialysis and 
transplantation. The leading cause of amputations not due to 
injury.
    People with diabetes are two to four times a more likely to 
suffer a heart attack as the most common cause of premature 
death in people with diabetes, or a stroke. According to data 
from the Department of Health and Human Services, the direct 
costs of medical care for people with diabetes is about $90 
billion each year in our country. When one adds in the indirect 
costs, such as lost productivity, that figure rises to about 
$138 billion each year.
    It is the eye, kidney, heart, leg, heart and brain 
complications of diabetes that are responsible for most of the 
dollar costs as well as the human costs of diabetes.
    Diabetes is treatable and current treatments make a 
difference for people with diabetes. Nonetheless, current 
treatments are far from ideal. Diabetes cannot be prevented or 
cured. Diet and exercise are difficult for many people. Oral 
blood sugar lowering drugs often become ineffective and all 
insulin replacement regimens are grossly imperfect.
    Thus, there is a pressing need for research leading to 
better treatment, prevention and cure of diabetes.
    Given the high prevalence and extraordinarily high cost of 
diabetes, there is considerable evidence that diabetes research 
is underfunded in our country. For example, in dollars per 
afflicted individual, our National Institutes of Health spends 
4 times as much on heart disease research as on diabetes 
research, 14 times as much on cancer research as it does on 
diabetes research, and 50 times as much on AIDS-HIV research as 
it does on diabetes research.
    In dollars per $100 in direct costs of medical care of 
people with AIDS, cancer, heart disease, or diabetes, NIH 
spends $12 on AIDS research, $5 on cancer research, $2 on heart 
disease research, and 25 cents on diabetes research. The recent 
impressive progress in the treatment of AIDS illustrates the 
impact of well-funded biomedical research. In my view, we 
should not spend less on AIDS, heart disease or cancer. We 
should spend more on diabetes.
    There is evidence that support of diabetes research has 
lagged behind support of other research. For example, from 1987 
through 1994, NIH funding increased by 63 percent. But that of 
the National Institute of Diabetes and Digestive and Kidney 
Diseases increased by only 40 percent.
    Thus, the American Diabetes Association supports a 9 
percent increase in NIH funding, and a 12 percent increase in 
NIDDK funding to make up for past funding shortfalls. Only 
research will prevent and cure diabetes. Research has improved 
the lives of people affected by diabetes. It will continue to 
do so.
    What might be accomplished with increased support of 
diabetes research? Perfect insulin replacement would prevent 
the devastating and costly complications of diabetes and 
improve the lives of all people affected by diabetes 
dramatically. Perfect insulin replacement might be accomplished 
by the development of a continuous blood glucose sensor that 
could become then a component of a closed loop insulin 
replacement system. It could be accomplished by 
autotransplantation, transplantation of insulin secreting cells. It 
might be accomplished by implantation of cells engineered to produce 
glucose regulated insulin secretion, among other ideas.
    Alternatively, drugs that block the effects of----
    Mr. Dickey. You have got 30 seconds.
    Dr. Cryer [continuing]. Diabetes might come to clinical 
use.
    Fundamentally, however, we must acknowledge that we do not 
know precisely how diabetes will be prevented and cured, and 
therefore we must support a broad range of fundamental science, 
potentially relevant to the prevention and cure of diabetes.
    In summary, while there has been meaningful progress in the 
treatment of diabetes, diabetes remains an increasingly common, 
potentially devastating, extraordinarily expensive treatable 
but incurable lifelong disease. I think that there is reason to 
be optimistic about the impact of diabetes research, so that we 
can anticipate that diabetes will become over time less common, 
less devastating and less expensive and ultimately, there will 
be a world without diabetes.
    So thank you very much for your commitment to the millions 
of Americans with diabetes.
    [The prepared statement of Philip Cryer, M.D., follows:]

[Pages 1641 - 1654--The official Committee record contains additional material here.]


    Mr. Dickey. You are welcome, and thank you, Dr. Cryer.

                              ----------                              

                                          Thursday, April 24, 1997.

                                WITNESS

JOYCE W. RAEZER, NATIONAL MILITARY FAMILY ASSOCIATION

    Mr. Dickey. Next we have Joyce Raezer, Education 
Specialist, of the National Military Family Association. 
Welcome, and you have five minutes.
    Ms. Raezer. Thank you. Good morning.
    Mr. Dickey. Good morning.
    Ms. Raezer. Mr. Chairman, the National Military Family 
Association, NMFA, and the families we represent are grateful 
to this subcommittee for your strong advocacy of the Impact Aid 
program. We appreciate this opportunity to speak on behalf of 
military families and the military child. A military child 
moves every two to four years, adjusting to different school 
systems, while sometimes also adjusting to the military 
parent's deployment.
    My own daughter, Claudia, who is here with me today, 
attended four different elementary schools before she reached 
fifth grade. Since the drawdown overseas, military children 
will spend less of their school years in a Department of 
Defense School, and more in a statewide school, dependent on 
Impact Aid.
    Although the Federal Government has acknowledged its 
responsibility to provide Impact Aid, the program has not been 
fully funded since 1970. It costs roughly $6,000 a year to 
educate a child in the United States today. But the current 
average Impact Aid payment for an A child, the military child 
living on post, is $2,000. The average payment for a military 
child living off base, the B child, is $200.
    School districts do not view Impact Aid funds as nice to 
have extra cash, but as necessary funding, promised by law for 
basic education. Unlike many other Federal education programs, 
Impact Aid dollars go directly to school districts, with no 
strings attached. The local community, the people who have the 
greatest stake in the quality of education in their schools, 
decide how these funds will best serve the education needs of 
all students.
    At first glance, President Clinton's proposed $2.9 billion 
increase in his fiscal year 1998 education budget seems like 
welcome news to hard pressed school districts. Yet within this 
generous budget request is some bad news for districts which 
educate military children: a proposed 10 percent cut in Impact 
Aid. This $72 million reduction would drop Impact Aid funding 
to the amount appropriated about 15 years ago.
    Why, in a budget calling for six new education programs, is 
funding cut to a program that means so much to so many 
children? Why is the basic education of 500,000 military 
children and millions of their civilian classmates any less 
important than reading tutors, Goals 2000 or college 
incentives?
    Under the Administration's plan, school districts whose 
overwhelming majority of students live off base could be 
devastated. Some believe that communities receive adequate 
compensation for these children through real estate property 
taxes. Local property taxes, however, fund a declining share of 
a district's education expenses. States contribute more than 
ever to elementary and secondary education. Unless residing at 
their legal domicile, military members often do not pay other 
taxes used by State and local governments to support education.
    What makes this proposal to end funding for B students even 
more of a concern is that it is occurring at the same time the 
Department of Defense is beginning to privatize some military 
family housing. Children living in new housing built off base 
by private contractors on private land are classified as B 
students, even if, as is the case with the new Patriot Village 
housing area at Travis Air Force Base in California, which is 
illustrated in our written testimony at Attachment A, the land 
is inside the installation gates.
    Military families list education as one of their most 
important quality of life concerns. They see proposals to cut 
Impact Aid funding as a threat to their children's future. A 
California school superintendent recently told me that students 
whose parents are in the military service should be viewed as 
everybody's children, no matter the State or Congressional 
district in which they currently reside. Military members need 
to know that the Government and the citizens they have sworn to 
serve and protect will live up to their promise to provide a 
quality education for their children.
    Thank you.
    [The prepared statement of Joyce Wessel Raezer follows:]

[Pages 1657 - 1664--The official Committee record contains additional material here.]


    Mr. Dickey. You gave excellent testimony. Thank you.

                              ----------                              

                                          Thursday, April 24, 1997.

                                WITNESS

DAN LARSON, POLYCYSTIC KIDNEY RESEARCH FOUNDATION

    Mr. Dickey. Mr. Dan Larson, President and CEO of PKRF, 
representing the Polycystic Kidney Research Foundation. 
Welcome, and you have five minutes.
    Mr. Larson. Good morning, Mr. Dickey, thank you. I 
appreciate your sensitivity to our time frame.
    As referenced, my name is Dan Larson. I serve as the 
President and Chief Executive Officer of the Polycystic Kidney 
Research Foundation, the only organization worldwide solely 
devoted to programs of biomedical research and patient 
information for polycystic kidney disease.
    It is also my good fortune today, April 24, I am 
celebrating my 46th birthday. Although one might think this 
statement to be self-serving, I assure you it is not. I use 
this personal reference because though for me, birthdays are a 
cheerful experience, for countless Americans with polycystic 
kidney disease, commonly referred to as PKD, reaching such a 
milestone might well be a fearful occurrence. I am blessed with 
good health, I look forward to each new year, and I do not at 
all mind turning 46.
    However, for 600,000 Americans and 12.5 million people 
worldwide who are afflicted with polycystic kidney disease, age 
46 is the usual time when severe and life threatening symptoms 
are occurring. Commonly, PKD causes patients at this age to 
experience high blood pressure, chronic fatigue and 
debilitating flank pain, recurrent urinary and kidney 
infections, enlarged heart and weakened valves, inguinal and 
abdominal hernias, diverticuli of the colon, pancreatic and 
hepatic cysts, life threatening brain aneurysms and ultimately, 
total loss of kidney function. PKD definitely has some very 
sharp edges.
    If I had PKD, by age 46, the picture on the front of this 
report you have in front of you would likely be what my insides 
would look like. Each of my kidneys, which normally would be 
the size of my fist, pictured on the right, would easily be the 
size of a football or larger, and weigh as much as 38 pounds 
each, like the one on the left. If I had PKD, my kidneys would 
likely be shutting down by now, and by age 50, I would probably 
experience end stage renal disease, commonly called kidney 
failure.
    According to the National Institute of Diabetes, Digest and 
Kidney Diseases, NIDDK, PKD accounts for approximately 10 
percent of end stage renal disease in the United States, making 
it the third leading cause of kidney failure in America. Were I 
one of the 600,000 PKD patients in the United States, I would 
have the dubious distinction of having the most prevalent life 
threatening genetic disease. Though not well know, PKD affects 
more individuals than the combined number of those with cystic 
fibrosis, hemophilia, sickle cell anemia, muscular dystrophy 
and Downs syndrome. PKD is 2 times more common than multiple 
sclerosis, and 20 times more common than Huntington's disease. 
And there is no treatment or cure.
    PKD is not selective. It strikes children at birth, which 
is usually fatal, as well as adults in the prime of life. PKD 
is a dominantly inherited disease, equally affecting men and 
women, regardless of age, race or ethnic origin. It does not 
skip a generation. If I were a PKD patient, my children would 
have a 50 percent chance of inheriting it. In most cases, PKD 
produces kidney failure requiring dialysis or a kidney 
transplant to survive.
    Although it is true that these therapies are life saving, 
they certainly are not curative, and many patients receiving 
these treatments suffer from the resultant life threatening 
complications.
    Since the Federal Government picks up most of the cost of 
dialysis and kidney transplantation, it is clear that an 
effective treatment for PKD, not to mention a cure, would yield 
more than a billion dollars annually in savings for the 
taxpayer.
    Due to numerous recent major research breakthroughs, 
including the discovery of the two principal PKD genes and 
their protein products, polycystin 1 and 2, scientific momentum 
is clearly evident and provides the basis for greatly expanding 
PKD research. In fact, in recent years, this committee, as well 
as the Senate Appropriations Committee, have singled out PKD 
research progress in your reports, asking NIDDK to commit 
substantially more effort and resources into PKD research. The 
time is now for this fertile area of investigation to catch up.
    Extraordinary scientific progress in PKD research is 
increasingly and widely hailed as noteworthy within the 
scientific community. In recent statements before this 
subcommittee, NIH Director Harold Varmus and NIDDK Director 
Phil Gorden have singled out advances in PKD research as 
gratifying examples of significant progress in understanding 
major genetic diseases.
    Additionally, Humane Genome Project Director Frances 
Collins recently stated that though we know more about cystic 
fibrosis than we do about PKD, I believe PKD research is likely 
to catch up fairly soon. With all this excitement about PKD 
research, it would certainly not be amiss for this committee to 
support a step increase of 50 percent in the overall PKD 
research allocation at NIDDK. This would greatly increase the 
likelihood of discovering a treatment or cure for polycystic 
kidney disease.
    This would be an excellent investment in future savings of 
countless lives, and tens of billions of dollars to the Federal 
Government. I urge the committee to take advantage of this 
extraordinary opportunity for intervention by funding this 
effort accordingly.
    I thank you for the committee's past support in winning the 
war on PKD, and thank you for the chance you've given me today 
here to tell about our mission.
    I would be glad to answer any questions you may have.
    [The prepared statement of Dan Larson follows:]

[Pages 1667 - 1677--The official Committee record contains additional material here.]


    Mr. Dickey. Thank you, sir. We have no questions. Thank you 
very much.
    Mr. Larson. Thank you, and have a good day.
    Mr. Dickey. Good luck to you. Thank you.
    Mr. Larson. My regards to Mr. Porter. I hope he gets better 
very soon.
    Mr. Dickey. I do, too.
    We are going to stand in recess for a few minutes.
    [Recess.]
    Mr. Dickey. I would like to announce to you all that we all 
have another Arkansas resident, Laura Lawson has just been 
selected Reading Is Fundamental National Contest winner. Can 
you all give her a round of applause? Stand up, Laura. 
[Applause.]
    You visited with the First Lady and what TV program did you 
appear on? All right, we are glad to have you.

                              ----------                              

                                          Thursday, April 24, 1997.

                                WITNESS

BLANCHE WINE, NATIONAL PSORIASIS FOUNDATION

    Mr. Dickey. We will start back with Blanche Wine, Board 
Member of the National Psoriasis Foundation. How are you doing.
    Ms. Wine. Good morning.
    Mr. Dickey. Good morning. Welcome, and you have five 
minutes.
    Ms. Wine. Thank you very much.
    Mr. Chairman, my name is Blanche Wine. I am a volunteer 
advocate for the National Psoriasis Foundation, for my daughter 
and the 6.5 million American children and adults who are 
battling psoriasis, a genetic, chronic, debilitating skin 
disease. To date, these millions of psoriasis victims face a 
lifetime combatting this disease unless a cure or more 
effective treatments are found.
    As a parent of a child suffering from psoriasis, and as a 
member of the National Psoriasis Foundation, I can offer you an 
intimate view of the effects of living with psoriasis. My 
daughter, throughout her elementary school years, was prevented 
from visiting or playing with many other children, banished 
from swimming pools, humiliated by stares and comments. Because 
the majority of the population believed she had a disgustingly 
contagious disease. Psoriasis is not contagious.
    She has spent thousands of dollars on various and most 
often ineffective treatments. Other psoriatics have endured 
frequent hospitalization, inadequate medical attention, loss of 
jobs, inability to pay for adequate care, and painful 
disability as a result of psoriatic arthritis. Not to mention 
the severe emotional scarring suffered by many.
    The facts about psoriasis and its victims are: it is a 
chronic and often unrelenting condition. There is no cure. 
Treatments are generally ineffective for any length of time. 
Psoriasis victims spend between $1.6 billion to $3.2 billion 
annually on their disease. Approximately 2.4 million visits to 
dermatologists each year are made by psoriatics. Each year an 
estimated, now, this is annually, 400 people are granted 
disability by the Social Security Administration because of 
their psoriasis.
    Between 150,000 and 260,000 new cases are diagnosed 
annually.
    Mr. Dickey. Let me interrupt you a second. How is psoriasis 
treated?
    Ms. Wine. There are various treatments. There are numerous 
cortisone creams, there are light treatments, there is UVBA, 
and PUVA, which is--excuse me, I got it mixed up.
    Mr. Dickey. You think I am going to know the difference? 
[Laughter.]
    Ms. Wine. I do not want to be misunderstood by anyone else.
    Mr. Dickey. You are right.
    Ms. Wine. Sunlight is actually one of the best treatments. 
There are many forms.
    Mr. Dickey. So there is no cure? Once you have it, you are 
with it?
    Ms. Wine. You are with it.
    Mr. Dickey. Okay.
    Ms. Wine. You may go into a remission for a short period of 
time, but it generally comes back.
    Mr. Dickey. Please proceed.
    Ms. Wine. There is a great deal of hope, however, at this 
point, in the very near future, through the excellent research 
and efforts of NIH and NIAMS, have shown us that effective 
treatment and a cure for psoriasis is within our research. The 
technology is now poised for these advances.
    It requires a constant source of funding. We urge you to 
approve an increase of 9 percent, which amounts to $280 million 
for NIAMS for the fiscal year 1998.
    In closing, I would like to thank you and the other 
committee members, when they read our paper, on behalf of the 
National Psoriasis Foundation, my daughter, who is now 22, and 
the 6.5 million American children, men and women, who are 
victims of psoriasis.
    I would like to thank you, and if you have any questions, I 
would be glad to answer them.
    [The prepared statement of Blanche Wine follows:]

[Pages 1680 - 1685--The official Committee record contains additional material here.]


    Mr. Dickey. We do not have any questions. Thank you very 
much for your time and your excellent testimony.
    We will stand in recess for just a few minutes.
    [Recess.]
                              ----------                              

                                          Thursday, April 24, 1997.

                                WITNESS

 MARY LOUISE SCHWEIKERT, NATIONAL SENIOR SERVICE CORPS DIRECTORS 
    ASSOCIATIONS

    Mr. Dickey. Next, we have Mary Louise Schweikert, President 
of the National Association of Foster Grandparents, 
representing the National Senior Service Corps Directors 
Association.
    Welcome, and you have five minutes.
    Ms. Schweikert. Thank you, and good morning.
    I am very pleased to be here to testify in support of the 
President's budget request for the three programs of the 
National Senior Service Corps, the Foster Grandparent Program, 
the Senior Companion Program, and the Retired and Senior 
Volunteer Program, or RSVP, which are authorized by the 
Domestic Volunteer Service Act and administered by the 
Corporation for National Service.
    I might add, it is a particularly propitious time for me to 
be here today to testify on behalf of senior volunteers just 
three days before the beginning of the National Summit on 
Volunteerism in my home State of Pennsylvania, in Philadelphia.
    I have been the director of a foster grandparent program in 
central Pennsylvania for 14 years. I am here in my capacity as 
President of the National Association of FGP Directors, and I 
also represent the National Association of the Senior Companion 
and RSVP Directors. Our programs have existed for entire 
generations, since the Foster Grandparent program began in 1965 
as the first federally funded program to engage older Americans 
as volunteers in service to others.
    My written testimony contains empirical data on the impact 
our programs are having on communities nationwide, and also 
lots of details about the types of services our volunteers give 
every day. Low income foster grandparents who work with 
children who are at risk, and teenagers who are in trouble, 
RSVP volunteers who help local agencies meet lots of pressing 
needs in a variety of different ways, and low income senior 
companions who help keep chronically ill older people out of 
institutions by providing in-home long term care services.
    As a matter of fact, Mr. Dickey, you might be interested to 
know that there is a 79 year old gentleman who has been blinded 
by diabetes, unfortunately, who lives independently at home in 
Garland County.
    Mr. Dickey. I work for him. What is his name?
    Ms. Schweikert. His first name is Gordon; I do not know his 
last name. His senior companion's name is Les Ashley. I do not 
know if you know him or not.
    Les goes to see Gordon every day, for four hours a day, 
gets him out of his apartment to exercise, to shop, to go to 
medical appointments and to run errands. Gordon's family says 
that without Les, he would be completely home bound, or even 
worse, he would be in an institution. It costs about $30,000 a 
year to fund a person in an institution.
    Les is saving Garland County a lot of money.
    We Senior Service Corps Directors like to say that we spend 
every dollar that is invested in our programs twice, once on 
the older volunteer and once on those who are served by the 
volunteer. To really illustrate this for you, I would like to 
tell you about just one of my volunteers.
    Ann Creevy came to us several years ago at the age of 65, a 
new widow, lonely and very depressed. According to her 
daughter, remember this is a daughter speaking, I know how this 
is with my mother, according to her daughter, Ann spent her 
days either crying in her room or in general making life 
miserable for everybody around her. She was very depressed and 
sad.
    Ann's first assignment as a foster grandparent was Ryan, a 
withdrawn five year old diagnosed with severe mental 
disabilities. It was Ann who first noticed the cigarette burns 
on Ryan's arms. It was to Ann that Ryan confided the terror and 
abuse he faced at home at the hands of his own parents.
    After Ryan entered foster care, it was Ann, again, who 
discovered that Ryan's learning problems were not caused by a 
mental handicap, but by a severe hearing loss, the result of 
being hit on the side of his head with a baseball bat early in 
his life.
    With Ann's help, Ryan flourished in a regular classroom and 
was soon adopted. Today, I am happy to report he is a happy, 
well-adjusted 13-year-old who gets good grades in school, plays 
on the local soccer team, and every once in a while, still 
calls his Grandma Ann.
    Ann, on the other hand, has her own apartment now, and 
volunteers with troubled teenage boys. In 1995, she was 
selected as one of four national winners of the Centrum Silver 
Legacy Award given biannually to four older volunteers for 
their significant contribution to their communities.
    Everyone knows that without Ann, Ryan would be either 
trapped in the special education system or dead, a victim of 
his parents' abuse. Ann's convinced that without FGP, she too 
would be dead, either emotionally or physically, a victim of 
depression and inactivity. Foster Grandparents brought these 
two together and Foster Grandparents changed both their lives 
for the better, forever.
    Every year, 500,000 Senior Service Corps volunteers just 
like Ann Creevy give over 119 million hours of service, valued 
at over $1.5 billion. This is a twelve-fold return on the 
Federal investment of $128 million.
    Mr. Dickey. You are going to have to wrap it up.
    Ms. Schweikert. I would like to ask you to fund the 
President's request for a total of $176.5 million and in our 
written testimony is laid out the priorities that we have for 
funding our programs. I hope that you will refer to that.
    Thank you very much.
    [The prepared statement of Ann Schweikert follows:]

[Pages 1688 - 1694--The official Committee record contains additional material here.]


    Mr. Dickey. Thank you, Ms. Schweikert.

                              ----------                              

                                          Thursday, April 24, 1997.

                                WITNESS

RICHARD STERLING, NATIONAL WRITING PROJECT

    Mr. Dickey. Richard Sterling, Executive Director of the 
National Writing Project.
    Did you know about that contest that I just talked about?
    Mr. Sterling. I sure did.
    Mr. Dickey. She is from Star City, Arkansas.
    You have five minutes. Welcome.
    Mr. Sterling. Good morning. Thank you very much for this 
opportunity to present testimony on behalf of the National 
Writing Project.
    Today, in the United States, we have serious problems with 
both reading and writing. I am here today to talk about the 
problems associated with poor writing, which are to be found in 
many places.
    In a 1994 study of 1,000 U.S. organizations, 54 percent of 
those surveyed provided training for employees in writing 
skills. Seventy-five percent of unemployed adults have 
difficulty reading and writing. Eighty percent of the Nation's 
incarcerated adults are functionally illiterate.
    The reasons for these problems are many and complex. 
However, they have surfaced as the demands for clear writing 
and thinking have increased. Since World War II, the 
educational needs and demands of the Nation have been rising 
steadily. With each decade the demands for higher and higher 
literacy skills have risen, while the number of blue collar 
jobs that do not require these skills has been shrinking.
    It is estimated that by the year 2000, only 10 percent of 
blue collar jobs will survive. Meanwhile, writing is a skill 
which is in demand more than ever, particularly in relationship 
to the new technologies. Rather than reducing the need for 
literacy skills, new technology requires more sophisticated 
writing and reading abilities. Writing within technology, and 
the literacy demands of it, are an important part of the 
National Writing Project. We believe support for the 
improvement of writing must remain at the center of the 
literacy agenda in the United States.
    The National Writing Project is the Nation's only 
professional development program focusing on improving the 
teaching of writing in the Nation's schools. This program is 
one of the most cost-effective and efficient education programs 
in the country. I might also say, the smallest.
    During its five years of Federal funding, the National 
Writing Project has served approximately 650,000 teachers at an 
average annual Federal cost of $22. In academic year 1995----
    Mr. Dickey. Sorry, $22, average what?
    Mr. Sterling. Twenty-two dollars per teacher.
    Mr. Dickey. Per teacher, okay.
    Mr. Sterling. In academic year 1995-96, our programs 
reached almost 2.5 million students, at an annual Federal 
investment of just $1.31 per student.
    The National Writing Project is highly efficient in its 
operation. It is made up of a network of 158 local sites in 46 
States, one in Puerto Rico and some services to the Department 
of Defense schools. I should also say we have three sites in 
Arkansas, and in fact, one of them is starting new this year, 
at the University of Arkansas at Fayetteville.
    The National Writing Project works, and brings about change 
at the classroom level. Numerous evaluation studies have shown 
that student writing improves significantly in the classrooms 
of our teachers. Here are a couple of examples.
    In 1991, eight teachers trained by the Writing Project 
transferred into a Sacramento high school. Of the six high 
schools in the district, this one was the lowest in family 
income, the highest in minority enrollment and the lowest in 
performance on local and State assessments.
    In one year, student performance on the district-wide 
writing assessment rose from the lowest to the highest in the 
district, and college enrollment increased 400 percent from 
that graduating class.
    In Columbia, South Carolina, within the first year after 
teachers in one school received our services, student writing 
scores increased from the lowest to the highest in the county, 
a 60 percent gain. Students in 14 Chicago schools who received 
our services have shown significantly higher gains in the 
Illinois Goals Assessment Program when compared to gains city-
wide.
    What is the heart of our success? Well, the National 
Writing Project is a teachers teaching teachers model. Local 
writing project sites recruit the best teachers they can find. 
They attend our institutes and workshops, and then they return 
to their school districts and teach teachers in those 
districts. The National Writing Project develops teacher 
leadership across the Nation.
    William Bennett, former Secretary of Education, called this 
program an admirably efficient program, as well as a solid step 
towards increasing the effectiveness of our schools. The 
National Writing Project plays a crucial role in improving the 
teaching of writing. Yet, we would not survive without Federal 
support. While school districts and even some State governments 
are more than willing to pay for our services, in a direct way, 
they are unwilling to supply the funds to develop the National 
Writing Project infrastructure or teacher leadership.
    This infrastructure has allowed us to ensure rigorous 
training, control the quality of our work and build the 
dissemination of our program from site to site across the 
country. All projects are locally managed without any State 
bureaucracy. We have an administration of two people.
    I have only got a few seconds left, I will just then simply 
say, on behalf of teachers and students, I ask you to continue 
supporting with Federal funds for the National Writing Project 
in fiscal year 1998. Thank you.
    [The prepared statement of Richard Sterling follows:]

[Pages 1697 - 1705--The official Committee record contains additional material here.]


    Mr. Dickey. Keep up the good work.
    Mr. Sterling. Thank you very much.
    Mr. Dickey. I like those numbers, particularly if you can 
help us in Arkansas. [Laughter.]

                              ----------                              

                                          Thursday, April 24, 1997.

                                WITNESS

MARTIN AVERY, NAVAJO NATION

    Mr. Dickey. Martin Avery, Executive Director of the Navajo 
Nation, Washington Office, representing the Navajo Nation 
Washington Office. How are you doing.
    Mr. Avery. I am doing pretty good, sir.
    Thank you, Mr. Chairman. I am Martin Avery, the Executive 
Director for the Navajo Nation Washington Office. On behalf of 
the Navajo Nation and President Albert Hale, I thank you for 
this opportunity to present this testimony.
    Our written testimony outlines the Navajo Nation's specific 
requests for fiscal year 1998 appropriations. I would like to 
run some statistics by you. The Navajo Nation is the largest 
Indian Nation in America, and our reservation extends into the 
State of Arizona, New Mexico, and Utah, with an area of 17.5 
million acres, which makes us slightly larger than the State of 
West Virginia.
    The unemployment rate on the Navajo Nation averages 
anywhere between 38 to 50 percent, depending in the season. 
Over 56 percent of our people live below the poverty level.
    Per capita income is $4,106, which is less than one-third 
that of the surrounding States. Obviously, as you can see, we 
have some major problems. Enactment of welfare reform marks a 
significant reversal of the Federal Entitlement Policy that 
will greatly affect Indian nations in the coming years.
    The rationale that ending welfare assistance will force 
people to work ignores the limited economic development and 
resulting lack of employment opportunities on Indian 
reservations. America must acknowledge the grim reality on the 
Indian reservations that there are just very few jobs 
available.
    We have previously pointed out major barriers to economic 
development, most significantly, double taxation and lack of 
infrastructure and economic development centers that Congress 
must address before economic development opportunities can 
occur. Unless our needs are addressed in a coordinated and 
comprehensive manner, the employment outlook will remain bleak.
    The Federal Government must abandon its piecemeal approach 
to resolving existing conditions in Indian Country, which 
history has amply demonstrated simply does not work.
    Navajo tradition and custom teaches self-sufficiency and 
self-reliance. Accordingly, the Navajo Nation wants to take 
proactive steps first to eliminate unemployment and secondly, 
to train our people so that they can take advantage of 
employment opportunities. The time has come to take 
responsibility for our lives and create a program that 
realistically addresses this unemployment problem. In line with 
this view, President Albert Hale recently unveiled a new 
economic development plan and proposed the establishment of a 
Navajo business development council in an effort to develop 
economic development strategies, including easing regulatory 
burdens and enhancing development incentives.
    We must create more jobs, or we face disaster in five years 
when welfare assistance begins to run out for all Americans. 
While we may have the seeds, we also need water to help these 
ideals grow. Your water in the form of funding will help the 
Navajo Nation.
    For example, the Jobs Training Partnership Act program 
services are provided to the Navajo Nation in the States of 
Arizona, New Mexico and Utah. However, only Arizona and New 
Mexico have Navajo service delivery areas that serve the Navajo 
population exclusively. It is our goal to establish one service 
delivery area that will serve the whole Navajo Nation in order 
to properly address specific Navajo labor needs.
    There is plenty of precedent for this type of proposal. For 
example, the Navajo Nation has obtained treatment as a State 
under the Clean Water Act, Safe Drinking Water Act and other 
legislation. Another segment of the Navajo population sorely 
needing job training is the Navajo veterans. We must ensure 
these veterans are given job training in order to provide for 
their families' welfare in exchange for their service to their 
country.
    Education has always been a priority for the Navajo Nation. 
The majority of Navajo students attend public schools on our 
reservation. Their educational needs must be adequately funded 
in order to attain the national goal that all students receive 
the best education that can be achieved. Failure to provide 
essential educational services will only result in more people 
becoming dependent on welfare and continual reliance upon the 
Federal Government for services.
    One way to reach this goal is to fully fund the Impact Aid 
program, which provides the public schools they would not 
otherwise have available due to the tax-exempt status of 
military and Indian reservation lands. From my own personal 
perspective, I am very grateful to have had an opportunity to 
get an education. I grew up on the Navajo reservation on a dirt 
floor hogan. I remember doing my homework by light from a 
Coleman gas lantern, traveling almost an hour over mostly dirt 
roads to get to our school. Despite these hardships, my 
siblings and myself have done pretty well. I am a lawyer, my 
sister's a doctor, my brother runs a school for the 
developmentally disabled, and my other youngest brother is a 
detective in the local town.
    Indian students have the ability and desire to become 
productive and successful members of society. We just want that 
chance.
    So on behalf of the Navajo Nation, thank you, Mr. Chairman, 
and the members of the subcommittee for your leadership and 
support for Indian programs.
    [The prepared statement of Martin Avery follows:]

[Pages 1708 - 1713--The official Committee record contains additional material here.]


    Mr. Dickey. Thank you for your testimony and for yielding 
back some time.
                              ----------                              

                                          Thursday, April 24, 1997.

                                WITNESS

NOEL C. BUFE, NORTHWESTERN UNIVERSITY TRAFFIC INSTITUTE

    Mr. Dickey. Mr. Noel Bufe, of the Northwestern University 
Traffic Institute.
    Good afternoon.
    Mr. Bufe. Thank you, Congressman Dickey.
    Mr. Dickey. Welcome, and you have five minutes.
    Mr. Bufe. Thank you. I thank you for this opportunity to 
testify on the need for stronger Federal commitment to injury 
prevention and control efforts.
    Whether it be the result of automobile crashes, falls, 
sports, fires, or violence, injury takes a devastating toll on 
our society. We lose 150,000 people a year to injury.
    Injury in America is a major public health problem, and it 
is a problem that does remain with the victim or the victim's 
family or friends. The cost of injury in American is enormous. 
It comes out, of course, in Federal and State tax bills, 
insurance premiums that each of us pay. Multiplying the medical 
costs by the number of injured people in the U.S. annually, 
combine that total with the loss in productivity and family 
income that often results from such injuries, higher insurance 
premiums and incidental costs, you are looking at the bottom 
line that America pays that adds up to $224 billion annually.
    As far back as 1966, the National Academy of Sciences 
released a report documenting the magnitude of injury and the 
deficiencies and public awareness training, transport, 
communication, standards of care, hospital services and 
research. Nearly 20 years later, in 1985, the same academy 
published another report, Injury in America, which found that 
serious inadequacies still exist in the understanding and 
approach to injury as a public health problem, and that 
insufficient progress has been made in injury control since the 
earlier study.
    The report recommends the establishment of a new center for 
injury control in CDC. The rest, as they say, is history. 
Congress did authorize and provided funding for the 
establishment of what was to become the National Center for 
Injury Prevention and Control. Research on the basic mechanism 
of injury and the development of interventions to prevent 
injury became the cornerstone of the Injury Center's program.
    Surveillance, long the weakest link in developing and 
implementing effective interventions in a community, is the 
major link now in the injury control development and 
implementation of proven interventions. Information provided by 
surveillance activities tells us how big the injury problem is, 
where it is, who is affected, allows those who make decisions 
about these programs and research to allocate resources where 
they think they are the most needed and where they think they 
can do the most good.
    The Center's evaluation research is now providing answer to 
questions on the effectiveness of certain interventions, do 
they work, what would work in certain communities and not 
others, etc. Through its grant program and the technical, 
medical and scientific assistance it provides, CDC is able to 
help State and local health professionals and caregivers 
initiative program interventions that those populations are 
most at risk about.
    By identifying populations most at risk and developing 
interventions that work best within these populations, CDC is 
not only helping to empower community caregivers in their quest 
to make communities safe, but it is also allowing them to use 
scarce funds in the most effective manner.
    Funding for injury control, though it has increased since 
the inception of the Injury Control Center, has not kept pace 
with the need. More Americans age 1 through 44 are mortally 
injured than die from heart, infectious disease, cancer, or any 
other illness. Yet the funding for injury control on all fronts 
has limited America's capacity to develop its vision of a safe 
America into a national program.
    This is not to say that funding for these disease related 
injuries should be reduced, but injury is a major public health 
problem, and the funding must reflect that if we are to reduce 
the number of people who die or are seriously injured each 
year.
    The National Center for Injury Prevention and Control is 
all about getting injury prevention programs in every State, 
every community, and every home. To do that, more resources are 
needed. The science of injury prevention must be able to look 
ahead, if it is to keep pace with the problems faced by an 
ever-changing America, an America whose fastest growing 
population is a group over 65, and where injuries now rank with 
heart attacks, stroke and cancer as a major cause of death, 
where shrinking State budgets and competing priorities are 
overwhelming some State health systems, and threatening injury 
prevention efforts, and where as a result, the route to making 
injuries less common may end up being the road less traveled.
    Increased funding for the center is crucial if we are to 
grow the kinds of model programs for which it was established. 
I thank you for this opportunity and for any consideration that 
can be given to this important cause.
    [The prepared statement of Noel Bufe follows:]

[Pages 1716 - 1722--The official Committee record contains additional material here.]


    Mr. Dickey. Thank you, Mr. Bufe.

                              ----------                              

                                          Thursday, April 24, 1997.

                                WITNESS

REV. WILLIAM F. DAVIS, UNITED STATES CATHOLIC CONFERENCE OFFICE OF 
    GOVERNMENT LIAISON

    Mr. Dickey. Reverend William F. Davis, OSFS, United States 
Catholic Conference, Office of Government Liaison.
    Welcome, Father Davis, and you have five minutes.
    Reverend Davis. Thank you.
    I am Father William Davis, of the Department of Education 
of the United States Catholic Conference. I am here to urge you 
to provide $41.114 million to fund the Title I Capital Expense 
Provision of the Improving America's School Act, the same 
amount that was approved by Congress in its fiscal year 1997 
budget, and the amount proposed in President Clinton's fiscal 
year 1998 budget.
    These capital expense funds are needed as a matter of 
justice to restore Title I services to large numbers of 
eligible students enrolled in religiously oriented schools who 
have been deprived of them since the Supreme Court's Felton 
decision in 1985. These funds are also needed to improve the 
quality of services offered to those educationally 
disadvantaged students.
    In Title I, the Federal Government demonstrates its 
determination to help students overcome the disadvantages both 
of lower income and lower educational ability. Catholic schools 
have demonstrated a particular success with students in Title I 
programs. Catholic school Title I students are particularly 
concentrated in the lowest income communities.
    In 1985, the United States Supreme Court held in Aguilar v. 
Felton that public school Title I teachers could not enter the 
premises of religiously oriented schools in order to provide 
Title I services. Administrators quickly had to devise off-site 
methods of serving approximately 185,000 students. A major 
obstacle was the cost associated with the rent, purchase or 
maintenance of facilities and similar capital expenses.
    In about half of the cases, local educational agencies were 
able to continue Title I services to religious school students 
at nearby facilities in vans or mobile classrooms already 
available or provide it through special State or local 
appropriations. The other half of the students lost services, 
some for a few months, some longer, and some permanently.
    Congress stated that its intent with regard to capital 
expense provisions was to provide sufficient funding to enable 
needy local education agencies to the extent possible to 
restore Title I services for private school children to their 
pre-Felton levels. The clear negative impact of the Felton 
decision was outlined on April 15th of this year in arguments 
before the United States Supreme Court as the chancellor of the 
New York public school system asked to be relieved from the 
injunction granted in the 1985 decision. We are hopeful that 
the Court will agree with those arguments and reverse that 
original decision.
    But even with the reversal of Felton, it's imperative to 
continue capital expense funding during any transitional 
period, so we avoid the period of disruption that might be 
similar to that found in 1985.
    All Title I program services to students in religious 
schools require that the students be pulled out of the home 
classroom. There is a common agreement among educators that 
this approach, even in public schools, is disruptive and not 
sound educational progress. In such programs, a student is 
clearly identified as the Title I student and different from 
others.
    In addition, the student misses instruction taking place in 
the regular classroom situation, and programs take place 
outside the school where students must travel and are 
especially disruptive and often physically dangerous.
    Parental rejection of services is another problem, and much 
of this is based on parental evaluation that pull-out services 
are viewed to be of poor quality and disruptive to the 
student's overall education.
    When using computers, unless regular classroom teachers 
have access to the computer resources, the computer cannot be 
an integral part of the student's course of study. And under 
current interpretation of the Felton decision, the placement of 
computers forbids the presence of a teacher and a teacher aide 
is only present and may not be involved in the actual 
instruction. Computer programs often only provide basic 
education rather than providing challenging educational 
opportunities for the student.
    Catholic and other religious school students with restored 
services receive assistance on the average of only 3.5 days a 
week, compared to 5 days in the public school program. We urge 
the committee to recommend the full funding of capital expenses 
at the same level of $41.114 million as appropriated in the 
fiscal year 1997 budget.
    We also urge the committee to consider fully funding Title 
I and we place special emphasis on the funding for Title VI of 
the Improving America's School Act.
    Mr. Dickey. You have 30 seconds.
    Reverend Davis. This important program, which continues to 
have broad support from all aspects of the educational 
community, public, private and religious, is a flexible block 
grant program that serves the needs of students in almost every 
school in the country.
    I thank you for the opportunity to present our testimony.
    [The prepared statement of William Davis follows:]

[Pages 1725 - 1737--The official Committee record contains additional material here.]


    Mr. Dickey. You are welcome, and thank you, Father Davis.

                              ----------                              

                                          Thursday, April 24, 1997.

                                 WITNESS

JOAN I. SAMUELSON, PARKINSON'S ACTION NETWORK

    Mr. Dickey. Now we will hear from Joan Samuelson, President 
of the Parkinson's Action Network.
    Good afternoon, welcome. You have five minutes.
    Ms. Samuelson. Good afternoon, Congressman Dickey. Thank 
you for the opportunity to testify.
    This process I hear jokingly called sometimes Mother 
Theresa's waiting room, and I am sitting here simply listening 
to the array of testimony you have, feeling some compassion 
fatigue myself. I can not imagine what it must be like, the 
daunting job that this committee and this Congress has to make 
the priority setting that it must with the money that is 
available.
    So it is with great audacity, I must say, that I on behalf 
of the million Americans with Parkinson's disease have a 
request which we want to put in the form of a very emphatic 
demand. We feel that the Congress must in fiscal year 1998 fund 
the $100 million authorization from Parkinson's research, which 
we will in the year have authorized by the Morris K. Udall 
Parkinson's Research Act, which is now pending before the 
Congress.
    That is an audacious thing to say to this Congress. But we 
feel that we must. Let me explain.
    Mr. Dickey. What percent increase is that?
    Ms. Samuelson. It is a trebling of the current funding. It 
is a 300 percent increase. Parkinson's research currently 
receives about $30 million a year in research funding from the 
National Institutes of Health. It has been completely flat at 
under $30 million for as long as I have been diagnosed, which 
is 10 years. It is a terrible travesty, and that is why we are 
here.
    Mr. Dickey. Tell me this, and I hate to interrupt your 
testimony, but with the increase, will we move closer to 
finding the cure?
    Ms. Samuelson. Absolutely. Absolutely. We talk to 
researchers all over the country, and they tell us that we are 
right on the brink of breakthroughs that will take people with 
Parkinson's, like myself, and make sure that we do not go into 
disability, so that we will be able to remain functioning 
enough to continue working, to continue caring for ourselves.
    I am at 10 years post diagnosis. According to Congressman 
Mo Udall's time line, three years from a care facility. In 
comparison to another person with Parkinson's, Millie 
Kondracki, the wife of Roll Call editor Morton Kondracki, I am 
overdue being so disabled that I would be unable to leave my 
home, I would have lost my job, I would need attendants in my 
house with me to make sure that I do not kill myself or 
permanently maim myself from falling.
    That is what we face. The researchers look at things and 
tell us about things like something called neural growth 
factor, cell transplantation, big advances they have made 
lately in the genetic understanding of the disease, the 
environmental implications of the disease. They tell us that 
with that kind of funding, they can put us back to work and get 
us out of nursing homes and so on, and eliminate the enormous 
costs that Parkinson's is causing in the country.
    That is exactly the focal point of my testimony. We have 
been for decades an invisible community. There are a couple of 
reasons for that. The Style section in the Post this morning 
quotes Mohammed Ali, actually quotes his wife, since he is no 
longer able to talk, with one of the reasons. She said, he's 
afraid that people will focus on his disability and not on him.
    That is one reason why we have been so invisible. 
Parkinson's is terribly stigmatizing. People think that we have 
dementia along with our symptoms of tremor and slowness of 
movement, freezing, stiffness. I am called lots of things, but 
I have not been called demented yet after 10 years post 
diagnosis.
    The fact that we cannot talk does not mean that we are not 
thinking, but that is what people do think. People tell their 
employers that they have just been diagnosed with Parkinson's, 
and even if they do not even have a tremor yet, they lose their 
jobs. So people are invisible for that reason.
    Then all too quickly, they become involuntarily invisible. 
Mo Udall is probably the very best case of that. He is very 
alive, but he cannot move, he cannot walk, he cannot speak. 
That is a huge cost to our country in all kinds of ways, so it 
has been very hard----
    Mr. Dickey. Excuse me, how many members of Congress have 
Parkinson's disease? Do you know?
    Ms. Samuelson. That is a very interesting question, and 
that applies to exactly what we are talking about. Congressman 
McDade was diagnosed, Congressman Skeen just announced his 
diagnosis. There are several other members that we believe have 
Parkinson's. Understanding their fear of the stigma, we need to 
protect their privacy, and we do that.
    But certainly, there are more members. It is very 
stigmatizing.
    Mr. Dickey. You have 30 seconds, thanks to my 
interruptions. Can you finish?
    Ms. Samuelson. I can, because I have covered a lot of it. 
It is important that the main point of the reason why we must 
have the Udall Bill funded in fiscal year 1998 is that it is a 
terrible shame for us, because we have been so invisible, we 
have been so neglected. There is a huge disparity in funding 
between Parkinson's and many other diseases, in decades when 
the NIH budget has exploded in size, and has been able to fund 
aggressive attacks on other research areas.
    There is a bigger reason. It would be very unfair to us to 
say oh, we are not doing that priority setting any more, we are 
leaving it to the NIH, which is not aggressively attacking 
Parkinson's. The other reason is the cost to the country. The 
cost of people losing their jobs, going into nursing homes, 
being in all sorts of disability programs, needing attendants, 
and treatment and so on is estimated at over $25 billion a 
year. When a 10 percent reduction in progression would save 
$327 million a year, that right there is ten times the amount 
that is spent right now on Parkinson's.
    Thank you.
    [The prepared statement of Joan Samuelson follows:]

[Pages 1740 - 1749--The official Committee record contains additional material here.]


    Mr. Dickey. Thank you so much for coming.

                              ----------                              

                                          Thursday, April 24, 1997.

                               WITNESSES

VICKY MODELL, JEFFREY MODELL FOUNDATION
LYNDA BROWN

    Mr. Dickey. The last witness is Vicky Modell, Vice 
President and Founder of Jeffrey Modell Foundation, 
accompanying Lynda Brown, who is a parent.
    What is the situs or location of the Modell Foundation?
    Ms. Modell. In New York City.
    Mr. Dickey. You have five minutes.
    Ms. Modell. Thank you. Good afternoon, Mr. Chairman.
    Mr. Dickey. Good afternoon.
    Ms. Modell. Thank you for the opportunity to allow us to 
testify here today.
    My name is Vicky Modell, and I am Vice President and co-
founder of the Jeffrey Modell Foundation. I am accompanied this 
morning by Lynda Brown, a mother of three children who suffer 
from primary immune deficiencies.
    Quite simply, primarily immune deficiencies are a 
collection of approximately 70 genetic diseases of varying 
severity in which the immune system is compromised. With the 
body unable to fight off these diseases, the cold becomes a 
pneumonia, and simple infections become life threatening.
    I know too well, because my husband Fred and I lost our son 
Jeffrey, at the age of 15, after a valiant battle. In his 
memory, we established the Jeffrey Modell Foundation. At the 
time, we thought that these diseases were rare. But indeed, 
there are 500,000 Americans, mostly children, who are affected 
with primary immune deficiency. We believe that there are 
500,000 more who remain undiagnosed, under-diagnosed, or 
misdiagnosed.
    These diseases, as I say, are not rare. They affect more 
children than leukemia and lymphoma combined. Last year, I 
appeared here to tell you about our efforts to enter into joint 
research arrangements with the NIAID and NICHD. I am very 
pleased to report to you that great progress has been made in 
just the last 12 months.
    At Allergy and Infection Disease, we have entered into 
three peer reviewed research projects, with our foundation 
funding part of the research and the Institute picking up the 
rest. This is important research and I know it would not have 
occurred without our contribution.
    At the National Institute of Child Health, the process has 
moved a little more slowly, but I am pleased to say that they 
are currently reviewing applications, and we are hopeful that a 
suitable project will soon be found. With the advancements 
we've been able to make in research, we are now turning our 
attention to an equally critical issue, which is physician 
education and patient support.
    To illustrate why this is so important, I have asked Lynda 
Brown to join me this morning to tell you about her personal 
experience.
    Ms. Brown. Thank you, Mr. Chairman.
    My name is Lynda Brown, and I am from Long Island, New 
York. I have been blessed with three beautiful children, 
Caitlynn, Alyssa and Ryan. At 18 months old, Caitlynn was 
diagnosed with chronic diarrhea. Every parent's been through 
it, a kid gets sick. She did not get better. She did not 
respond to treatment. After suffering for approximately three 
months, her pediatrician kept on saying it was a virus and it 
would go away.
    You may be familiar with viruses, Mr. Chairman. It is a 
medical term derived from Latin meaning I do not know. 
[Laughter.]
    Thankfully, I found Mount Sinai Medical Center, where the 
Jeffrey Modell Foundation has funded a major clinical research 
laboratory. To make a long story short, Caitlynn has primary 
immune deficiency. She cannot fight off any diseases. Her 
siblings, Alyssa and Ryan, have also suffered the same disease.
    The point of my experience, of course, is that I had never 
heard of these diseases. My pediatrician never thought to look 
for them.
    That is why estimates have been made by experts that there 
are 500,000 currently diagnosed cases, there are also 500,000 
currently undiagnosed cases.
    Ms. Modell. I would love to be able to sit here and tell 
you and the committee that Lynda Brown's story is a rarity, an 
anomaly. Unfortunately, that is not the case. Her story is 
repeated throughout this country in many, many pediatricians' 
offices. It is a tragedy. Truly, we must address it. We need 
the earliest possible diagnosis and treatment for these 
children before permanent damage is done to one of the organs, 
particularly the lungs.
    As we did last year, we are not coming to the subcommittee 
looking for a handout. We have been doing this educational 
effort on our own.
    Mr. Dickey. You have 30 seconds.
    Ms. Modell. We are doing our part, but we cannot do it 
alone. This subcommittee's encouragement of the Institutes to 
continue and build upon collaborative arrangements will go a 
long way to making this a working model. Is not that what we 
all want, the Government, the non-profit sector and private 
corporations all pulling together to do the greatest possible 
things for human beings.
    In conclusion, I would like to say that I speak not only 
for Lynda Brown and myself, but the hundreds of thousands of 
children that suffer with primary immune deficiency. We cannot 
turn our backs on them. Together we can make a difference for 
the Caitlynns and Alyssas and Ryans who are waiting in quiet 
hope for just that one breakthrough that will give them the 
quality of life that so many of us are so privileged to enjoy.
    Thank you for your time today.
    [The prepared statement of Vicki Modell and Lynda Brown 
follows:]

[Pages 1752 - 1760--The official Committee record contains additional material here.]


    Mr. Dickey. Thank you. Thank you for your time. Good job.
    Ms. Brown. Thank you.
    Mr. Dickey. Committee is adjourned until 2:00 o'clock.

                              ----------                              

                                          Thursday, April 24, 1997.

                           Afternoon Session

                                WITNESS

DAVID JAFFE, JAFFE FAMILY FOUNDATION

    Mr. Wicker. The hearing will come to order.
    As we begin this afternoon's hearing, I want to remind 
witnesses of two new provisions in the Rules of the House. In 
addition to their written statements, non-governmental 
witnesses must submit a curriculum vitae and a statement of 
Federal grant or contract funds they, or the entity they 
represent, have received. If you have questions concerning the 
applicability of this provision, or questions as to how to 
comply, please contact the subcommittee staff.
    Also, the witness schedule is very tight. I have a very 
capable timekeeper and he will assist me in enforcing the five 
minute rule strictly. I would ask that you testify and keep 
this limitation in mind in consideration of the other witnesses 
who must follow you.
    Our first witness this afternoon is Mr. David Jaffe, of the 
Jaffe Family Foundation. Mr. Jaffe, we welcome you. Ready, set, 
go. [Laughter.]
    Mr. Jaffe. Thank you, Mr. Chairman and members of the 
subcommittee, for allowing me the opportunity to testify. I am 
David Jaffe and I serve on the board of directors of the Jaffe 
Family Foundation which my parents created. I am the father of 
three young children with food-related allergies. My only 
nephew also has food allergy.
    In 1996, the Jaffe Family Foundation decided to make a 
significant, long-term commitment to the area of food allergy. 
We made this decision because of our own experience, growing 
evidence of increasing incidence of food allergy, and the lack 
of attention and resources in the field.
    Food allergy is an adverse reaction to food involving the 
immune system. Food allergies are estimated to affect between 3 
and 6 percent of children and these numbers are on the rise. 
While some children will outgrow food allergies, others will 
continue to suffer throughout their adulthood. Shellfish, eggs, 
cow's milk, soy, wheat, and tree nuts are the cause of most 
food allergic reactions. Although symptoms of food allergic 
reactions are often mild, it is estimated that 100 people each 
year die of an allergic reaction to food, and reports of death 
from food-allergic reactions after ingestion of even minute 
quantities of food are increasing.
    My own children are at risk of having a fatal reaction to 
peanuts and have, after being unintentionally exposed to food 
with peanuts in it, suffered reactions which fortunately were 
recognized early enough so that they could be treated with 
medication. These experiences, however, created an awareness of 
how serious the situation can become.
    As a parent, I can tell you that my children's food 
allergies have affected my family's life in ways that I would 
never would have imagined. My wife and I had several years of 
sleepless nights as we tended to our children while they 
suffered through atopic dermatitis, a common condition 
resulting from food allergy. Over a four year period my wife 
and I grew accustomed to drawing oatmeal baths every two hours 
throughout the night just so our children could feel relief 
from the intense itching and discomfort. We also take strict 
precautions by providing our children with their own food 
whenever they leave the house to attend a play group.
    Right now, the only way to protect a child who suffers from 
food allergies from an allergic reaction is to avoid the 
offending food, and this requires constant vigilance on the 
part of food allergy sufferers and their families. It often 
means keeping the food out of your home entirely to avoid 
accidental contamination. Restaurants, schools, visits to 
friend's homes, sport events--anywhere that your child might be 
exposed to the food--are additional sites of potential 
exposure.
    It is not enough to tell your child to avoid the food to 
which he or she is allergic, because many of these foods are 
commonly used as ingredients in items that most people would 
never suspect. Peanut butter might be used, for example, to 
thicken spaghetti sauce. All too often, full information about 
ingredients is not available even to those extremely cautious 
and assertive customers who carefully question waiters. Even 
well-informed waiters and chefs cannot spot the cross-
contamination of food which results from careless handling in 
the manufacturing plant or one food inadvertently touching 
another.
    I want to express my appreciation to you, Mr. Chairman, and 
to the other members of this committee for the work you have 
done in making sure that, despite the need to find savings in 
Federal programs, the funding for basic science research at the 
NIH is maintained, and even increased, each year. I thank you 
for your leadership and urge you to continue. The basic 
scientific research that NIH supports is critical to the 
advancement of the field of food allergy research.
    As you know, innovative approaches are sometimes necessary 
to bring more focus and attention to issues that have 
previously not been addressed through NIH research. I would 
like to talk to you today about why I believe that is now 
necessary in the field of food allergy. Despite the severity of 
this problem, very little attention or resources are being 
directed toward finding solutions to the complex scientific 
issues connected to food allergy. We do not have the answers to 
some of the most basic scientific questions, such as why some 
people develop food allergies while others do not, or why some 
children outgrow food allergies and others do not. As a result, 
we have no idea how to cure food allergy.
    Furthermore, pediatricians learn very little about 
diagnosis or treatment of food allergy, causing children and 
their families long periods of frustration, distress, and 
illness before diagnosis is made. What is worse, very little 
research that could yield solutions to these problems has been 
supported in the past either by NIH or by private institutions.
    Over the last two years, the Jaffe Family Foundation has 
begun a long-term effort to change this. We are contributing 
both financially and with our own time. We believe in working 
collaboratively with organizations including industry that 
share our commitment to find ways to treat, prevent, and cure 
food allergy. Our program is built on partnership with three 
important institutions in this field--the NIH, the Food Allergy 
Network, a vital resource for consumers and physicians, and a 
soon to be announced collaboration with an academic medical 
center in New York City where we plan to establish a National 
Center of Excellence for Food Allergy Research, Clinical 
Practice, and Patient and Public Education.
    Mr. Wicker. I am so sorry, but I must ask you to briefly 
summarize the remainder of your statement so that we can stay 
on schedule. I know it is hard to do.
    Mr. Jaffe. Of course. In conclusion---- [Laughter.]
    Mr. Wicker. That is a nice start. [Laughter.]
    Mr. Jaffe. I hear a clock ticking. In conclusion, food 
allergy is a very serious problem that affects many children 
and adults. Very little is known about food allergy and, 
despite the seriousness of the problem, current efforts to 
increase resources and attention are only beginning. There must 
be more research to increase our knowledge about the very 
serious problem of food allergy and improve the medical 
system's ability to respond to people suffering from allergies 
to food. The Family Foundation has dedicated significant 
financial and personal resources to the field, and we are 
committed to working in a public-private partnership with the 
NIH to expand the research that is being done to improve the 
health and welfare of people who suffer from food allergy.
    I ask for your support of that partnership with the NIH 
through your continued commitment to funding of basic science 
research at the NIH. Thank you very much.
    [The prepared statement of David Jaffee follows:]

[Pages 1764 - 1770--The official Committee record contains additional material here.]


    Mr. Wicker. Thank you very much, Mr. Jaffe. My son has a 
dear friend, 11 years old, who has a peanut allergy. I know 
what you are talking about. Do you work with the various fast 
food chains to inform them about the danger of that particular 
allergy?
    Mr. Jaffe. At this point, the Food Allergy Network, which 
has a huge mailing list, works with industry to communicate to 
consumers if there is a cross-contamination of some food 
product. We have begun outreaching to things like fast food 
organizations, airlines, the National Restaurant Association to 
try and establish some education programs. But, in honesty, 
that is where we are trying to put a lot of time and attention.
    Mr. Wicker. Well, thank you for your efforts, and thank you 
for your testimony.
    Mr. Jaffe. Thank you for having me.
    Mrs. Lowey. Mr. Chairman.
    Mr. Wicker. Oh, I apologize to my colleague, Mrs. Lowey.
    Mrs. Lowey. As a New Yorker, I just wanted to welcome you, 
Mr. Jaffe. I just want to say I am particularly pleased, 
although my colleagues unfortunately couldn't be here, that you 
emphasize the partnership because, in this time of tight 
budgets, the work that you are doing to make sure that you are 
bringing in support form the private sector will be very 
helpful to us in advocating for funds for this important area. 
So I thank you very much for testifying.
    Mr. Jaffe. That was the part that I did not get to read. 
[Laughter.]
    Mr. Wicker. It will be submitted for the record. We thank 
you very much.
                              ----------                              

                                          Thursday, April 24, 1997.

                                WITNESS

RICHARD ALEXANDER, M.D., THE PROSTATITIS FOUNDATION

    Mr. Wicker. Our second witness this afternoon is Doctor 
Richard Alexander, representing the Prostatitis Foundation. 
Doctor Alexander, please proceed.
    Dr. Alexander. Thank you, Mr. Chairman, members of the 
subcommittee. I am Doctor Richard Alexander, associate 
professor of urology at the University of Maryland School of 
Medicine in Baltimore. I thank you for the opportunity to speak 
to you today on behalf of the members of the Prostatitis 
Foundation, an organization of patients and their loved ones 
who have suffered in silence for too long. I would like to tell 
you something about the plight of men who have this disease, 
tell you how little we know about it, and suggest how you might 
make a difference to the men who are my patients and your 
constituents.
    Prostatitis is a chronic, relapsing, and episodic condition 
characterized by pain in the pelvic area, irritative voiding 
symptoms, and sexual dysfunction. Pain is the principal and 
defining component of the condition, and the pain of this 
disease can be severe and disabling. The symptoms of the 
disease are consistent with an infection in the prostate gland 
but the vast majority of men with symptoms cannot be 
demonstrated to have such an infection as a cause of their 
disease.
    Prostatitis is extraordinarily common. In the Government's 
own data from the National Ambulatory Medical Care Survey 
collected by the National Center for Health Statistics from 
1990 to 1994, prostatitis resulted in 2 million office visits 
to primary care physicians and urologists in the United States 
annually. This figure does not take into account that most men 
with chronic prostatitis require repeated visits and often to 
several different physicians. In our Internet survey of men 
with the disease, they reported that they had seen a median of 
four different physicians. Conservative estimates of the direct 
cost of this disease to our health care system are in excess of 
half a billion dollars annually.
    The disease affects younger men, men in their prime 
productive years of life. In several reported series the median 
age of patients is in the 40s. The disease affects men of all 
races. The symptoms of the disease can be very severe. Patients 
report significant difficulties with the activities of daily 
life, and certain activities can be particularly troubling and 
difficult. For example, sitting for some men is almost 
unbearable. I have a patient here in Washington who is an 
attorney. He must stand at his desk to work for most of the day 
simply because sitting is too painful. Half of the patients in 
my Internet survey have missed work because of their disease, 
and 3 percent were on complete disability because of 
prostatitis. Not surprisingly, the disease is associated with 
significant psychological overtones such as depression as men 
face the prospect of life in chronic pain.
    Given the prevalence of this disease, our ignorance about 
it is astonishing. This is the most common diagnosis of men 
under age 50 who seek the care of a urologist and yet we have 
no idea of the cause of chronic prostatitis in the vast 
majority of men. There are no uniform criteria for the 
diagnosis. We do not know what to do for these patients. 
Treatments typically consist of antibiotics and when 
antibiotics do not work the first time generally a different 
antibiotic agent is prescribed and for a longer period. The 
treatment of the disease is completely frustrating for the 
patient as well as the physician.
    Only through research will answers to this disease be 
revealed. However, there have been very limited funds for the 
study of prostatic diseases in general and up to only very 
recently there have been no funds for the study of prostatitis 
in particular. These facts are all the more baffling given the 
tremendous prevalence of these diseases in our society. For 
example, could chronic inflammation be a cause of prostatic 
cancer, the most common cancer of men in the United States, or 
a cause of benign prostatic enlargement? What major and 
fundamental discovery about the etiology of these common 
problems remains hidden because no funds are available for the 
studies of prostatic inflammation?
    Men with chronic prostatitis have no one to turn to, no one 
except for you, their elected representatives. The Prostatitis 
Foundation wishes only to make their elected officials aware of 
their suffering and to ask for increased funding of research 
into the causes and treatment of this chronic, disabling, 
condition. The members of the Foundation are heartened by the 
recently released, and first ever, request for applications 
through the Kidney, Urologic and Hematologic diseases section 
of the NIDDK for prostatitis. The membership is grateful to the 
Congress and the NIDDK that their cries for help have 
apparently been heard. They are also grateful for and 
understand and appreciate the support of NIH by this committee. 
However, only $1.1 million has been earmarked for the 
Prostatitis RFA, which means that many qualified and interested 
investigators will go unfunded. Certainly, this is a tiny sum 
given the prevalence of this disease and our lack of knowledge 
about its cause.
    Ladies and gentlemen of the subcommittee, I would close my 
testimony by telling you that if you or your son or your 
husband came to see me today because of chronic prostatitis I 
would have to tell him that I have no idea what is causing his 
disease, that I can offer nothing but empiric and symptomatic 
therapies of doubtful efficacy, and that the great likelihood 
is that he will be plagued by recurrent and relapsing symptoms 
for many years. We should do better, we can do better, and we 
will do better--but only with your help. Thank you very much.
    [The prepared statement of Richard Alexander, M.D., 
follows:]

[Pages 1774 - 1782--The official Committee record contains additional material here.]


    Mr. Wicker. Thank you very much, Doctor Alexander. We 
appreciate your bringing this to our attention. Thank you for 
your testimony.
                              ----------                              

                                          Thursday, April 24, 1997.

                                WITNESS

JULES HIRSCH, M.D., THE AMERICAN SOCIETY FOR PARENTERAL AND ENTERAL 
    NUTRITION AND THE AMERICAN SOCIETY FOR CLINICAL NUTRITION

    Mr. Wicker. Our next witness will be introduced by my good 
friend from New York, Mrs. Lowey.
    Mrs. Lowey. Thank you, Mr. Chairman.
    I am very pleased to welcome Doctor Jules Hirsch, who is 
Physician in Chief of Rockefeller University Hospital. He is 
representing the American Society for Parenteral and Enteral 
Nutrition and the American Society for Clinical Nutrition. I 
personally want to thank you for the work that you have done 
for so many years. You are clearly a leader in this important 
area.
    Dr. Hirsch. Thank you very much. Let me first thank the 
Chairman and the not present members of the subcommittee for 
the privilege of coming here. My message is fully in this 
document. What I want to do today is just give you a very brief 
and direct summary of what it is that we are about.
    These two societies represent physicians who work on 
clinical nutrition, and that is what I work on at Rockefeller 
University as well. This morning, I had the privilege of being 
in Washington to go to the Fourth International Symposium of 
Risk Factors for Heart Disease, which is now going on at the 
Washington Hilton. It is quite an extraordinary meeting because 
what is happening there is the new nutrition is coming to the 
fore and is being understood as never before in connection with 
heart disease and hypertension. What this means is that 
molecular genetics has provided an amazing framework and a new 
way for us to look at biologic phenomena. But like always 
happens when this goes on with genetics, it is a mixture of the 
gene and the environment. When you talk about the environment, 
that is largely nutrition.
    What we are dealing with then is a new kind of nutritional 
science which deals with how genes are expressed and what gene 
action is and it is foodstuffs that make a big matter. For 
example, the National Cancer Institute tells us that 50 percent 
of the cancers in this country can be laid at the doorsteps of 
our nutritional practices. The nutrition community has made its 
contributions to this. Very recently a gene was cloned in an 
obese mouse. This disorder which everyone assumes is purely a 
behavioral disorder now has the biologic side, but the other 
side still has to be worked on.
    What nutritionists do over the country is to work with 
small numbers of human subjects and to translate the molecular 
genetic events into things that are directly practical and 
important in the prevention of disease and in the cure of some 
diseases. Imagine, for example, the fact that a pregnant woman 
can take folic acid and it has to be given at an exact time in 
pregnancy to prevent some of the most horrendous kinds of 
malformations of the newborn that one can imagine. It is the 
clinical nutritionist, the physician scientist doing this work 
that is the link betweenthe needs of individuals and the 
molecular genetic understanding.
    We fully support what you are doing for the National 
Institutes of Health and hope you will increase the 
appropriation this year. We have a worry, however, about the 
way research proceeds at the present time for at the NIH there 
is a heavy emphasis on the molecular genetics of disease, as 
there should be, and there are also very expensive, very 
complex nationwide intervention studies, which also are useful. 
But the middle ground no longer can be done at medical schools 
themselves, by the way, because the health care crisis is 
preventing medical research at almost all levels of the medical 
school.
    What we are interested in and what we want to see happen is 
an extension of small clinical nutrition research units that 
were created some years ago and give medical students, house 
staff, and physician scientists the opportunity to probe these 
questions. We would like for these units to be increased and 
expanded. We would like for more training of individuals at the 
NIH. And we very much support Mrs. Lowey's efforts in behalf of 
clinical science legislation generally, because much of 
clinical science in this country deals with the problem of 
human nutrition. Thank you very much.
    [The prepared statement of Jules Hirsch, M.D., follows:]

[Pages 1785 - 1796--The official Committee record contains additional material here.]


    Mr. Wicker. Thank you very much.
    Do you have some follow-up comments, Mrs. Lowey?
    Mrs. Lowey. No. I just want to thank you and say I am just 
delighted that you are here. When we talk about saving dollars, 
I am convinced that by investing in this kind of research we 
can really save not just dollars, but a lot of pain and 
suffering from the diseases that follow.
    Dr. Hirsch. Absolutely.
    Mrs. Lowey. Thank you. I would hope that I would take your 
advice better than I do. Thank you.
    Mr. Wicker. Thank both of you.

                              ----------                              

                                          Thursday, April 24, 1997.

                               WITNESSES

TRAVIS THOMPSON, M.D., VANDERBILT UNIVERSITY
ELISE McMILLAN AND WILL McMILLAN

    Mr. Wicker. Our next witness is Doctor Travis Thompson, 
director of the John F. Kennedy Center for Research on Human 
Development at Vanderbilt University. Doctor Thompson will be 
accompanied by Elise McMillan and her son Will McMillan. Doctor 
Thompson will be representing Peabody College, Vanderbilt 
University. We are delighted to have you all here today.
    Dr. Thompson. Good afternoon, Mr. Chairman and members of 
the committee. I am Doctor Travis Thompson, director of the 
John F. Kennedy Center for Research on Human Development at 
Vanderbilt. I am here to address the fiscal year 1998 
appropriation request for the National Institute of Child 
Health and Human Development. I am pleased to submit this 
testimony on behalf of three divisions of the American 
Psychological Association and the Association for Behavior 
Analysis. These are national organizations that do research 
using behavioral science methods to solve important human 
problems.
    With me here today is Elise McMillan, who is the president 
of the Davidson County Tennessee ARC, which you may know used 
to be called the Association for Retarded Citizens, and her son 
Will, who is 8 years old, a first grade student at H.G. Hill 
Elementary School in Nashville.
    We are grateful for the past support this committee has 
provided for the National Institutes of Child Health research 
program and for the research training efforts.
    It is estimated that nearly half of all Americans have some 
kind of disability, which makes us a very large special 
interest group. One in five American children in schools have a 
learning disability, attention deficit disorder, emotional or 
behavioral problem, mental retardation, autism, and so on. So 
this is a very, very common problem in our society. In your 
home State of Illinois, Mr. Chairman, there are about 500,000 
people who have mental retardation, learning disabilities, or a 
related developmental delay. So developmental problems touch 
nearly every American family in some way.
    The NICHD has been at the forefront of our national effort 
of finding ways to prevent disabilities before they happen, and 
when we do not yet know how to do that, to develop 
interventions, treatments, and educational methods. The NICHD 
Mental Retardation Research Centers and the Learning 
Disabilities Research Centers are the linchpin of this effort 
of coordinating these national research programs.
    We have discovered that the most exciting areas for 
discovery are at the interface of disciplines and interface of 
fields of study. This is often areas in which the knowledge 
base is fragmentary but, in fact, where the discoveries and the 
quantum leaps are potentially greatest. For example, we have 
heard recently how early intervention, early language training 
actually rewires the brain of the developing child. This has 
incredibly important implications for education.
    NICHD-sponsored research is leading to more cost-effective 
and specific early intervention services for preschool children 
with developmental delays. Will McMillan, who is seated here 
today, and his dad participated in a NICHD-sponsored language 
intervention project at the Kennedy Center where I work. He 
started when he was two years old. The fact that Will is in an 
integrated elementary school, he is reading and writing 
alongside typically developing children says something I think 
about the importance of early intervention and the research.
    Programs at NICHD have made remarkable strides towards 
overcoming learning disabilities. Neuroimaging techniques have 
made it possible to identify different types of learning 
disabilities. Now this information is being put into use in 
public schools to tailor make specific phonics-based 
interventions that really work. Teaching methods developed by 
NICHD-sponsored projects at the University of Kansas and at 
Vanderbilt have shown that you can take kids in inner-city 
schools who would normally fall through the cracks and fail and 
they can function at the same level as their peers in the 
middle class schools in the suburbs.
    The cost of institutional care for people withretardation 
is staggering. In your home State, for example, the last time I checked 
there were 3,645 people in institutions at an average cost of about $1 
million a day, $332.6 million per year. NICHD-sponsored research is at 
the forefront of finding ways to prevent institutionalization in the 
first instance and to getting people out of institutions and integrated 
into the community.
    So you can see we are on the threshold of major new 
discoveries in a number of important areas that I have just had 
time to touch on but which are spelled out in detail in my 
written testimony. It is with this in mind that our 
Associations recommend a fiscal year 1998 budget appropriation 
of $690 million. That represents an approximately 9.3 percent 
increase which will enable NICHD-sponsored research to see 
these various initiatives through to fruition.
    I would like to leave a minute for Elise to make a few 
comments.
    Mr. Wicker. Very good. Ms. McMillan.
    Ms. McMillan. Thank you. I would like to really second 
everything that Doctor Thompson has said, but I would like to 
speak from a parent's perspective. When you have a child with 
Down Syndrome you are not given much hope when they are born. 
The outlook is pretty bleak. Thank goodness we know now with 
all Will's activities that is not the case. He is in a general 
education first grade classroom. He was Student of the Week at 
his school last week, and participates in lots of outside 
activities.
    Part of the reason for his success is that we were lucky 
enough to participate in NICHD-funded research and it made such 
a difference because he could develop his language skills. In 
fact, his only note on his last report card was that he talked 
too much in class. So that research project did work. We need 
to work on that some more though.
    This research can make such a difference for so many 
families. We have come so far in understanding children with 
developmental disabilities but there is so much more that we do 
not understand. So I would urge you to continue your support 
for NICHD funding and research. We will be happy to answer any 
questions that you have.
    [The prepared statement of Travis Thompson, Elise and Will 
McMillan follows:]

[Pages 1800 - 1813--The official Committee record contains additional material here.]


    Mr. Wicker. Thank you all very much for coming. I 
appreciate the testimony. Will, congratulations on being 
selected Student of the Week.
    Will McMillan. Thank you.
    Mr. Wicker. Let me just say that you are not the only one 
in the room who got marked down for excessive talking. 
[Laughter.]
    So you may turn out all right after all. How long are you 
going to be in Washington?
    Will McMillan. Five years.
    Ms. McMillan. No. Maybe tomorrow you are going back home.
    Will McMillan. Tomorrow.
    Mr. Wicker. Okay. Well, I hope you will have a chance to 
get around and tour the Capitol and the city. We are just 
thrilled to have you before our subcommittee. We may name you 
Witness of the Week, you never know. [Laughter.]
     Thank you so much. We appreciate your being with us today.

                              ----------                              

                                          Thursday, April 24, 1997.

                               WITNESSES

ROBERT G. LUKE, M.D.
DAN WEBER, THE AMERICAN SOCIETY OF NEPHROLOGY

    Mr. Wicker. We now move to Doctor Robert G. Luke, 
representing the American Society of Nephrology. Doctor Luke, 
we are glad to have you.
    Dr. Luke. Mr. Wicker, that is a hard act to follow.
    Mr. Wicker. It certainly is and I am glad it is not me. 
[Laughter.]
    Dr. Luke. My name is Robert Luke and I am the president of 
the American Society of Nephrology, the national organization 
representing physicians and researchers who are committed to 
finding cures for kidney disease. Thank you for this 
opportunity to provide testimony on behalf of our 6,500 members 
in support of NIH and, in particular, the NIDDK.
    I am joined today by Mr. Dan Weber of Sarasota, who will 
later share some of his personal observations on the impact of 
chronic renal failure in his life.
    In the U.S. there are now more than 300,000 people with 
end-stage kidney disease whose lives are totally dependent on 
either dialysis or a kidney transplant. This number has been 
increasing by about 10 percent a year. If similar rates 
continue, it will be 1 million people on dialysis in this 
country in the year 2010.
    For those in dialysis aged less than 50 life expectancy is 
a fifth of the population in general. I am sorry to say that 
our representative last year, Doctor Dawson, from Chicago, who 
participated in last year's testimony and was with us in 
Chicago when we presented Mr. Porter with a congressional 
award, has died in the past year.
    It is estimated that 1997 Medicare ESRD expenditures were 
approximately $10 billion, 1 percent of all health care 
expenditures, and over 5 percent of all Medicare expenditures. 
This increase relates to number of patients treated because 
payments for dialysis treatment have actually decreased in 
constant dollars since 1972.
    The only answer is to understand these diseases better so 
that we can prevent them from destroying kidney function, but 
when this is impossible better replace lost kidney function. 
Total funding at NIH for kidney disease research will be 
approximately $200 million this year, 2 percent of this 
country's direct and a much lesser percentage of indirect cost 
to treat ESRD. The majority of this funding is in NIDDK with 
their 1997 appropriation of $127 million. We are heartened by 
the bipartisan support in Congress for increasing NIH funding 
by 100 percent over the next five years. It is encouraging to 
know that 60 percent of the American people also favor doubling 
NIH spending in medical research by the year 2002, and that 71 
percent of the American people oppose cutting medical research 
to help balance the budget. Research America data.
    Very recent data from the NIH-supported U.S. Renal Data 
System suggests a slowing of the annual growth rate ofpatients 
with ESRD from about 9 to about 7.5 percent. All our research efforts 
to slow up and prevent progression of kidney disease may be beginning 
to pay off. Therefore, the ASN urges the subcommittee to increase NIH 
fiscal year 1998 budget by 19 percent and distribute this increase in a 
fair manner to each Institute.
    Mr. Chairman, I would now like to ask Mr. Weber to speak to 
you to emphasize the impact of kidney disease on productive 
members of our society and their families.
    Mr. Wicker. Very well, Mr. Weber, we are glad to have you.
    Mr. Weber. Mr. Wicker and members of the subcommittee, I am 
Daniel Weber, and I am a kidney transplant patient. I am 
grateful I have been afforded this opportunity to tell you a 
little about myself and the wonderful gift that I have 
received. I am formerly a management executive with GTE 
Corporation. At age 49, I had 25 successful years behind me at 
GTE. So in 1975, I decided to leave and try to build my own 
company and move to Florida. My 55th birthday had arrived and 
my friends said I looked the picture of perfect health. About 
three weeks after that birthday, I rolled out of bed and I felt 
a little queasy. I thought maybe it was a virus or something I 
ate. When I tried to slip into my shoes, I saw my feet were so 
swollen that even my large sneakers were too tight. I was sure 
I had the flu.
    By Monday I was completely wiped out. I decided to make a 
visit to my doctor. He looked at my legs, which by this time 
were swollen up to the knees, and quickly had his nurse draw 
several tubes of blood for comprehensive lab work. He said the 
results would come the next morning. The crazy part of this was 
that this same doctor had given me a clean bill of health just 
a month before. So early the next morning the phone rang and it 
was the doc. He said Dan we need to put you in the hospital for 
a week to do further tests. I am also asking my favorite 
nephrologist Doctor Mark Silverstein to look you over and 
review my findings because you appear to be in the early stages 
of renal deterioration. His diagnosis was correct.
    Doctor Silverstein said my type of kidney disease usually 
progress to end-stage renal failure over a period of four to 
five years. So I said what caused this failure? His best guess 
was that my own immune system was destroying my kidneys. I was 
not sick. I was told that when the kidneys were functioning at 
only 15 percent of their capacity Doctor Silverstein would 
arrange for me to begin dialysis to maintain my life. If I 
agreed, I would be added to the waiting list for a transplant 
and the wait could not be forecast, it could be anywhere from 
months to years.
    In no way was I prepared for the terrible days which lay 
ahead. I went from a husky 170 pounds to 145 pounds of mush. 
Doctor Silverstein explained that kidneys have a multitude of 
functions, one of which was to signal bone marrow to make red 
blood cells. After about three years into this nightmare my 
health took an unexpected nose dive. The following day I got 
out of bed intending to go to work and I collapsed and fell to 
the floor. We phoned my doctor and went right to the emergency 
room. A quick test confirmed the bleeding, for three days I had 
vomited blood. I received three pints of blood. The medication 
I was taking had eaten a hole in my stomach.
    I had been into the hospital seven times and the year was 
just about half over. The cost of these hospital stays averaged 
$4,000 each. At my next visit the time arrived dialysis. I had 
a choice of methods. Hemodialysis was a system where I would be 
connected to a machine for three times a week four to five 
hours each session. The other system was continuous ambulatory 
pertinile dialysis, or CAPD, a method by which I could go 
anywhere without machines that would be more natural and less 
debilitating than hemodialysis.
    Mr. Wicker. I hate to interrupt you at this point, but we 
are going to have to ask you to submit the rest of your 
testimony for the record if you do not mind.
    Mr. Weber. Fine.
    [The prepared statement of Robert Luke, M.D., follows:]

[Pages 1817 - 1828--The official Committee record contains additional material here.]


    Mr. Wicker. How are you doing now?
    Mr. Weber. I am just terrific.
    Mr. Wicker. Really?
    Mr. Weber. Yes. I am just as healthy as a horse. Back at 
work, back to being a taxpayer instead of a tax consumer.
    Mr. Wicker. That is wonderful to know. We appreciate your 
willingness to come and testify. Certainly, the entirety of 
your statement will be received into the record. I note that 
you are from Sarasota. Mr. Miller, who I believe is your 
Congressman, is expected to be here in approximately 15 to 20 
minutes. So if you would like to stick around, I am sure that 
he would be happy to speak to you. We are expecting him 
shortly.
    Mr. Weber. Thank you.
    Mr. Wicker. Thank you both.
    Dr. Luke. Mr. Weber had a transplant five years ago.
    Mr. Wicker. Thank you so much. We appreciate your being here.

                              ----------                              

                                          Thursday, April 24, 1997.

                                WITNESS

LYNDA JOHNSON ROBB, READING IS FUNDAMENTAL, INC.

    Mr. Wicker. Our next witness is a familiar face, Mrs. Lynda 
Johnson Robb, chairman of Reading Is Fundamental, Inc., and the 
wife of our colleague from the other end of the building. We 
are delighted to have you, Mrs. Robb. You know all about time 
constraints, do not you.
    Mrs. Robb. They do not do that very well on the other side.
    Mr. Wicker. That is true. [Laughter.]
    Mrs. Robb. I hope that will not count against my five 
minutes, Mr. Chairman. First, I would just like to mention that 
I am listed here as ``Reading If Fundamental,'' and I would 
like for you to know first it is very fundamental, and that is 
what I am going to talk about. I thank you, Mr. Chairman, for 
giving me the time to speak about the Inexpensive Book 
Distribution program which Reading Is Fundamental operates for 
the Department of Education.
    As the Chair of Reading Is Fundamental, I respectfully urge 
the Congress to appropriate the $12 million asked by the 
Administration for fiscal year 1998.
    There is a major emphasis all over this country to improve 
children's reading. In the Book Program you have a Federal 
effort that works while the program costs taxpayers little. It 
reaches into all 50 States and the District of Columbia.
    Last year 3.3 million RIF children engaged in reading 
activities, and selected 10 million books to keep for their 
own. The cost to the Government? Only $3.19 per child. More 
than 195,000 unpaid community volunteers, 37 percent of them 
parents, run the programs. Local projects receive Federal funds 
only for books, none for any other program costs. And RIF 
provides no Federal dollars to any group that can operate the 
Book Program without them. The program involves a major citizen 
commitment. I know. I have been a RIF volunteer for 30 years.
    I am joined by the woman out west who early each morning 
takes RIF books to homeless families in welfare motels and 
abandoned cars. She gets their children into schools and into 
reading centers. And also by the inner city youth who got 
addicted to reading as a RIF child. He won a scholarship to a 
prestigious college. Upon graduation he returned to his 
community where he established a RIF library in a hospital for 
very sick children.
    For every Federal dollar, RIF leverages an additional $5.06 
in private goods, funds, and services. And RIF draws local and 
national corporations and service organizations into the 
literacy cause. Yet, there remains a giant need. Right now we 
have a waiting list of 2,290 applications that we cannot fund, 
representing 1.3 million children.
    RIF takes the program not only to schools and libraries, 
but also to day care centers, migrant camps, crisis shelters, 
juvenile detention centers, and Even Start, just to name a few 
places. In all 14,000 Book Program sites, local citizens make 
all the key decisions--which children to serve, with what 
activities, and with which books. They praise RIF for avoiding 
the red tape and intervening bureaucracies, and for respecting 
local needs.
    Low reading skills bear a cost--to the individual in 
lifetime earnings; to the U.S. economy of about $225 million a 
year in lost productivity; and to the Nation in school dropout 
rates, adolescent pregnancy, unemployment, poverty, 
homelessness, and crime. Competent readers are made, not born.
    The RIF Book Program has earned wide acclaim for success in 
getting children to read. Among its results: children read more 
and use the library more, their parents get involved in their 
reading and learning, their reading abilities improve, and RIF 
changes attitudes about learning.
    Take that case of the fifth grade bully whose father was in 
jail and whose mother worked several jobs. He reluctantly 
agreed to be a reading buddy to a RIF first grader. Soon other 
children gathered around. He took to using his lunch hour to 
read to many children, and ended the year winning the school's 
top citizenship award.
    RIF is both programmatically and fiscally accountable. Not 
so much as one penny of the Federal funds have gone unaccounted 
for. For its effectiveness, RIF was named one of the top twenty 
most credible charities by the Chronicle of Philanthropy 
survey, and named one of the fifteen charities that really help 
kids by Parenting magazine.
    Spending of taxpayer dollars rarely draws an applause, but 
as a parent in Owen, Wisconsin wrote, ``RIF contributes to a 
positive attitude toward Government spending. Parents enjoy 
seeing taxes put to good use and returned to their children.''
    An Oregon school administrator of many Federal programs 
says the Book Program, although it has the least Federal 
dollars, is the one that he likes the best, saying ``it is the 
best and most effective expenditure of educational funds I have 
seen.''
    Because this low-cost program achieves much more than it 
costs and meets a critical need, we urge a $12 million 
appropriation for the inexpensive Book Distribution Program. 
Thank you.
    [The prepared statement of Lynda Robb follows:]

[Pages 1831 - 1838--The official Committee record contains additional material here.]


    Mr. Wicker. Thank you very much. We appreciate your 
testimony and we appreciate your work on behalf of Reading Is 
Fundamental. Thank you.
                              ----------                              

                                          Thursday, April 24, 1997.

                                WITNESS

P. MICHAEL CONN, ENDOCRINE SOCIETY

    Mr. Wicker. Our next witness is Doctor Michael Conn, 
president of the Endocrine Society.
    Mr. Conn. Thank you. Mr. Wicker, members of the committee, 
it is an honor to present to you today the views of the 
Endocrine Society on funding for the National Institutes of 
Health.
    I would like to begin by commending you for the outstanding 
leadership and support you have shown for our Nation's 
biomedical research effort. I know you have had to make some 
difficult decisions to do so.
    As scientists and as physicians, we appreciate your work to 
ensure an adequate funding base. Your leadership has gone far 
beyond that, however. This committee has helped move us from a 
``disease of the month'' mentality to a funding mode that is 
driven by scientific opportunity and by need. Just as the 
endocrine system interacts with every major system in the body, 
our members are funded throughout the NIH. We appreciate your 
efforts to have the NIH examined as a whole rather than 
according to which subspecialty can generate the most political 
pressure.
    Accordingly, my most important point today is that The 
Endocrine Society calls for a 9 percent increase in the 
appropriation for the National Institutes of Health, for a 
total appropriation of $13.8 billion.
    In doing this, we join more than 200 other organizationsin 
the Ad Hoc Group for Medical Research Funding in supporting the 
professional judgment budget proposed by the NIH leadership. Such an 
increase will enable us to sustain the excellent work begun thanks to 
your efforts in the last two years.
    It is important for us, however, to look beyond the 
immediate issues to the future of biomedical research in the 
21st century. Today's funding will dictate whether or not we 
are able to attract, train, and support the work of bright 
young people who choose to follow in our footsteps, to open 
doors of understanding and treatment for the many medical 
problems which still exist.
    Imagine losing the next generation of scientists due to 
inadequate funding today. It would take us years to recover. 
This is not a problem that is going to happen overnight, but it 
is one that would be long and expensive to overcome.
    The choices made by this committee may well determine 
whether or not sufficient numbers of young people will choose 
to become medical researchers. As it is, a potential researcher 
must spend a minimum of four years after the bachelor's degree 
in order to obtain an M.D. or a Ph.D., then four more years of 
post-doctoral training. Before getting out on their own, many 
are 30 years old--dragging educational debt loads, delaying the 
purchase of homes and the start of families. What can they 
expect for their sacrifice? A best case scenario is to get a 
junior faculty job on what is known as ``soft money.'' That 
means no, or very little, institutional salary, no guarantee of 
anything expect maybe an affiliation to put next to your name 
on a grant application.
    Then they begin submitting grants. About 25 percent of the 
grants submitted to the NIH at present are funded. These 
beginners are competing with people who themselves have already 
been competing successfully for 20 years, people who know how 
the system works and how to succeed. This is daunting for a new 
scientist.
    Whether or not the next Harold Varmus will choose 
biomedical research or clinical practice or another career 
entirely will depend on decisions being made now: funding 
decisions that will make a career more attractive, more 
accessible, and help reduce the personal sacrifices that become 
barriers even in the face of dedicated interest. Over time, 
without adequate support, important biomedical research will 
dwindle for lack of trained scientists.
    What can we do? In many ways, thanks to the leadership of 
this committee and the NIH, there are already several programs 
in place that can be built on and more fully funded. I will 
point out three. The National Institute of Child Health and 
Human Development has just begun the competition for its first 
round of awards for a new loan repayment plan. This plan will 
allow eligible scientists at NICHD's contraception and 
infertility research centers up to $20,000 a year for loan 
repayment. The National Center for Research Resources has the 
Clinical Associate Physician program and the Minority Clinical 
Associate Physician program which together attract more than 
125 young physicians each year to do work in the general 
critical research centers. At the National Institute of 
Diabetes, Digestive, and Kidney Diseases there is the mentored 
clinical investigator awards, again designed to help attract 
bright medical school graduates into clinical research. These 
programs are a good beginning.
    In closing, there is no question that throughout the NIH 
there is a need for increased funding to get research grant 
success rates up. However, there is also a need to increase 
funding for training programs so debt loads will be lower. We 
need to encourage medical students to select research training 
tracks so that more people will look to investigative careers 
and not be forced into clinical practice solely for the need of 
repaying debts. We need programs to allow Ph.D. students to 
pursue their dreams. We need to keep the doors of science open 
to the best young minds in our Nation.
    Thank you.
    [The prepared statement of Michael Conn follows:]

[Pages 1841 - 1847--The official Committee record contains additional material here.]


    Mr. Wicker. Thank you very, very much. Certainly, I share 
your concern that we fund NIH at an adequate level. I am 
concerned at the Administration's request with regard to the 
funding increase for NIH. Thank you very much for being here 
with us.
    Mr. Conn. Thank you.
                              ----------                              

                                          Thursday, April 24, 1997.

                                WITNESS

CHAIM CHARYTAN, M.D., RENAL PHYSICIANS ASSOCIATION

    Mr. Wicker. We are going to have a vote in ten minutes. Let 
us take one more witness. On behalf of the Renal Physicians 
Association, Doctor Charytan. In about five minutes, I am going 
to have to run out of here in a brisk sprint. So if you would 
keep your remarks brief and I will be attentive.
    Dr. Charytan. Thank you. I am Doctor Chaim Charytan, 
president of the Renal Physicians Association, the RPA, an 
organization of nephrologists whose goals are: to ensure the 
highest standards of care for patients with renal disease; to 
act as a national representative for physicians involved in the 
study and management of patients with renal and related 
disorders; and we also look to serve as a resource for the 
development of national health policy concerning renal 
diseases.
    As a founding member of the Council of American Kidney 
Societies, the RPA strongly advocates certain basic priorities 
related to kidney disease research and training. These include: 
improved support for investigator-initiated research, funding 
adequate to recruit and retain the brightest individuals to 
pursue careers in academic nephrology research, and support for 
the development of new approaches to problem or disease-
oriented research.
    We are, therefore, pleased to have this opportunity to 
provide the subcommittee with our views in support of the 
National Institute of Diabetes and Digestive and Kidney 
Diseases (NIDDK) and the Agency for Health Care Policy and 
Research (AHCPR).
    Diabetes and hypertension remain the predominant causative 
factors of end-stage renal disease (ESRD). The RPA strongly 
believes that continued basic and clinical research supported 
by the NIDDK represents the only rational approach to reducing 
and containing costs in both dollars and lives associated with 
ESRD.
    Millions of Americans, as you have heard, have benefitted 
from dialysis and kidney transplants. It is likely that this 
population will continue to increase in the coming decades. 
Yet, despite numerous advances in medical care, there is 
widespread belief that the mortality in the U.S. dialysis 
population remains too high. Proposed reasons for this high 
mortality remains speculative. They included: under-nutrition, 
shortened dialysis time, an increase in patients with diabetes 
and comorbid conditions, acceptance of elderly patients, and 
variables related to the prescription and delivery of dialysis 
care.
    The U.S. Renal Data System (USRDS) is a database supported 
by the NIDDK in collaboration with HCFA whose purpose is to 
describe the demographics, morbidity, and mortality of ESRD 
patients in the U.S. The USRDS in collaboration with the NIDDK, 
HCFA, and the ESRD networks is coordinating a number of studies 
to evaluate the effects of adjusting dialysis prescription, 
concomitant diseases, reuse, dialysis dose, and high flux 
membranes of morbidity and mortality in hemodialysis. Data from 
such studies will help to identify factors that contribute to 
morbidity and mortality in end-stage renal disease, and permit 
the development of more effective therapeutic approaches.
    The RPA therefore endorses the fiscal year 1998 NIH funding 
recommendations by Doctor Varmus and by many other scientific 
leaders, also supported by the Ad Hoc Group for Medical 
Research Funding, a diverse coalition of more than 200 patient 
voluntary medical and scientific groups for an increase of 9 
percent in fiscal year 1998 NIH budget, from $833 million to 
$909 million.
    In addition, the RPA has long been an advocate for 
socioeconomic health care research, research focusing on the 
organization and delivery of medical care. We have long 
understood that the rapid changes in the health care system 
have created a critical need to understand what works best in 
the organization, financing, and delivery of health care. Based 
on our belief that the Agency for Health Care Policy and 
Research can provide these answers, the RPA supports 
maintaining the AHCPR through funding of $116 million for 
fiscal year 1998. This is a $16 million increase over fiscal 
year 1997 but brings it to the level which the agency was 
funded in fiscal year 1995.
    The conference report on the fiscal year 1997 Labor, Health 
and Human Services, Education Appropriations bill directed 
AHCPR to study the potential cost-savings derived from 
patients' access to specialists. The RPA looks forward to 
seeing the results of research that we expect will show the 
outcome in cost benefits of direct access to nephrologic care 
for the ESRD and pre-ESRD population.
    I appreciate the committee's consideration of our views 
concerning fiscal year 1998 appropriations for NIDDK and AHCPR. 
Thank you.
    [The prepared statement of Chaim Charytan, M.D., follows:]

[Pages 1850 - 1859--The official Committee record contains additional material here.]


    Mr. Wicker. Thank you so much. We appreciate your 
testimony.
    The subcommittee stands in recess subject to the call of 
the Chair.
    [Recess.]
                              ----------                              

                                          Thursday, April 24, 1997.

                                WITNESS

CAROL ANN DEMARET, IMMUNE DEFICIENCY FOUNDATION

    Mr. Miller [assuming chair]. The subcommittee will come to 
order.
    My name is Congressman Dan Miller, and I will be chairing 
the hearing for the next little while.
    Our next witness is Carol Demaret, board member of the 
Immune Deficiency Foundation. Welcome, Mrs. Demaret.
    Mrs. Demaret. Thank you, Mr. Chairman. As a part of this 
process, you will be receiving declarations from experts who 
will define how close we are to medical breakthroughs in 
correcting faulty immune systems, and how much it will cost to 
reach this wellborn goal. I can not speak with their authority 
and precision on these matter. I can speak of the wrenching 
human needs, and hopes, and failures, and successes. I was told 
you need to know, and feel, these details, too.
    You may have heard of my beloved son, David. The world knew 
him as ``The Bubble Boy,'' because he was born into a bubble to 
shield him against the airborne sea of germs and viruses that 
most of us can counteract most of the time with the natural 
system of self-defense called the immune system. Because of a 
genetic defect, David was born without any sort of immune 
system, not even a weak one.
    The problem is called Severe Combined Immune Deficiency, 
and bears the fearsome acronym pronounced SCID. It comes in 
many intensities, for many reasons.
    David lived, and flourished, in a bubble at home while the 
doctors and scientists labored in their laboratories to find 
ways by which they might cause him to develop an immune system. 
If they could help David, scientists knew, they could help the 
thousands of people with deficient systems who live so 
precariously in our world, those who always seem to be ill from 
something, and the children who otherwise would be doomed to 
death within a few months.
    Science is, after all, the organization of facts, and 
before David's long survival there were precious few facts to 
work with.
    We lived quietly, as normally as possible. I fed my baby in 
that bubble, handling him through a glove system designed for 
moon rocks, and changed his diapers, and hugged him, and felt 
his warmth through the soft plastic walls, and helped him learn 
to walk and talk, and learn and grow, and have a spiritual 
sense. He did all those things, my cheerful, gallant son with 
the black hair and dark eyes that seemed to see things beyond 
the reach of the rest of us. For many years, I yearned to kiss 
him and feel his skin without the heavy plastic and thick black 
gloves, and hear his voice without the muffling barrier that 
had to be between us.
    He waited patiently, with dignity, mostly without 
complaint, and looked out his window at the stars and hoped 
some day to learn what it would feel like to walk barefoot in 
the grass.
    When he was 12, David and his caregivers decided there was 
a very good chance that enough had been learned to treat him 
and free him from his bubble, but something went amiss--it did 
not work. The story did not end as everyone had prayed. My 
David died. A few hours before he went away he was freed from 
the bubble and I did get to kiss and hold him and hear him 
speak so lovingly of so many.
    Every parent who has lost a child prays that their short 
lives means something to the world, and they do. In world 
affecting ways, my man-child has continued to live on in spirit 
and silent research. Of greatest and most far-reaching 
importance, we are told, is that through his valiant life and 
death my son David has enabled science to learn enough to help 
thousands of other children and adults as progress continues to 
be made on the guidance he bravely helped form.
    Understanding the immune system and how to manipulate it 
will help to lead to many cures of many ills. AIDS, for 
instance, Acquired Immune Deficiency, is estimated to affect 40 
million people in the world in three years. No more children 
will ever go into bubbles. From what was learned from my son 
immune systems can now be stirred to more vigorous action, even 
created within the womb before the child is born.
    A few days ago, I was profoundly touched by meeting scores 
of parents and children who had gathered in Bethesda at the 
behest of the National Institutes of Health to share their 
problems and methods of coping and success stories. They came 
from all over the Nation. I even met people from Norway who 
wanted to pass along their gratitude to my son and to this 
Nation. Wide application of what was learned, however, has only 
begun. More must be learned and applied. It takes money, and I 
appeal to you to grant everything that can be sensibly spent in 
this valorous effort.
    My kiss to David was a mother's private gesture of love, 
and grief, and farewell. In a very real sense you are empowered 
to bestow the kiss of life. Thank you for letting me speak.
    [The prepared statement of Carol Demaret follows:]

[Pages 1862 - 1866--The official Committee record contains additional material here.]


    Mr. Miller. Thank you very much for being here. That was a 
very powerful statement, very powerful. Thank you very much.
    Mrs. Demaret. Thank you.
    Mr. Miller. We appreciate it. We will do all we can for 
research.
                              ----------                              

                                          Thursday, April 24, 1997.

                                WITNESS

WILLIAM SCHUYLER, THE FDA-NIH COUNCIL

    Mr. Miller. We are now going to go to William Schuyler, 
director of Federal relations for Glaxo Wellcome. Welcome, Mr. 
Schuyler.
    Mr. Schuyler. Mr. Chairman, thank you for giving me the 
opportunity to present a statement on behalf of the FDA-NIH 
Council. My name is William Schuyler, director of Federal 
Government Relations for Glaxo Wellcome, a member of the FDA-
NIH Council.
    The FDA-NIH Council is a 24 member coalition composed of 
patient advocates, academic scientists, health professionals, 
and research-based pharmaceuticals and biotechnology companies. 
Medical discovery and innovation relies on a relationship 
between these interdependent partners. Government, academia, 
biomedical research companies, health professionals, and 
patients must work as partners to find solutions to today's 
medical problems. Together as the FDA-NIH Council these 
partners in medical discovery and innovation understand we must 
also work together to address the challenges facing the Food 
and Drug Administration and the National Institutes of Health.
    This committee has been vitally important in addressing the 
funding needs of the NIH, and the FDA-NIH Council is grateful 
for its support of these institutes. As a representative of the 
industry, I welcome the opportunity to come here today to 
address the contributions of theGovernment in medical research. 
The national commitment to the NIH lays the foundation for bringing 
research discoveries from the laboratory to patients.
    Fortunately, today's medical research has found treatments 
for many people with many chronic diseases. We now have new 
medical technologies to help premature babies survive without 
brain damage or vision loss. New biotechnology treatments are 
available to treat cystic fibrosis, research that has allowed 
thousands of people with CF to live well into their 30s and 40s 
who before would have died long before this. Asthmatics now 
breath normally, work, play sports, and even represent the 
United States at the Olympics. The potential of gene therapy 
offers great hope for people with diabetes.
    In short, medical research has won many battles. The war 
against disease is far from over. Medical research and 
innovation has improved the quality of life for millions of us. 
The challenge remains to find the answers for the millions more 
who continue to live with disease and disability. Every day 
Americans still suffer or die from cancer, heart disease, 
stroke, Alzheimer's disease, Parkinson's disease, multiple 
sclerosis, cystic fibrosis, diabetes, and other devastating 
diseases.
    As this committee knows, NIH is the primary funding source 
for the basic research into the fundamentals of these diseases. 
The research is generally conducted through universities and 
independent research institutions across the country. The NIH 
also plays a critical role in supporting clinical and 
translational research.
    Therefore, continued support for the NIH is critical to the 
vitality of our Nation's medical research commitment that will 
find new treatments for these diseases.
    In addition to NIH's commitment, this year private industry 
will devote almost $19 billion, or more than 20 percent of its 
U.S. sales to research and development into new drugs. This 
investment, which is greater than that of the NIH, is different 
but complimentary to the work of the NIH. Our basic research 
efforts are more targeted and our clinical research directives 
are more targeted towards finding treatments. Industry does 
not, and cannot, devote resources to the discovery of new 
knowledge at the basic level that the NIH supports. Industry's 
responsibility in this scientific partnership is the maturation 
of scientific knowledge and the translation of research 
discoveries from the bench to the bedside through targeted 
basic and applied research efforts.
    The FDA-NIH Council recognizes that the members of this 
committee have a difficult job deciding how to use the 
available resources to fund the numerous worthy Federal 
programs it must decide between. We believe, however, that the 
role of the NIH to improve the health and welfare of our 
Nation's citizens indicates that funding for the NIH must 
remain a high priority for the 105th Congress.
    The FDA-NIH Council also supports the goals articulated in 
H.R. 83, S.R. 15, and S. 124, that call for a doubling of the 
budget of the NIH in response to the declining commitment to 
research as measured by the proportion of the GNP devoted to 
research over the past 30 years.
    Mr. Chairman, I thank you for the opportunity to present 
this statement before the subcommittee today. We at the FDA-NIH 
Council appreciate your support of the NIH and look forward to 
working with you in the future.
    [The prepared statement of William Schuyler follows:]

[Pages 1869 - 1874--The official Committee record contains additional material here.]


    Mr. Miller. Thank you very much.

                              ----------                              

                                          Thursday, April 24, 1997.

                                WITNESS

SHEILA LA POLLA

    Mr. Miller. We now have Sheila LaPolla, representing 
herself. Welcome.
    Ms. LaPolla. Thank you. Congressman Miller, I am Sheila 
LaPolla, as you said. I am testifying today on behalf of myself 
and others with severe mental illnesses, as well as on behalf 
of our families. We have been traumatized by these devastating 
illnesses. They are heritable, they are chronic, they are 
incurable, however they can be controlled. My hope is that 
research will unravel the mysteries of the brain so that my 
grandson when he is an adult he will not be struck by one of 
these illnesses. Through no fault of his own, he is at risk. 
There is mental illness on both sides of his family.
    Four years ago the dramatic onset of severe mental illness 
changed my life. I was diagnosed with bipolar disorder, or 
manic depression. My deepest fear was realized. I joined the 
ranks of my father who had unipolar, or major depression, my 
brother who also had bipolar disorder, and my other brother who 
had schizophrenia. You may have noticed that I used the past 
tense and I did so because my family members are no longer 
living. They all died victims of their diseases.
    Acceptance of my mental illness did come very, very hard 
for me, this is because of the stigma associated with mental 
illnesses. It is very, very horrendous. I am thankful thatthe 
biomedical research helps de-stigmatize mental illnesses by proving 
that they are physical illnesses.
    I would like to thank you for your support over the past 
two years for increases in research funding. I would not be 
here today were it not for this committee's commitment that 
adequate resources go towards research. The fact is that as 
little as two weeks ago I had a manic episode. I could not be 
sitting here now. I was not functioning. A newly researched and 
FDA-approved anti-psychotic medication helped stabilize me, 
along with other medications. Without funds for the basic 
medical research to understand the brain, scientists could 
never ever be able to develop better medications like the ones 
that really literally pried me from the grips of mania.
    Because of the episodic nature of my disease, I am 
traumatized over and over again. I need to believe that a 
medical breakthrough will some day keep me well managed for 
good. I have half my life ahead of me. I need to think that it 
is going to be a good life, good half life. I need to remember 
that my bipolar disorder is as physical as my insulin-dependent 
diabetes or juvenile diabetes. I take six pills a day to 
control my manic depression just as I take four insulin shots a 
day to control my diabetes. For me, being able to separate my 
disease from self is crucial because by doing so my self-esteem 
is in tact. Brain research has proven that my illness, and my 
father's, and my brothers' illnesses are biologically based and 
not some mysterious malady that can be remedied through sheer 
strength of will. I tried it. It does not work.
    I would like to refer to an article I read in the 
Washington Post. Former head of the National Institute of 
Mental Health, Frederick Goodwin, was interviewed. He said 
``These are brain diseases. You move two inches one way in the 
brain and you have the source of epilepsy. You move two inches 
the other way, you have the source of manic depression. I treat 
half my manic-depressive patients with anticonvulsives.''
    Well, as I mentioned, my bipolar disease is episodic in 
nature. When I am in an active phase my life is chaotic. It is 
almost impossible to sleep. I experience intense psycho-motor 
agitation. I cannot stop moving. It is as if electricity were 
running through my veins. My thoughts are like lightening; they 
ricochet inside my head, flitting in and out. I can not hold 
onto a thought. There are times, I can almost see a sentence 
flying outside of my head and I feel that I can reach it, I can 
grab it and pull it back in so I could make some sense of it 
all. During this time my speech is very rapid--right now it is 
because I am nervous--but during those times it is truly 
biologically based rapidity of my speech. My psychiatrist tells 
me that I have flight of ideas. I have what is called atypical 
mixed statal bipolar disorder and along with my manic symptoms 
I have depressed symptoms in a single episode.
    Sir, if I may mention that my brother, I mentioned he had 
manic depression, and he too rode the chaotic waves of 
extremes. Being afflicted with manic depression proved 
unbearable to him and he did kill himself. I too had a brush 
with suicidal thoughts where when I was giving myself an 
insulin shot I thought of drawing excess insulin and giving 
myself an overdose. These diseases are life-threatening.
    The severe mental illnesses or neurobiological brain 
disorders such as bipolar disorder, major depression, 
schizophrenia, obsessive compulsive disorder, and panic 
disorder are, indeed, life-threatening. Those of us with these 
illnesses struggle hard to survive. Sometimes we do feel like 
giving up. Those of us with mental illnesses need hope and our 
family members need hope. We need to believe that our futures 
will be brighter. Research gives us hope. I implore you to 
please, please be generous with your funding for research for 
mental illnesses. Thank you.
    [The prepared statement of Sheila LaPolla follows:]

[Pages 1877 - 1887--The official Committee record contains additional material here.]


    Mr. Miller. Thank you very much for being here today. I 
admire you for coming before our committee and testifying. The 
support we get from the citizens of this country is so 
important to provide that. I am excited with what is happening 
in the National Institute of Mental Health. The director comes 
and testifies and talks about it, and we are on the verge of 
some great breakthroughs. I am optimistic for the future. So 
thank you very much for coming today.
    Ms. LaPolla. Thank you. I am excited too, and it does give 
me hope.
    Mr. Miller. Thank you for showing your support.

                              ----------                              

                                          Thursday, April 24, 1997.

                                WITNESS

GERALD S. LAZARUS, M.D., THE SOCIETY FOR INVESTIGATIVE DERMATOLOGY 
    (SID)

    Mr. Miller. We will have Doctor Gerald Lazarus, president-
elect of SID, the Society for Investigative Dermatology. 
Welcome, Doctor.
    Dr. Lazarus. Thank you. I am really very grateful to have 
this opportunity to testify before you today. I am doing so on 
behalf of the Society for Investigative Dermatology, which has 
over 2,000 members. Our purpose is really to personally 
emphasize the need for increased funding for the programs of 
the NIH and especially the National Institute of Arthritis, 
Musculoskeletal and Skin Diseases.
    Our recommendation is that NIAMS receive a 9 percent 
increase for fiscal year 1998. It is our understanding that all 
other members of the National Institutes of Arthritis, 
Metabolic, and Skin Disease will be seeking a similar amount.
    I think almost everyone in this room has had a skin disease 
which has caused them physical discomfort or embarrassment. If 
not, you certainly know individuals with serious skin 
difficulties which have affected their lives. Skin diseases are 
not only common; they are expensive and the cost to the public 
is staggering. It is over $8 billion a year.
    It is not in my testimony, but Ms. LaPolla is one of my 
patients. I had absolutely no idea she would be here. This is 
an extraordinary thing. I am using my five minutes, but this 
does not happen all that often and I can tell you that my heart 
goes out to her. In fact, one of the issues was a skin problem 
which in fact tripped one of these episodes of difficulty.
    What I am trying to tell you today really is that there is 
a revolution going on--it is in molecular and cell biology, in 
genetics, in immunology, it is in information processing, and 
in laser technology. The opportunities to make and have an 
effect on the health of patients and advance our understanding 
of disease has never been more propitious.
    With regard to skin disease, we are in the same spot. 
Something that you probably do not appreciate is that 
frequently we would make all sorts of diagnoses from pieces of 
skin--internal diseases, general systemic diseases--and, 
furthermore, we can use this skin basically to assess other 
kinds of problems because the skin is right there, we can 
observe it, and we can change it.
    The advancement of our understanding of life cycle skin and 
hair has profound implications, not only with regard to skin 
but with regard to cancer and a variety of different illnesses. 
We now know and have available to us very unique forms of 
therapy including lasers which are now being modified for their 
use in skin and things as disparate as esophageal carcinoma and 
opening up hearts and vessels. Skin disease is truly a model 
for studying systemic diseases.Therefore, when one thinks about 
it, one has to be aware of the profound systemic implications.
    I am really proud to report to you that your investment in 
skin research has paid some extraordinary dividends. We found 
genes for some terrible, terrible blistering diseases in 
children, we have dealt with some very horrible scaling skin 
diseases such as ichthyosis, and we have learned that in 
individuals with psoriasis, which effects 1 percent of the 
population, that it is really a deranged immunological method. 
We have in fact defined the gene for inherited forms of basal 
cell skin cancer, the most common cancer known, and we have 
learned tremendous information about other genes and their 
implications in skin cancer as well as other systemic 
illnesses.
    Advances in the design of drug delivery systems allow for 
sustained release of drugs through the skin for systemic 
illnesses, leading to more effective treatments using this 
pathway not only for skin diseases but for systemic diseases as 
well. There is an increased understanding of wound healing, 
including the role of various growth factors leading to new 
approaches for chronic wounds. This is an $8 billion a year 
cost to the American taxpayer. People with tecubitous ulcers 
and leg ulcers. As I have mentioned, some of our therapeutic 
modalities in fact have demonstrated tremendous efficacy.
    The public truly does deserve value in return for research 
support in health care. It is incumbent upon the research 
community to demonstrate that we have earned the public's money 
and trust. I believe we are succeeding and I hope you do. Thank 
you, Mr. Chairman and subcommittee members, for this 
opportunity to discuss with you the science of skin disease and 
dermatology. I would be pleased to answer any questions at this 
time.
    [The prepared statement of Gerald Lazarus, M.D., follows:]

[Pages 1890 - 1895--The official Committee record contains additional material here.]


    Mr. Miller. Thank you very much for your testimony. I 
appreciate it.
    The committee will stand in recess for about five minutes.
    I would just note that Mr. Porter, our Chairman, is unable 
to be with us today because of a back disc problem and it is 
very painful.
    The committee stands in recess.
    [Recess.]
    Mr. Bonilla. The subcommittee will come to order.
    I am Henry Bonilla, from Texas, for those of you who I have 
not had the pleasure of meeting before. I appreciate the 
witnesses being patient with us during these times. The 
Chairman of this subcommittee, our distinguished John Porter 
has really been struggling with a back ailment in the last few 
days. We have all been trying to help fill in at the 
subcommittee hearings.
                              ----------                              

                                          Thursday, April 24, 1997.

                                WITNESS

WENDY LEVINSON, M.D., THE SOCIETY OF GENERAL INTERNAL MEDICINE

    Mr. Bonilla. We would be pleased to continue now with our 
public witnesses. I would like to now call Doctor Wendy 
Levinson, director, Division of General Internal Medicine at 
the University of Chicago School of Medicine, here representing 
the Society of General Internal Medicine. Doctor Levinson, 
welcome.
    Dr. Levinson. Thank you. Good afternoon. I am pleased to be 
here to represent the Society of General Internal Medicine, an 
organization of 2,700 physicians involved in education and 
research in the delivery of primary care, and to present our 
recommendations for funding for Title VI programs and for the 
Agency for Health Care Policy and Research.
    Primary care programs in academic institutions depend on 
Title VII and AHCPR funds to support their ambulatory training 
and health care delivery research efforts. If Congress wishes 
to encourage young physicians to enter careers in primary care, 
and if the Congress wants reliable data on how to provide cost-
effective health care, it should increase funding for these two 
programs.
    As you know, Medicare reimbursement for graduate medical 
education provides little or no support for training outside 
the hospital. Doctors-in-training receive little experience in 
the non-hospital setting where they will ultimately spend their 
time practicing as physicians. The HRSA Title VII programs are 
the answer to this ``Catch 22'' in our system for training 
physicians. The Title VII program is the major source of 
funding for this type of primary care and outpatient training 
experience and helps health care professionals to get 
experience that will prepare them for careers in the next 
century.
    Those in SGIM are proud of the track record of Title VII in 
general internal medicine programs. Over 69 percent of internal 
medicine graduates who have participated in a program funded 
under HRSA enter careers in primary care, and that's nearly 
twice the rates of internal medicine graduates that do not 
receive training in these settings. In addition, over 40 
percent of the internists that have trained in these programs 
in the last two years established practices in medically under-
served areas.
    SGIM was stunned by the Administration's request to 
decrease funding for Title VII from $82 million to $8 million--
a 90 percent cut. This subcommittee has provided appropriate 
increases to Title VII last year. The Administration's request 
places Title VII on the path to extinction and we urge you to 
defend the program since primary care training is essential to 
the future of health care.
    We also appreciate the subcommittee's support for the 
Agency for Health Care Policy and Research. The committeehas 
heard a lot today about NIH. We strongly support funding for NIH, but 
believe it must be partnered with the Agency for Health Care Policy 
Research so that we can examine questions of cost-effectiveness and of 
how health care can best be delivered and organized.
    The Agency for Health Care Policy Research supports 
research in the following areas:
    It sponsors research to develop more cost-effective 
approaches to the care of conditions commonly diagnosed in the 
Medicare population. Research sponsored by the agency will help 
Congress to discriminate between the fat and the bone of the 
Medicare program so that you can make prudent judgments and 
decide what can be eliminated without interrupting necessary 
services.
    AHCPR's research discovers effective methods of health care 
that are less expensive than alternatives. For example, one 
study found that annual Medicare savings of $125 million could 
be achieved through the implementation of recommended treatment 
methods for emergency care of heart attack patients.
    The impact of malpractice claims on health care budget has 
also been a focus of the agency. In fact, my own AHCPR research 
is focused on how to teach physicians communication skills that 
could prevent unnecessary malpractice claims.
    I would like to comment on one further problem confronting 
AHCPR, and that is the diversion of funds to the agency's 
medical expenditure panel survey. Last year, AHCPR's total 
budget increased from $125 to $143 million; however, the total 
expenditure for the expenditure survey grew to $45 million from 
$15 million. This had a devastating effect on AHCPR's 
extramural grant program. In 1994, the agency supported 214 
investigator-initiated grants. This year with the President's 
proposal for fiscal year 1998 the grants would drop to less 
than 100, 86 of which are ongoing, non-competing grants.
    On the behalf of health services researchers in your 
district and across the country, I can tell you that many of 
them are abandoning their research careers and their ideas 
because of the virtual impossibility of securing AHCPR funding. 
I strongly urge you to approve additional funding above the 
President's request.
    Mr. Chairman, we would recommend for Title VII a modest 3 
percent increase in the programs. For AHCPR we ask that you 
provide the funding necessary to repair the damage done over 
the last two years to the investigator-initiated grant program. 
We recommend a budget of $160 million, a $16.5 million increase 
which would increase it to where it was two years ago. We urge 
that this entire amount be allocated to extramural 
investigator-initiated programs with a small amount devoted to 
the development of new career development programs for young 
investigators and minority investigators.
    I would like to close by thanking the subcommittee for its 
strong support of Title VII and its efforts to defend AHCPR. I 
am happy to respond to questions.
    [The prepared statement of Wendy Levinson, M.D., follows:]

[Pages 1899 - 1906--The official Committee record contains additional material here.]


    Mr. Bonilla. Doctor Levinson, thank you very much for your 
testimony today. It helps us make the decisions in the next few 
weeks in terms of funding on this appropriations subcommittee. 
We appreciate your being here.
    Dr. Levinson. Thank you.
    Mr. Bonilla. Thank you very much.

                              ----------                              

                                          Thursday, April 24, 1997.

                                WITNESS

PETER E. SCHWARTZ, M.D., THE SOCIETY OF GYNECOLOGIC ONCOLOGISTS

    Mr. Bonilla. I would now like to call Doctor Peter 
Schwartz, director of the Section of Gynecologic Oncologists at 
Yale University School of Medicine, representing the Society of 
Gynecologic Oncologists. Welcome, Doctor Schwartz.
    Dr. Schwartz. Thank you, Mr. Bonilla, other members of the 
subcommittee. I am Peter Schwartz, professor and chairman of 
the Department of Obstetrics and Gynecology at Yale University. 
I am here today in my capacity as president of the Society of 
Gynecologic Oncologists. The SGO is the only national medical 
specialty devoted to the study and treatment of women with 
reproductive organ cancers. These malignancies include cancers 
of the cervix, uterus, and ovary.
    I am extremely grateful for the opportunity to provide 
public witness on behalf of the SGO in support of increased 
funding for the National Institutes of Health, and particularly 
the National Cancer Institute, which provides the majority of 
the funding for gynecologic cancer research.
    There are three main gynecologic cancers--cervical, 
uterine, and ovarian. The incidence of each of these cancers 
and the women developing these diseases are different, 
reflecting the unique biologic characteristics of these 
diseases. In my written statement there are numbers regarding 
cervical and uterine cancer. As it will relate to a story I 
will share with you at the end, I would like to inform you that 
in 1997 the American Cancer Society estimates 26,800 new cases 
of ovarian cancer will be diagnosed in this country, and 14,100 
women will die from ovarian cancer this year. A relative 
survival rate of 90 percent can be achieved if the ovarian 
cancer is diagnosed early. Unfortunately, 70 percent of women 
with ovarian cancer are not detected until the cancer has 
reached an advanced stage which has an 80 percent fatality 
rate.
    Let me present some examples of current clinical research 
into the causes of and cures for gynecologic cancers. In the 
area of cervical cancer research, the use of a vaccine has 
recently been approved for investigation at the NCI. This 
clinical initiative targets the human papilloma virus (HPV) 
which as been associated with over 90 percent of cervical 
cancers. The development of a therapeutic vaccine to treat 
advanced cervical cancer represents a novel and attractive 
alternative to current therapies. Also underway is the 
development of a prophylactic HPV vaccine with the potential to 
prevent the transmission of the HPV virus and thus prevent 
cervical cancer.
    Recently in the area of ovarian cancer, the gynecologic 
oncology group, one of the NCI cooperative groups, demonstrated 
a 50 percent increase in median survival time among women with 
advanced ovarian cancer who were treatedwith the paclitaxel-
based chemotherapy compared to the standard chemotherapy.
    The SGO is very supportive of a doubling of the NIH budget 
over the next five years. As a way to begin to achieve this 
goal, the SGO would ask that this subcommittee approve an 
increase of at least 9 percent for the NIH and that this 
increase be uniformly distributed to each institute.
    We would like to share with the subcommittee some areas 
that need attention and hold scientific promise. First, 
gynecologic oncologists as primary investigators in independent 
labs on the NCI campus. The issue of gynecologic oncologists as 
principal investigators in the intramural program is quite 
timely with the building of the new clinical center and the 
emphasis of laboratory research during the fellowship training 
of a gynecologic oncologist.
    Increasing the number of principal investigators should 
increase the enrollment in screening and treatment trials in 
gynecologic cancer at the NIH clinical center. There is 
currently only one fully trained and board eligible gynecologic 
oncologist with an independent laboratory on the NCI campus. 
The SGO would urge the subcommittee to work with Doctor 
Klausner, as we are, to ensure that at minimum three 
independent labs are established and supported in the new 
clinical center where the primary investigators are fully 
trained gynecologic oncologists.
    Second, increased emphasis on early detection and 
prevention of ovarian cancer. There is quite a difference in 
the survival rates of women who are diagnosed with cervical 
cancer and women who are diagnosed with ovarian cancer. The 
reason for this is we have a very good method for diagnosis 
cervical cancer--the pap smear. We do not have such a test for 
the detection of ovarian cancer. The SGO is advocating that 
additional Federal resources be directed towards increasing 
clinical trials for ovarian cancer prevention and detection.
    Third, a specialized program of research excellence for 
ovarian cancer. Last year, the full appropriations committee 
encouraged the NCI to provide funding for a SPORE that was 
targeted at ovarian cancer research. A SPORE is a competitive 
grant mechanism to conduct translational research where cancer 
centers are the applicants. The SGO would like to thank the 
committee for its efforts in this area. Unfortunately, we are 
yet to see a request for application (RFA) announced for SPORE 
specifically for ovarian cancer. But we hope that after the 
cancer center evaluations are finished and revealed this will 
occur. We ask that the subcommittee continue to monitor the 
situation until a SPORE targeted for ovarian cancer is funded 
at the NCI.
    Fourth, the need to train more gynecologic scientists. The 
SGO would like to suggest to the subcommittee that they 
consider directing the NIH Office on Women's Health to take on 
a greater role in encouraging research directed at the cancers 
of the reproductive system. One way to do this is to have the 
Office on Women's Health dedicate a small portion of their 
fiscal year 1998 budget to administer a young investigators 
program in gynecologic oncology research. Numerous grant 
mechanisms like the RO-3 and the Clinical Associate Physician 
program already exists for the Office on Women's Health to use 
as a model. The SGO through its foundation, the Gynecologic 
Cancer Foundation, has already partnered with the NCI to 
provide funding for one young investigator.
    Congressman Bonilla, I greatly appreciate your time and 
attention to the need for additional resources for research 
being conducted to find the causes and subsequently the cures 
for ovarian cancer. I would like to close today with a success 
story. I would like to share with you the story of the first 
patient I treated at Yale University Medical Center with 
chemotherapy, a success that happened because of past research 
in the area of gynecologic cancer.
    Peggy was 18 years old when diagnosed with a pelvic mass 
thought to be a twisted ovarian cyst. She had surgery where a 
big ugly tumor was removed. A frozen section was done and an 
endodermal sinus tumor, a rare ovarian cancer, was diagnosed. 
The prognosis was grim. In 1975, 50 percent of the women 
diagnosed with this cancer were dead within six years and 
almost all the rest died within one year.
    I went to the head of my division, I had just come to Yale 
having completed my gynecologic oncology fellowship, to discuss 
her treatment. At that time, radiation was the treatment of 
choice. I wanted to try an experimental chemotherapy program 
that had recently been successful at the M.D. Anderson Cancer 
Center in the treatment of a few similar patients. Peggy was 
treated with 18 months of that chemotherapy. She was re-
operated on and no evidence of cancer was found.
    Peggy went on to become the mother of two healthy children 
and remains alive and well today 22 years following her 
original diagnosis. It is this sort of outcome that drives my 
colleagues and me to seek new ways to prevent, to diagnose, and 
to treat women at risk for or who have gynecologic cancer.
    I and the SGO look forward to working with each of you in 
the years ahead on behalf of the women of this country and 
their reproductive health. I would be happy to answer your 
questions at this time.
    [The prepared statement of Peter Schwartz, M.D., follows:]

[Pages 1910 - 1922--The official Committee record contains additional material here.]


    Mr. Bonilla. Doctor Schwartz, we thank you very much for 
appearing today. The 9 percent figure that you quoted is 
shooting a little higher than we are realistically looking at, 
but I understand where you are coming from. Thank you very much 
for appearing here today.
                              ----------                              

                                          Thursday, April 24, 1997.

                                WITNESS

WALLACE E. ZUDDEN, THE UNITED DISTRIBUTION COMPANIES

    Mr. Bonilla. I would now like to call Wallace Zudden, vice 
president of the Wisconsin Gas Company, he is here today 
representing the United Distribution Companies. Welcome.
    Mr. Zudden. Good afternoon. Mr. Chairman and members of the 
subcommittee, thank you for this opportunity to testify. My 
name is Wally Zudden. I am a vice president of the Wisconsin 
Gas Company. We are headquartered in Milwaukee, Wisconsin, and 
we serve communities throughout the State of Wisconsin. We 
serve over 500,000 customers, 92 percent of which are 
residential. In that residential customer base are 60,000 
households, or about 120,000 customers who are low income. For 
this group of customers the Low-Income Home Energy Assistance 
Program is essentially critical.
    I appear today on behalf of the United Distribution 
Companies, a group of gas utilities in 14 States mostly in the 
midwest and northeast. Attached to my testimony is a list of 
those companies.
    Today, I would like to direct my oral comments to some 
general comments about why this program is still needed. My 
written testimony contains a lot of statistics, but today I 
would really like to sort of leave those aside and talk to some 
general observations. I think there are two major themes that I 
would like to emphasize: (1) the conditions that created this 
program in large part still exist; and (2) there have been some 
recent changes since the program came into being that cause 
this program to be more important than ever.
    In terms of what has remained rather constant. What has 
remained constant is that heat and cooling are essentials of 
human life for people who live in parts of the country where 
cold weather and hot weather are an issue. People do not have 
an option, and did not then, of whether or not to consume 
energy to heat and cool their homes. As a result, they must 
incur the expenses that go with heating and cooling their 
homes.
    When this program was created energy burdens were 
disproportionately high on low-income people. It was not 
unusual to find low-income people having burdens of 17 to 30 
percent of their income just to have energy in their home. That 
burden remains the same today. Little has changed.
    The program was designed initially to be a supplement for a 
broad base of low-income consumers. It was not directed 
primarily at public assistance, and, in fact, that was why it 
was created with a 150 percent of poverty guideline limitation. 
Generally, as you look at it, more than half of the recipients 
in any year are not on public assistance. They are essentially 
the elderly and the working poor and the disabled as opposed to 
people on public assistance.
    What we also find looking at the program is there are 
significant numbers of households who are on the program for 
short periods of time. They move into that need for this 
program because of crisis situations--whether through loss of 
job, through catastrophic illness or injury, or loss of the 
major bread winner--and this becomes a transition program for 
them until they get back on their feet and can go back into the 
economic self-sufficiency that they started out in.
    The States generally have struggled to keep the program 
guidelines in place. A 50 percent reduction in funding which 
has already occurred for this program has made many States cut 
back to 110 percent poverty as a guideline which, therefore, 
eliminates some elderly and working poor that the program was 
designed to serve. Thus, the need for the program which created 
the program in the first place still exists. I submit there are 
three major changes that have occurred since the program 
started that underscore the need for funding even more.
    The first is something that happened in the mid-1980s to 
late-1980s, and that is the partnership between fuel supplies, 
particularly utilities, and governmental agencies to create 
programs using LIHEAP as a cornerstone to help low-income 
customers afford their bill and actually to get them back into 
a position where they make regular payments and start to move 
toward economic self-sufficiency. Those programs include 
elements of affordable payments, arrears forgiveness, and 
weatherization. In our State, $8 to $11 million are spent 
annually by utilities to weatherize the homes of low-income 
customers. If that cornerstone is removed, these programs 
themselves may fall also. I think that is a significant 
resource that we would be losing if this program no longer 
existed.
    There are two recent developments however that I think are 
even more significant. The first is deregulation. If you look 
at deregulation, the model which is currently being considered 
by many States is one in which companies such as mine will 
become transporters of gas, we will not sell the energy 
molecule itself. That will be sold by energy marketers. These 
are non-regulated companies, they are not necessarily going to 
be located in the State, they do not have an obligation of 
service like a public utility. The issue becomes, who will sell 
the gas to low-income customers if they do not have the 
resources to pay for it?
    An equitable solution must be found to this that does not 
put the burden on one class of customer versus another. As an 
example, many of you may have seen some recent ads by NRON gas 
marketing where a community purchased gas from NRON and they 
touted the benefits they achieved. I would like for you to 
think about what the competition would be between a small rural 
town which has a minimal low-income situation to deal with and 
a major urban area that has a significant low-income 
population. Without having some assurance of payment for that 
low-income population, people are going to be more inclined to 
compete for the areas of the country where the resources are 
there to pay for the gas bills. As a result, they are going to 
get the best prices and the best terms because that is what 
competition is really all about. It is really important that 
this be kept as a cornerstone if we are going to have all 
customers share the benefits of deregulation.
    Welfare reform is also something that we need to consider 
because this program helps people transition from welfare to 
economic self-sufficiency.
    What I would urge the committee to do would be to 
appropriate the $1.319 billion for fiscal year 1998, and an 
advance appropriation of at least that amount for fiscal year 
1999 so that we can administer the programs smoothly, and to 
not allow leveraging dollars to supplant regular LIHEAP 
appropriations for meeting low-income households' basic energy 
needs. Thank you.
    [The prepared statement of Wallace Zudden follows:]

[Pages 1926 - 1934--The official Committee record contains additional material here.]


    Mr. Bonilla. Thank you very much, Mr. Zudden, for appearing 
before us today. Your testimony is important and we appreciate 
it. Thank you.
                              ----------                              

                                          Thursday, April 24, 1997.

                                WITNESS

BRUCE M. COHEN, M.D., PH.D., McLEAN HOSPITAL

    Mr. Bonilla. I would like to call next Doctor Bruce Cohen, 
senior vice president for research and training at the McLean 
Hospital in Belmont, Massachusetts. Welcome, Doctor Cohen.
    Dr. Cohen. Mr. Chairman, I want to thank you for affording 
me the opportunity to appear today. I am Bruce Cohen, senior 
vice president for research and training at McLean Hospital, 
which is a not-for-profit psychiatric institution located in 
Belmont, Massachusetts.
    McLean, a division of the Massachusetts General Hospital, 
is the largest center for psychiatric and substance abuse 
treatment and teaching, and the largest psychiatric research 
institution affiliated with Harvard Medical School.
    In opening, we would like to thank the committee for its 
strong and consistent support for the National Institutes of 
Health and its mission. We acknowledge the Chairman and the 
other members of the subcommittee for their tireless efforts in 
support of increasing funding across the board for NIH and for 
biomedical research.
    As you are aware, mental disorders are very common, 
affecting over 30 million Americans, causing untold suffering, 
and costing over $300 billion of expense yearly in lost work 
and the cost of care. To address this suffering, we 
particularly support increased funding for those agencies which 
provide grants for the study of mental illnesses. Research 
projects underway with the support of these agencies are making 
unprecedented contributions to our understanding of a host of 
serious brain diseases including Alzheimer's disease, 
schizophrenia, bipolar and other affective disorders, and 
substance abuse.
    For McLean and other academic centers to move forward with 
our programs of research project grants from NIH are essential. 
These grants provide key support for personnel and the supplies 
needed to perform research. In addition, however, we must 
purchase the equipment and build the space necessary to conduct 
scientific projects. It is in this area that the programs 
sponsored by the National Center for Research Resources of NIH 
are absolutely critical. The need is especially great for 
clinical research. To translate the power of basic science to 
the study of disease requires that modern technology be 
available and applied in clinical settings.
    As you know, there is a biomedical revolution underway. It 
is strongly based on the availability of new technologies in 
molecular biology, genetic cell biology, and bio-imaging. In 
psychiatry, after years of only hoping that we could understand 
the brain, these approaches offer the promise of identifying 
the determinants of mental illness. However, potential advances 
can only be fully realized if the psychiatric neuroscience 
community has continued access to modern technologies and the 
facilities, resources, and skilled investigators to use them.
    The infrastructure and instrumentation needed to support 
state-of-the-art research are expensive. For academic medical 
centers where new technologies can be put to use most 
productively for the study of disease cost containment and 
managed care initiatives have severely restricted institutional 
funds needed to remain current. In most instances, adequate 
funding can only be obtained with Federal grant support. 
However, technologies and scientific opportunities are being 
developed at a rate faster than the growth of available 
funding. In fact, the monies allocated for shared equipment 
purchases has declined substantially since the late 1980s. 
Moreover, new equipment is increasingly expensive with some 
biomedical research instruments costing over half a billion and 
others over a million dollars while limits on Federal support 
currently are capped at $400,000.
    Examples of such high technology equipment increasingly 
used in psychiatric research include improved microscopes and 
magnetic resonance imaging. Microscopes now have the ability to 
see connections of cells in brain with greater accuracy than 
ever before possible. Magnetic resonance scanning offers the 
capability to concurrently study structure, chemistry, and 
function of the brain in living subjects without the use of 
dangerous radiation.
    With this in mind, we ask that the committee provide at 
least $37 million for the National Center for Research 
Resources extramural facilities account, the amount recommended 
by the House last year. Additionally, we would ask that $5 
million be added to the shared instruments grants account to 
support competitive grants for facilities in advanced 
instrumentation for use at sites performing research on the 
causes and treatment of severe mental illnesses.
    If I may briefly comment on one additional initiative, we 
would ask that report language be added so that the National 
Institute on Alcohol Abuse and Alcoholism can support a 
preventive screening project to identify those who suffer from 
alcohol use disorders. We have witnessed the value of such an 
effort in other mental health areas.
    This year over 11 million Americans will experience 
symptoms of alcohol dependence but for many the disorder will 
go unrecognized. Alcohol is directly involved in over 100,000 
deaths annually and plays a role in approximately 20 percent of 
general hospital admissions, 50 percent of motor vehicle 
fatalities, 50 percent of all fire deaths, 50 percent of all 
fatal falls, and 30 percent of completed suicides. Development 
of a screening initiative holds great promise for event 
identifying those in trouble and the potential to prevent many 
personal tragedies.
    We thank the Chairman and the committee members for their 
support of research and treatment and for your thoughtful 
consideration of these recommendations. Thank you.
    [The prepared statement of Bruce Cohen, M.D., follows:]

[Pages 1937 - 1944--The official Committee record contains additional material here.]


    Mr. Bonilla. Thank you very much for your testimony, Doctor 
Cohen.
    At this time, the subcommittee will stand in recess for 
about ten minutes for a vote that is called now on the House 
floor. We will come back and hear the final two witnesses.
    The committee stands in recess.

                              ----------                              

                                          Thursday, April 24, 1997.

                                WITNESS

ADOLFO FIRPO, M.D., THE UNIVERSITY OF PUERTO RICO

    Mr. Bonilla. The subcommittee will come to order once 
again.
    We have two final public witnesses. First, Doctor Adolfo 
Firpo, chancellor of the Medical Sciences Campus of the 
University of Puerto Rico. Welcome.
    Dr. Firpo. Good afternoon, Mr. Bonilla. Thank you for the 
opportunity to present testimony relevant to the fiscal year 
1998 Labor-HHS-Education Appropriations bill. I am Doctor 
Adolfo Firpo, chancellor of the Medical Sciences Campus of the 
University of Puerto Rico, a comprehensive and 
multidisciplinary academic health sciences center that has been 
recognized as a Hispanic Center of Excellence by the Nation's 
Public Health Service.
    This afternoon, I would like to focus on two of five 
initiatives that are of importance to the university, Hispanic 
Americans, and the Nation. First, the establishment of an 
academic managed care health center to serve as a national 
model for multidisciplinary educational research on the health 
services to Hispanic communities. And second, the conversion of 
the university's Primate Center into a national Regional 
Primate Research Center for the Caribbean. The remaining three 
initiatives are included in my written statement and I 
respectfully ask the subcommittee to review them when time 
permits.
    Recognized as being the fastest growing population in the 
country, Hispanic Americans are equally distributed throughout 
the Nation and have been found to lack adequate health care 
services and resources. In Puerto Rico, we are addressing the 
health needs of the poor and disadvantaged by refocusing on 
prevention models and community needs. The Medical Sciences 
Campus is directly involved in this process and has been 
examining the organization and distribution of health services 
under a managed care model to communities in metropolitan and 
certain rural areas of the Island.
    Through these efforts, the UPRMC faculty has recognized the 
importance of (1) multidisciplinary teams of health 
professionals, (2) community-based points of entry into the 
managed care system, (3) the impact of capitation contracts on 
clinical assessment and ancillary diagnostic procedures, (4) 
close monitoring of the chronically ill for the implementation 
of effective care strategies, and (5) the relevance of early 
diagnosis and evaluation of the acutely ill for immediate 
intervention and restoration to function. All these demonstrate 
that cost-effective planning and management assessment 
techniques are vital in addressing the health needs of all 
populations under managed care financed by capitation.
    The efforts underway at the University of Puerto Rico hold 
great promise not only for the Island, but for the Nation as 
well. However, with the continued assistance of this committee, 
we know we can do more. Therefore, the University of Puerto 
Rico is requesting that funding in the amount of $7.5 million 
be provided to the Department of Health and Human Services 
Office of Minority Health for the purpose of supporting a two 
year initiative to establish a national managed care health 
center at a Hispanic-serving institution. This initiative would 
underscore the Congress' commitment to both HSIs and the health 
concerns of America's under-served populations, particularly 
that of Hispanics.
    Finally, Mr. Chairman, I would like to speak on the 
university's efforts to have a federally-funded primate center 
become a part of the National Institutes of Health's Regional 
Primate Research Centers program. The UPS Primate Center dates 
back to the establishment of the free-ranging colony of Rhesus 
monkeys on Caya Santiago Island in 1938. From 1966 until 1970 
this colony was a unit of the National Institutes of Health 
Laboratory of Prenatal Physiology in San Juan. The primate 
facility in Puerto Rico served as a model for the current 
national Regional Primate Research Centers program.
    In 1970, the LPP closed and the primate center was 
nominally established under the auspices of the University of 
Puerto Rico with co-grant support from the NIH. Today, the 
primate center has three major field research site components--
Caya Santiago, Sabanaseka, and a skeletal collection at the 
School of Medicine. It continues to serve as a national 
research, educational, and training resource. The majority of 
research conducted at the primate center is done by 
investigators from the mainland either independently or in 
conjunction with UPR investigators. More than 12 mainland 
institutions of higher education and 6 foreign countries use 
the UPR facility for a variety of research including behavioral 
biology, population studies, and medical genetics.
    Based on the history of Regional Primate Research Centers 
program and the contributions of Puerto Rico to this effort, we 
believe that the primate center in Puerto Rico can and needs to 
be more fully utilized as a regional center. Thus, the UPR asks 
that report language be included encouraging the NIH to 
consider establishing a Regional Primate Research Center in the 
Caribbean.
    Mr. Chairman, this concludes my testimony. Thank you for 
the opportunity to appear before you today.
    [The prepared statement of Adolfo Firpo, M.D., follows:]

[Pages 1947 - 1956--The official Committee record contains additional material here.]


    Mr. Bonilla. Thank you very much, Doctor Firpo, and thank 
you for your patience as well with the interruptions we have 
had. We appreciate your testimony.

                              ----------                              

                                          Thursday, April 24, 1997.

                                WITNESS

JOHN L. SEVER, M.D., PH.D., ROTARY INTERNATIONAL

    Mr. Bonilla. I would now like to call Doctor John Sever, 
president, Rotary International. Doctor, you have the honor of 
being our final public witness today.
    Dr. Sever. Thank you very much. I appreciate this 
opportunity. I would also appreciate being president of Rotary 
International. I am a member of Rotary International and am 
representing them here today. I am professor of pediatrics at 
the Children's Hospital here in Washington, D.C.
    Rotary International, as you know, is a global organization 
with over 1.2 million members, 400,000 in the United States. 
The clubs work to promote humanitarian service, high ethical 
standards, and international understanding.
    I am representing today a broad coalition not only of 
Rotary International but other health advocates, including the 
American Academy of Pediatrics, the Task Force on Child 
Survival, the March of Dimes, and the U.S. Committee for 
UNICEF, to seek your support for the global eradication of 
polio.
    Allow me first, on behalf of Rotary International and the 
coalition, to express our sincere gratitude to you. A year ago, 
I presented before you the case for increased funding for polio 
eradication and you responded enthusiastically by recommending 
$47.2 million be allocated for laboratory support, technical 
expertise, and polio vaccine purchases and delivery through the 
Centers for Disease Control.
    Great progress has been made. We are on the target of 
eradicating polio by the year 2000. We believe that can be 
achieved. We will no longer have to immunize children after 
that anywhere in the world. The disease will no longer exist. I 
will just show you briefly a graph that gives you the track of 
this. This is not a desire or a hope; it is being accomplished. 
I think you can see that very readily here on this display. As 
you can see, going back to 1981, the number of cases of 
reported polio worldwide has been decreasing. And now this year 
there is an estimated 3,500 from last year's cases being 
reported now. We think this will get down to zero by the year 
2000.
    That will of course be a tremendous advantage to not only 
the children of the world, but to the immunization efforts 
since that will have been accomplished. Seventy-five countries 
this last year conducted national immunization days, that was 
immunizing all the children under five years of age, and that 
involved 450 million children. For example, in India they 
immunized 113 million children in one day in December of last 
year and again in January of this year. There is massive 
efforts worldwide country participation on this effort of 
eradication.
    The Center for Disease Control has made very valuable 
contributions to it, supporting the international assignment of 
32 long-term epidemiologists throughout the world and 
virologists, they provided $30 million to UNICEF for polio 
vaccine and operational costs for 50 countries, and they 
provided $5.5 million for surveillance and National 
Immunization Day. They are helping really throughout the world 
in these efforts.
    The goal is achievable. Eradicating polio will save the 
United States itself over $230 million each year because we 
would not have to immunize our children anymore. That is how 
much it costs us now to immunize our children for a disease 
that does not occur. So each year we will have that as a 
savings after this eradication is completed. Rotary 
International has provided through its membership approximately 
$400 million towards this effort. We are providing vaccine in 
many parts of the world, our volunteers are working to 
accomplish immunizations directly by giving the vaccine.
    For fiscal year 1998, we are again requesting at least the 
sum as appropriate in 1997 of $47.2 million to be channeled 
through the U.S. Centers for Disease Control and Prevention for 
targeted eradication efforts. This would be primarily for the 
purchase of vaccine and the delivery and technical support for 
national immunization days. This would maintain the funding at 
the same level as 1997. This is essential to reach our goal of 
eradication by the year 2000 and be able to stop immunizing for 
polio.
    We feel this is a tremendous opportunity, one that will 
help the children of the world, it will help every government 
of the world. We appreciate your continued support for this and 
for joining us in this effort. Thank you.
    [The prepared statement of John Sever, M.D., follows:]

[Pages 1959 - 1968--The official Committee record contains additional material here.]


    Mr. Bonilla. Thank you very much, Doctor. Your chart was 
very impressive. I had no idea that the graph would look like 
that and it is very encouraging. One thing I do want to point 
out, and maybe you know this, Chairman John Porter's father had 
polio and had to walk with a brace. So it is not only important 
to me and other members of the subcommittee, but it is 
especially important to Chairman Porter. He will certainly be 
reviewing your testimony here today. As you know, he cannot be 
here due to a back ailment that he has. But we thank you for 
being here today.
    Dr. Sever. Thank you very much.
    Mr. Bonilla. Thank you, Doctor.
    The subcommittee will stand in recess until Wednesday at 
10:00 a.m.

                           ----------

                                           Wednesday, May 21, 1997.

                               WITNESSES

HON. NORMAN DICKS, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    WASHINGTON
HON. JON CHRISTENSEN, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    NEBRASKA
HON. CHET EDWARDS, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF TEXAS
HON. J.D. HAYWORTH, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    ARIZONA

    Mr. Porter. The subcommittee will come to order.
    We continue our hearings today with members of Congress, 
and we are delighted to welcome Representative Jon Christensen, 
Representative Chet Edwards and Representative Norm Dicks on a 
panel on Impact Aid. You gentlemen can proceed in any order 
that you have determined.
    Mr. Dicks. Well, thank you, Mr. Chairman and members of the 
subcommittee. I appreciate having the opportunity to testify 
before you to express my strong support for the Impact Aid 
program. Mr. Chairman, I am going to ask unanimous consent to 
put my statement in the record.
    Mr. Porter. It will be received.
    Mr. Dicks. We all had a late evening last night. I just 
want you to know that I have appreciated very much your strong 
support for Impact Aid and the support of this committee on a 
bipartisan basis for this program. I represent the Sixth 
Congressional District, State of Washington, with Tacoma and 
Bremerton having some of the most significant defense bases in 
our country at Fort Lewis, Puget Sound Naval Shipyard.
    It is always a blessing to have a defense base. But one of 
the problems with it, as you well know, is that they do not pay 
local property taxes. Impact Aid really is the one program 
where the Federal Government can contribute to helping support 
education of students in our community. It is very, very 
important and crucial that we keep the funding there for both 
the A students and the B students.
    We always have problems with whatever Administration in 
terms of support for this. But there have always been a lot of 
members in the Congress, on a bipartisan basis, who have 
supported this program. I just look forward to working with you 
on the Appropriations Committee to do our best for this program 
and appreciate your past support.
    [The prepared statement of Congressman Norm Dicks follows:]

[Pages 1972 - 1975--The official Committee record contains additional material here.]


    Mr. Christensen. Mr. Chairman, I want to thank you for 
starting this on time, being here after last night's meeting. I 
did not know that we would continue to do this this morning. 
But I appreciate your being here and having an opportunity to 
get this hearing.
    As you know, last year we had a battle. It was your help 
and leadership in this appropriation fight to restore the Bs to 
full funding. I have to tell you, without your help, we would 
not have got that done. So for those of you in the room who 
have not followed this Impact Aid fight year in and year out, 
there is no better champion of this whole issue than John 
Porter.
    Not to go into details, I think brevity, as Chet said a 
little bit ago to me, brevity is the key word this morning for 
this whole hearing. I do want to submit my testimony for the 
record.
    I do want to bring your attention, though, Mr. Chairman, to 
a couple of issues. In light of the fact that the 
Administration's budget for 1998 calls for six new programs, a 
20 percent increase in education, and at the same time a $72 
million cut in Impact Aid. Where is the Administration when we 
are talking about honoring our military kids and the education 
that they deserve, when we are talking about new programs, 
increasing education and being the education President, and 
then cutting education funding to militarystudents. It does not 
go together.
     I do not quite understand who it is in the Administration, 
in the Department of Education, that each and every year, we 
seem to have to fight this same battle. And this year it is not 
only in the actual funding, but in the B program as well.
    Mr. Dicks. If my colleague would yield.
    Mr. Christensen. Yes, sir.
    Mr. Dicks. I think the problem is that OMB has been the 
problem. It has been every Administration for the last 20 years 
that I have been in Congress. So it is OMB that seems to always 
have the knife out for this program.
    Mr. Christensen. And if we can find that person at OMB, 
maybe we can eliminate that person. [Laughter.]
    Just kidding.
    Anyway, Mr. Chairman, you have been a good hearer on this 
issue. Let us work together again in a bipartisan fashion. Chet 
has been a real leader on the Democratic side, and we are in 
agreement on this issue. So let us make sure that we do what is 
right for our military kids and thank you for allowing us to 
fight this thing together.
    [The prepared statement of Congressman Jon Christensen 
follows:]

[Pages 1977 - 1980--The official Committee record contains additional material here.]


    Mr. Edwards. Mr. Chairman, we are not preaching to the 
choir today, we are preaching to the choir director. The most 
important thing I want to say is thank you for what you have 
done. Of all the serious needs that you deal with in this 
subcommittee, and we deal with in Congress, I cannot think of 
any one group in this country that should be more deserving of 
our support for quality education than the children of men and 
women who are willing and have put their lives on the line for 
our country.
    You do not need any kind of long discussion from me on the 
importance of this program. I would like, with your permission, 
to do two things. One is to submit the testimony of Herb 
Bateman, who is a co-chair of the bipartisan Impact Aid 
Coalition, which now represents 109 members. As you know, Mr. 
Chairman, last year and the year before Mr. Bateman just went 
the extra mile in the Defense Committee to try to provide some 
supplemental funding for Impact Act.
    While he is not here, I know everybody associated with the 
program knows that it is at the level it is today because of 
his real efforts. I would like to submit his testimony if I 
could.
    Mr. Porter. That will be received.
    Mr. Edwards. Thank you.
    Mr. Chairman, oftentimes we get lost in numbers in these 
budget debates. I would like to very briefly tell the real 
story and put a face on the Impact Aid issues. In August of 
1991, Army Captain Pam Keaton was deployed to Oregon with her 
public affairs team to cover a joint counter-narcotics 
operation called Operation Ghost Dancer.
    During her six week deployment, Captain Keaton missed 
registering her children, Josh and Chelsea Vogelson, for first 
and second grade. Because the children's stepfather, her 
husband, Captain Doug Keaton, was on alert to deploy with the 
First Cavalry Division to Operation Desert Shield in Saudi 
Arabia, he was working around the clock and could not properly 
care for the children.
    Doug's mother flew from Fort Hood in my district from 
Arkansas to register the two children in elementary school and 
to stay with them through the first weeks of school. During 
that time, Josh underwent serious, serious dental procedures 
without his parents being at home.
    Then upon her return from Operation Ghost Dancer in late 
September of 1991, Pam, the mother, was alerted for deployment 
to Operation Desert Storm, and left within 10 days of her 
arrival back home at Fort Hood. Doug followed his wife to Saudi 
Arabia approximately seven days later. Both served in the 
Persian Gulf until mid-April, 1992, missing Thanksgiving, 
Christmas and Easter with their children, not to mention 
parent-student conferences, school activities and extra 
curricular activities.
    In essence, Pam and Doug missed Josh and Chelsea's entire 
school year, while relatives took responsibility for their 
children.
    Pam and Doug, the final note in this story is that they 
both earned bronze stars for their actions during the Persian 
Gulf War. Mr. Chairman, if we cannot convince our colleagues to 
fight for children such as Josh and Chelsea, to fight to ensure 
their parents that while they're off thousands of miles away 
defending our country's national security interests, if we 
cannot convince them that those children deserve a quality 
education, I am not sure we deserve to be here.
    I am convinced we will be successful because of your 
leadership and the members here at this table who have done so 
much. I very much appreciate your attention this morning and 
your leadership on this issue.
    [The prepared statement of Congressman Chet Edwards 
follows:]

[Pages 1983 - 1984--The official Committee record contains additional material here.]


    Mr. Porter. Thank you, Chet.
    We are also pleased to welcome Representative J.D. 
Hayworth, and J.D., why don't you proceed at this time.
    Mr. Hayworth. Mr. Chairman, thank you. I am honored to join 
my colleagues from Washington State and Texas and Nebraska. I 
appreciate the fact that you and other members of the 
subcommittee would allow us this opportunity to address what we 
consider to be a critically important issue, the future of 
Impact Aid.
    Again, let me echo my colleagues, and let me tell you 
personally how grateful we are for the foresight and leadership 
you have shown on this issue, Mr. Chairman. You understand that 
the Federal Government has a unique obligation to educate our 
children on Federal lands, because citizens residing there have 
a limited tax base and oftentimes little bonding capacity. 
Without Impact Aid, many students would simply not be educated. 
And that would be a national tragedy.
    As you may know, Mr. Chairman, the Sixth District of 
Arizona, which I am proud and pleased to represent, is the most 
federally-impacted Congressional district in the United States. 
Impact Aid is the educational lifeblood for many in our 
district and in our State.
    As one of the co-chairs of the Impact Aid coalition, I am 
committed to fighting for our funding request of $798 million 
for fiscal year 1998. Yet this would only bring the Impact Aid 
program roughly to the fiscal year 1979 level. Our federally-
impacted children need this increase, because funding for this 
program has not kept pace with inflation.
    Unfortunately, this Administration requested a $72 million 
cut over current year levels. The Impact Aid Coalition simply 
cannot and will not accept the President's proposed 10 percent 
cut for this program.
    Mr. Chairman, we spend an average of $5,429 per student in 
this country on education. My State of Arizona spends $4,321 
per student. Yet the average federally-impacted student in my 
district receives only $2,128. In other words, a student in the 
Sixth Congressional District of Arizona receives nearly 150 
percent less than the national average, and about half of what 
other children in Arizona receive.
    The Coalition's request would help attempt to reduce this 
inequity in funding.
    As I stated earlier in my testimony, Mr. Chairman, I 
represent a unique district, because it has the distinction of 
being the most federally-impacted Congressional district. It is 
also unique because it has the largest Native American 
population in the 48 contiguous States. The Navajo Nation, 
which stretches across four States, and is roughly the size of 
West Virginia, is one of the largest and most economically 
challenged sovereign Indian nations, with staggering 
unemployment rates which can be as high as 50 percent, 
depending on the season. Education is the only way for Navajo 
children to escape a life of poverty.
    The other seven tribes I represent in my sprawling district 
face similar hardships and depend on Impact Aid to help educate 
their youth.
    Mr. Chairman, I am sure you are aware of the Federal 
Government's treaty obligations to our sovereign Indian 
nations. Part of these obligations, of course, include 
educating these Indian children. Without Impact Aid, the 
Federal Government cannot live up to its treaty obligations.
    While I have touched on the overall importance of the 
Impact Aid program to my district and State, I would like to 
focus the remainder of my testimony on a particular section of 
the Impact Aid program, Section 8007, which provides for school 
construction. The Coalition has asked for an increase from $4 
million to $7 million in Section 8007 funds. This increase will 
help alleviate some concerns. The reality is that this will 
hardly make a dent in the sad state of Federally-impacted 
schools in my district and in other districts in the United 
States.
    Many school buildings on the Navajo Nation are cracking, 
leaking or falling apart. They are in decrepit condition. Most 
of these buildings would be condemned, if it were not for the 
fact that these students need to be educated, and of course, 
are required to attend classes.
    At this point, there is simply no other place for them to 
go. I have requests for my district for new schools, 
renovations and repairs that would cost tens of millions of 
dollars. In fact, Sanders School District has submitted a 
request to your subcommittee, which I have right here, Mr. 
Chairman, for $22.9 million. Some of the problems in Sanders 
include leaky roofs and floors, cracks in buildings, drainage 
problems, uncompleted facilities, inadequate restrooms and 
condemned buildings.
    Sadly, there is not enough money in the construction budget 
for Sanders or any other schools that desperately need to be 
repaired or renovated.
    I would note that the average school in our Nation costs 
nearly $6 million to build. With the Coalition's request for $7 
million, we would only be able to fund or build the equivalent 
of one school each year. There is certainly a need for more 
than one school a year in my district alone.
    Section 8007 must be increased substantially if we are to 
effectively educate our children on Federal lands in a safe and 
healthy environment. I therefore respectfully request that this 
subcommittee fund Section 8007 of Impact Aid at $20 million. 
With this modest increase, we could start to repair, renovate 
and build new schools that are badly needed, both in my 
district and throughout our Nation.
    Mr. Chairman, I yield to no one in my commitment to balance 
our budget, and I have consistently opposed wasteful and 
unnecessary spending. However, I also support important 
programs that have positive effects on our society and our 
Nation. Impact Aid, Mr. Chairman, is certainly one of these 
programs. Impact Aid reaffirms our commitment to those who 
would otherwise be shut out from education, as I mentioned 
earlier, with no tax base and little or no bonding capacity. 
Federal schools could not educate children without this 
program.
    By funding Impact Aid at $798 million for fiscal year 1998, 
we will begin to restore Impact Aid to a level of 
respectability.
    In closing, Mr. Chairman, I want to once again thank you 
and the members of this subcommittee for inviting members of 
the Impact Aid Coalition here today to voice our opinions and 
concerns. We all realize that we are in a time of fiscal 
constraint. We do, however, appreciate your steadfast 
commitment to Impact Aid, and we are confident that if the 
funds are there, you will help secure $798 million in funding 
for fiscal year 1998 that we have requested.
    Mr. Chairman, I would be happy to remain here with my 
colleagues to answer any questions you or the subcommittee 
might have this morning.
    [The prepared statement of Congressman J.D. Hayworth 
follows:]

[Pages 1988 - 1990--The official Committee record contains additional material here.]


    Mr. Porter. Thank you, J.D.
    I want to commend each of you for the leadership that you 
have shown on Impact Aid. It has been the work of the Coalition 
and all of you to organize support for the subcommittee's 
position that has helped to bring all this about.
    I do not doubt at all the difficulty of reaching that 
number. I would say that, you know, most appropriators do not 
like entitlements. If there is anything that ought to be an 
entitlement and not subject to annual appropriations, it is the 
obligation of the Federal Government to provide funds to 
educate children that impact the school systems because of 
Federal reservations.
    I have never understood why the authorizers do not simply 
write this into entitlement law and not make it subject to 
annual appropriations, and assure that the funds are paid 
without a struggle each year. The difficulty, as all of you 
know, is that there is only about 120 maybe districts that are 
impacted significantly in the United States. That means that 
about 300 members of the House have really no interest in this 
program. Yet, it is to me an obligation of the Federal 
Government that should never be shirked.
    I agree with you, Norm, when you say that every 
Administration has submitted a budget cutting this and left it 
up to Congress to somehow find the funds to provide for it. I 
think we have never provided for it at the level it ought to be 
funded.
    The best we can do is try to get near it and it has been 
very difficult. I also agree with what you said, Chet, about 
Herb Bateman's district, work in the Defense Authorizing and 
then Appropriations Committee, because those funds are also 
very, very important. I assume that Herb is going to make that 
effort again this year, although I have not yet talked to him.
    Mr. Dicks. Well, I will certainly work with him.
    Mr. Porter. Yes, you are there also. I think we all have to 
do our best to make sure that we get as much into these 
accounts as we possibly can, and come to some degree of equity 
in supporting impacted districts. I pledge to you I will do my 
absolute best to achieve that. I know how important it is in 
each of your districts and so many others as well. As I say, I 
think it is an obligation that we simply have to meet.
    So thank you all for testifying this morning.
    The subcommittee will stand in recess briefly.
    [Recess.]
                              ----------                              

                                           Wednesday, May 21, 1997.

                               WITNESSES

HON. MAXINE WATERS, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CALIFORNIA
HON. BILL CLAY, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF MISSOURI
HON. ALBERT WYNN, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    MARYLAND
HON. DONNA CHRISTIAN-GREEN, A DELEGATE IN CONGRESS FROM THE U.S. VIRGIN 
    ISLANDS
HON. JUANITA MILLENDER-McDONALD, A REPRESENTATIVE IN CONGRESS FROM THE 
    STATE OF CALIFORNIA
HON. EDDIE BERNICE JOHNSON, A REPRESENTATIVE IN CONGRESS FROM THE STATE 
    OF TEXAS
HON. EVA CLAYTON, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF NORTH 
    CAROLINA
    Mr. Porter. The subcommittee will come to order.
    We have scheduled a panel of the Congressional Black Caucus 
this morning. Obviously because of the lateness of the hour 
last night, it has been difficult for members to be here. We 
are very pleased to welcome our colleague, Bill Clay. We would 
ask you to proceed.
    Before I do that, let me call on my colleague, Lou Stokes.
    Mr. Stokes. Thank you, Mr. Chairman.
    It is indeed a pleasure for me to welcome before our 
subcommittee Mr. William ``Bill'' Clay, who is my classmate of 
the 91st Congress. Over the years, Mr. Chairman, I do not know 
of anyone in Congress who has played a greater role in the 
development of education legislation, particularly as it 
relates to minorities and the disadvantaged.
    In fact, now ranking member of the Education and Work Force 
Committee, and the former Chairman of that committee, Mr. Clay 
has developed more legislation related to education of 
minorities and the disadvantaged than anyone else that I am 
aware of.
    It is a pleasure to have him come in today and testify with 
reference to TRIO and minority programs. All of us recognize 
him as an expert in that area.
    Mr. Porter. Thank you, Mr. Stokes.
    We are also pleased to welcome our colleague, 
CongressmanAlbert Wynn of Maryland. I understand, Bill, that you are 
going to testify on education programs, and that Representative Wynn is 
going to testify on AIDS and employment training, correct?
    Mr. Clay. Yes, Mr. Chairman.
    Mr. Stokes. Also just a word of welcome to our other 
colleague who was here until 3:30 this morning, and who made 
the special effort to be here to testify. Mr. Wynn has, each 
year since he has been here, come over to testify before this 
subcommittee on various aspects of the business of this 
particular committee as it relates to minorities and the 
disadvantaged.
    I am particularly proud to welcome him here this morning.
    Mr. Porter. Now, would you proceed, Mr. Clay?
    Mr. Clay. Thank you, Mr. Chairman. Let me thank you and 
Congressman Stokes, my good friend and long-time ally, member 
that came to Congress the same day I did, for giving me this 
opportunity.
    Let me also say that the three of us, you and Stokes and 
myself, have been here long enough and have weathered all of 
these late hour sessions, and so we have become immune to the 
time factors. If we stay until 6:00, we will be here at 7:00 
for a meeting.
    So some of these younger people have to be in the trenches 
long enough to get used to it. [Laughter.]
    Mr. Clay. First of all, let me thank you and the committee 
members for this opportunity. This year, our committee, which 
is now known as Education and the Work Force will be 
reauthorizing the Higher Education Act of 1965, which outlines 
the primary source of Federal support for higher education. In 
the brief time that I have been allotted, let me highlight 
several vitally important education initiatives and programs 
that should receive maximum appropriations, if we are to 
guarantee maximum access to the maximum number of students to a 
college education.
    The first set of higher education programs I want to 
highlight are those which are critical to the Nation's 
historically black colleges and universities. Mr. Chairman, no 
single group of institutions of higher education has done more 
with less to educate economically disadvantaged kids than these 
schools. This category of institutions constitutes only 3 
percent of all colleges and universities in the United States, 
but they graduate over 25 percent of all African Americans who 
earn a baccalaureate degree, and nearly 40 percent of all 
African Americans who later go on to the Harvards and to the 
Yales and the Princetons and Berkeleys to earn graduate 
degrees.
    The list of distinguished graduates from black colleges 
includes civil rights leaders, political leaders, religious 
leaders, educators, scientists, lawyers and physicians. Four of 
those institutions, Xavier, Morehouse, Howard and Spellman, 
consistently send more black students to medical schools than 
Harvard, Yale, Stanford and Princeton. Clearly, these schools 
are promoting the Nation's general welfare and providing the 
resources to support the national defense.
    The primary source of institutional support for these 
colleges is Title III of the Higher Education Act, which has 
been frozen for the past three years. It is critical that 
additional and adequate funding is made available for both 
graduate and undergraduate institutional support.
    In addition, if HBCUs are to continue their impressive 
record of producing a disproportionate number of black college 
graduates, additional support for their graduates to pursue a 
graduate education is necessary. For black colleges to maintain 
strong faculties, it is imperative that they are provided more 
funding to enable them to prepare their graduates for doctoral 
studies, particularly in the areas of science and technology.
    In addition, Mr. Chairman and members of the committee, the 
amount of money appropriated for Pell Grants, TRIO programs and 
campus-based aid programs must be increased. Pell Grants and 
campus-based aid programs form the backbone of access to higher 
education for most students at the lowest end of the economic 
spectrum. TRIO programs provide the incentive, the vision and 
the bridge, for helping poor students get into college, and 
more important, to remain there.
    Congressman Rangel and I introduced the Hope and 
Opportunity Act of 1997, which contains the President's 
initiatives in higher education. The bill calls for, among 
other things, a $300 increase in the Pell Grant for fiscal year 
1998. That should be a minimum.
    I have also introduced H.R. 1435, the College Access and 
Affordability Act of 1997, which calls for a $600 increase in 
the Pell for fiscal year 1998, and a $300 per year increase 
through the year 2002. The bottom line is that if education is 
vital to our future as a Nation, then we must appropriate the 
necessary money to make that belief a reality, even for poor 
people.
    These programs provide crucial support enabling students to 
perfect their talents in areas which make a real difference.
    Mr. Chairman and members of the committee, I realize that 
you and your subcommittee have some very difficult choices to 
make. But as you deliberate, I sincerely hope that you give 
serious consideration to the programs and initiatives which I 
have outlined. Thank you.
    [The prepared statement of Congressman Bill Clay follows:]

[Pages 1995 - 1999--The official Committee record contains additional material here.]


    Mr. Porter. I would say to the gentleman from Missouri that 
no one has been a stronger advocate for the programs that 
affect disadvantaged students and for historically black 
colleges and universities than you have been on the authorizing 
side. No one has been a stronger advocate on the appropriating 
side than my colleague from Ohio. So somehow, I think we are 
going to get this job done. It will be a high priority.
    Let me also welcome on behalf of the subcommittee 
Representative Juanita Millender McDonald, of California, and 
Delegate Donna Christian-Green of the Virgin Islands.
    Mr. Wynn.
    Mr. Wynn. Good morning, and thank you very much, Mr. 
Chairman. I appreciate your allowing me this opportunity to 
testify on a very important issue on the subject of AIDS 
funding.
    I would also like to recognize and thank ranking member, 
Mr. Stokes, for his outstanding leadership over the years on 
this issue. I have actually followed many of the projects he 
has worked on, and his leadership has been exemplary. And I 
certainly want to express my appreciation.
    This is a very serious question. I know that we are all 
well aware of the devastation of AIDS in the United States, how 
this deadly disease has affected thousands of individuals and 
families throughout the world. I am pleased with therequested 
funding levels, but I am here today to share with the members an aspect 
of the AIDS epidemic that I believe has been largely unnoticed. That is 
the explosive growth of the infection in the African American community 
at a time when significant progress has been made in slowing the 
epidemic's pace in other communities.
    To make this point a little clearer, if you would allow me 
to share with you some recent statistics from the Centers for 
Disease Control. African Americans account for slightly over 12 
percent of the population, but over 41 percent of all AIDS 
cases reported to the CDC. AIDS has become the leading cause of 
death for African Americans age 25 to 44, greater than 
homicide, heart disease and accidents combined. African 
Americans account for over half of all children with AIDS, over 
half of all women with AIDS, and one-third of all men with 
AIDS.
    Unfortunately, the infection rates in the African American 
community continue to rise, while in the white community and to 
a certain extent the Hispanic community, they have been able to 
combat this disease more successfully in the last few years, 
culminating in decreased infection rates and increased survival 
rates within these groups.
    In view of what I believe are these startling statistics, I 
would urge the subcommittee to target the African American 
community for additional funding within the Ryan White program 
for racially specific research, education and treatment of this 
disease.
    I support President Clinton's request for $1.36 billion in 
fiscal year 1998 to fund the Ryan White program. I am also 
encouraged by the fact that the President chose Morgan State 
University in my home State of Maryland as a forum for 
developing strategies to develop a cure for AIDS.
    However, speeches alone will not solve this problem. We 
must identify the communities at the greatest risk, and we must 
not forget that our goal is prevention. Every case prevented is 
one less case to cure.
    To accomplish these goals, I appeal to the committee to 
earmark the funding to research and identify street level 
programs that are developing successful prevention 
infrastructures. Admittedly, some of these programs may be 
controversial. If in fact they work, and save lives, we should 
work to develop programs as models on these successes.
    In conjunction with identifying successful models, funding 
should be directed to programs emphasizing community based 
management, programs sensitive to the unique socioeconomic and 
cultural factors that impact the spread of AIDS in African 
American communities. Some of these factors are 
disproportionately high numbers of intravenous drug users, 
stigmatization of AIDS by religious and other community leaders 
because of its early connection with homosexual activity, and 
the general mistrust and suspicion of the public health system 
in some African American communities.
    I support the efforts of all involved to develop a cure for 
this horrible disease and to increase access to care for 
minority populations. But I believe that we must take a more 
realistic and proactive step to stem the tide of infection and 
make prevention a priority.
    I want to thank you for allowing me this opportunity to 
testify and I certainly hope we are able to target additional 
funds into the African-American community.
    [The prepared statement of Congressman Albert R. Wynn 
follows:]

[Pages 2002 - 2005--The official Committee record contains additional material here.]


    Mr. Porter. Thank you, Congressman Wynn.
    I will call on members in the order that they have arrived. 
Next will be Delegate Christian-Green.
    Ms. Christian-Green. Good morning, and thank you, Mr. 
Chairman, members of the subcommittee.
    I appreciate this opportunity to offer testimony and a 
statement on behalf of the Office of Minority Health. As a 
former territorial health official, a medical practitioner of 
African-American origin and a woman, I know all too well how 
important this office is.
    To our shame, the health of America's minorities still lags 
behind that of non-Hispanic whites. African-Americans suffer 
almost double the rate of infant mortality, cancer, diabetes, 
hypertension and stroke rates are disproportionately high among 
African-Americans, Native Americans and Hispanics.
    The injury rate for African-American children ages 1 to 14 
is 55 percent higher than for white children. Violence has 
become a public health epidemic, with homicide being the second 
leading cause of death for young people between the ages of 15 
and 24, and the leading cause in African-American youth of the 
same ages. You have just heard the dire statistics on AIDS. In 
1993, almost 10 years after it was first reported, there are 
still 70,000 excess deaths among African-Americans annually, 
deaths that should not have occurred.
    Our country also still lags behind in the training of 
minority providers needed and wanted by their communities to 
provide the culturally sensitive care that could make a 
difference in these terrible statistics. The Office of Minority 
Health not only supports the kind of minority health networks 
that help to improve the understanding of disease processes in 
our minorities, but improves the health care.
    In addition, OMH, the Office of Minority Health, is 
committed to providing the manpower we need. This office is the 
office which implements the historically black colleges and 
universities initiative. It is the office which monitors and 
coordinates Executive Order 12900, issued to increase the 
participation of Hispanic Americans in Federal programs, and 
another which mandates support for our Indian tribal colleges 
and universities.
    It further has the responsibility of developing the 
provider pool in the American Indian-Alaska Native community by 
implementing a youth initiative which recruits promising 
students into biomedical and health professions. The Office of 
Minority Health has an important role heretofore not adequately 
filled to support and protect the interests of traditional 
minority community providers who stand to lose the patient base 
they have long served to the large, managed care organizations 
who have recently discovered that there ismoney to be made from 
the poor.
    Mr. Chairman, this country also has a research gap that 
must be closed if we are to close the gap in our health status. 
Through the National Institutes of Health, research centers at 
minority institution programs are helping minority institutions 
to increase their research capability. Mr. Chairman, we cannot 
allow funding for research on our illnesses and diseases to lag 
behind other NIH research funding. We must grow the budget for 
minority health research at the same rate as all other research 
projects.
    The Office of Minority Health is to be funded at 
$23,100,000 in 1998. The drop of $11,484,000 is justified by 
the one-time 1997 obligation for construction grants. Mr. 
Chairman and members, the 1998 budget is still $4.8 million 
less than in fiscal year 1996. This rapidly growing segment of 
our population, whose health status continues to decline as a 
result of the years of ongoing neglect, needs more funding, not 
less.
    Further, providing an adequate level of funding only partly 
addresses what needs to be done for this office. Mr. Chairman 
and my colleagues, the Office of Minority Health, this vital 
health link, this lifeline for America's minorities, must be 
reauthorized.
    Mr. Chairman, I thank you for the opportunity to make this 
statement this morning.
    [The prepared statement of Congresswoman Donna M. 
Christian-Green follows:]

[Pages 2008 - 2010--The official Committee record contains additional material here.]


    Mr. Porter. Thank you, Delegate Christian-Green.
    Next, Congresswoman Juanita Millender-McDonald of 
California.
    Ms. Millender-McDonald. Thank you so much, Mr. Chairman. It 
is good to see you back.
    I would like to thank the ranking member for his leadership 
on especially the issue of AIDS. Also Ms. Pelosi, on the task 
force, of which I am a member, and Mr. Hoyer, for his 
sensitivity.
    I appreciate the opportunity to come before you today on 
behalf of the 37th Congressional District of California and 
also the Nation, in providing me this opportunity to address 
two of the most important issues facing my district and the 
Nation, that's AIDS and the need for bone marrow transplant.
    AIDS continues to strike the young and the most vulnerable 
population in this country. Until we find a vaccine for this 
fatal disease, we must do everything in our power to stop the 
spread of HIV and treat people with AIDS with the best medical 
care possible. Between 800,000 and 1 million Americans are 
infected with HIV. HIV infection is now the third leading cause 
of death among women age 25 to 44 years, and the leading cause 
of death among black women in the same age category. In 
addition, 76 percent of minorities with AIDS are women, and 82 
percent are children in this country.
    These statistics are staggering. The solutions are within 
our reach. Studies have shown that African-Americans and 
minority health profession schools are much more likely to 
serve under-served populations, care for minorities, and serve 
Medicaid recipients. Considering this record, President 
Clinton's budget recommendation for health professions training 
schools is insufficient. I ask you to fund this program at $302 
million to provide for inflation or, at a minimum, $292 millon 
for fiscal year 1998.
    Another essential funding source is the Centers for Disease 
Control, which currently funds 90 minority and other community 
based organizations that address emerging needs in HIV 
prevention in disadvantaged and neglected communities. In 
California, the cumulative number of reported AIDS cases from 
1981, when the AIDS epidemic first began, through June of 1996, 
is 93,749. Of these cases, 15.9 percent are African-Americans, 
and 17.78 percent are Hispanics. Please provide the CDC's 
prevention initiative with funding levels of $617 million for 
fiscal year 1998.
    The Ryan White Act, which manages the coordination of 
health care providers, clients and community based 
organizations, should be funded at approximately $1 million as 
was requested by President Clinton. Title IV, in particular, 
plays a central role in preventing perinatal HIV transmission, 
expanding youth focus HIV care programs, and expanding existing 
programs to meet the needs of the fastest growing population 
with AIDS. Please support the funding for Title IV at $40 
million as requested by President Clinton.
    Research is the final component of our national strategy to 
fight the spread of AIDS and find a cure for this fatal 
disease. The Office of AIDS research, including the Women's 
Inter-Agency Human Immuno-Deficiency Study, should be funded at 
$1.5 billion as requested by President Clinton.
    Finally, the National Bone Marrow Donor Registry has not 
been reauthorized since 1993. It does not have enough African-
Americans and other minorities, and especially minorities with 
mixed ancestry, to meet the needs of all Americans. I ask for 
your support, as I will soon introduce legislation to introduce 
legislation to authorize funding for the registry at $15.5 
million.
    In conclusion, I believe it is our duty to make fighting 
the AIDS epidemic a top priority, Mr. Chairman. We need to 
provide adequate funding for education, prevention, medical 
care and research programs that are designed to help the most 
vulnerable populations and at-risk communities. It is equally 
important that we address the health needs of those who need 
bone marrow transplants.
    By addressing these needs of women and minorities, we can 
make a tremendous step forward in providing necessary health 
care services for all Americans. Thank you, Mr. Chairman. Iwill 
be submitting a more comprehensive report. It gives staggering 
statistics on these two important issues.
    [The prepared statement of Congresswoman Juanita Millender-
McDonald follows:]

[Pages 2013 - 2018--The official Committee record contains additional material here.]


    Mr. Porter. The report will be received. Thank you very 
much for your excellent testimony.
    Next we have Congresswoman Eddie Bernice Johnson of Texas. 
However, Congresswoman Johnson, we have you on the next panel. 
You can testify on both if you like.
    Ms. Johnson of Texas. Well, I guess on this one. I will 
simply say that I will associate myself with the previous 
remarks and hope to convince you and other members of the 
committee to put a bit more money into the research and 
prevention.
    Thank you.
    Mr. Porter. Thank you.
    Finally, we have the Chair of the Congressional Black 
Caucus, and we are pleased to welcome Congresswoman Maxine 
Waters of California.
    Ms. Waters. Thank you very much, Mr. Chairman and members.
    I come as the Chair of the Congressional Black Caucus to 
add my voice of support to all of the items that have been 
identified that this caucus is concerned about.
    I think it is important for you to understand that the 
Congressional Black Caucus is operating with an agenda for the 
105th Congress. We have set priorities to spend our time on.
    The members who came here today have articulated part of 
those, or some of those priorities. It is important for you to 
understand that we have made drugs our number one priority. 
Along with that, computer literacy, the establishment of 
community computer centers. Also capital formation, AIDS and 
some of the other issues that you have heard about today.
    When we come, we come as a Congressional Black Caucus that 
is organized, that is focused and serious about the work of the 
105th Congress. You will see members throughout these 
appropriations subcommittees talking about our agenda items. 
What we want to drive home is that we are not only focused, but 
we believe that we have an agenda that is doable, that can be 
supported by members on both sides of the aisle, and we wish to 
complete the 105th Congress, able to go home and represent to 
our constituents that not only did we work hard on their 
behalf, but we did have the support of the members of the 
Congress of the United States in order to deliver some of the 
goods and services that are so desperately needed.
    So with that, Mr. Chairman, I thank you for the time that 
you have given to this panel this morning. I hope that the 
words that these members have spoken, the ideals that they have 
espoused, will be taken seriously.
    [The prepared statement of Congresswoman Maxine Waters 
follows:]

[Page 2020--The official Committee record contains additional material here.]


    Mr. Porter. Thank you, Ms. Waters.
    I am impressed at how organized you are. To me that leads 
to results. You obviously have the agenda and the goals set out 
very well, and I commend you for it.
    Ms. Waters. Thank you very much.
    Mr. Porter. We are also pleased to welcome Eva Clayton, 
Congresswoman from North Carolina. Ms. Clayton, you are going 
to testify on teen pregnancy, is that correct?
    Ms. Clayton. Yes.
    Mr. Porter. Please proceed.
    Ms. Clayton. Again, thank you, Chairman Porter, and thank 
you to the committee, Mr. Stokes, and Steny Hoyer, all of you. 
I appreciate this opportunity.
    I would like to thank you all for allowing us to have this 
opportunity. In particular, I would like to have the 
opportunity to speak out about teen pregnancy prevention. If we 
are sincere about solving the important public health and 
societal problems, we must learn from past experience. By now, 
we have all heard the statistics, about 1 million teenage girls 
become pregnant each year, the highest teenage pregnancy rate 
of any industrialized nation.
    Half these pregnancies result in live births. Teenagers who 
give birth are less likely to graduate from high school, 
assuring themselves a lifetime of low wage work or dependence 
on public assistance for survival. A life of poverty isalways a 
threat, often a reality. The children of teenage mothers are at greater 
risk for health and developmental problems, such as low weight and 
infant mortality. Even if these children survive through these critical 
stages during infancy, poverty and other societal disadvantages await 
them.
    Children raised in these impoverished surroundings often 
compete with vicious cycles by becoming teenage parents 
themselves. They live in communities where crime and drug use 
are common, where dropping out of school and chronic 
unemployment are even more common. The equation is simple: as 
poverty is the most accurate predictor of teen pregnancy, teen 
pregnancy is a near certain predictor of poverty.
    With a child born to a teenage mother every 60 seconds in 
this country, the committee can do the math and the figures, 
you know. But the point is obvious. Prevention is much better 
and much cheaper than punishment after the fact of child 
bearing. The Kids Having Kids report released last August by 
the Robin Hood Foundation gives alarming costs and consequences 
of teen child bearing. It shows that teenage child bearing 
costs the U.S. taxpayers a staggering $6.9 billion per year, 
and the cost to the Nation in the loss of productivity rises to 
as much as $29 billion annually.
    The consequences to the families and the children of these 
teen parents in health and societal and economic development 
are devastating. We cannot overestimate the far-reaching 
effects of teen pregnancy. We must provide adequate funding 
levels for pregnancy prevention programs that educate and 
support high risk youth and their family members through 
comprehensive social and health services, with the emphasis on 
pregnancy prevention.
    Thank you for receiving my testimony.
    [The prepared statement of Congresswoman Eva M. Clayton 
follows:]

[Page 2023--The official Committee record contains additional material here.]



    Mr. Porter. Thank you, Congresswoman Clayton.
    Let me thank each member of the panel for their testimony. 
I can assure you that we will do our very best to respond to 
the issues and concerns that you have raised so eloquently and 
I know that the members of the subcommittee share the concerns 
that you have expressed in each of these areas.
    Mr. Stokes.
    Mr. Stokes. Thank you, Mr. Chairman.
    Mr. Steny Hoyer is ranking on another subcommittee, as you 
know. He just came over this morning to be here for their 
testimony. I would like to yield to him so he can go attend to 
that. I would like to make a closing statement before they 
leave.
    Mr. Porter. Mr. Hoyer.
    Mr. Hoyer. I want to thank my friend for yielding. I have 
been on this committee since January of 1983, and one of the 
great joys I have had is serving with Lou Stokes for that 14 
years. He is a giant in leadership on the issues that you have 
expressed, and has been a voice continually raising the fact 
that far too often, we have not focused on issues directly 
affecting African-Americans disproportionately to other 
Americans, and how particularly at NIH and other places, we 
have not been sensitive to that.
    The Women's Caucus will testify as well, they have done the 
same thing. I regret that I cannot be here for their testimony, 
but I want to add my voice to the voice of the Chairman, 
Chairman Porter. Maxine, to you as Chair of the Caucus, but to 
all of you, some of whom have been previous Chairs of the 
Caucus at previous times, on the very, very outstanding quality 
work that you do.
    For the last few years, I have not voted for your budget. I 
have not voted for your budget primarily because the defense 
number is very low, and as you know, my district is very 
dependent on defense. We have 17,000 personnel based in my 
district.
    The quality of your work as it relates to domestic 
investment is unsurpassed in this Congress. I want to 
congratulate you for that work, and Mr. Chairman, join you in 
the organization that you have brought to focus on issues of 
critical concern. The health and educational opportunities of 
every American affects the health, educational opportunities 
and welfare of every other American. And we do not have an 
American to waste. We do not have an American to fall through 
the cracks that will not affect the rest of us.
    I want to congratulate you and I want to make sure that the 
Congressional Caucus on Women's Issues knows full well that it 
is not in any lack of respect that I leave. All of you 
understand that.
    These two caucuses, Mr. Chairman, do absolutely critical 
work in focusing America as well as the Congress on issues that 
too often are neglected through ignorance rather than through 
intent. Your raising these issues so that they are visible and 
addressed is a great, great benefit to the country and I thank 
you and congratulate you for the work you do. Mr. Chairman and 
Mr. Stokes, thank you for yielding.
    I might say to the Caucus, both Caucuses, you are so well 
represented on this subcommittee that you have direct access to 
the decision making process. Thank you very much, Mr. Chairman.
    Mr. Porter. Thank you, Mr. Hoyer.
    Now, Mr. Stokes.
    Mr. Stokes. Mr. Chairman, I will just take a moment, 
because my colleagues may want to make a comment.
    I just want Ms. Maxine Waters, Chairperson of our 
Congressional Black Caucus, and my colleagues here, to know how 
proud you have made me this morning in the testimony that you 
have given on these very important issues. This subcommittee, 
as you know, is entitled Labor, Health, Human Services and 
Education. In each of those areas, each year we receive 
testimony from all the agencies. All of the witnesses point up 
the disparities between majority and minority in this country 
relative to each of those issues.
    Over the last more than 20 years, I have sat on 
thissubcommittee as the only African-American who's ever sat on this 
subcommittee. It has been a labor of love. It has been a difficult 
task. I say to you that your testimony here this morning has been very 
helpful.
    I also want to say that Chairman Porter and the other 
members of this subcommittee have been more than receptive to 
the kind of testimony that you have given here, and have been 
my allies over the years, trying to make progress in each of 
these areas. I am deeply appreciative to each of them for that.
    Thank you, Mr. Chairman.
    Mr. Porter. Thank you, Mr. Stokes.
    Ms. Pelosi.
    Ms. Pelosi. Thank you, Mr. Chairman.
    I, too, want to join our colleague, Mr. Stokes, and first 
of all commend him for his leadership. What a privilege it is 
to serve on this committee with the wonderful jurisdiction that 
we have under the leadership of Mr. Porter, but with the 
inspiration and leadership of Mr. Stokes.
    I want to join him in commending the Congressional Black 
Caucus as one who did vote for the budget last night----
    [Laughter.]
    Ms. Pelosi [continuing]. For your very informed, well 
researched and excellent testimony, more importantly, for your 
leadership on these issues, as Steny said, and others, it is 
important not only to the Caucus and to the Congress, but to 
the people of the United States. We are always in your debt.
    I said, it is a privilege to serve on this committee. It is 
always enjoyable, but never so much as on an occasion such as 
this, when your Caucus comes in with its values based 
presentation, well documented and hopefully productive of 
excellent results.
    Thank you, Mr. Chairman. Thank you all.
    Mr. Porter. Mrs. Lowey.
    Mrs. Lowey. Thank you, Mr. Chairman.
    I just want to associate myself with the outstanding 
remarks of my colleagues, and certainly Lou Stokes is a gem, is 
a treasure, is a role model, is a mentor for all of us on this 
committee.
    When I joined on this committee, it was such an 
extraordinary opportunity and privilege. Then the reality set 
in. We are fortunate to have a Chairman who is an advocate for 
all the issues that you are speaking about this morning.
    However, we are faced with a terrible dilemma every year in 
that all the good things are in this committee. It seems to me 
it is unfair that the United States of America, the richest 
country in the world, that we should not be able to adequately 
respond to the agenda which we frankly share. I just want to 
thank you again for being such eloquent spokespersons. You can 
be sure that the majority of this committee will fight as hard 
as we can to make sure that we can meet the goals which you set 
out for us today.
    I thank you.
    Mr. Porter. Thank you, Mrs. Lowey.
    Let me thank all the members of the panel for their 
excellent testimony.
    Before the next panel begins, the Chair would like to 
recognize the presence in our hearing room of former 
Congressman Pete McCloskey of California, a gentleman who was a 
leader on most of the issues that we discussed in this 
subcommittee for so many years in the Congress. It is really 
good to see you. Thank you for joining us.
                              ----------                              

                                           Wednesday, May 21, 1997.

                               WITNESSES

HON. ELEANOR HOLMES NORTON, A REPRESENTATIVE IN CONGRESS FROM THE 
    DISTRICT OF COLUMBIA
HON. NANCY JOHNSON, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CONNECTICUT
HON. CAROLYN McCARTHY, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    NEW YORK
HON. SHEILA JACKSON-LEE, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    TEXAS
HON. CONNIE MORELLA, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    MARYLAND
HON. CAROLYN MALONEY, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    NEW YORK
HON. EDDIE BERNICE JOHNSON, A REPRESENTATIVE IN CONGRESS FROM THE STATE 
    OF TEXAS
HON. ELLEN TAUSCHER, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CALIFORNIA
HON. LOUISE SLAUGHTER, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    NEW YORK
    Mr. Porter. As the panel is being seated, I would like to 
apologize if I have to, and I will, have to go to the Floor in 
the middle of your testimony. I have a bill that I introduce in 
1986, you might be interested in this, that after all these 
years finally got a hearing and has been reported out. It was 
reintroduced in every Congress, and is finally going to have a 
chance to be voted on on the House floor. I will have to leave 
to make some comments on that on the Floor.
    We would like to welcome the panel of the Congressional 
Women's Caucus, of Caucus on Women's Issues. Mrs. Lowey has 
requested that she be granted the privilege of introducing the 
panel. So we are happy to yield to Mrs. Lowey.
    Mrs. Lowey. Thank you, Mr. Chairman.
    As the former co-chair, with Connie Morella, of the 
Congressional Caucus on Women's Issues, it is indeed an honor 
for me to welcome with my colleague Nancy Pelosi, my other 
wonderful colleague, Rose DeLauro, who should be here, the new 
co-chairs, Nancy Johnson and Eleanor Holmes Norton, and all our 
wonderful members who are standing up all the time for the 
right thing.
    This is a committee that deals with all the priorities that 
we have been talking about. We are very enthusiastic each year 
to welcome this panel. We look forward to yourtestimony. Again, 
I want to assure you that we have a Chairman who does support the goals 
of the Congressional Caucus on Women's Issues. I hope that the annual 
dilemma which we face of not having sufficient funds would not be an 
impediment this year. We thank you for your presentation today.
    Mr. Porter. Thank you, Mrs. Lowey.
    I am going to ask the co-chairs, Delegate Eleanor Holmes 
Norton and Congresswoman Nancy Johnson, if they will introduce 
the members of the panel and tell us what they are going to 
testify on as we proceed.
    Ms. Norton. Thank you, Mr. Chairman.
    The Congressional Caucus on Women's Issues very much 
appreciates the opportunity once again to testify before you. 
This is the 20th anniversary year of the Congressional Women's 
Caucus. Fifty-one of the 53 women members of the House are 
members of this Caucus. We believe that is a record. We stress 
the bipartisan nature of our Caucus. That means that not all 
issues are Caucus issues.
    But the issues of this panel are most decidedly Caucus 
issues. The number of women in the House of Representatives has 
quadrupled since 1989. It has strengthened our numbers and 
strengthened our issues.
    The results of our work over these 20 years can be seen 
across the board and across every subcommittee jurisdiction of 
this committee. It is fair to say that no subcommittee has 
proved more critical to our work on behalf of women and 
children and families than this subcommittee. For that reason, 
we want to offer our very special appreciation for the way in 
which this subcommittee has been responsive to the concerns of 
women.
    As usual, most of our priorities continue to come under 
your jurisdiction. If I may, I would like to indicate something 
about the way we are operating this year, and the way we have 
focused ourselves on the issues.
    For the first time, the Women's Caucus will have and will 
announce a cohesive Women's Caucus agenda. That agenda will 
consist of bills that we think can actually pass this session, 
and issues that we believe need our priority attention. The 
Caucus will hold Women's Caucus hearings in order to highlight 
and focus some of the issues that are most important to us.
    To help focus us toward activism and not merely issues, and 
to attract greater participation from our own members, we have 
organized this year into teams which have bipartisan team 
leaders and which consist of lead members. There is a hunger in 
the Caucus among members to indeed embrace issues and be able 
to bring forward issues themselves. That is why we have 
organized this way, to give a broader array of our members the 
opportunity to showcase issues of importance to them and to 
their constituents and to women nationally.
    The team leaders and lead members are in the process of 
forming their priorities. However, to give you an idea of where 
we are headed, I would like to at this time simply go through 
what the teams are and say a word of two about the kind of 
issues that the teams will be looking at. These may not in the 
end be the precise issues, but they will tell you something 
about how we have focused.
    We are interested in expanding the Violence Against Women 
Act, which we think is having great success. An example of an 
issue that we believe needs attention is campus sexual assault. 
We continue to be particularly concerned about preventive 
health services for women. That would mean, among other things, 
expanding Medicare coverage, particularly to handle mammograms 
and pap smears more often than is the case today.
    There is national interest in what happens to children 
before they go to school in the years zero to three. We are 
interested in school readiness and educational child care to 
help more families have access to such child care.
    We are particularly interested in job training and the 
vocational education reauthorization. Because it is through 
these vehicles that women are able to expand into occupations 
previously closed to them. We are reviewing and celebrating 
Title IX on this, its 25th anniversary. We are particularly 
concerned about health care insurance reform. We have a special 
interest in juvenile justice and particularly in preventive 
programs.
    We are particularly concerned this year with women in the 
military, especially as these issues have become matters of 
national concern. We continue to focus on pensions and 
retirement benefits for women live longer than men, and 
increasingly, these issues are women's issues.
    Teen pregnancy is a priority for us. We recognize that $50 
million for abstinence only that was voted in the 104th 
Congress. We are very concerned about teens who are already 
sexually active and are at risk, and believe more needs to be 
done if we are serious about reigning in teen pregnancy.
    We have a special concern with the reauthorization of the 
Higher Education Act. Most non-traditional students are women. 
Women-owned businesses have begun to flourish in very large 
numbers. That issue is a major concern for us.
    HIV-AIDS is moving across group boundaries and increasingly 
becoming a very serious issue for women and people of color. 
The members who will be testifying today will be testifying 
about issues of special concern to them personally. My co-
chair, Nancy Johnson, will be testifying about Title X and 
another issue or two.
    The vice-chair of the Caucus is here, Carolyn Maloney, will 
testify about Title IX. The former Chair, or a past Chair of 
the Caucus, Connie Morella, will testify about domestic 
violence and osteoporosis. Eddie Bernice Johnson will testify 
about HIV-AIDS. Louise Slaughter will testify about genetic 
discrimination.
    Ellen Tauscher and Carolyn McCarthy will testify about 
breast cancer. Representative Woolsey will testify about child 
care. And Sheila Jackson-Lee will testify about violence 
against women.
    I am pleased to introduce Nancy Johnson, with whom I am 
happy to serve on the Caucus as co-chair.
    Mrs. Johnson of Connecticut. Thank you, Eleanor, and thank 
you very much, Congressman Porter and the members of this 
committee for the quality of the work you have been doing year 
after year to shape your portion of the budget in a responsible 
and balanced fashion. We know the task you are given, that is 
the total amount of money available for the needs that you deal 
with, is terribly limited, and commend you on the job that you 
do and are happy to work with you.
    I am going to keep my testimony as brief as I possibly can, 
because there are so many of us, and I know you had allotted 15 
minutes for this panel.
    Let me say two things. First of all, I strongly support 
Title X family planning dollars. I hope this committee will 
support the President's requested level of $203 million. For 
many women, these family planning clinics are the primary 
providers of health care, not only for contraceptive services 
and basic gynecological services, not only for screening for 
sexually transmitted diseases, including AIDS, but also for 
other such health problems as breast and cervical cancer 
screening, hypertension and diabetes.
    As we move more and more women off the welfare rolls, many, 
many of those women, probably the majority for at least the 
first two years of their working life, will work for small 
businesses that do not offer health care coverage. And they 
will not be able to afford it.
    Now, I hope we will pass this year legislation that will 
help us offer coverage to their children. These family planning 
clinics are going to be critical to the ability of women 
entering the work force to maintain healthy bodies and the 
strength to be both the economic and emotional prime mover in 
their families.
    I hope this year that we can stay with the President's 
projected, requested level, even though I know that is going to 
be a stretch in terms of other programs.
    Secondly, let me congratulate you on your really 
outstanding work in the area of funding NIH research in recent 
years. In this instance, I think the President's budget is 
inadequate. Last year, I was pleased to join Representative 
Lowey and Nancy Pelosi and Steny Hoyer and Rosa DeLauro in 
introducing legislation authorizing NIH to proceed with the 
Institute of Medicine recommendations on investment in clinical 
research, which is sometimes called translational research, 
through which basic science discoveries are translated into new 
methods of preventing and treating and curing diseases.
    That translational research in health care is very 
important, just as we have found in manufacturing, that getting 
that information out of universities and academia and onto the 
shop floor is very important. This is an area I think that 
deserves more of our attention.
    Equally important, pediatric research. You got a start on 
that last year. It is almost criminal how little we know about 
pediatric dosages for medications.
    And then of course, as we move forward on funding health 
research, while I understand the tension created by earmarks, I 
hope we will be able at least in report language to recognize 
the importance of continued progress on breast cancer research, 
Alzheimer's, Parkinson's, lupus and Lyme disease.
    Thank you for your attention, and I yield to my--oh, one 
last thing. I don't know exactly what control or jurisdiction 
you will have over the money that has been allocated in the 
President's budget to provide health insurance for uninsured 
children or health services for uninsured children. But should 
that come within your purview, I would be delighted to work 
with you on how to allocate it.
    Thank you.
    [The prepared statement of Congresswoman Nancy L. Johnson 
follows:]

[Pages 2031 - 2032--The official Committee record contains additional material here.]


    Mrs. Maloney. I am Congresswoman Carolyn Maloney from New 
York, and I am delighted to be here with my colleagues.
    I just wanted to mention very briefly, Mr. Porter, one of 
the projects that you have championed with this committee, 
Alzheimer's research, with grants to private sector, public 
sector research. There has been a major breakthrough at the 
Rockefeller Institute on Alzheimer's, and if it is upheld in 
clinical trials, it will put off the onset of Alzheimer's for 
15 years, basically curing the disease. It would not have 
happened without the support of this committee to it.
    Very briefly, I want to thank the committee for supporting 
the legislation that Mr. Ensign and I sponsored this year to 
provide for annual mammograms for women over 65 in Medicare. It 
is now part of the President's budget, and I hope you will join 
with the Women's Caucus to make sure that it is kept in that 
budget.
    Today I am really here to speak with my colleagues in 
support of Title IX. Last Congress, funding for Title IX 
enforcement services in all 50 State departments of education 
was eliminated by slashing appropriations for school 
improvement and training and advisory services under Title IV 
of the Civil Rights Act of 1964.
    Title IV funds had supported Title IX programs at the State 
level for two decades. Funding cuts have had a devastating 
impact on assuring equal opportunity and educational equity 
nationwide. We mark in 1997 the 25th anniversary. I have seen 
the results of Title IX first-hand. My daughter just won 
national competition in crew. My husband, she is going to 
England to compete internationally, in Henley, England, in 
June.
    Just this weekend, my husband had the nerve to say to me, 
how did Christina become such a good athlete? He said, I was 
not a good athlete and you were not a good athlete. I said, 
excuse me, how do you know I was not a good athlete. I was a 
good cheerleader, that was the only thing I could do, stand on 
the sidelines and cheer the great men forward.
    But all that has changed with Title IX, and women have the 
opportunity to compete in sports. All of you men and women who 
had that opportunity to compete in sports know what it means to 
you psychologically. If you could have seen my daughter's face 
when she got that gold medal around her neck, she will never 
forget it. It has a tremendous impact on peoples' self-esteem 
and how they see themselves, not to mention schools, 
scholarships, careers. All of us saw the ladies win the gold in 
soccer and basketball at the Olympics. Even though the networks 
did not recognize women and did not put it on television, they 
won the gold.
    Title IX really means absolutely nothing unless it is 
enforced. The enforcement money has been removed. Therefore, 
Title IX has basically been removed. TwentyStates have totally 
eliminated their equity offices, leaving no one responsible at the 
State level for implementing or monitoring civil rights programs and 
laws. That is a disaster.
    Let us not let this success story for young American women 
turn to failure because of reduced funding and lack of 
enforcement. I urge this committee to fully fund Title IV of 
the Civil Rights Training and Advisory Services, and the 
education budget and the $14.3 million requested in the 
President's budget to provide for the enforcement of Title IX.
    I ask to expand and extend my remarks. I have more things 
to say, but our time is limited. I thank you for listening to 
me.
    [The prepared statement of Congresswoman Carolyn Maloney 
follows:]

[Pages 2035 - 2036--The official Committee record contains additional material here.]


    Mrs. Morella. Thank you, Mr. Chairman and members of this 
very important subcommittee, for providing the opportunity to 
testify today on behalf of the Congressional Caucus for Women's 
Issues.
    We all understand the severe budgetary constraints under 
which you must make your decisions again this year. We know 
that you will develop a bill that is going to be fair and 
manages to fund critical programs despite limited funds.
    I have got to say that I do think this is a terrific 
subcommittee. Mr. Porter, I have elevated you to hero status. I 
think the edification, in terms of the feeling that you have 
for medical research and for all of the other elements, 
important issues that come under the jurisdiction of this 
subcommittee. Mr. Stokes, I feel that way about you, you have 
been very compassionate. My good friend, Nita Lowey, who was 
the co-chair in the previous Congress of the Congressional 
Caucus for Women's Issues. Nancy Pelosi, Rosa DeLauro. Of 
course, Mr. Miller, who does a good job on this side of the 
aisle, and we are very appreciative.
    I know that what you have done with NIH, which is in my 
district, is very commendable. I hope that you will continue to 
do the same thing. I am circulating a letter with many of the 
members of Congress signing on, asking that we certainly exceed 
what the President has asked for, which is the 2.6 percent 
increase for NIH, which is appropriate and would help.
    I want to comment very quickly on a number of issues. I do 
want to address women and AIDS. I have been involved with that 
since my first year in Congress, really. According to the 
latest numbers from the Centers for Disease Control and 
Prevention, AIDS continues to be the third leading cause of 
death among young women. While the overall number of AIDS 
deaths declined last year, the death rate for women actually 
increased by 3 percent, resulting in 20 percent of reported 
AIDS cases in adults.
    As was mentioned by the previous panel also, that 
obviously, every race is affected, but women of color have been 
particularly impacted. I want to point out, of particular 
importance to women is the continued funding for the 
development of a microbicide, a chemical method of protection 
against HIV and STP infection, a method which women can control 
with or without the cooperation of their partner. Continued 
funding also for the Women's Inter-Agency HIV study, the 
natural history study of HIV in women.
    So obviously, to address these priorities for women, we 
urge increased funding for prevention, research and care. I 
have been circulating a letter also among our colleagues asking 
that additional funding be provided. The subcommittee will be 
getting that letter later this month.
    I also urge increased funding for STD, the sexually 
transmitted disease prevention and treatment.
    Osteoporosis, this is really a major public health threat, 
for 28 million Americans who either have or are at risk for the 
disease. Osteoporotic fractures cost the Medicare program 3 
percent, 3 percent of its overall costs. We have made great 
strides in research and public education. But we need further 
basic clinical research.
    In addition, the Osteoporosis and Related Bone Diseases 
National Resource Center needs adequate funding to improve its 
outreach efforts and to implement its behavioral research 
fundings for adolescent girls and the frail elderly.
    Breast cancer. As this committee knows, women continue to 
face one in eight chance of developing breast cancer during 
their lifetimes. I know the committee will continue its 
commitment to breast cancer research, and urge the subcommittee 
to support the highest possible level of funding for fiscal 
year 1998, consistent with the request made by the National 
Breast Cancer Coalition.
    Finally on domestic violence, we urge the full funding of 
the Violence Against Women Act, which has provided lifesaving 
services such as shelters, counseling and victim services to 
women and their children. I want to thank this subcommittee 
particularly for funding that domestic violence hotline, which 
I sponsored and became part of the ViolenceAgainst Women Act, 
and hope that you will again give it the full $400,000 for fiscal year 
1998, to continue this lifeline for battered women.
    There are plenty of other issues, but I appreciate very 
much the opportunity to testify on behalf of the Congressional 
Caucus for Women's Issues before this subcommittee.
    [The prepared statement of Congresswoman Connie Morella 
follows:]

[Pages 2039 - 2043--The official Committee record contains additional material here.]


    Ms. Johnson of Texas. Thank you very much.
    Mr. Miller and Mr. Stokes and other distinguished members 
of the panel, I thank you for the opportunity to speak on 
behalf of the Women's Caucus on the critically important issue 
of HIV-AIDS and its devastating effect upon American women.
    The number of AIDS cases among women is swiftly increasing 
and growing more rapidly in women than in men. Women are the 
fastest growing population of HIV-infected persons, and the 
number of AIDS cases among women is doubling every one to two 
years.
    In some areas, such as New York, New Jersey and Puerto 
Rico, AIDS is the leading cause of death among women. 
Nationwide, HIV infection is the third leading cause of death 
among women ages 25 to 44. In 1994, African-American and Latino 
women represented 78 percent of all U.S. women diagnosed with 
AIDS. The majority of the HIV positive women are among the most 
disenfranchised segments of our society. Their needs are high, 
but their trust in social and medical services providers is 
low.
    Federal funding for biomedical and behavioral research is 
crucial in order to combat this devastating disease. I know 
full well the advantages of research. As I have said before, I 
am a cancer survivor. It was really because of having knowledge 
to get tests and getting surgery and then later realizing 
through knowledge that I became at risk for osteoporosis, and 
sought help early in that case. I truly believe in medical 
research. It is incalculable how much it has done, how many 
lives it has saved and how much suffering it has saved.
    The research priorities for HIV-AIDS must include studies 
that identify patterns of behavior and social conditions among 
cultural and age-based groups of women that determine their 
risk of infection. This is mostly a disease of ignorance. 
Serious focus must be placed on the issues such as power in 
various relationships, physical and sexual abuse, substance 
abuse and economic inequities between men and women.
    In fiscal year 1997, Congress provided welcome increases 
for HIV-AIDS research prevention and care. However, more is 
needed if we are to combat this ever-evolving epidemic and take 
full advantage of the medical advantages that are beginning to 
emerge.
    I urge this committee to support funding increases for the 
Centers for Disease Control and the National Institutes of 
Health. These agencies must receive the highest priority if we 
are going to find a cure for AIDS.
    So I commend President Clinton for his appeal to the 
scientific community to find a vaccine to prevent. I remember 
quite well giving polio vaccines. Now you rarely ever hear a 
about polio, all because of research and early intervention and 
prevention.
    The new AIDS vaccine research center at NIH will 
undoubtedly play a critical role in fulfilling this goal. In 
addition, I support legislation introduced by Representative 
Morella that ensures Federal support for the research on HIV-
AIDS and women. As a female member of Congress and a 
professional nurse, I am committed to preventing and finding a 
cure for HIV-AIDS.
    Through increased funding to the Ryan White program and 
prevention activities initiated by NIH and the Centers for 
Disease Control, I believe that the President's challenge to 
find a vaccine and eventually a cure will become a reality.
    I thank you very much for the opportunity to testify.
    [The prepared statement of Congresswoman Eddie Bernice 
Johnson follows:]

[Pages 2046 - 2047--The official Committee record contains additional material here.]


    Ms. Norton. With apologies to the other members, Ms. 
Jackson-Lee says she is managing a bill in 10 minutes. With the 
permission of others, I would then say that she should go next, 
unless someone else has a priority of that kind.
    Representative Jackson-Lee.
    Ms. Jackson-Lee. I thank the Chairman very much, and I will 
summarize my remarks. I would ask unanimous consent to have my 
statement given to you or submitted in the record.
    Let me thank the members of this committee for their 
extensive patience and interest in these issues. Let me thank 
the Women's Caucus for the diversity of issues that it has 
expressed, and also if I might associate myself with the 
presentation of the Congressional Black Caucus as well.
    To ranking member Stokes, and members, let me comment very 
briefly on domestic violence. You have already heard very 
forceful presentation of the need for continued funding. Might 
I just cite, in my home State of Texas, there were 163,223 
instances of domestic violence in 1994 alone, with 154 Texan 
women being murdered by their intimate male partners.
    Just this past week on the front page of our newspaper was 
a story of a mother and son who had to flee. Fortunately, of 
course with one of the programs that was established in Texas, 
they were able to regain their stability and their independence 
and their safety.
    The tragedy of domestic violence is compounded by the 
impact of the violence with victims' children. Domestic 
violence is witness by the victims' children approximately 80 
percent of the time. In addition, the children of domestic 
violence victims are in danger of being abused themselves. A 
1988 report on the relationship between wife beating and child 
abuse estimated that 70 percent of men who abuse their female 
partners also abuse their children.
    One very sad story comes to mind, of a very hard working 
person who worked for our Harris County Government. She had two 
very attractive daughters, both in college, and had an abusive 
situation of which she was contemplating fleeing. Tragically, 
she did not have the resources to leave soon enough. Not only 
was she murdered by her spouse, but he also murdered the two 
very attractive daughters. These are real life stories.
    I would ask this committee to continue the essential 
funding of educating and providing services to our Nation's 
youth to intervention programs, particularly the Center for 
Disease Control's education and prevention grants to reduce 
sexual assaults against women and the sexual abuse and runaway 
youth program.
    I would ask as well for full funding of the Violence 
Against Women's Act community program administered by the 
Center for Disease Control, help strengthen and coordinate a 
community-wide response to domestic violence. I can assure you, 
in our local communities, we have benefitted from that funding.
    Finally, I come to an issue that is perhaps one of the most 
disturbing, and that is the lack of shelters. Your funding of 
those local efforts in establishing more shelters, so that more 
women with their children have the opportunity to flee those 
abusive circumstances and avoid the tragedy of death, maim, and 
the destruction of their family life as we would like to see 
it, as well as the child, either physically or psychologically. 
If there is ever a great need in communities, it is that safe 
haven to flee to.
    With that, I want to thank the committee for its 
leadership, and thank the Chairwoman and the Co-Chair of this 
Caucus and the members for their indulgence.
    [The prepared statement of Congresswoman Sheila Jackson-Lee 
follows:]

[Pages 2050 - 2056--The official Committee record contains additional material here.]


    Ms. Slaughter. Thank you very much.
    Good morning. I think everybody is looking pretty chipper 
up there, considering the small amount of sleep we had.
    It is always a pleasure to come before this subcommittee, 
because you do extraordinarily good work, and you are very 
attentive to what we are talking about. Over the years, I think 
we have managed to work very closely together, really making a 
difference in health in the United States.
    I want to talk a few minutes this morning about the 
importance of basic biomedical research and how critical it is 
to our advances in human health. I am a microbiologist with a 
masters in public health, and most of my adult life has been 
occupied with concerns about health. The kind of research that 
we are talking about is often easy for us to oppose or to 
overlook, because we cannot always see far enough ahead to 
determine precisely what that research is going to yield. It is 
absolutely vital to our efforts to improve human health that we 
invest in it.
    One of the biggest investments that we have made and I 
think is yielding most results is the human genome project. 
When it was conceived and begun, the scientists did not even 
have the technology or the techniques yet to do these certain 
kinds of gene mapping. Yet as we see every day, an advance 
comes out, new ideas about our genes and who we are, and what 
we can do about it, too.
    These tools were developed as the research progressed, and 
just look at the advances that it has yielded in recent times.
    I am particularly supportive of women's health research. By 
this I mean not only research on disorders specific to women, 
but also the ways that disease affects men and women 
differently. For example, the concept of gender specific 
biology is only a couple of years old, but has already gained 
wide support. We are learning that men and women are not only 
different because of their reproductive systems, but that our 
biology is often fundamentally different, and that women are 
not just little men.
    The offices of women's health throughout HHS are doing 
critical work to advance the gender specific biology and to 
ensure that women's health is not left behind as it was in the 
past, as recently as the 1980s, as a matter of fact, when we 
discovered that very little research was done on us.
    I urge the subcommittee to fully fund all of the offices of 
women's health, and women's health coordinators, throughout the 
Department of Health and Human Services. We have made great 
advances, I think, already in the areas of breast cancer, 
cervical cancer, and ovarian cancer. We still have a very long 
way to go.
    Further, I would like to importantly urge the full funding 
for the National Center for Human Genome Research,where Dr. 
Francis Collins is helping to change the entire face of medicine. 
Genetic research will yield the most important advances in the history 
of human health.
    I also hope that Congress will pass the genetic anti-
discrimination legislation so that research will continue 
without any fear of the person who is the research subject 
losing their health insurance. I am proud to have numbers of 
this panel and numbers of people on the subcommittee as 
sponsors of that bill.
    I want to be very brief, but I would like to ask 
permission, Mr. Chairman, if I may, to put my entire remarks in 
the record.
    Let me close by saying that basic research is the life 
blood of medical advances. I know that this subcommittee 
acknowledges that fact and tries in every way to fully fund the 
Federal Government's medical research efforts. It is critically 
important that we not stop that. Research, unlike a lot of 
other things that we do, cannot be turned off and on like a 
faucet. It is critically important for the health of the this 
country that we maintain our efforts and our edge in health and 
basic research at the NIH, and support it in every way that we 
can.
    I thank you for your attention and your support.
    [The prepared statement of Congresswoman Louise Slaughter 
follows:]

[Pages 2059 - 2061--The official Committee record contains additional material here.]


    Ms. Tauscher. Thank you. Mr. Chairman, I would also like to 
thank you for the opportunity to come here and speak today. I 
am Ellen Tauscher from northern California. Mr. Stokes, I want 
to thank you also for your leadership.
    I want to particularly focus on two very special people on 
the panel, Ms. Pelosi, who has shown extraordinary leadership 
and generosity for the women of California and the Nation, for 
her hard work on women's and children's issues, and Mrs. Lowey, 
especially for the kindness that she has shown to many of the 
new members, the women members. Your leadership is very 
important to us.
    As one of the five women members of the Women's Caucus from 
the San Francisco Bay Area, I would like to speak to the 
committee about the need for increased funding for breast 
cancer research. I ask unanimous consent that my full testimony 
be inserted in the record.
    This year, 185,000 American women will be diagnosed with 
breast cancer, and 46,000 women will die from it. As a founding 
member of the board of the Breast Cancer Fund, I know that the 
San Francisco Bay Area has one of the highest incidence of 
breast cancer in the world, not just the Nation, but the world. 
As a business woman, I recognize that increased research 
funding is an investment we cannot afford to overlook. Breast 
cancer costs this Nation approximately $6 billion annually in 
medical costs and lost productivity. And no figure, no figure 
at all, can measure the impact of lost lives.
    Not surprisingly, the breast cancer research and advocacy 
community in the Bay Area leads the Nation in the creation of 
innovative strategies for research, treatment and prevention 
methods. Combine the region's high incidence rate and the 
excellence in ongoing interdisciplinary research with the broad 
ethnic, economic and geographic diversity of the Bay Area, and 
I believe we can agree that the Bay Area provides an excellent 
laboratory for fighting breast cancer and enhancing the current 
NCI breast cancer portfolio.
    We as a Nation cannot stand by as more of our friends and 
family members develop breast cancer. The Women's Caucus is 
committed to working with the committee and the National Cancer 
Institute to defeat this killer of American women.
    Mr. Chairman and members of the committee, I thank you 
again for inviting the caucus to testify today on behalf of all 
women in America, and especially their family members. If I can 
provide any additional information about this issue, and the 
opportunities available in the San Francisco Bay Area, please 
let me know.
    Thank you very much.
    [The prepared statement of Congresswoman Ellen Tauscher 
follows:]

[Pages 2063 - 2065--The official Committee record contains additional material here.]


    Mrs. McCarthy. Mr. Chairman, ranking member, subcommittee, 
I thank you for the opportunity to testify in support of the 
increased funding for breast cancer research.
    I am also new here, but unfortunately, we are probably 
fighting for cancer research dollars, because even where I come 
from, on Long Island, we are told we have the highest rate of 
cancer in the country, on Long Island.
    I am going to take it on a little bit different way, 
though. I would like to speak out on an issue that is a top 
priority for my constituents in Nassau County, and even though 
I represent the Fourth Congressional District, I feel I 
represent the women of all of Long Island, certainly all of New 
York State, the potential link between the environment and 
breast cancer. Increasingly, the scientific community believes 
that there may be a strong connection between our environment 
and the incidence of breast cancer. After all, the breast 
cancer gene accounts for only 10 percent of all breast cancer 
cases.
    Furthermore, incidence of breast cancer are 
disproportionately higher in some geographical areas. 
Unfortunately, this is especially true on Long Island, where we 
experience a much higher incidence than the rest of New York 
State. In 1993, Congress authorized NIH to conduct the Long 
Island Breast Cancer Study, because of the high rates of 
incidence in Nassau and Suffolk Counties. An important part of 
that study is the assessment of environmental risks as they 
relate to breast cancer.
    Results of the study will be available by the end of 1998. 
Not only will this study provide important insight regarding 
the link between our environment and breast cancer, it will 
also establish an important data base of information for future 
studies.
    Mr. Chairman, the possible link between our environment and 
breast cancer is one of the foremost concerns of my 
constituents. I strongly urge the subcommittee to appropriate 
funds to NIH for the purpose of furthering our understanding of 
this deadly connection.
    I would like to add some side remarks, to the point of, as 
a woman and as a nurse, we were doing great strides in breast 
cancer. I know when I examine myself every single month, the 
fear of finding cancer is always there. Even more so when you 
go every year for your mammogram. As a nurse, I know how 
important it is, and yet, I dread going for my tests.
    When you look at women and you talk to young girls and you 
try to explain to them how important it is, they ignore it or 
they forget about it. It is so important for us to certainly 
find a cure for cancer. Because unfortunately, a lot of people 
put their heads in the sand, it is not going to happen to me. 
Well, unfortunately, what we are seeing areyounger and younger 
women having cancer. It not only affects just the woman, it affects the 
family, it affects the community. It is something that we certainly 
have to get a hold on and find a cure for.
    I thank you, and I would like to extend my extended remarks 
to the committee. Thank you for this opportunity to work with 
the Caucus.
    [The prepared statement of Congresswoman Carolyn McCarthy 
follows:]

[Pages 2067 - 2068--The official Committee record contains additional material here.]


    Ms. Norton. Mr. Chairman, I simply would like to conclude 
by thanking, and I am sure that you will convey to Chairman 
Porter, by thanking him and the ranking member for the 
extensive work they have done through these tough budget years 
to salvage the priorities of women and families. We appreciate 
just how difficult it has been, and recognize that if anything, 
it is yet tougher.
    We urge you this year to use the same adroitness that you 
have used in prior years to focus on and to emphasize these 
very important priorities that we think fairly represent the 
priorities of women in this country.
    Thank you very much, Mr. Chairman.
    Mr. Miller [assuming chair]. Thank all of you for 
testifying today. There are some very, very important issues 
that this committee addresses each year. We appreciate the 
recognition and the support that these issues need.
    As a fiscal conservative, one area I feel very strongly 
supportive of is biomedical research. I am very frustrated that 
it is not getting the support in the budget we passed yesterday 
and in the President's budget. He recommended a 2.6 percent 
increase this year for NIH. That is not enough to cover 
inflation. You want to put more into there.
    If you want to put more into there, you are talking about 
taking it from some other worthy cause. This committee is faced 
with some very tough choices as we move through the process 
this year.
    Thank you very much for bringing your attention and 
support. Let me before you leave call on Mr. Stokes.
    Mr. Stokes. Thank you, Mr. Chairman.
    I would just like to take a moment and commend Ms. Eleanor 
Holmes Norton and this panel of women who have appeared before 
us here this morning. Excellent testimony that you have given. 
It is some of the finest testimony we have heard this year.
    I might just make the observation, we are privileged on 
this subcommittee to hear from that side of the table some of 
the finest witnesses in the world, professors, top physicians, 
surgeons. In fact, once or twice a year, the Chairman brings in 
nine Nobel laureates, who sit in the very same chairs where you 
sit. I can say to you that no panel of witnesses that appear 
here have done a more impressive job than you have done this 
morning on these issues.
    Lastly, let me just say to you that you are very fortunate 
to have serving on this subcommittee Nancy Pelosi, Nita Lowey, 
and Rosa DeLauro. They are relentless advocates on each of the 
issues that you have testified to here this morning. You would 
be very proud if you would see them in a markup, at the manner 
in which they represent women in this country. It is a real 
honor to serve with all of them.
    Mr. Miller. Ms. Pelosi.
    Ms. Pelosi. Thank you, Mr. Chairman.
    I want to join Mr. Stokes and others in commending the 
Congressional Caucus on Women's Issues for your fine testimony 
today. Mr. Stokes is right there in the trenches with us when 
we are making that fight, you can be sure.
    Once again, the Women's Caucus has lived up to the 
tradition that has been established in this House of leading 
the way and bringing informed, well researched leadership 
testimony to this committee. I think that accounts for a large 
amount of the success that Nita and I and Rosa and others are 
able to sell what you bring us. The breast cancer issue, I am 
so pleased with the emphasis on AIDS among women and domestic 
violence, basic biomedical research, the entire litany. Every 
single one is a high priority.
    Again, the Women's Caucus was the first to mobilize in this 
way. Chairperson Norton has carried on that tradition, and I am 
grateful to you for your leadership. Also, you have served as a 
model to the rest of the Congress about how to be effective. I 
am so glad it is on these very important issues.
    Sharing the Bay Area representation with Congresswoman 
Tauscher, and your having Nita here, we unfortunately have this 
battle with statistics, which no one wants to win, about who 
has the highest rate of breast cancer. Suffice to say that with 
Chairman Miller and Mr. Stokes, we were down at CDC and talked 
to the environmental sciences part of CDC about doing some 
separate kind of research that talks about the environment and 
the incidence of breast cancer. We have put that in motion. It 
is just a question of financial resources.
    Thank you for making it a priority in your testimony, so 
that we can make it in our bill. Thank you again for your 
leadership and your fine testimony today.
    Mr. Miller. Mrs. Lowey.
    Mrs. Lowey. Thank you, Mr. Chairman.
    I want to add my appreciation to Chairman Norton andthe 
members who testified. I just want to emphasize once again that I feel 
privileged to serve on this committee. But each and every one of you is 
a voice with the power. You are the energy that help us get those 
dollars. If it were not for the Caucus and the mobilization of the 
other members on these key issues, we could not succeed.
    Certainly on breast cancer, I remember when we came to the 
committee. Women's health? What was women's health. No one had 
ever heard of women's health. There was $90 million in breast 
cancer, there was no Office of Women's Health. This year, we 
are going to push it above $500 million and also get money in 
the Department of Defense budget. We can not get their money 
here, so we are going to put some breast cancer research there.
    Domestic violence, I remember when we were pushing for the 
$400,000 hotline, we had difficulty pushing for the hotline. In 
fact, the problem was, people would call the hotline and they 
would say, oh, we can not refer you to any place, because you 
remember, there were no programs. We had to battle over the 
programs.
    Eddie Bernice Johnson, and osteoporosis, too many women out 
there do not even know that they should be taking bone density 
tests. Eddie Bernice Johnson has done an extraordinary job of 
educating us.
    Whether it is on biomedical research, whether it is on 
domestic violence or AIDS, and certainly my colleague Nancy 
Pelosi has been the leader on that issue. But I would hope that 
because of the energy and the organization of the Caucus 
working with wonderful colleagues like Mr. Stokes and Mr. 
Miller and our Chairman, we can really put an end to these 
diseases.
    Certainly when it comes to breast cancer, with the focus at 
the National Breast Cancer Coalition and the money that is 
being directed towards research, let us hope, Carolyn, that we 
can have new sources of detection, that we are not depending on 
just mammography. Because we understand that so many women look 
in that mirror and they are not saying if, but when. There 
should be more accurate sources of detection.
    So thank you, thank you so much for your kind words, thank 
you for your generosity. We are delighted to work with you to 
achieve our goals together. Thank you.
    Mr. Miller. Thank you.
    One comment. We are so proud of what has happened in 
biomedical research, if you all have not visited NIH, you 
should schedule an afternoon to go out there. You would be so 
impressed with it. The human genome project that was spoken 
about earlier, the National Cancer Institute or what is going 
on in AIDS research, it is really something to be proud of, 
that the Federal Government does great work.
    So thank you for bringing your attention and support. Thank 
you very much.
                              ----------                              

                                           Wednesday, May 21, 1997.

                                WITNESS

HON. ELIZABETH FURSE, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    OREGON
    Mr. Miller. Representative Furse, welcome.
    Ms. Furse. Thank you. It has been a great privilege to 
listen to the testimony.
    Mr. Chairman, I am going to take a very short time. I am 
going to ask that you would take my whole statement. What I am 
here to do is testify on some issues that are incredibly 
important to the educational community and for both my district 
and for America. I want to just run through the list of the 
programs that really affect us and our education facilities.
    As you know, and as in many States, Oregon has been facing 
cuts at State level and at local level and our Federal funding 
becomes more and more important to us. Certain programs that we 
think make the great difference.
    The first is Head Start. Head Start does not just help the 
children, as you know so well. Head Start helps the whole 
family. There are examples after examples of children and 
families who because of being part of Head Start have improved 
their conditions and their futures. I think that full funding 
of Head Start is first and foremost on my list.
    As a new grandmother, I realize that I am looking at the, I 
get this in wherever I speak, I have pictures----
    [Laughter.]
    Mrs. Lowey. If the gentlewoman would yield, you have two 
other new grandmothers.
    Ms. Furse. Even more reason, then. What I see is, I think 
of Benjamin's future, I think we need schools that work but 
also schools that are safe, that are well constructed. I am 
very much in favor and support of full school construction. I 
hope that we will be able to do something about that, and to 
help make our schools once again what they once were, which was 
really an example to the world.
    In my district, we have a very, very successful program, 
TRIO. Four of the five TRIO programs that are in Oregon are in 
my district. We serve 3,700 students in Oregon. TRIO is very 
important in building the whole person. I would hope that we 
would be able to once again fund TRIO and try and get it in 
every community. It will be of great benefit.
    We know that training makes the difference. As we talk 
about moving people from welfare to work, it is an empty 
promise unless there is the training there to move them. And in 
Oregon, in my district, we have a very successful Job Corps 
program, 700 students participate in that Job Corps program, 
and 80 percent of them go on to jobs. It makes the difference.
    Of course, financial aid means access. In 1986, students at 
Portland State, borrowing since 1986 increased from $7.7 
million to $34.5 million. The need for student loans and 
financial aid is enormous. Obviously, the Perkins loan is just 
vital to kids who need that help, who comes from families that 
do not have enough money to support education.
    Pell Grants, I hope this committee will support the raising 
of Pell Grants to the $3,000 limit. It makes all the 
difference.
    The last thing I want to touch on is the whole issue of 
libraries. Libraries and access to libraries are the enormous 
difference for people, particularly in rural areas. We in 
Oregon have a program called Portals, which is the Portland 
area library system and our university is able to get that 
electronic library to all across the State. I hope that we will 
continue to find your support in that program.
    As I say, I am touching just on some of the most important 
issues. I do not want to take too much of your time. I do hope 
that you will be able to accept my full testimony. I want to 
thank you all for the opportunity to be here and to testify 
each year on these programs that make the difference between 
success and failure in our families and in our communities.
    Thank you, Mr. Chairman.
    [The prepared statement of Congresswoman Elizabeth Furse 
follows:]

[Pages 2073 - 2076--The official Committee record contains additional material here.]


    Mr. Miller. Thank you. As you mentioned, so many different 
programs that are under this committee, you understand the very 
tough choices we have to make when we have a limited size pie.
    Did anyone else wish to make a comment?
    Mrs. Lowey. I, too, want to thank our outstanding 
colleague. You understand the difficulties that we face in this 
committee. You just heard the panel before talking about the 
critical needs that the Caucus has been advocating for so very 
long. Education, we as mothers and grandmothers, we are glad 
the country has caught up with what we have known all along, 
that this is one of the key investments we have to make.
    I just want to assure you that we will be advocating for 
the concerns you expressed. We thank you for all the efforts 
you have brought to these issues. Thank you.
    Mr. Miller. Mr. Stokes.
    Mr. Stokes. Thank you, Mr. Chairman.
    As a grandfather----
    [Laughter.]
    Mr. Stokes [continuing]. Of seven wonderful little 
grandchildren, I just want to say to you that your testimony 
here this morning is so important. Because the kinds of issues 
you have raised are issues with which we grapple. Particularly 
when it comes to marking this bill up, we have all these 
competing interests and priorities. When you are trying to do 
the right thing by the American people, it is a very difficult 
task.
    It helps us to have somebody come in and help us understand 
the priorities with reference to some of these issues. I 
appreciate very much your testimony. We also appreciate your 
vote last night for the Congressional Black Caucus Budget.
    Ms. Furse. It was a privilege to be able to do that.
    Mr. Stokes, I think that what you deal with in this 
committee are real national security issues. If there is any 
national security in this country, it is in our education and 
in our health.
    Mr. Stokes. Thank you.
    Ms. Pelosi. Mr. Chairman, if I may associate myself with 
the remarks of my colleague regarding Congresswoman Furse's 
presentation today. Thank you for your excellent testimony. 
Your constituents are indeed well served.
    This is member's day. We have had good participation. It is 
a fortunate district indeed when its member of Congress takes 
the time to come make the presentation, but more importantly do 
the research, make those issues a priority which are of concern 
to the district and to our country.
    I thank you for being here and commend your constituents 
for their wisdom in sending you here.
    Ms. Furse. Thank you for the opportunity.
    Mr. Miller. Thank you very much for your testimony.
    We will adjourn until 10:00 o'clock tomorrow morning.

                            ----------

                                            Thursday, May 22, 1997.

                                WITNESS

HON. PETER VISCLOSKY, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    INDIANA

    Mr. Porter. The subcommittee will come to order.
    Let me apologize to all of you for being late this morning. 
We will begin with Representative Peter Visclosky of Indiana. 
Peter, it is good to see you. I apologize to you.
    Mr. Visclosky. Thank you, Mr. Chairman. Mr. Chairman and 
Mr. Stokes, I understand that my entire statement will be 
entered in the record, if I could simply summarize.
    I appreciate the opportunity to testify before you. I have 
four requests in my written statement, three of which I would 
acknowledge at this point.
    The first is for $1.54 million for an appropriation to the 
Genesis 21 school reform plan for the City of Gary, Indiana. 
Genesis 21 is a Gary Community School Corporation's strategic 
plan for systematic school and community improvement.
    Gary, as you know, is a city ravaged by crime, drugs, and 
unemployment. The Gary city police estimate that 1 out of every 
14 city residents is a gang member, and the city has led the 
Nation 3 out of the last 4 years in murder per capita. Drastic 
measures are necessary.
    My second request is for $1.5 million for an appropriation 
to start up a virtual library system throughout the Ivy Tech 
State College system in the State of Indiana. These funds would 
purchase computer equipment, software, and pay for the 
associated installation costs.
    My third request is also for $1.5 million again for the Ivy 
Tech State College system in the State of Indiana for an 
innovative distant classroom network for its 22 campuses.
    With that, knowing that I will receive the committee's 
serious consideration, I appreciate the time this morning, Mr. 
Chairman.
    [The prepared statement of Congressman Peter J. Visclosky 
follows:]

[Pages 2080 - 2082--The official Committee record contains additional material here.]


    Mr. Porter. Thank you, Mr. Visclosky.
    Mr. Stokes, any questions?
    Mr. Stokes. No questions, just to say we appreciate Mr. 
Visclosky's appearance.
    Mr. Porter. Thank you, Peter.
    Mr. Visclosky. Thank you.

                              ----------                              

                                            Thursday, May 22, 1997.

                                WITNESS

HON. WALTER CAPPS, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CALIFORNIA

    Mr. Porter. Representative Walter Capps of California. Good 
morning. I apologize to you for being late.
    Mr. Capps. That is all right. I appreciate it. I, too, will 
try to make my statement as brief as possible and will submit 
the longer statement for the record.
    Mr. Chairman, I am here for two reasons: One, to urge full 
funding of the National Institute of Health (NIH), and then 
secondly, I would like to highlight an issue for which NIH 
oversees research, and that is ALS or Lou Gehrig's disease.
    I want to tell very quickly a story that explains how I got 
involved in this. About a year ago, I was in a near fatal car 
accident. During the therapy time, I went to the Rehabilitation 
Institute in Santa Barbara and my chief therapist, morally, 
spiritually, was a young man named Tom Rogers, who was the 
county supervisor in Santa Barbara County, who is suffering 
with Lou Gehrig's disease. It was a poignant time for me 
because while I was getting better and he was cheering me on, 
he was getting worse.
    At the end of the time when I could learn how to walk again 
after breaking my legs and nearly having to have my arm 
amputated, about three months of wheelchair time, he brought 
his tennis shoes, walking shoes to the therapy room and said 
``I will not be using these anymore, I would like for you to 
have them.'' So when I campaigned for a two month period from 
Labor Day till voting time, I wore those shoes everyday. I told 
Tom at the end of that time I would do what I could for him. We 
are having a ceremony tomorrow night in Santa Barbara because 
May 23 is one year from the time of that accident. I do not 
want to be too melodramatic here, but Tom I think is going to 
be there in his wheelchair.
    So my plea is that there can be some advances in research 
on ALS. If we get the appropriate funding for NIH, I would hope 
that aspect of their work could be identified and emphasized, 
because I think there are some very important research 
discoveries that probably at this point do not lead to a cure 
but advance progress toward a cure, and, Mr. Chairman, that is 
why I am here. I appreciate the time of the committee.
    [The prepared statement of Congressman Walter Capps 
follows:]

[Pages 2084 - 2085--The official Committee record contains additional material here.]


    Mr. Porter. Walter, let me say that we will do our best for 
Tom and for you. If you mean by full funding of NIH the 
President's request, we hope to do better than that.
    Mr. Capps. I appreciate that.
    Mr. Porter. We think the President has underfunded NIH this 
year. We hope that we can provide more of an increase so that 
we can put more funds into research and help people like Tom.
    Mr. Capps. Mr. Porter, thank you so much, and Mr. Stokes.
    Mr. Porter. Thank you.
    The committee will stand in recess.

                              ----------                              

                                            Thursday, May 22, 1997.

                                WITNESS

HON. DIANA DeGETTE, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    COLORADO

    Mr. Porter. The subcommittee will come to order.
    We are pleased to welcome our colleague, Diana DeGette, 
from Colorado.
    Ms. DeGette. Thank you, Mr. Chairman. I am happy to be here 
before this subcommittee for the first time, and I am happy to 
testify about something that I feel pretty strongly about--
additional funding for the ``We The People'' civic education 
program.
    This is kind of a pet project of mine because for many 
years in Denver, Colorado, I was a volunteer coach for the East 
High School ``We The People'' program. This team has been in 
the finals seven times, they won the program competition in 
1992. This year they came to Washington and won Honorable 
Mention by placing in the top ten again.
    The reason I am such a fan of this program is by having 
intimate personal involvement with a bunch of high school kids 
over the years who are working on this civic program, I have 
never seen a program which imparts the knowledge of our 
Government and our Bill of Rights more than the ``We The 
People'' program. The kids that go through this program--and I 
am sure this is true nationwide--have an extraordinary 
knowledge of our Constitution and of our governmental system, 
the likes of which I have never really seen before.
    So, I am here to urge the subcommittee to fund the ``We The 
People'' program at a $5.5 million level. I think thatif more 
of our kids could go through a ``We The People'' program, both in 
middle school and high school, and the $5.5 million is $1 million more 
than the program was funded last year so we can begin to target middle 
school kids, we will begin to solve the problem of a cynical electorate 
and I think that we will come close to beginning to put back into our 
curriculum the kinds of civic education our kids need to get.
    ``We The People'' provides an excellent opportunity for 
students to gain perspective on the significance of the U.S. 
Constitution and its place in history as well as its relevance 
in our lives today. Just as an aside, some of the current 
issues that these kids discuss in the competition and relating 
both the Constitution and the historical application to 
contemporary issues really make the Constitution live for these 
kids. The program helps students in learning about the 
fundamental challenges of democratic citizenship through 
exciting and innovative approaches like the simulated 
congressional hearings.
    I could go on and on, and my staff has provided a lengthy 
speech here which I would like to submit for the record, but 
let me just say this program really is extraordinary. I have 
got first-hand experience to see that a $5.5 million investment 
will be more than worth its weight.
    Thank you for the opportunity to testify. I appreciate the 
committee's time.
    [The prepared statement of Congresswoman Diana DeGette 
follows:]

[Pages 2088 - 2090--The official Committee record contains additional material here.]


    Mr. Porter. Do you happen to know what the President 
suggested in his budget?
    Ms. DeGette. I do not know what he is suggesting in his 
budget, Mr. Chairman.
    Mr. Porter. Well, I can find out.
    Ms. DeGette. But we can find out. I know that the program 
itself is asking for $5.5 million versus the $4.5 million from 
last year so that they can expand to the middle schools, which 
I think would be a great idea.
    Mr. Porter. We very much appreciate your telling us how 
good the program is. Everybody has taken someone else's seat. 
Do you have Pat Schroeder's district?
    Ms. DeGette. Yes. Right. Yes, I do. For many years in 
Denver, before I was in the State legislature and then this 
seat, I was a practicing attorney which is how I got involved 
with the ``We The People'' kids. It is just a great program.
    Mr. Porter. Thanks so much.
    Ms. DeGette. Thank you. Take care.

                              ----------                              

                                            Thursday, May 22, 1997.

                                WITNESS

HON. JAMES P. MORAN, A REPRESENTATIVE IN CONGRESS FROM THE COMMONWEALTH 
    OF VIRGINIA

    Mr. Porter. We are pleased to welcome our colleague, Jim 
Moran of Virginia. Jim, good to see you.
    Mr. Moran. Thank you, Mr. Chairman. How are you feeling? 
You look fine from there.
    Mr. Porter. I am okay when I am sitting down.
    Mr. Moran. Mr. Stokes. Very nice to see you both. Thanks 
for giving me an opportunity to testify.
    Last year, I talked about the need for pediatric research, 
and you included language in the appropriations bill that 
required that NIH do a survey of the way in which they were 
addressing the research needs of children. You also included $5 
million within the Office of the Director to fund a Pediatric 
Research Initiative, so that it focused on pediatric 
therapeutics, asthma, developmental abnormalities, and so on. I 
appreciate your having done that a great deal. Really, what it 
did was what I know you hoped it would, is to give more focus 
to children's research within NIH. We need to continue that 
focus, in my estimation.
    We spend less than three cents of health care dollar in 
medical research--I bet there has been a thousand witnesses 
that have told you that--and we spend only a tiny fraction of 
that on pediatric research. But one of the problems in doing 
that is that children have a very different composition than 
adults. Children are full of growth cells that adults are not, 
yet we do all our testing on mature adults and not onchildren 
who are far more vulnerable to a lot of toxics, to drugs, and so on.
    In fact, 80 percent of the drugs that we prescribe for 
children have never been tested on children and they are not 
approved by the FDA for pediatric use. Yet, we prescribe them 
because there are no clinical trials that have determined what 
the effects might be. So we really operate much on guesswork 
rather than science in terms of the way we deal with children. 
To some extent, we are using them as an ongoing clinical trial. 
If they start getting sick and enough doctors report it, then 
they adjust the drug. But we do not have the clinical trials 
that would give us more assurance.
    I think we need more collaboration between NIH and EPA. We 
have found now in the last 20 years there has been a 47 percent 
increase in children's cancer. It goes up every year by a 
little bit, but every single year. The estimate is that 85 
percent of children's cancers are environmentally caused. There 
is something that they touched, perhaps playing on a field that 
had just been sprayed, and they even spray school fields with 
pesticides, weed killers and so on, or something that they ate, 
or drank, or breathed in. That is what is causing this 
children's cancer. It is lethal. Once you get to the age of 8 
then it stops, because they are encountering it when they are 
full of growth cells, and then it starts again after the age of 
65.
    So it would be helpful to have that kind of tie-in with 
EPA. Well, I have got a lot of good rhetoric here, I will put 
all of that in for the record. But that is the principal point 
that I want to make is about the fragility of their systems and 
the importance that we are finding that the environment has on 
real threats to their vulnerability.
    We introduced a Pediatric Research Initiative and we called 
for funding pediatric research at $60 million in fiscal year 
1998, and then it goes up to $75 million the next year, and 
$100 million in fiscal year 2000. We think that is a fair 
allocation. It sounds like a lot of money, and certainly while 
we are dealing within the context of a budget resolution it is 
a lot of money, it is not a lot of money in terms of our total 
research effort. So we ask for that Pediatric Research 
Initiative and I think some of the money is probably being 
spent in other areas but perhaps not with the focus on 
pediatric research. If we did the kind of collaboration we are 
talking about, it probably does not have to be all new money.
    Hospice care for children is the second thing I would like 
to mention. The hospice benefit under Medicaid is based on an 
adult model and it precludes coverage of children's services. 
In many ways, we need more age-appropriate medical and also 
technical assistance. So allowing regulations for coverage of 
hospice services that specifically meet the needs of children 
and their families will not result in any additional funding, 
but right now it is precluded and because of this increase in 
children's cancer and other--children's cancer is now the 
second largest cause of death among children after accidents.
    We have had an opportunity to see these families that need 
hospice care and our funding system is a major problem for 
allowing that hospice care. There is really no reason to be 
excluding them. I think it is just an oversight, something that 
we need to catch up with. Payment for those cost-effective 
services could be shifted from what are more costly 
expenditures of hospital readmissions. That is where kids are 
getting their hospice care, they are going into hospitals and 
they do not need to be going into the hospitals in some cases.
    We have report language that we would ask that be included 
to address hospice care for children. I do not think anybody is 
really going to have a problem with it. I think the staff has 
it and we will certainly leave it with them. It just addresses 
the needs of children through age 18. We are not talking, as I 
say, about any more money.
    Those are the two things, pediatric research and hospice 
care for children, that I would ask some consideration. You are 
doing so many great things and I join with so many of my 
colleagues in raising other priorities. I appreciate the good 
work that all the members on both sides are doing in this area. 
Thank you, Mr. Chairman.
    [The prepared statement of Congressman James P. Moran 
follows:]

[Pages 2094 - 2099--The official Committee record contains additional material here.]


    Mr. Porter. Jim, have you been down to NIEHS and seen Ken 
Olden and talked to him about these things?
    Mr. Moran. Yes.
    Mr. Porter. You have?
    Mr. Moran. Yes. We have talked with the National Institute 
of Environmental Health Sciences. They are consulting with EPA 
and they are doing good things. One of the things they really 
need, and I'm not telling you anything you do not know, is more 
epidemiological studies to find out what is going on and to be 
able to address some of these clusters. After the visibility 
that our daughter's illness caused, a woman from a little place 
in Jewel, Iowa, called, her name was Kerri, she had exactly the 
same thing. But she said in our little village, and it is a 
tiny little farming village, she said the funny thing is we 
have got seven small children all of whom have come down with 
cancer, and two girls were roommates in college and both of 
their children came down with cancer at identical times living 
in the same village.
    This is a cluster and there are a lot of clusters like 
this. We do not have the money to research these clusters and 
we do not even have the epidemiological capacity to go out and 
see if there is not a connection with some types of pesticides 
that the largest farmer used or something like that. 
Undoubtedly, it is environmental, yet we can not do those 
studies. Maybe by doing those studies, it might be a morecost-
efficient way of finding some of the things the other institutes are 
looking for.
    Mr. Porter. Let me also, and I know I do not need to do 
this, but I want to enlist your help because I think it is 
going to be very tough this year to get the kind of funding for 
biomedical research that we have been able to get in the last 
two years. We do not know our budget allocation, but it may be 
a big fight. Let us hope not. But I know you are going to be 
there if it is.
    Mr. Moran. There is no question about that.
    Mr. Porter. I know I do not have to say that.
    Mr. Moran. With all the defense contractors I have in my 
district, I can relate to many who feel that we need the fire 
walls I am not so sure the fire walls were ever a good idea, 
particularly when we see these desperate needs that are not 
being fully funded in terms of our human resources. We 
appreciate the good work you are doing. You obviously have our 
support for everything that you can get within the budget. I 
know it is not going to be adequate.
    Mr. Porter. Thanks, Jim.
    Mr. Moran. Thank you, Mr. Chairman, thank you, Mr. Stokes.

                              ----------                              

                                            Thursday, May 22, 1997.

                                WITNESS

 HON. RUBEN HINOJOSA, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    TEXAS

    Mr. Porter. We are pleased to welcome our colleague, Ruben 
Hinojosa of Texas. Thank you for testifying this morning.
    Mr. Hinojosa. Thank you, Mr. Chairman. I want to say that I 
take the place of former Congressman Kika de la Garza. The area 
that I represent is from the outskirts of San Antonio south to 
the Texas-Mexico border. McAllen is my district. It covers 11 
counties and has approximately a 76 percent hispanic 
population.
    Mr. Porter. You must be next door to Henry Bonilla?
    Mr. Hinojosa. Yes. I am in the middle of Solomon Ortiz, 
Cieto Rodriguez who took the place of Frank Tejeda, and then 
Henry Bonilla adjacent to Cieto. That area from Brownsville to 
McAllen to Laredo is one that is growing by leaps and bounds 
because of the implementation of NAFTA. It is an area that is 
certainly very unique, especially on the border area, an area 
that has very unique problems especially in education, to which 
I hope to address your committee.
    I want to say that I come from a family-owned business, 
that is the background that I bring, however I also bring 25 
year's advocacy for education, serving on the local school 
board plus four terms on the Texas State Board of Education 
plus many years on the community college board of regents and 
several advisory boards. So that I am in my best committee 
simply because I enjoy that kind of work and I have a lot of 
passion and commitment to it.
    I welcome the opportunity to come before you as I represent 
the Hispanic Congressional Caucus. I was appointed as Chairman 
of the Education Task Force. The material that was submitted 
before this hearing certainly has a lot of the facts and 
figures that I hope you will consider, but it is also being 
followed by a letter to you and the members of the committee 
with some other information that needed to be approved by the 
Hispanic Caucus at their 11:00 meeting today. So this afternoon 
that letter will be delivered to your office.
    To finally begin, I want to say that as a member of the 
Hispanic Congressional Caucus, we implore you join forces with 
us to combat a problem which has reached a national crisis. 
When we met with President Clinton a month ago, he said that 
because he had been on crutches he had had an opportunity to 
read a great deal and that he was alarmed at the fact that 
Hispanics had been stagnant in the income per capita, and that 
in many cases, over the last 30 years the level of educational 
attainment had actually decreased and had not increased as it 
had with other minority groups. So he is concerned and called 
it a ``national economic crisis of great urgency.'' Much of 
what I am going to talk about is going to be to ask that we 
ensure that we have the full funding or, in some cases, 
increased funding, and I will explain why.
    Specifically, the programs which are crucial to making 
certain that Hispanic students are properly educated include: 
Bilingual education with emphasis on the teacher training and 
certification, the High School Equivalency Program and College 
Assistance Migrant Program, better known as HEP-CAMP; the 
Emergency Immigrant Education; the Hispanic-Serving 
Institutions must be given additional monies over what has 
presently been given to them in 1995-96, which is only $10.9 
million and that is just inadequate; the TRIO programs; and 
finally, the Early Start and Head Start programs which are so 
important for us to start as zero to three, and then three to 
six.
    The Bilingual Education Program, coupled with teacher 
training certification, the High School Equivalency Program, 
the College Assistance Migrant Program ensure that students do 
not become lost in the educational process because they have 
limited English proficiency. I have served, as well as Chairman 
Goodling, on the National Migrant Task Force during the years 
that I was on the State Board of Education and we became very 
familiar with the unique problems of migrant students who 
travel throughout the country harvesting crops. We have visited 
on this, and certainly this is one area that is included in our 
request.
    The Caucus supports the President's request for a total of 
$199 million for Bilingual Education. For the HEP-CAMPprograms, 
we ask for increased funding above the $9.7 million requested by the 
President. These programs have a success rate of over 60 percent and 
serve as model programs for addressing and reversing the dropout rate 
for all disadvantaged youth. According to the report that Secretary 
Riley gave me, Hispanics nationally have a 30 percent dropout rate in 
high school in the years 10th, 11th, and 12th grades, the highest of 
any group.
    Hispanic-Serving Institutions are institutions of higher 
education where Hispanics comprise at least 25 percent of the 
student body. These schools have played a pivotal role in the 
education of Hispanics but, unfortunately, have limited funds 
to support their growing student bodies. For this reason, we 
ask that the committee consider increasing funding of $50 
million for Hispanic-Serving Institutions.
    We ask for funding in the amount of $525 million on the 
TRIO programs. At the present time, they have been at $400 
million. Evaluations of these programs have documented TRIO's 
success in raising high school achievement and college 
enrollment rates.
    Finally, the Caucus supports expansion of the Head Start 
Program and Early Start Program. Although the Hispanic children 
are 28 percent of all children in the Nation, there are only 15 
percent of those children participating in Head Start. We need 
to increase that to at least 25 percent.
    In conclusion, Mr. Chairman and members of this 
subcommittee, the Congressional Hispanic Caucus realizes the 
budgetary pressures your subcommittee is under this year. And 
as you undertake the deliberative process, we would ask that 
you carefully consider the Federal responsibility to assure 
opportunity and upward mobility to all students.
    Thank you very much. I will gladly answer any questions you 
might have, Mr. Chairman.
    [The prepared statement of Congressman Ruben Hinojosa 
follows:]

[Pages 2103 - 2104--The official Committee record contains additional material here.]


    Mr. Porter. We very much appreciate your testifying. We 
will do our very best. We do not have a budget allocation yet, 
obviously, but we are probably going to get one very soon. And 
then we will see what kind of resources we have to meet the 
priorities that we have in the bill. As you probably realize, 
we have most of those that affect people who are most highly at 
risk or in greatest need. So we hope that we have enough 
allocation from the budget to meet those responsibilities. As I 
say, we will do our very best to provide the resources that you 
suggest. Thank you very much.
    Mr. Hinojosa. Do you have any questions, Mr. Stokes?
    Mr. Stokes. No, but I very much appreciate your appearance 
here. Both the Congressional Black Caucus and the Hispanic 
Caucus have worked very closely together on matters related to 
education and health as it relates to minorities, considering 
the tremendous disparity that exists in the manner in which 
both are lagging behind both in the area of education and in 
the area of health. Yesterday, the Congressional Black Caucus 
testified here. I appreciate very much the fact that you have 
today added to their testimony, along with the Women's Caucus 
who came in and they similarly find themselves in certain areas 
in a disparate position. Your testimony helps very much as we 
try to put in perspective the competing priorities in a bill of 
this sort. So we appreciate very much your appearance.
    Mr. Hinojosa. Thank you, Mr. Stokes. I am committed to work 
very closely with the other members of the African-American 
Caucus because they know my passion and my commitment for 
education. Harold Ford and many others are willing to join 
hands with me and bring forth some new enthusiasm and renewed 
passion to work on this problem.
    I want to simply conclude, Mr. Porter, by saying that I am 
100 percent committed to this. Please give us the funds that we 
need to get the job done.
    Mr. Porter. Thank you very much.
    We are somewhat behind schedule and have five Members of 
Congress waiting now.
                              ----------                              

                                            Thursday, May 22, 1997.

                                WITNESS

HON. FRANK PALLONE, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF NEW 
    JERSEY

    Mr. Porter. Next, Representative Frank Pallone of New 
Jersey.
    Mr. Pallone. Thank you, Mr. Chairman and Mr. Stokes. I will 
be very brief. I have a written statement that I would like to 
submit for the record.
    I just wanted to talk briefly about several programs and 
initiatives of concern to the University of Medicine and 
Dentistry of New Jersey, UMDNJ, which is the largest public 
health sciences university in the Nation and which is in part 
in my district.
    I would basically go through five programs that they have 
there that they are looking for funding for. I do not have 
specifics at this point about the level of funding because, as 
you know, we do not know exactly where we are going with that. 
Let me just mention that UMDNJ has an International Center for 
Public Health which is a strategic development initiative to 
create a world-class infectious disease research and treatment 
complex. This is actually in Newark, New Jersey.
    There is also the Child Health Institute of New Jersey 
which I am very concerned about, which basically has an 
integrated approach towards human development and its 
disorders. They examine not only the biological and chemical 
effects on childhood, but also the effects of behavioral and 
societal influences as well on children.
    Then there is the National Tuberculosis Center at UMDNJ. In 
November of 1993, it achieved designation of one of three model 
TB prevention and control centers in the U.S. Since then, it 
has developed into an internationally and nationally recognized 
institution dedicated to the diagnosis and treatment of 
patients with both tuberculosis and multidrug resistance to 
tuberculosis which, as you know, is a major problem right now.
    Then there is the New Jersey Geriatric Education Center 
that offers education and training opportunities for health 
care professionals and students to enhance the quality and 
availability of health care for older citizens. New Jersey and 
UMDNJ were one of the institutions that started the whole 
geriatric education as sort of a specialization within the 
medical field.
    There is also the National Pediatric and Family HIV 
Resources Center. This has played a highly visible role in 
providing training and technical assistance to professionals 
throughout the United States related to children, youth, and 
families with HIV infection.
    Lastly, gentlemen, we have the AIDS Education and Training 
Center. This is one of fifteen national AIDS education and 
training centers. Just to mention, New Jersey cities lead the 
United States in the percentage of 25 to 44 year-olds dying 
from AIDS. We also lead the Nation in the percentage of AIDS 
cases amongst women. So this AIDS Education and Training Center 
serves a really valuable purpose in our State in diagnosing, 
treating, and managing individuals with HIV/AIDS infections and 
other high-risk behavior.
    So I just wanted you to consider these programs, as you 
have in the past. We obviously need support from this committee 
and from Congress. As we move down the road with your 
appropriations process, I will be getting back to you and your 
staff about more specifics. Thank you.
    [The prepared statement of Congressman Frank Pallone 
follows:]

[Pages 2107 - 2110--The official Committee record contains additional material here.]


    Mr. Porter. Frank, thank you. We, as you know, do put these 
at a very high priority. As I said a moment ago to someone, it 
is a question of what we have to work with.
    Mr. Pallone. Exactly.
    Mr. Porter. We are hopeful that we will be able to do what 
you are asking. Thanks for testifying.
    Mr. Pallone. Thank you.

                              ----------                              

                                            Thursday, May 22, 1997.

                                WITNESS

HON. LOUISE M. SLAUGHTER, A REPRESENTATIVE IN CONGRESS FROM THE STATE 
    OF NEW YORK

    Mr. Porter. Representative Louis Slaughter of New York. 
Louise, nice to see you.
    Ms. Slaughter. You were kind enough to let me come by 
yesterday and you have heard me speak here year after year on 
many of these subjects. Because you are the best subcommittee 
in the House of Representatives, I am going to be mercifully 
brief here.
    Mr. Porter. Oh, I bet you say that to everybody.
    Ms. Slaughter. No, sir. I absolutely do not. I am so 
impressed with your commitment and your caring. I know that 
America is in your debt for your concern about health care and 
health research. There are a couple of things that I really 
need to put on the table here. One because nobody lobbies for 
it but me, and that is I would like to ask support for the 
homeless education program. You and I have talked about that 
before.
    Mr. Porter. Oh, yes, you do not need anybody but you on 
that. You are so effective.
    Ms. Slaughter. You are nice to say that. I do sort of want 
to make a little report on it. This program has been in place 
since 1987. Prior to that, a Department of Education study said 
that 50 percent of all the homeless children had dropped out of 
school and were not attending at all. Our recent figures show 
that since the start of this little program, which costs very 
little money, we have reduced that to 14 percent. We need to 
reduce it to zero. I think that is probably some of the best 
money we spend to make sure that these children have a chance 
in life. Homelessness is not their fault. We want to make sure 
that they are educated and have an opportunity to be everything 
they can be.
    We know that not only have we gotten them just in school, 
but their grades and scores are up. Their high school 
graduation GED completion rates have gone way up. It is also a 
key I think to effective welfare reform. So if you would please 
look kindly on this program that is sort of an orphan child, I 
would really much appreciate it.
    I thank you again for over the years for your support for 
this program. There is no question that nobody talks about it 
much, but I do not think there is much we do hear that has a 
better result.
    Mr. Porter. You convinced the subcommittee of its worth and 
saved the program in 1995, if you recall.
    Ms. Slaughter. I thank you for that. You saved it and I 
thank you for that. So I'll put the rest of my statement in the 
record, because I know how busy you are.
    [The prepared statement of Congresswoman Louise M. 
Slaughter follows:]

[Pages 2113 - 2116--The official Committee record contains additional material here.]


    Mr. Stokes. Mr. Chairman.
    Mr. Porter. Yes, sir.
    Mr. Stokes. I just want to commend Ms. Slaughter for coming 
here two days in a row to testify on such important matters. It 
just demonstrates once again the tremendous commitment you 
have. It helps us when we see this type of enthusiasm and 
commitment for these types of issues.
    Ms. Slaughter. I thank you, Mr. Stokes. It is always a 
pleasure to come here because your commitment is extraordinary. 
Thank you, sir.
    Mr. Porter. Thank you.

                              ----------                              

                                            Thursday, May 22, 1997.

                                WITNESS

HON. CLIFF STEARNS, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    FLORIDA

    Mr. Porter. Representative Cliff Stearns, our colleague 
from Florida. Cliff, good to see you.
    Mr. Stearns. Good morning, Mr. Chairman.
    Mr. Porter. Good morning.
    Mr. Stearns. Thank you for the opportunity to come speak to 
you. I come here as an individual strong supporter of increased 
funding for NIH dealing with cancer. I am just going to 
summarize my testimony.
    I think you and I have talked several times of my interest 
in genetic privacy and how we have worked in the Commerce 
Committee to get the two words placed in the Kassebaum-Kennedy 
bill which talks about no discrimination on the basis of 
genetic information. I think that is a first step towards this 
whole understanding of protecting all of our genetic code from 
not only the insurance companies, but also to prevent 
employment discrimination.
    I come to you as a fiscal conservative who feels pretty 
strongly on this issue. In my opinion, we do not have adequate 
funding for the NIH program in dealing with cancer treatment. I 
am sure you are going to hear many people talk about this and 
many of them are going to try to persuade you on this. I have 
great respect for your judgement and I have seen what you have 
done as Chairman, so I come to you with a great deal of 
deference on this matter. I would like to suggest that my 
colleague Mr. Gekas' House Resolution 83, which is basically to 
double NIH funding over the next five years, be considered.
    This resolution would require the Congress to provide the 
NIH with a 14 percent increase each year to reach this doubling 
goal I've talked about. I understand that the 14 percent 
increase will be difficult, I understand how it is in the 
context of this balanced budget amendment we just passed. 
Nevertheless, I think it is a goal that you in your heart of 
hearts will have to make that decision and go to the mat for. I 
encourage you to do it. I know a lot of fiscal conservatives 
will be behind you if you go to the mat for this.
    I asked my staff what is happening on the Senate side. You 
will be happy to know that Senator Specter has announced his 
goal of a 7.5 percent increase for the NIH funding for fiscal 
year 1998, or an increase of about $950 million over the 1997 
funding. So you will be in great company. This is an admirable 
goal that the Senator is proposing.
    But I pledge to you today my support in helping you in any 
way I can in obtaining an allocation increase over the spending 
levels of 1997. We would like to see 14 percent, the Senate has 
7.5 percent. Certainly, it is in your purview to make a 
decision on how much we should increase it, but we urge you to 
do so.
    I will put the rest of my testimony in the record. It is 
critical I think to our future health and I think it is 
critical to this whole idea of increasing an investment in an 
area where we can get maximum return. In my State, the 
University of Florida has made efforts to do a lot of research 
in this area. My home State and the University of Florida 
should be commended for what they are doing and we would like 
to think that they also would support what you are doing. They 
have many new excellent research ideas but all of these are not 
fully funded, and that is our frustration, and I know you hear 
that time and time again from members.
    Mr. Chairman, if you could take the leadership to increase 
the funding at what our colleague Mr. Gekas has suggested, to 
double NIH funding over the next five years at a 14 percent 
increase each year, that would start to achieve our final goal 
and, more importantly, research centers like the University of 
Florida would finally have the money to complete some of the 
many research initiatives that they have in place.
    Let me just conclude, Mr. Chairman, by saying since 1970 
both Japan and Germany have outspent the United States on 
research and development as a percentage of the Gross Domestic 
Product on non-defense research. The U.S. position as a world 
leader in biomedical research may be difficult to maintain 
without increasing the Federal budget priority for basic 
biomedical research. I know that basic biomedical research has 
been the highest funding priority of the subcommittee and, Mr. 
Chairman, I urge you to continue this increase for the future. 
Thank you.
    [The prepared statement of Congressman Cliff Stearns 
follows:]

[Pages 2119 - 2121--The official Committee record contains additional material here.]


    Mr. Porter. Cliff, thank you for your testimony. I have to 
say that the subcommittee was very disappointed after all the 
wonderful statements that the President of the United States 
made, he made them at the Democratic Convention, he brought 
Christopher Reeve out on the stage to say how important 
research was, and when he wrote his budget he provided a 2.6 
percent increase, that was the increase the President suggested 
for NIH. I agree with you that that kind of increase is just 
not acceptable. That is below the rate of inflation in 
biomedical research, and he would actually propose cuts for the 
first time in 50 years in 7 or 8 of the 17 different 
institutes.
    We think that this is a very, very high priority and that 
it is one of the areas where if the Government doesn't provide 
the funding that is distributed all across the United States to 
research institutions on a competitive basis, nobody will. It 
is basic research we are talking about, it is not something 
that will be done and could be done in the private sector, 
there is not any profit motive available at least at the basic 
research level. Therefore, it is to us a very, very high 
priority for the subcommittee.
    I would really love to get us to the level of the Gekas and 
Mack resolutions. I have no idea that we are going to be able 
to do that unless we can get people, like yourself, throughout 
the Congress to make that kind of commitment. Then we can do 
it, obviously.
    Mr. Stearns. It is sort of ironical. If you had an up or 
down vote on the House floor on this, you would get the 
overwhelming majority I believe. What we need to do is somehow 
bring attention to this percent of the Gross Domestic Product 
relative to other nations. Here we are the most powerful 
militarily, economically country in the world, yet we are 
spending less in this area. I commend you for what you are 
doing and your colleagues, I know Mr. Stokes is also interested 
in this. So I appreciate this opportunity to further emphasize 
this.
    Mr. Porter. Thank you, Cliff.

                              ----------                              

                                            Thursday, May 22, 1997.

                                WITNESS

HON. DAN BURTON, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF INDIANA

    Mr. Porter. Representative Dan Burton, our colleague from 
the State of Indiana.
    Mr. Burton. Mr. Chairman, I am here to testify in favor of 
the ``We The People, the Citizen and the Constitution'' 
program. I am asking that it be funded at the $5.5 million 
level for fiscal year 1998. I am probably considered, as you 
are, Mr. Chairman, one of the more fiscally conservative 
Members of Congress. I think this program is extremely 
important and I hope you share my view.
    Every year the program circulates uniform texts to some 
70,000 teachers, who in turn challenge their students to learn 
in creative and innovative ways about the Constitution and the 
Bill of Rights, the things that I think are so important and 
lacking. There is a dreadful lack of knowledge when I talk to a 
lot of young people about the Bill of Rights and about the 
Constitution and about what this country is all about, and free 
enterprise in addition to that--that is another subject--is 
something that they are not too familiar with.
    I think any tool that we can utilize to help teachers 
convey to young people the value of the Constitution and the 
Bill of Rights and how it has made this country able to be 
successful for over 200 years is something I think we ought to 
support. I do think that we ought to be penny-pinchers up here 
and we ought to be very tight with the dollar and not waste the 
taxpayer's money, there are certain areas where I think it 
would be penny-wise and pound-foolish to not continue to 
support them, and this is one of them.
    Mr. Chairman, I will just submit my prepared statement and 
hope you will take my whole statement and put it in the record. 
So, in closing, I hope you will see fit to recommend that we 
continue to fund this program. Thank you.
    [The prepared statement of Congressman Dan Burton follows:]

[Pages 2124 - 2126--The official Committee record contains additional material here.]


    Mr. Porter. I am now fascinated because Representative 
Diana DeGette, who is a Democrat who is probably as liberal as 
you are conservative, was here to advocate exactly the same 
thing earlier this morning. So there must be value in this 
program to all sides of the political spectrum.
    Mr. Burton. I think, Mr. Chairman, that whether you are 
liberal or conservative, great minds do think alike. With that, 
Mr. Chairman, I thank you once again for allowing me to 
testify.
    Mr. Porter. Thanks, Dan.

                              ----------                              

                                            Thursday, May 22, 1997.

                               WITNESSES

HON. DON YOUNG, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF ALASKA
HON. TIM ROEMER, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF INDIANA

    Mr. Porter. We have two of the three members of our next 
panel. Why don't you begin and by the time you arrive maybe 
Doug will be here to join you. We welcome Representative Don 
Young of Alaska and Representative Tim Roemer of Indiana.
    Mr. Young. Mr. Chairman, I would like to submit for the 
record my written statement.
    Mr. Porter. It will be received.
    Mr. Young. Mr. Chairman, I am certainly glad to see you 
well and hearty again.
    Mr. Chairman, I am here to talk about the Close Up Program 
and the Allen Ellender Fellowship Program which is the same. I 
believe I have been before you as a ranking member and now as 
chairman for the last 25 years talking abut this program.
    Just to give you a little idea of this program, there is 
480,000 alumni in the Close Up Program. It brings young people 
to this great institution in the United States Government. 
Every year there is a group that comes in especially in the 
Spring time. But in Alaska, we have had a little over 8,900 
since that period of time. These are students who are primarily 
from every area of the State, a lot from the rural areas. I 
will give you an example. If you come from Shevak to Anchorage, 
it is 500 miles one way, that is 1,000 miles round trip just in 
the State, but then you have 5,843 miles to get to Washington, 
D.C. This Fellowship helps pay for that.
    The big thing this program does is it informs and educates 
young people about the workings of this Congress and of 
agencies and gives them an insight of this great democracy 
which they live in. It gives us, I believe, a strong feeling 
and some information and knowledge about why they should 
continue to support this democracy.
    As you are well aware, right now the Federal Government 
itself has probably got a percentage of 6 percent of American 
people believing in what the Federal Government is doing. That 
is not just the Congress, I am talking about the total 
Government. Every time we inform or get one young mind to 
awaken to the greatness of this Nation and to realize that the 
Government is not all bad, that the Congress does work 
regardless of what they may read, and the agencies can be 
helpful instead of neglectful, I think we have done our job.
    So I am very supportive. I have helped raise money for this 
organization in the private sector. We are asking for a minimal 
amount of $3 million. I would definitely suggest it is a 
greater investment than that.
    If I can digress a little further from my written 
statement, I can only echo what Mr. Stearns said about NIH. I 
have experienced some things with members of my family and 
other things that I think we need a great deal more money in 
the research. Whatever you can do in that arena, I would like 
it.
    Also we have to think about these young people and try to 
encourage them to make sure that we have the continued 
Government which I still think can work for this Nation. Thank 
you, Mr. Chairman.
    [The prepared statement of Congressman Don Young follows:]

[Pages 2129 - 2130--The official Committee record contains additional material here.]


    Mr. Porter. Thank you, Don.
    Tim.
    Mr. Roemer. Thank you, Mr. Chairman. Nice to see you and 
always nice to see Mr. Stokes, too. As Don said, Mr. Chairman, 
I want to join in saying that it is great to see you out of 
that wheelchair. I am sure that you have heard from every one 
of us that has back problems occasionally and what our 
recommendations are for you in terms of getting better. We all 
think we are physicians, so I do not know if you will listen to 
my advice at all.
    Mr. Porter. I have a thousand different solutions.
    Mr. Roemer. Well, I am glad to see you feeling better.
    I guess I would ask unanimous consent to submit my entire 
statement to be entered in the record. I would just like to 
talk for a couple of minutes about the Close Up Program. To 
begin, taking a step back from the program, I would like to 
commend Don Young and Doug Bereuter and would suggest that the 
Close Up Program has the same kind of support that you 
mentioned previously that ``We The People'' has. It has support 
from some of the most conservative members in the Republican 
Party and some of the most liberal members in the Democratic 
Party and many of us in-between.
    This is a program that works. This is a program that 
delivers effective services and leverages dollars in the 
private sector. This is a program that is preventive, 
informative, and educational. For a rather small amount of 
money in terms of the hundreds of billions of dollars that we 
talk about, $3 million, this is a program that really delivers 
effective money and social services and education for the small 
amount of money that we are requesting from your committee.
    I want to say that we are joined by Steve Yanger, who is 
the director of the program and somebody that works hard and 
diligently on making sure that we target not only some of the 
students from the suburban areas that can get a chance to come 
in here, and sometimes with their parents, but what I really 
like about this program is that it also targets at-risk and 
underserved populations.
    The story that I tell, Mr. Chairman, and I will make this 
very brief, is that when I visited the prison in my district in 
Indiana, which is right next door to your great State of 
Illinois, I was going through the prison and asking the 
superintendent of the prison how much we spend on new 
construction, how much the State is going to spend, and then 
what kinds of variables do you look at in order to project out 
in the next 20 years as to how much prison construction and 
maintenance is going to cost us. He said, ``Tim, I have thrown 
a lot of facts at you today, but this one is staggering. Maybe 
this is the only thing you will remember from your visit. We 
look at the number of at-risk childrenin the second grade. So 
if there are 25 children in that classroom and 5 of them are at risk of 
dropping out, we start building prison cells for them.''
    Our State is probably like yours, we're spending more and 
more and more money on prison construction and less on 
education. This is a program that spends money up front on 
education, that targets at-risk and underserved populations 
with education, that leverages dollars for education, and that 
saves us, hopefully, money that we would later spend on 
prisons.
    With that story, Mr. Chairman, I hope this committee can 
afford the $3 million to target these at-risk and underserved 
children that will become citizens and voting citizens of this 
country later on. I thank you for your past support and 
enthusiastic support of this program.
    [The prepared statement of Congressman Tim Roemer follows:]

[Pages 2133 - 2136--The official Committee record contains additional material here.]


    Mr. Porter. You are not answerable, Tim, for what the 
President does, but let me tell you that the President zeroed 
out the program in his budget.
    Mr. Roemer. I realize that and that is why I am here.
    Mr. Porter. You probably realize that when an 
appropriations subcommittee with limited funds gets to a line 
item where the President says we should not spend any money, 
there is an awfully strong proclivity to say, well, if he does 
not think it is worth anything, why should we fund it. That is 
always a difficulty. It is funded at $1.5 million right now.
    I believe that a great deal of the funds for Close Up come 
from the private sector. This is a relatively small portion of 
their budget. On the other hand, I also understand that this 
tends to leverage private sector money. If the Federal 
Government is involved, that sends a message to the private 
sector this is probably something they ought to invest in as 
well. So we will do the best we can with this. Obviously, I 
think very highly of the program myself. We have lots of kids 
in it from home and it seems to do a great deal of good for 
them.
    Mr. Stokes.
    Mr. Stokes. As one who has seen an awful lot of bad budgets 
sent over by Presidents over the years, I can say that one of 
the reasons we exist over here is so that we exercise our 
function relative to any President's budget. This is the type 
of program that I think many of us are familiar with, we know 
the good that it does, and we do in this case, like we've done 
with other Presidents, we educate them.
    Mr. Burton. Would the gentleman yield for just a moment? I 
happen to agree with you, I have never ever, regardless of 
which president, agreed with the budget they have sent down. 
Our responsibility is to write the budget. I know where you can 
find some money. The other night we passed a budget by two 
votes, supposedly a budget. There is $700 million of 
discretionary funding in there for the purchase of some lands, 
one being the headwaters of the Red Woods in California, 2,500 
acres that are being bought at the tune of $65 million for a 
stand of timber that is not worth more I would guarantee you 
than $5 million. If you want to find $3 million or $10 million, 
get it there. It is discretionary; it is not earmarked, but 
that is what it is for. That is a big amount of money.
    Mr. Roemer. Write that down.
    Mr. Burton. It is right in that budget on page 15, by the 
way. I know exactly where it is.
    Mr. Porter. Thank you, Don, thank you, Tim.

                              ----------                              

                                            Thursday, May 22, 1997.

                                WITNESS

HON. BOB WEYGAND, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF RHODE 
    ISLAND

    Mr. Porter. Next, we are pleased to welcome Congressman Bob 
Weygand of Rhode Island. Nice to see you.
    Mr. Weygand. Thank you very much, Mr. Chairman, Mr. Stokes. 
It is a pleasure to be here. This is the first time I have been 
before this committee, so it is certainly a pleasure to be 
here. I want first of all to ask the Chairman that my testimony 
be accepted for the record, and I am just going to talk briefly 
about some of the key points.
    Mr. Porter. It will be received.
    Mr. Weygand. I want to thank you very much for allowing me 
to speak this morning. I know that you have had weeks and weeks 
and weeks of testimony. I want to really talk about two issues: 
The first is early childhood development, the importance of 
that with regard to education; and also the other end of the 
spectrum, which is the Older Americans Act which I think is 
equally important to many of our senior citizens.
    Let me address the former first. Early childhood 
development is one of the things that I have been working for a 
number of years in my State, and fortunately I have had a 
number of colleagues here in the Congress work with me on a 
number of issues on early childhood development as well. We 
have a host of different programs out there right now that 
address many aspects of early childhood development. Key to us, 
I think, is that group of kids zero to six years old andwhat we 
are doing to make sure that they are being taken care of in a way that 
we do not have to spend money later on in their later years to correct 
what has gone wrong in the earlier years.
    I think you all know that we spend approximately $800,000 
for every child who ends up going in a wrong direction in terms 
of remedial education, social services, sometimes even 
incarceration health care. We were to just invest a small 
portion of that money between the ages of zero and six, we 
would reap tremendous benefits to the taxpayers as well as to 
these children later on in life.
    Programs like WIC that provide great nutritional programs 
and parenting programs to a great degree, Early Start, Head 
Start, parent responsibility programs like Parents As Teachers, 
and a host of other programs that we have like that, as well as 
some of the educational day care and health care programs that 
we have through AFDC, what we would like to see is that somehow 
those all be connected and worked together. We have fragmented 
sections of businesses out there that are dealing with the 
business of children. If we could bring them in a coordinated 
way together, we would see where health care through the WIC 
program gets connected with some of the early childhood 
educational programs, gets connected with Head Start and really 
be able to take the same resources that we have but have a 
carrot out there that would actually reap better benefits for 
those children, not so much in the way of block granting, but 
the concept is let us bring these people together in a better 
way.
    We have some legislation pending. But here in the 
appropriations committee you could probably do far more and in 
a faster fashion than we could do through any other kinds of 
authorization, and that is require through the appropriations 
that these programs be coordinated in an easy way.
    Let me give you an example of what we have done in Rhode 
Island. We have what is called COZY, Child Opportunity Zones, 
which really bring through a school system all of these 
programs together so the consumer, the parent, can go to one 
location, get information about all these host of programs and 
be able to have some direction. It also kind of links all of 
those programs together so that through a database and 
computers providers like doctors, educators, or parents really 
begin to have one location where kids information is together.
    That, I think, is one beginning that we could do for our 
early childhood development programs that would really bring us 
on a course of saving taxpayer's dollars later on, but, more 
importantly, be of benefit to our children.
    The second area----
    Mr. Porter. May I make a comment, Bob?
    Mr. Weygand. Sure, Mr. Chairman.
    Mr. Porter. Mr. Hoyer is a great advocate for what you are 
saying and is a member of the subcommittee. Unfortunately, we 
do not have quite all the jurisdiction. WIC, for example, is 
over in the Agriculture Subcommittee. I think the authorizers 
are going to have to give us some better guidance in this area 
in order to accomplish exactly what you want to do. In the 
meantime, there is a good deal that we can do through 
appropriations to coordinate the programs better, and I think 
Mr. Hoyer is going to pick up the baton here----
    Mr. Weygand. Steny Hoyer and myself, Rosa DeLauro, and Jim 
McGovern are the sponsors of that bill. The four of us have a 
bill that has already been submitted as well as a couple 
others. That is the emphasis that we are placing here.
    Mr. Porter. Well, we have Rosa on the subcommittee, too. So 
you have two advocates already.
    Mr. Weygand. I am hoping that it will really be a 
bipartisan effort for our children. No matter what side of the 
aisle you are on, it is good for the children, it is good for 
the taxpayers, and, quite frankly, it is about time we brought 
them together and thought about the children versus the little 
fiefdoms of the various departments because the children are 
what is important.
    The second issue I would like to address, Mr. Chairman, is 
the authorization of the Older American Act. In my State, while 
it is very small, it is only a population of 1 million, about 
15.4 percent of the people in our State are over the age of 65. 
It is the fourth highest per capita elderly population in the 
country behind Florida, New Jersey, and New York.
    We rely heavily upon the authorization of the Older 
Americans Act to do a number of things. For instance, our 
nutritional programs, our meal sites, as well as even our Meals 
on Wheels, and a host of others are really dependent upon that. 
Rhode Island is not a very wealthy State. It is a State 
primarily of blue collar workers who have reasonably small 
pensions and social security. They rely very much not only on 
the nutritional aspects of the Older Americans Act, but also 
some of the cultural and social programs of the act that really 
help bring people together, things like the Senior Community 
Service Employment program. Within our Department of Elderly 
Affairs, which is the sole agency that handles and brings 
together all these programs, pharmaceutical assistance 
programs, information referral systems, and our elderly abuse 
hotline, all these programs are within the same department and 
we have really modified and streamlined our senior services 
delivery.
    As you can see, we rely quite heavily upon the Older 
Americans Act. We understand there is going to be a proposalof 
a cut in that program this year. We would hope that you would relook at 
that because when those programs get cut the demand for providing 
services to those older Americans pop up in other places and we end up 
paying often more money in those other places than if we maintained the 
present program. So I would ask your indulgence in looking at those 
programs as being extremely beneficial and also very, very cost-
effective.
    Thank you very much, Mr. Chairman.
    [The prepared statement of Congressman Bob Weygand 
follows:]

[Pages 2141 - 2144--The official Committee record contains additional material here.]


    Mr. Porter. Thank you very much, Bob.
    Mr. Stokes, do you have any questions?
    Mr. Stokes. I would just like to commend Mr. Weygand for 
his testimony here this morning. Both areas, I think, are 
issues that members of this subcommittee are very much 
concerned about and interested in and very supportive of. I 
like particularly the emphasis you place upon prevention and 
the fact that those who are concerned about cost-savings, this 
is the best way in the world to save money is by preventing the 
type of things that could occur as a result of a small 
investment made initially. I commend you for your testimony.
    Mr. Weygand. Thank you very much, Mr. Stokes. I know that 
you have always been a believer of that and a strong supporter.
    I think that in this period where we have to reduce the 
Federal deficit, there are ways we can do that in a 
preventative way that will save the taxpayers money, whether it 
is on early childhood development, even on the senior services 
side versus taking care of people when they are in most need in 
acute care facilities, let us try to prevent that so that in 
fact they have a better quality of life. I think it would bode 
well no matter what side ofthe aisle you are on that we do 
that, because I think it is effective for taxpayers, effective 
for people. I thank you again, Mr. Chairman.
    Mr. Porter. Thank you, Bob.

                              ----------                              

                                            Thursday, May 22, 1997.

                                WITNESS

HON. GEORGE R. NETHERCUTT, JR., A REPRESENTATIVE IN CONGRESS FROM THE 
    STATE OF WASHINGTON

    Mr. Porter. George Nethercutt of Washington, a colleague of 
ours on the Appropriations Committee. George, good to see you.
    Mr. Nethercutt. Nice to be with you, Mr. Chairman, Mr. 
Stokes. I want to thank the subcommittee for the chance to 
testify before you today. I have testified before in support of 
diabetes research at NIH. While I want to spend most of my few 
minutes here talking about diabetes, I also want the 
subcommittee to understand that I support also research for a 
very deadly disease called polycystic kidney disease. It 
affects about 600,000 Americans and I know that it would 
benefit greatly by additional research funding.
    With regard to diabetes, I am the father of a 16 year old 
daughter who has had diabetes since she was almost 7, so I have 
been involved in diabetes research and diabetes funding and so 
on for many years in the private sector before I got this job. 
So I have a personal commitment to it.
    I want to thank you, Mr. Porter, for being part of the 
Diabetes Congressional Caucus. We have 79 members now, both 
Democrats and Republicans, people who care deeply about 
diabetes. I think that will help raise the awareness of all 
members about the seriousness of this disease. I do have a list 
of the members of the Caucus that I would ask be made part of 
the record if I may.
    Diabetes affects all Americans; all ages, all races, 
allreligions. It is indiscriminate in its effect on people. The 
consequences of diabetes are costly in human life, certainly, and in 
dollars as well. We know from the statistical evidence that about 27 
cents out of every Medicare $1 is spent paying for the consequences of 
diabetes. I am delighted the budget agreement, with a lot of support, 
contains a provision that will allow prevention efforts to be 
undertaken to have diabetics have the ability to get education and also 
blood test trips to help prevent the complications.
    I am a supporter of basic NIH research. I have urged that 
it be increased, and I still do for a number of diseases. I 
also think it is important for the subcommittee to take a look 
at comparisons between funding at NIH for certain diseases 
versus funding at NIH for diabetes research. I know the 
subcommittee does not want to earmark for particular diseases, 
and I understand that, but I just want the subcommittee to 
understand what the comparisons are.
    Funding for diabetes has not kept pace with other research 
at NIH. Over the last ten fiscal years, funding for NIH has 
increased 97 percent while funding for NIDDK has increased 53 
percent, and funding for diabetes-related research across the 
institutes has only increased about 31 percent over the same 
period. Of course, certain basic research helps diabetes as 
well as it helps other diseases. But on the other hand, per 
$100 in direct cost of medical care, NIH spends $12 on AIDS 
research, $5 on cancer research, $2 on heart disease research, 
$0.25 on diabetes research.
    Mr. Porter. George, you might be interested, we are going 
to hold a special hearing on just this very subject and have a 
panel from NIH in on June 10. We would be happy if you would 
join in on the hearing and listen to what they have to say 
about this. There is a lot of concern about the allocation of 
research dollars and where the research is going and why they 
make the decisions that they do.
    Mr. Nethercutt. I greatly appreciate that and I will accept 
that offer, Mr. Chairman, because of my concern about it.
    I also want to make sure that the subcommittee understands 
that we have introduced a bill, H.R. 1315, the Diabetes 
Research Amendments Act. I am asking that the subcommittee fund 
that bill in the fiscal year 1998 appropriations. It would 
establish a Diabetes Research Working Group appointed by the 
director of the NIH that would have as its task to outline 
future diabetes research priorities. I think what we want to be 
able to do, Mr. Chairman, is make sure that there is some focus 
to the diabetes research effort. I have met with NIH, I have 
met with people at the NIDDK, they seem enthused about that 
focus. We are trying to redouble our efforts and I believe NIH 
should do so to cure this disease, because I think it can be 
cured if we have enough resources available.
    I know, as a member of the Appropriations Committee, you 
and I both face tremendous pressure to make all this fit 
together. I really feel strongly that the incidence of diabetes 
in our country and the tragic consequences, human and 
financial, that it brings to bear on our society is deserving 
of additional attention. I thank you for your attention and for 
your concern about this issue.
    [The prepared statement of Congressman George R. 
Nethercutt, Jr., follows:]

[Pages 2147 - 2150--The official Committee record contains additional material here.]


    Mr. Porter. Thank you, George. We appreciate your 
testifying.
    Mr. Nethercutt. Thank you.

                              ----------                              

                                            Thursday, May 22, 1997.

                               WITNESSES

HON. CORRINE BROWN, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    FLORIDA
HON. JOHN MICA, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF FLORIDA
HON. CARRIE MEEK, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    FLORIDA
DR. OSWALD BRONSON, SR., PRESIDENT, BETHUNE-COOKMAN COLLEGE, DAYTONA 
    BEACH, FLORIDA

    Mr. Porter. We are taking members in the order in which 
they arrive because of their scheduling problems. So, next we 
have Representative Corrine Brown of Florida.
    Corrine, welcome. It looks like we have Representative John 
Mica of Florida as well.
    Ms. Brown. We are all from Florida. I would like to thank 
you, Chairman Porter and Congressman Stokes.
    Mr. Porter. We have a panel here.
    Ms. Brown. Yes, sir. I have been asked by my colleague, Mr. 
Mica, we share an area together in Florida, Daytona, in fact, 
to yield one minute to him because he has several other 
meetings he must attend.
    Mr. Mica. Thank you, Mr. Chairman and thanks to my 
colleague. I am pleased to be joined with two of my colleagues 
today to express strong support for Bethune-Cookman College. We 
are honored to have Doctor Oswald Bronson, the president of 
Bethune-Cookman, with us on the panel today.
    This is a project that historically spans some number of 
years, I think it was first authorized back in 1992, and we are 
a few dollars short of completing this project which started 
under the Bush Administration. It is so worthwhile to our 
community and to a great school. This school has significant 
minority population and it is one of the leading colleges of 
its kind in the Nation. The project really has tremendous 
potential for helping students both to learn management and 
tourism, a field that is so important to Florida, and also to 
serve as a fine arts center.
    I just strongly support my colleagues' effort. This is a 
job that needs to be completed, and I am delighted to support 
their efforts. Thank you, Mr. Chairman and Mr. Stokes. I 
apologize, but I am going to have to run.
    Mr. Porter. Thanks, John.
    Ms. Brown. Thank you. Joining us also today is 
Congresswoman Carrie Meek also from Florida. She really kind of 
grew up in Daytona at Bethune-Cookman College because she 
worked there for how many years?
    Mrs. Meek. It was my first job. I worked there for ten 
years.
    Ms. Brown. Perhaps we could hear from you now, Carrie?
    Mrs. Meek. I am very pleased to be here, Mr. Chairman and 
Ranking Member Mr. Stokes. Bethune-Cookman is, in my opinion, 
one of the premier colleges for education of all students in 
this country. I started there, Chairman Porter, as a very young 
woman--I still maintain that I am young--but I started there as 
a very young woman. It is an institution that serves all 
calibre of students and it does a tremendously good job, 
particularly in education and in nursing, I could go on and on.
    Corrine Brown gave me the opportunity to be here this 
morning, and I thank you, to come and say a word in support of 
this project. I started with Corrine in this many years ago and 
she is still fighting hard for it, she has not given up, and I 
am here to let you know that I stand by her. Hopefully, this 
committee will see fit this year to finish the funding for this 
much needed project. Thank you.
    Mr. Porter. Thank you, Carrie.
    Ms. Brown. Now I would like to let the president of the 
institution, Doctor Bronson, say a word.
    Mr. Bronson. Thank you, Congresswoman Brown. Chairman 
Porter, Mr. Stokes, thank you for the opportunity to appear 
this morning and to express my appreciation for the committee's 
role in providing over $9 million in funding for this 
authorized project over the past four years. Thank you for the 
opportunity to report that both the planning and coordination 
for the project, under the close supervision of the Department 
of Education, has gone very well.
    The opportunity now exists for us to make the total project 
become a total reality, a project that was begun under the 
leadership of Congressman Chappell in the House and Senator 
Hawkins over in the Senate and assisted by Mr. Mica when he was 
a staff member there.
    Full funding of the remaining amount of the project totals 
some $6.62 million. This will ensure the completion of the 
project without incurring additional costs through inflation. 
In fact, our architect will complete plans and drawings by the 
end of the summer utilizing funds previously appropriated. I 
might add that we have also raised funds from the private 
sector. This will enable us to begin construction immediately 
this fall if the remaining authorized funds are provided in 
fiscal year 1998.
    The Fine Arts Center, the Hospitality Training Center, the 
Auditorium and Conference Complex will serve as an important 
national resource as a meeting facility in one of the most 
visited regions of the country. Again, we want to thank the 
subcommittee for its attention to this project over the years, 
and we request that we receive the full funding necessary to 
complete the project.
    Mr. Porter. Ms. Brown, I am not sure you were here when I 
made my comment earlier, but let me repeat it here, and that is 
the President has zeroed out this line item. When the President 
does that and we sit down to mark up a bill, there is often a 
great proclivity to say well, if the President does not think 
it's a priority, why should we. We often do not follow the 
President, as Mr. Stokes said previously, and have not in this 
case, but it would help a great deal if the President was 
aboard and supportive in terms of his commitment.
    Mr. Stokes. Mr. Chairman.
    Mr. Porter. I knew I would hear from you. Mr. Stokes?
    Mr. Stokes. Let me repeat again what I have said. In the 
more than 20 years I have sat on this subcommittee, I have seen 
budgets from Presidents Reagan, Bush, and now Clinton, the 
budgets of the other Presidents before them. What a president 
has in his budget and what this subcommittee does are two 
different things. We have a function that is independent of the 
President. Maybe sometimes a President might not put it in 
because he knows we are going to put it in and it might be a 
part of his own strategy. But in this case, as we do in every 
other case, I would hope, Mr. Chairman, we would look at the 
merits of this project and we will judge it based upon the 
merits and not solely upon what the President has, or does not 
have, in his budget.
    Mr. Porter. Would the gentleman yield back?
    Mr. Stokes. I yield back.
    Mr. Porter. You are not suggesting that the President of 
the United States is submitting a budget that is not real? That 
he leaves out things that even he thinks are priorities, leaves 
them out of his budget so he can put more money in another area 
on the assumption that we will simply put the money in for him. 
Is that what you are suggesting?
    Mr. Stokes. You know, just like we sat here I guess when 
the Nixon budget and the Reagan budget came over here and the 
Republicans said the we would announce as dead on arrival. I 
did not take that literally, I thought they would give it 
someconsideration, but I have seen all of them vote against it. So then 
I assumed that they were right, it was dead on arrival. But all of us 
know that sometimes we put something in our bill and leave something 
out of our bill with the knowledge that the Senate is going to put it 
in, we go to conference and we can agree upon it in conference. So, 
that is a strategy that the President of the United States may also 
use.
    Mr. Porter. I think I will leave that one alone.
    Mrs. Northup?
    Mrs. Northup. Mr. Chairman, I would just like to get into 
the discussion to say that we are in a new era, we are in the 
era of a balanced budget. While I am sure we will make changes, 
and I look forward and am eager to participate in that, if we 
add something, we are going to have to subtract something. That 
is the new rule.
    I hope that if we find something very important to add, 
that members on both sides of the aisle will help do that 
without using the word ``cutting,'' ``cutting,'' ``cutting'' 
politically to make it impossible then to make what we believe 
are better choices.
    Mr. Porter. Thank you, Mrs. Northup.
    Ms. Brown, do you want to proceed? We have kind of 
interrupted your testimony here.
    Ms. Brown. Yes, thank you. Mr. Chairman, let me say first 
of all thank you very much for your support. I am just really 
excited to be in the People's House where we do make decisions 
as to priorities. We are closer in many cases to the people and 
to the projects and to what is going on in the communities. I 
want to give Doctor Bronson a brief minute to respond to why he 
thinks we are not included in the President's budget.
    Dr. Bronson. Mr. Chairman, two things. One, each time the 
House and the Senate have passed the bill, the President has 
signed it. At Bethune-Cookman College, we have great respect 
for the wisdom shown by the Congress and this committee in 
endorsing the project. Thank you very much.
    Mr. Porter. Thank you.
    Mrs. Meek. May I say one word?
    Mr. Porter. Mrs. Meek.
    Mrs. Meek. Mr. Chairman, if this committee gives Bethune-
Cookman $6 million, Mrs. Northup, you would not see us again, 
not for this one. Thank you. [Laughter.]
    Mr. Porter. Thank you all very much.
    Mr. Stokes. May I say one other thing. The important thing 
here, this is an authorized project. When Bill Chappell, who is 
no longer with us, but when Bill Chappell was here, I recall he 
sat down with me and discussed this project. One of the things 
we said to Doctor Bronson was that this subcommittee does not 
like to put these types of projects in unless they are 
authorized. We told him he had to go get it authorized. That 
meant going to the Senate, going to the House, walking these 
halls of Congress getting support for it.
    I do not know how many pairs of shoes Doctor Bronson has 
worn out, but I have seen him in these halls over the last nine 
years walking these halls. He has done his homework, he is 
bringing us a project that is not only authorized, but it is a 
good project. We have already put a substantial amount of money 
in. We have put $9 million into this project and we can finish 
it up with another $6 million.
    Dr. Bronson. Thank you so much.
    Mr. Porter. Thank you.
    [The prepared statement of Congresswoman Corrine Brown and 
Oswald P. Bronson follows:]

[Pages 2155 - 2158--The official Committee record contains additional material here.]


                                            Thursday, May 22, 1997.

                                WITNESS

HON. ED WHITFIELD, A REPRESENTATIVE IN CONGRESS FROM THE COMMONWEALTH 
    OF KENTUCKY

    Mr. Porter. There is a vote on but we have some time before 
we have to leave for the vote.
    Representative Ed Whitfield of Congress. Nice to see you.
    Mr. Whitfield. Thank you, Mr. Chairman, Mr. Stokes, and my 
colleague from Kentucky. I appreciate the opportunity to be 
here.
    I have come today to ask for funding and support for a 
program of the Federal Government that I think is particularly 
effective, and that is the Job Corps Program. It serves young 
people who have slipped through cracks in our society and these 
are young people who often end up in welfare or in the prison 
system or chronically unemployed. In fact, 80 percent of the 
students at Job Corps are high school dropouts, 70 percent have 
never had a full-time job, and 40 percent of them come from 
families who are on public assistance. The Job Corps gives them 
hope for a better life.
    Last year, 75 percent of the students who entered Job Corps 
became employed, enrolled in higher education, or enlisted in 
the military.
    The largest Job Corps Center in America happens to be in my 
district. It employs 700 people in Western Kentucky and has 
2,200 students. Not only does it meet its priority job of 
providing vocational skills for these young people, but it has 
been a particularly good neighbor in Western Kentucky.It has 
helped build retaining basin dams for landfills, it has provided help 
in the disasters of the flooding this past year, it has a partnership 
with Habitat for Humanity to provide construction skills building homes 
for families, and it has also provided construction and other skills to 
provide many headquarters for groups that address needed programs in 
that area.
    So I am here to testify in support of funding for Job 
Corps. For its operations, I am requesting $1.15 million. For 
the maintenance program, many of these facilities are located 
at old military bases, so I am asking $91 million to be 
appropriated for maintenance. And then last year the Congress 
directed Job Corps to upgrade its vocational offerings to 
create career opportunities in emerging growth industries. I 
hope the Committee will be able to provide $15 million to begin 
a five-year process of intensive review of vocational education 
for these students.
    I understand, and I do support a $1.268 billion in funding 
for fiscal year 1998. I recognize the many burdens that you all 
have, and I appreciate very much the opportunity to be here on 
behalf of Job Corps.
    [The prepared statement of Congressman Ed Whitfield 
follows:]

[Pages 2160 - 2164--The official Committee record contains additional material here.]


    Mr. Porter. Ed, let me say when we were required in the 
House bill to cut $9 billion out of our discretionary funding 
in 1995, there were only 10 line items to which we gave any 
increase at all. Job Corps was one of them. It was not a large 
increase, but it was an increase in a time of very severe 
budgetary restraint. So, we share your priority. This is a 
program that works for the most at-risk young people in our 
society. While it is expensive, it really does the job and we 
want to try to provide those kinds of resources to them that we 
have in the past.
    Mr. Whitfield. Mr. Chairman, I am delighted to hear that 
you agree with me. I think we all recognize the good job that 
it does. I do appreciate the time to be here this morning.
    Mr. Porter. Thanks so much.
    Mr. Whitfield. Thank you.

                              ----------                              

                                            Thursday, May 22, 1997.

                                WITNESS

HON. DOUG BEREUTER, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    NEBRASKA

    Mr. Porter. Doug Bereuter of Nebraska.
    Mr. Bereuter. Thank you, Mr. Chairman, Mr. Stokes, Mrs. 
Northup. This will be the quickest, but heartfelt, testimony.
    I am very much in support of the Close Up Program. I am 
sorry I missed being here with my colleagues during their 
attendance here. I have supported this program energetically 
since I first became familiar with it. My own State is a very 
big beneficiary now, they were not at the time.
    The Ellender Fellowship program, which we support and ask 
for $3 million, last year was instrumental in giving 
scholarships to students of some magnitude--3,942--who probably 
would not have been here otherwise. Since 1971, its inception, 
it has brought about 480,000 students to Washington, D.C. to 
participate in this week-long study program, 95,000 of those 
were scholarship students.
    I think this is the most outstanding civic education 
program in the United States. This one happens to focus on our 
high school students. You have all seen them and talked to 
them, you know the enthusiasm, and you know they are going to 
be much more involved active citizens the rest of their lives. 
So I think it is a very good investment.
    If I could have my full statement made a part of the 
record, I would just conclude my testimony with those 
statements.
    [The prepared statement of Congressman Doug Bereuter 
follows:]

[Page 2166--The official Committee record contains additional material here.]


    Mr. Porter. That will be received. Thanks very much for 
your testimony, Doug. We know of your strong support and 
leadership for Close Up for a long, long time. It carries great 
weight with us, believe me.
    Mr. Bereuter. Thank you very much.
    Mr. Porter. Thank you.
    The vote now has I think only seven or eight minutes 
remaining. We are going to have to take a recess and come back 
for Mr. Bilbray and Mr. Foley, if they are able to do so.
    The subcommittee will stand in recess for the vote.

                              ----------                              

                                            Thursday, May 22, 1997.

                                WITNESS

HON. BRIAN BILBRAY, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CALIFORNIA

    Mr. Porter. The subcommittee will come to order.
    We are pleased to welcome our colleague, Brian Bilbray of 
California. Brian, why don't you proceed?
    Mr. Bilbray. Thank you, Mr. Chairman. Mr. Chairman, I would 
like to start off by pointing out that in 1995 there was one 
issue that President Clinton and Speaker Gingrich agreed to, 
and that was that the Federal mandate by the Federal Government 
to provide emergency health care to the illegal aliens was, in 
fact, a Federal obligation. In fact, on June 10, 1996, the 
President clearly stated that immigration laws are national 
laws, not State laws, and they have to be enforced. The 
consequences of their enforcement--or the failure of their 
enforcement--have to be borne primarily by the national 
Government.
    The fact is, Mr. Chairman, this is an issue where the 
Federal Government has been the ``deadbeat dad,'' to a tune of 
over $1 billion a year just to the State of California. The 
fact is that in recognition of that, during the budget 
negotiations in 1995, we actually put together a $3 billion 
reimbursement fund to finally start addressing this issue.
    Let me point out to you and for the record, this burden is 
placed disproportionately on the poor working class hospitals 
that have to provide services to the poor. It is not just an 
abstract possibility that emergency health care services and 
emergency rooms in those working class neighborhoods may be 
shut down--they are being shut down at this time. I would like 
to cite two instances just to give you an example.
    One individual illegally crossed into this country, ran 
across a freeway and was struck by a car. That person was put 
in the UCSD Medical Center, which treats the great majority of 
the poor working class in San Diego County. That individual was 
severely hurt with a head injury, and over $1.2 million was 
spent on life support and treating this individual. At the same 
time, when the hospital had arranged for a transfer of the 
illegal alien back into the Republic of Mexico to a hospital at 
that location, the Federal courts stepped in and blocked the 
transfer, mandated that the hospital continue to bear the 
burden, but did not in any way reimburse that hospital for that 
burden. That instance is just one instance.
    Another instance is an individual jumped over the fence and 
injured himself crossing over the United States border fence. 
INS calls the ambulance to transport the person, he is 
delivered to the hospital, and then, like a rat off a sinking 
ship, bats out of there and left that cost to the local 
hospital. It ended up costing hundreds of thousands of dollars 
to treat him.
    De facto, what is happening in these instances is people 
are entering the country illegally, getting injured, and INS 
and the Immigration Department is actually utilizing local 
ambulance services to transport, then hospitals to treat, but 
because the INS does not want to have to bear the 
responsibility of the health care, they do not take the person 
into custody, as we assume they would. De facto, the emergency 
rooms are becoming a back door access into the United States, 
because if the INS come and take custody officially then they 
have to pay the bill.
    What they do unofficially is call up and say, ``Let us know 
when they are going to be released,'' and they wait outside, so 
unofficially they take custody. This system obviously does not 
work well for either side.
    I am just asking you, Mr. Chairman, that we stop committing 
the crime of walking away from our responsibility, that we 
should no longer be the ``deadbeat dad,'' that we say this is 
our baby, this is our responsibility--and we are not just 
talking about California, we are talking about the working 
class poor across this country, that their neighborhoods are 
being asked to provide this service that is our responsibility 
and we are asking them to bear a disproportionate share of the 
burden.
    So I would ask that we specifically address this issue by 
going back to the agreement we had in 1995 of a Medi-grant fund 
to be able to reimburse those hospitals that are having to 
provide this service under Federal mandate. I think it is 
something we all agree should be done. It is just a very small 
problem that has turned into a huge problem. I am sorry that 
the members of the minority are not here because I think we 
need to point out to them that this is not one of those rich 
neighborhood problems; this is a poor, needy neighborhood 
problem that has been ignored for too long.
    [The prepared statement of Congressman Brian Bilbray 
follows:]

[Pages 2169 - 2171--The official Committee record contains additional material here.]


    Mr. Porter. We are trying to determine whether we have 
jurisdiction of this issue or not, because the funding for 
Medicaid, if that is what we are referring to, is mandated 
funding. We can not do anything about that. I think probably 
the authorizing committee is the one to have jurisdiction. Ways 
and Means Committee I would assume would have jurisdiction over 
that. We can certainly write a letter to them and tell them of 
our concern about it though. Obviously, it is adding to the 
cost of the program.
    Mr. Bilbray. I assure you, what it is doing is ending up 
destroying the capability of executing the intention of the 
program, and that is making sure that all people in the United 
States are covered. De facto, because of the shut down of the 
emergency rooms in the hospitals, what is happening is that 
large segments of the community are not being served now.
    I am on the Health and Environment Subcommittee of the 
Commerce Committee. We will address it from our point. I just 
ask you that you do what you can from your point to address 
this issue. Before we start giving out any grants, before we 
start helping people outside of a mandated program, the fact is 
that we have obligations right now that we are not paying. 
Before we take on any new obligation, and before we give out 
any charity, we darn well ought to be paying our own bills, and 
this is one that we ought to be taking care of.
    Mr. Porter. I would also say that Hal Rogers has 
jurisdiction of INS, and perhaps they ought to hear the message 
as well, because they are trying to shift the costs from the 
way you describe it.
    Mr. Bilbray. Which they are doing right now. I just want to 
say we will try to work on that aspect of it. What they are 
doing is protecting their budget by making sure it does not go 
there. Now, you have got to remember, a portion of this, too, 
are people who have never been in custody, but a very high 
percentage gets into this thing.
    Either that, or let us talk about not requiring mandate for 
emergency health services. I mean, do not sit there and say we 
have to provide this service to people who have crossed over 
illegally and then walk away and say ``It is not our 
responsibility.''
    Mr. Porter. Exactly.
    Mr. Bilbray. Then, again, I guess there is a degree of 
trying to sensitize the Federal system that this is a problem 
that is going to cost us if we do not take care of the root 
problem. Hopefully, we take care of the root problem and that 
illegal immigration is curtailed. Then this is not a problem we 
have to address, then it will end up helping us.
    Thank you, Mr. Chairman. I appreciate your time.
    Mr. Porter. Thanks, Brian.

                              ----------                              

                                            Thursday, May 22, 1997.

                                WITNESS

HON. MARK FOLEY, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF FLORIDA

    Mr. Porter. Next, Mark Foley, our colleague from Florida.
    Mr. Foley. Thank you very much, Mr. Chairman. I would like 
to submit some testimony for the record, if I may.
    Mr. Porter. It will be received.
    Mr. Foley. Thank you so much.
    I am here to discuss AIDS today, Mr. Chairman. I want to 
thank the chairman of the subcommittee for making disease 
prevention, care, and cure a priority. Your efforts in the 
104th Congress to significantly increase funding for the 
established critical priority is to be commended. I also urge 
you to continue the commitment, particularly in AIDS-related 
programs.
    We have reached a crucial point in battle against this 
deadly scourge. In 1995, it was the first year in which AIDS-
related deaths actually leveled off. During 1996, the death 
rates have actually dropped for the first time ever. Why the 
historic turnaround? Better drugs and better care.
    New combination drugs, particularly protease inhibitors, 
are having a dramatic impact on AIDS. There are nine antiviral 
HIV drugs on the market. They are usually used in combination 
of threes--the triple drug therapy. The trend is a clear 
indication that new drugs and better access to life-extending 
treatment are having a powerful impact on this 16 year old 
epidemic. It is ``good news which we have not had a lot of in 
this epidemic,'' said Harold Jaffe, AssociateDirector of the 
Center for Disease Control on AIDS.
    That is the good news. The best news yet. The bad news is 
that during the same period deaths among HIV-infected women 
rose, and the overall rate of new infection continued to climb.
    President Clinton has said he is determined to find a 
vaccine to prevent HIV infection within the next decade. I 
applaud the goal. However, the President's budget is inadequate 
for the task. He has asked $17.5 million increase for 
prevention programs under CDC, and $40 million increase in Ryan 
White Care Act funding. Much, much more is needed, Mr. 
Chairman.
    Our Federal dollars have helped create the exciting new 
drugs that are saving lives and allowing many Americans to 
become productive citizens again. The treatments are only a 
dream for some who still cannot afford them or who lack access. 
There is a major article in my local paper, ``85 County 
Residents to Get New AIDS Drugs.'' Unfortunately, there were 
over 400 on the waiting list. Clearly, we are all celebrating 
the news of the drugs and the drug therapy, but when you are on 
the waiting list and find yourself ineligible because there is 
not enough money to go around, good news quickly becomes very, 
very bad news, indeed. While your friends are being saved, you 
are finding your own life perish.
    The three of the top cities, first of all I want to stress, 
with the highest HIV/AIDS rates in America are in my home 
State--Miami, which ranks second nationally; West Palm Beach, 
fifth; and Ft. Lauderdale, sixth. In Palm Beach County, home to 
West Palm Beach, the Palm Beach Post reported that only 
slightly more than half of the 160 people who applied for new 
drugs under the federally-supported program were approved 
because the $27 million they expect for this program is not 
enough to give access to all who need it.
    That is just one county in one State in America. Estimates 
are we need an increase of more than $200 million for CDC 
prevention programs, and minimally $96 million for Ryan White 
Care Act, although some put that needed increase at more than 
$300 million.
    I am not an expert on the numbers but I do know the need is 
real and it is great at this point. We are at a critical stage 
where we can win this war. Like all wars, we need the resources 
to win.
    I want to double back to my comments on the President's 
call for the vaccine. I, again, applaud that. I think clearly 
there are a number of things we can do in all the various 
research centers in order to combine the dollars in order to 
focus the target. A vaccine would be extremely helpful news. I 
think keeping our target on curing as well is vitally 
important. By doing so, if we can streamline the agencies and 
make certain that all research is working interactively to make 
certain that not only could we find the cure for AIDS but, in 
doing the research, also find the cure for other diseases. 
There may be links in tuberculosis, in cancer, in a number of 
other things that can be done through good research.
    So, again, I personally want to thank you, Mr. Chairman, 
for your leadership. My first term was in the 104th Congress. 
Back in my home community they felt the Republicans would not 
be likely to help in the fight against AIDS nor would they find 
the appropriations commensurate with what had been given in the 
past. I was proud to go home as a Republican and report not 
only did we meet the target of prior year funding, in fact, we 
accelerated it through your leadership, through that of Steve 
Gunderson, to make certain that we not only went above and 
beyond the President's own number, but I think you increased it 
some $167 million. So for that, this Committee and you, through 
your leadership, is to be applauded.
    I can tell you from all the various categories, and I have 
looked again both at fiscal year 1997 and the President's 
request, what we see is a shortfall in both categories. Our 
task is daunting. But the suffering of those millions of 
Americans is more important. I found, too, in my reflection on 
where we should be as a Nation, the old oil change commercial 
comes to mind--pay me now or pay me later. The cost of long-
term treatment and others will be extremely expensive for this 
Nation. So our priorities and our focus should be on vaccine, 
on cure, and on saving people's lives. Thank you.
    [The prepared statement of Congressman Mark Foley follows:]

[Pages 2175 - 2176--The official Committee record contains additional material here.]


    Mr. Porter. That was wonderful testimony. Thanks for your 
kind words. We are going to do our very best. I agree with you, 
the President talks a good game but he does not provide the 
resources to do what he talks about, which is disappointing.
    Mr. Foley. I spoke at the Minority AIDS Council the other 
evening here in Washington, to their national group, and that 
was the overriding theme. They all thought this was interesting 
but the President did not put anything on the table. We will do 
a vaccine. They equated it to the 1960s when we were going to 
the Moon. At least there was a viable resource that they 
applied towards the solution at that time. I hate to give false 
hope to people, and I am not being negative towards the 
President, but we would like to see the Administration, with 
that promise and hope of a vaccine, say we are prepared to 
authorize whatever necessary resources to do the job.
    Mr. Porter. I am being negative toward the President. I am 
sorry, but I think that when you come in and talk about your 
commitment to biomedical research and to helping people with a 
disease like AIDS and then you submit a budget like the one 
that he did, I think it is dishonest in the extreme. I have 
said so repeatedly and I am going to continue to say so until 
he starts putting his money where his rhetoric is.
    Mr. Foley. Thank you. I also wanted to commendCongresswoman 
Meek.
    Mrs. Meek. I want to associate myself with Mark's remarks. 
Every word he said is true. I have been working for help for 
AIDS since I have been in the Congress and before. Congress has 
to take over where the President did not. That is what your 
committee has done every year. Hopefully, Mark, we can reach 
that goal. This is the first time I have attended the Minority 
AIDS national meeting. They are out there where the victims are 
and they work extremely hard. I just cannot associate myself 
with your remarks any more strongly than I am this morning.
    Mr. Foley. A gentleman from your community was here that is 
launching so many new initiatives to make certain home-bound 
and others seek and get treatment. So, again, I clearly want to 
state that Mrs. Meek has been a strong advocate and a friend in 
this battle.
    Mr. Porter. Thanks, Mark.
    Mr. Foley. Thank you, Mr. Chairman.

                              ----------                              

                                            Thursday, May 22, 1997.

                                WITNESS

HON. CARRIE P. MEEK, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    FLORIDA

    Mr. Porter. Now for her second or third appearance before 
our subcommittee this morning, Carrie Meek of Florida.
    Mrs. Meek. Mr. Chairman, first of all, I want to thank you 
and the committee for your tolerance and the fact that every 
year when I come before you you receive me in what I feel is a 
very fine way. I want to thank you for the help you have 
already given Lupus Research.
    It is a research which I come before this committee every 
year and ask about. Mr. Chairman, I want to ask to have my 
remarks submitted for the record.
    Mr. Porter. They will be received.
    Mrs. Meek. Thank you. My request for Lupus research is for 
$50 million. I want to tell you why, Mr. Chairman. This 
committee has been very good with Lupus research but you have 
not done enough in terms of I would say the incidents of this 
disease in our population. It is a disease that cuts down young 
women in the prime of their life. Normally, it is associated 
with Hispanic and black women and Asian women. But now if you 
look at the statistics from NIH, you see that it is going into 
other populations. It is a sneaker of a disease.
    I think the Chairman was out the day that the chairman of 
the Lupus Foundation appeared; that is when your back was out, 
Mr. Chairman, I watch your physical condition. Anyway, he came 
before the committee and he talked about how Lupus has 
devastated his daughter. She is in such a state now that she is 
probably so debilitated to the point that she cannot carry on 
normal tasks. That is how insidious Lupus is. It starts out 
sometimes with pain in the joints and then it undermines the 
entire immune system to the point that any kind of disease or 
any kind of infectious attack can take over when the immune 
system is not working.
    We know that we can find a cure for this disease, but only 
through NIH putting more attention and more time on research. 
This is a very small part of NIH's budget, so small it is 
infinitesimal. It affects these women nine times more often, 
Mr. Chairman, than it does men--nine times more often. So as 
far as we are concerned, it is something that we should put 
more money into. It is causing a lot of suffering. As I told 
you, it attacks the blood and the kidneys. I was just reading 
yesterday that Oscar Thompson's daughter, an outstanding former 
basketball player at the University of Cincinnati, he had to 
give a kidney transplant to his daughter recently because of 
this dreaded disease. Suffice it to say, Mr. Chairman, this is 
a disease that I come before you asking for help with every 
year. I lost a sister to it. The Speaker has this in his 
family. You never know where it is going to come up. I cannot 
say to you that it is hereditary, but I say to you there is a 
predisposition for this disease.
    I thank you for your time, and I will submit the rest. But 
do not forget, I am asking for $50 million to go the National 
Institutes of Health for Lupus research.
    [The prepared statement of Congresswoman Carrie Meek 
follows:]

[Pages 2179 - 2182--The official Committee record contains additional material here.]


    Mr. Porter. Carrie, you probably realize that we fund by 
institute and not by disease.
    Mrs. Meek. Yes. Right.
    Mr. Porter. However, while we certainly recognize that 
science has to determine where the research opportunities lay, 
we also always express in the report accompanying the bill our 
concerns and often in the strongest possible terms. What we 
would like to do, if we may, is to work together with you and 
your staff and the staff of the subcommittee to develop some 
language that will help them understand how important a 
priority we think that this is.
    Mrs. Meek. Thank you, Mr. Chairman.
    Mr. Porter. Would you work with us on that?
    Mrs. Meek. I will. I will be happy to do it. The chairman 
of the Lupus Foundation is really working hard, and we all are. 
We appreciate your time. Thanks again.
    Mr. Porter. Thank you for testifying.
    The subcommittee will stand in recess until 10:00 a.m. on 
June 3rd.

                              ----------

                                             Tuesday, June 3, 1997.

                                WITNESS

HON. WILLIAM F. GOODLING, A REPRESENTATIVE IN CONGRESS FROM THE STATE 
    OF PENNSYLVANIA

    Mr. Porter. The subcommittee will come to order.
    We continue our scheduled hearing from Members of Congress, 
and we are pleased this morning to welcome Congressman Bill 
Goodling, the Chairman of the Education and the Workforce 
Committee, for whatever time he would like to use.
    Bill, we welcome you.
    Mr. Goodling. I thank you, and it was good to see you 
bouncing in the way you bounced in here this morning, or either 
you were putting on a good front.
    I am pleased to have the opportunity to testify. In my 
prepared remarks, I included some other things other than those 
I will mention, and I have also brought a letter related to Job 
Corps, which was not included. As you know, I am a staunch 
supporter of Job Corps.
    Mr. Porter. That makes two of us.
    Mr. Goodling. Let me begin by thanking you for your efforts 
in providing historic funding increases in priority programs in 
last year's appropriation bill. I was particularly pleased by 
the final bill increasing funding under the Individuals with 
Disabilities Act of $784 million, which was the largest single 
year funding increase in the program's history. It represents a 
giant step in helping States and school districts provide a 
free public education to children with disabilities under the 
Federal mandates we placed upon them, and I wish to focus my 
comments around those programs which I believe should be given 
top priority in the fiscal year 1998 appropriations bill.
    First and foremost is the Individuals with Disabilities 
Education Act. The House and the Senate, as you know, recently 
passed a historic IDEA reform bill which we are going to enroll 
at 11:30 this morning over on the Senate side. With the reforms 
we made, IDEA will work even better to educate children with 
disabilities and help children by focusing on children's 
education instead of process and bureaucracy, giving parents 
increased participation and giving teachers the tools they need 
to teach all children. It is my hope that any additional 
funding available this subcommittee will use to continue on our 
path of paying our fair share that we promised a long time ago.
    I would add one note: If we put an additional billion into 
IDEA this year, then the local school districts, the way we 
have written the new legislation, will begin to reduce what 
they are spending locally on IDEA. We do not allow the State to 
do that, but it is the local district that is stuck trying to 
find ways to pay for our mandate and taking it away from all 
other students to do that, and I am sure this will be a welcome 
relief for those taxpayers.
    Another would be increased funding of Pell grants, and 
again, under Republican leadership, we gave the highest Pell 
grant in the history of the program last year at $2,700, and we 
would recommend that it be raised to $3,000 per student, 
consistent with the recommendation of the budget negotiators.
    I would like to talk about Even Start. I gave you a copy of 
some of the facts of the recent study done. What they did was 
go out and take 30 programs that are being run properly and are 
being run the way it was set up, with all of the parts of the 
program, including increasing parenting skills, increasing 
literacy skills of parents, and also increasing the reading 
readiness opportunities of the preschool children. These were 
30 programs, and I am glad to report we finally have a report 
of a Federal program that shows carryover long after the 
program; in fact, in third and fourth grade, the teachers are 
saying there is still a marked difference.
    So I would hope that we could give Even Start the kind of 
money I believe it merits. Based on the most recent study, over 
90 percent of the children in Even Start are rated as ready to 
enter kindergarten by their teachers, and three-quarters of 
these children continue to perform at or above average by their 
teachers and on performance tests.
    One of the most compelling findings was that 4 years after 
leaving the Even Start program, the average savings in welfare 
benefits from each of the enrolled family was about the same 
amount as it costs to operate an Even Start Program for that 
family. Thus, the program pays for itself for that family, not 
to mention the many intangible benefits that have also been 
documented as a result of participating in Even Start.
    In light of these findings, I hope we can find the funds. I 
noticed the President also recognizes that he visited a program 
in Ireland, and the Secretary said he came back and said this 
was such a wonderful program we saw with the parents on one 
side and the children over here, and eventually they brought 
them to use what they learned on the two--and I said, ``Mr. 
Secretary, he does not have to go to Ireland. They copied that 
from that. Just take him to one of the good Even Start programs 
in the United States.''
    I would like to point out that under this bill, under our 
Employment Training and Literacy Enhancement Act, which we 
passed before we went on recess, we finally have done what we 
have been trying to do for a long time, which is consolidate 
those many, many training programs out there into three grants. 
We also include in there the National Institute for Literacy, 
and we give them increased responsibility under this Employment 
Training and Literacy Enhancement Act of 1997 by making sure 
that in preparing these people for jobs--and particularly we 
are talking about going from welfare to workfare--that they 
have the literacy skills to compete in the high-tech area we 
are facing. So the National Institutefor Literacy is a critical 
part of that reauthorization.
    Let me mention a few other education programs that I 
believe warrant special attention. One is Title VI, formerly 
known as the Chapter 2 Block Grant Program. I was pleased to 
see that this program received a $35 million increase last 
year.
    However, the administration has once again proposed to 
eliminate this program in favor of the Eisenhower Professional 
Development Grants Program, and I would hope that you would not 
combine Title VI funding into the Eisenhower program since this 
would limit the ways in which States and school districts can 
use these funds.
    I would also like to ask that the subcommittee consider 
setting aside a small amount of money from the Secretary of 
Education's Fund for the Improvement of Education Account to 
fund a special teacher training initiative. Unfortunately, in 
all the literacy programs you are hearing about being proposed, 
there is little in the proposals which have anything to do with 
preparing the teacher to teach to the new skills and teach to 
the new system.
    What we are asking here is a small amount of dollars that 
we would use to help the District of Columbia teachers 
incorporate some of the revolutionary findings about how 
children learn to read uncovered by Dr. Reid Lyons of the 
National Institute of Child Health and Human Development, which 
is part of NIH.
    I must admit that I did not realize that since 1985 they 
have been studying how children learn to read and have come up 
with some new ideas, yet many of them are based on what we know 
has worked in the past, and we would like to implement those.
    They are spending a great deal of money in the District of 
Columbia moving their reading program into the District, and I 
would like to follow the Speaker's lead, who always tells me to 
make D.C. schools the model for the country, by preparing the 
teachers to teach to the new program that NIH is bringing into 
the District.
    We know that many children are not performing as well as 
they ought to, and national tests such as President Clinton's 
suggested would only reaffirm that, and to me, is money down 
the drain. We know that. We do not need to test to find that 
out, we already know that, so why don't we put the money into 
preparing the teachers to teach and implementing some of the 
newer, proven programs?
    I believe the focus for our Federal efforts should be on 
finding ways to center our existing education programs around 
three principles, emphasizing basic academics, encouraging 
parental involvement, and making sure that dollars reach the 
classroom where children learn. This is what we would hope to 
do and hope you would help us do with your appropriating, so we 
take care of the programs that now exist and are doing well but 
do not get carried away with a lot of additional programs, 
untried, untested, until we are sure that we are making the 
grade with the programs that we presently have out there.
    The President's America Reads Challenge, I have real 
concerns about the way it is structured. I do not think it is 
realistic to think that we can have those 27- to 30-thousand-
dollar paid volunteers out there totally disconnected from the 
school and somehow or another we are going to help teachers 
help children learn to read. We must do all we can to make 
current remedial education and early childhood programs work 
efficiently and give teachers the knowledge and the tools they 
need to fulfill their calling. I would strongly urge the 
subcommittee not to fund any new programs that have not been 
explicitly authorized by the committee.
    I would end by noting there are several important issues in 
the work force area that I believe warrant your attention, and 
I have included those in the written testimony that I would 
submit for the record, and, again, thank you for the 
opportunity to testify before the committee.
    [The prepared statement of Congressman William F. Goodling 
follows:]

[Pages 2189 - 2197--The official Committee record contains additional material here.]


    Mr. Porter. Mr. Chairman, you have provided tremendous 
leadership and, I might add, a great deal of common sense to 
the education and job training area, particularly your concern 
with special education for handicapped children, with the Even 
Start Program, with the Job Corps, and with others that we very 
much agree there is Federal responsibility for in the first 
instance, and programs that really work for people in the 
second. We certainly want to try to follow your recommendations 
for funding in each of these areas.
    Can I ask, will we need authorizing language on this set-
aside for preparing teachers that you mentioned regarding 
teachers in the District of Columbia?
    Mr. Goodling. Yes, and we will get that.
    Mr. Porter. Would you give us language to that effect?
    Mr. Goodling. Yes. I have talked to Senator Jeffords, and I 
believe we have agreement to move that quickly.
    Mr. Porter. May I assume that it is unlikely that the 
America Reads Program will be authorized before the end of this 
fiscal year?
    Mr. Goodling. Yes, because we have a lot of study to do on 
just how to put a program of that nature together.
    As I said, we do not want to get trapped into what we did 
in the sixties, where everything was well intended but in many 
instances there was not really much thought given, and then we 
never changed anything, we just kept putting more money into 
programs that were not nearly as successful as we hoped they 
would be.
    We want to give an awful lot of thought to what we are 
doing, and we really want to emphasize preparing those 
teachers, because if we are having a problem and we know that, 
obviously the preparation of the teacher is going to be very, 
very important.
    Mr. Porter. On the question of the Employment, Training, 
and Literacy Enhancement Act, what is the probability that we 
will have that authorized by the time we reach conference on 
this?
    Mr. Goodling. I have a meeting with Mr. Jeffords. He 
indicated that they thought they would move it fairly rapidly, 
and since we have the support of the administration, I would 
hope that there would be very few amendments over there so we 
could move ahead rapidly. So hopefully we will have it ready 
for you.
    Mr. Porter. Mr. Miller, do you have any questions?
    Mr. Miller. If I may. Actually, I wish we had more people 
to talk. I wish we had a chance to go over a lot more of the 
subjects with more time than 5 minutes. By taking time now, we 
of course cut the schedule yesterday. Let me ask a couple 
questions.
    On the Eisenhower program and the need to train teachers--I 
learned this back in my district--the teachers,the technology 
training, or whatever, what is your opinion of that program?
    Mr. Goodling. I think, as I indicated in my testimony, the 
program is fine, but do not combine Title VI with it, because 
Title VI is what the old Chapter 2 was and probably has had 
more to do with reform than anything else, because it has given 
the flexibility to the State and to the local district in order 
to set up their program, because one size does not fit all.
    Mr. Miller. So you think the Eisenhower program, the way it 
is working, is fine.
    Mr. Goodling. Fine but must remain separate.
    Mr. Miller. How about the study in the literacy area that 
the president is pushing? We are doing some of it now. Is that 
going to be part of the authorizing you are doing?
    Mr. Goodling. What we are trying to do in the 
reauthorization of the training programs and the consolidation 
of them, we are trying to include adult literacy in that whole 
effort, because, again, in this day and age you cannot go to 
work and get a job and be illiterate, or even functionally 
illiterate, as you once could, and support a family.
    We realize that literacy, improving the literacy skills of 
those people we are trying to prepare, particularly those who 
are leaving welfare and going into workfare, the literacy part 
is going to be very, very important.
    Mr. Miller. But the College Work-Study Program?
    Mr. Goodling. The College Work-Study Program, in my 
estimation, if we could ever get rid of AmeriCorps and then put 
that effort into the College Work-Study Program, and then 
merely indicate that a percentage of that--50 percent, 60 
percent, whatever--must be spent in community service rather 
than emptying trash cans in a dormitory or whatever, then you 
do not create a whole new bureaucracy, as in AmeriCorps, you do 
not have a 25- to 30-thousand-dollar expense for every student, 
and the student also learns they have a responsibility to the 
community. They are earning, and then are also not ending up 
with the tremendous debt at the end if they are only borrowing 
rather than having that college work-study.
    The whole effort to assist teachers in the area of 
literacy, in my estimation, should be done through the college 
work-study students.
    Mr. Miller. One final question, if I may. I commend you for 
getting some significant legislation already through, the IDEA 
program being one, and the consolidation of job training. What 
major authorizing is coming up this year? Higher Ed?
    Mr. Goodling. Higher Ed.
    Mr. Miller. Will that be up this year or next year?
    Mr. Goodling. We will complete it this year, but to finish 
with the conference, we will get it up next year, and we are 
trying to find out why college costs have gone up 200 and some 
percent while cost of living has gone up 70-some percent. The 
worst excuse I get all the time from college presidents is, 
well, you have to understand, since we do not have enough money 
for college grants and scholarships and such, we must take our 
money.
    What they are telling us is, they have a list price for 
going to college and then they have a discounted price, but it 
is our fault that they cannot fill the classrooms and the 
dormitories, because that is what they are doing. They are 
taking money from those who can afford to pay to bring others 
to fill their college dorms. One college president said they do 
not do that, no discount price, they have reduced their cost 
for everybody, and they have an overflow crowd waiting to come 
to the college.
    Mr. Miller. Do you have under reconciliation--will you be 
doing anything with reconciliation this year?
    Mr. Goodling. Yes.
    Mr. Miller. The student loans?
    Mr. Goodling. You want to be very, very careful, because 
the Budget Committee was getting themselves trapped because 
they thought there was a 50/50 agreement in relationship to 
direct lending versus private sector involvement. They did not 
have that. It was tilted very heavily as to private lending, 
and we want to be careful because we are getting ourselves in 
deeper and deeper to something we do not know what it will 
cost.
    Mr. Miller. Thank you, Mr. Chairman.
    Thank you, Chairman Goodling. You are doing a great job.
    Mr. Goodling. Thank you.
    Mr. Porter. Mr. Chairman, thank you for your testimony. The 
subcommittee is greatly in admiration of your leadership and 
the kind of work you are doing on the authorizing committee. We 
want to work very closely with you and try to reflect the 
concerns and priorities you have in our bill as well.
    Mr. Goodling. I appreciate that. Thank you.
    Mr. Porter. Thank you.
                              ----------                              

                                             Tuesday, June 3, 1997.

                                WITNESS

HON. MAXINE WATERS, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CALIFORNIA
    Mr. Porter. The subcommittee is going to take Members in 
their order of arrival. Next, our colleague, Maxine Waters of 
California.
    Ms. Waters. Thank you very much, Mr. Chairman.
    I recently spoke before this subcommittee on part of a CBC 
panel discussing the educational needs of our children and the 
problems of teen pregnancy and the health needs of our minority 
communities and employment training. Today, I come because of 
the Congressional Black Caucus's number one priority, and that 
is the fight against drugs in our society.
    We had several workshops to develop a CBC agenda, and the 
number one priority is the eradication of drugs. We also worked 
very closely with the administration to develop this year's 
drug strategy. We have spent countless hours with the Drug 
Czar; we have talked with the Office of Management and Budget; 
we have gone to every committee that has any jurisdiction over 
money to be spent in this area. We are trying not only to help 
everyone to understand what our focus is, but we believe that 
the Members of this Congress on both sides of the aisle are 
vitally interested in this subject.
    We saw the Republican side of the aisle talk about its real 
concern about a lack of initiatives addressing our youth all 
throughout last year. We have heard a lot from the President, 
and the President did come back with, I think, a credible 
budget, and I am here to support that.
    The Congressional Black Caucus developed some legislation--
a whole package, really--seven bills, under the Free Our 
Families From Drugs package. In it, we really do target drug 
treatment programs. We believe we are missing the opportunity 
to further reduce crime in our society by not targeting this 
problem of drugs.
    Most of the crime and violence that we are witnessing in 
this country is because of drugs, involvement with drugs, drug 
addiction, et cetera. We find that there is a need for an 
expansion of treatment facilities. We think a lot of young 
people experiment with drugs, but they find that it is not what 
they thought it was and they would like to get off, and then 
they do not know what to do, and most families cannot afford 
the very expensive facilities that have shown some tremendous 
success in helping to get people off drugs. We think we could 
reduce crime even further.
    I was pleased to see the headlines yesterday about the 7 
percent decrease in crime. I think we could do better if we 
would put more money into rehabilitation, prevention, and 
education. The President's funding year 1994 budget requested 
at that time some $310 million in increased funding. That would 
have made programs available to about 74,000 hard core drug 
users. The current funding remains some $300 million short of 
the estimated $506 million that is needed to fully fund the 
substance abuse block grant.
    The CBC's proposal for funding year 1998 would increase 
appropriations by $310 million. This would expand services by 
almost 50 percent, and it would not reduce or compete with 
other drug abuse programs in the block grant.
    At a minimum, authorize the block grant at the President's 
funding year 1998 request level. To fully meet the needs, 
increase funding in line with the CBC's proposal.
    I will not go into further detail. We are submitting, I 
believe, this testimony for the record talking about prevention 
through education and how to target, and how to use monies that 
are in the Drug Czar's budget for public relations, the 
message, what do we talk about, how is that message developed, 
and how can we partner with the private sector in order to get 
that message out.
    Finally, Mr. Chairman, let me mention Youth Fair Chance. I 
was involved in the development of this program. It was part of 
the Title IV of the JTPA, Jobs Training Partnership Program.
    In 1993, I authored legislation that expanded the program 
to include young participants up to I think it was age 25 or 
so, targeting out-of-school youth to make the program as 
comprehensive as needed to meet the needs of our youth.
    Following the problems in Los Angeles, I was desperately 
searching for ways to connect with young people, many of whom 
had dropped out at an earlier age but wanted to get back into 
job training, who wanted to get into some kind of job 
development program. Youth Fair Chance is a result of some of 
those efforts.
    There are 17 initial demonstration projects funded, both in 
the rural and urban communities across the United States. The 
original grant was just $3 million for each of the 17 initial 
sites, but somehow that funding was killed after the 1994 
midterm elections.
    I have visited many of these sites and gone to the 
conference where all the participants came together. I watch 
closely the two in Los Angeles. I visit those programs 
regularly. I have seen what they are doing. It is amazing, the 
last center I was in in the South Central Los Angeles area, 
where we had young people off the streets who are computer 
wizards.
    One of the things I have discovered is that young people do 
take to computers rather easily. They like to manipulate them; 
they can learn very well on this. We can get a lot of young 
people training back into the job market more the first time or 
on their way to being in the job market if we have these kinds 
of centers who do the kind of outreach, bring the young people 
in, many of whom have been problems, dropped out of school at 
an early age, do not know what is available. JTPA has never 
done the outreach I think they can do.
    This puts the emphasis on, I think, reducing crime in 
ourcommunity, getting young people centered and focused on real 
possibilities, and I would just ask you, in addition to my very strong 
plea about the funding at the Congressional Black Caucus level or even 
at the President's level for drug prevention and education, this Youth 
Fair Chance Program really should be funded, and I would ask this 
committee to give serious consideration to that.
    [The prepared statement of Congresswoman Maxine Waters 
follows:]

[Pages 2203 - 2205--The official Committee record contains additional material here.]


    Mr. Porter. Congresswoman Waters, thank you for your 
testimony.
    We looked at the President's budget for SAMHSA and for the 
Substance Abuse Block Grant Program, and, frankly, he talks a 
good game but there is not much money. It is under 1 percent; 
it is like two-thirds of 1 percent. If this is an important 
priority for the country, ``Where is the beef?'' is what I 
would say.
    Now, you are attempting to address this through the Black 
Caucus and send a message to the President. I certainly agree 
with you that our money has to go for prevention and treatment, 
and we can put all the money we want into interdiction and 
prosecution, and as long as people have a demand for drugs, 
they are going to get in here anyway. The thing to do is get 
people off them.
    Ms. Waters.  Our legislation from the Congressional Black 
Caucus is decidedly better than the President's.
    Mr. Porter. Well, you have got to convince the President.
    Ms. Waters. Yes, and we have been attempting to do that. We 
have been meeting with any number of people in the 
administration. We are hitting at every point where decisions 
are being made, and we put the legislation, we introduced it, 
to have the vehicle there to fund what we think is a better 
program. So we think that if we can get you to agree with us, 
that we can whip the President in line.
    Mr. Porter. Well, obviously, leadership in holding this at 
a very high priority is, I think, the kind of work that makes a 
difference in this area, and we commend you for it. Thank you 
for your testimony.
    Mr. Miller, do you have questions?
    Mr. Miller. Just a brief comment. I chaired the meeting 
where the Congressional Black Caucus met and also the Women's 
Caucus; I was chairing both of them. But you brought up a lot 
of important issues that are very important to this committee, 
because there are so many perhaps that affect the black 
community in this country. We have to make some tough choices, 
and I am glad you bring it to the attention and advocate this.
    Ms. Waters. Yes, I know you have tough decisions; everybody 
wants money, and all you do, you will probably do a credible 
job with most of them. I guess I am asking us to go beyond the 
call of duty with drugs. This is a menace to society. It is 
time to get rid of it and really make the effort.
    Thank you.
                              ----------                              

                                             Tuesday, June 3, 1997.

                                WITNESS

HON. FRANK RIGGS, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CALIFORNIA

    Mr. Porter. Next, Congressman Frank Riggs of California, a 
former member of our subcommittee, perhaps the only member of 
Congress ever involved in a lateral trade with the authorizing 
committee, now the chairman of the Early Childhood, Youth, and 
Families Subcommittee of the Education and the Workforce 
Subcommittee.
    Frank, welcome. Good to see you.
    Mr. Riggs. Thank you, Mr. Chairman. It is nice to be back 
home, although for a brief appearance, and I do want you to 
know how much I enjoyed the opportunity to serve with you and 
Mr. Miller and our colleagues on both sides of the aisle in 
this very important subcommittee in the last Congress. I am 
glad I could make a contribution then and hope we can work 
closely in this Congress and thank you for this opportunity 
today.
    I am glad I could follow Chairman Goodling, although a bit 
haggard and jet-lagged, having just returned from California. I 
would like to testify on my priorities as Chairman of the 
Subcommittee on Early Childhood, Youth and Families.
    I would like to submit my entire statement for the record, 
and I would begin by referencing a letter that you and I signed 
along with Chairman Goodling, Chairman Kasich of the Budget 
Committee, and over 50 of our colleagues in the House in the 
last Congress. This is a letter we sent to theSpeaker last fall 
during the midst of budget deliberations on the so-called omnibus bill 
reflecting what we felt should be the top education funding priorities 
for the Congress.
    We specifically named the IDEA Act--the Individuals with 
Disabilities Education Act--Pell grant, and Title VI, formerly 
known as Chapter 2 Block Grant Program. I am pleased these 
programs did receive significant increases in the fiscal year 
1997 bill--in other words, this year's budget--and I hope we 
will once again consider these programs priorities for any 
additional funding made available to your subcommittee for 
fiscal year 1998.
    One point I would like to emphasize, Mr. Chairman: As you 
probably know, the IDEA amendments of 1997 will be enrolled 
today and signed into law by the President tomorrow. This, in 
my travels, is the biggest concern to local educators. Over the 
last decade plus, special education costs have soared in 
America, usurping upon the regular portion of the education 
budget in local schools.
    We believe that these amendments will do a much better job 
of controlling the cost of Federal education while hopefully 
increasing the Federal tax payer commitment to special 
education. We hope over time we might come close to the 
original promise of 40 percent funding for special education as 
promised back in the original act in 1975.
    I would like to touch on some other points quickly. One is 
charter schools. Charter schools, of course, is a form of 
public school choice. They are innovative public schools 
without the traditional red tape, an experiment, if you will, 
in decentralization and deregulation in public education. 
Charter schools are held accountable for results, including 
improved academic achievement, and, as you probably know, Mr. 
Chairman, the President in his budget proposal, in part of his 
national crusade for education has proposed a doubling, a 100 
percent increase in Federal taxpayer funding for the start-up 
of charter schools through the Federal Charter Schools Program.
    Now, we are looking at that proposal in the authorizing 
subcommittee. We have conducted hearings over the past 4 months 
and have discovered a variety of issues concerning the Federal 
Charter Schools Program that I believe need to be examined more 
closely before another large funding increase is provided to 
this program. Therefore, Mr. Chairman, I am recommending that 
any funding increase you might consider for the Federal charter 
schools program be contingent on enactment of additional 
authorizing legislation, again, beginning in the subcommittee 
that I chair.
    Next, I would like to briefly mention Impact Aid, which is 
a very important program to you, Mr. Chairman, and to your 
congressional district. As you know, the President has proposed 
cutting Impact Aid by almost 10 percent. The administration has 
proposed additional reductions to school districts most heavily 
impacted by a Federal presence and which rely the most on 
Impact Aid dollars.
    I oppose the administration's proposed cuts to the Impact 
Aid Program because it does not reflect the true value of 
Federal property in affected school districts and because the 
children of military personnel could be adversely affected by 
the President's proposed changes. Therefore, I would hope that 
you will not accept the administration's proposed cuts to the 
Impact Aid Program.
    Head Start I would like to mention, and I am personally a 
very strong proponent of early childhood education. As you may 
recall, I strived to defend and increase Head Start funding in 
this subcommittee in the last Congress, and this is another 
program, Mr. Chairman, that is up for reauthorization in my 
subcommittee in this Congress.
    During the reauthorization process, we are going to focus 
on improving the academic component of the Head Start Program 
and examining ways to ensure that the gains children receive as 
a result of their participation in the Head Start Program are 
sustained throughout their elementary and secondary education. 
Therefore, again, I recommend at least level funding for the 
Head Start Program while we continue to work through these 
issues and make significant program changes.
    I recognize that the administration has proposed a 
significant increase in this account and the bipartisan plan to 
balance the Federal budget recognizing Head Start as a domestic 
spending priority, but I encourage you to carefully evaluate 
the benefits that will accrue for children as a result of 
increased funding and consider perhaps level funding for that 
program in the coming year to give us time to consider the 
reauthorization legislation.
    One other area is vocational education. I anticipate that 
in the next few weeks we will move legislation reauthorizing 
the Carl D. Perkins Applied Technology Act. It is my personal 
belief that while the debate in Washington seems to focus more 
and more on higher education, and particularly the 13th and 
14th years of education, we must do more in the area of 
expanded vocational and technical education opportunities for 
the 75 percent of our young people who are not college bound or 
who will not complete college.
    Our legislation will build on successful State and local 
initiatives and give States, local communities, and parents 
maximum control over funding decisions. I intend to keep your 
subcommittee informed as this legislation moves forward. I 
would hope there would be a possibility down the road we could 
increase funding for vocational education and technical 
education combined with strong academics.
    One other thing I would like to mention is education 
technology, because that goes hand in hand with our hearings on 
the reauthorization of the Carl Perkins Act. We are aware that 
there is a huge need, really, across the country for technology 
assistance in local schools. That need ranges from hardware and 
software to wiring and connectivity issues. Even the most 
affluent school districts still appear to be behind the curve, 
so to speak, in terms of keeping pace with improvements and 
changes or advancements in technology.
    I am also aware that your subcommittee, Mr. Chairman, 
provided $200 million to the never before funded Technology 
Literacy Challenge Fund last year and the President has 
requested a 112 percent increase for the program next year. I 
also understand again, like Head Start and Literary 
Initiatives, education technology has been made a protected 
discretionary priority under the bipartisan agreement.
    I recommend, Mr. Chairman, that a larger portion of the 
funding increase for education and technology be given to the 
Technology Innovation Challenge Grants program rather than the 
Technology Fund. I say this because the Challenge Grants 
require that the grant recipients bring a wide variety of 
community resources, including businesses as well as the local 
school district, together in a coalition, a consortium, to meet 
local education technology needs.
    I want to associate myself with the remarks of Chairman 
Goodling with regard to initiatives outlined in thebipartisan 
budget agreement. As I probably stated, Mr. Chairman, we do intend to 
put together our own competing literacy proposal.
    I agree with Chairman Goodling that we can work closely to 
ensure that additional funding for literacy activities be 
focused on what we know works and, to the extent possible, 
through existing programs. I believe this can be done by 
looking at ways to enhance classroom instruction and literacy 
programs such as Title I, bilingual education, Head Start, and 
Even Start, all of which fall under the joint jurisdiction of 
our committees, as well as the teacher training programs.
    I might add, Mr. Chairman, that in all of the legislation 
we contemplate over the next 2 years, we are going to be 
shifting the focus with respect to the teaching profession from 
teacher education in colleges and universities to more 
professional development and in service training.
    There is one other thing of personal concern to me and to 
the State of California; that is bilingual education. The 
administration has proposed an increase for instructional 
services to assist school districts in meeting the needs of 
limited English proficient students. This is another area in 
which I ask you to seriously consider the administration's 
request for increased funding.
    However, I do have concern that the Department of Education 
supports one type of instruction rather than giving local 
schools the ability to determine the best and most effective 
methods to teach children who speak English as a second 
language or are limited in their English proficiency.
    Mr. Chairman, that concludes my testimony today. I would be 
happy to answer any questions you may have. I look forward to 
working with you and the members of the subcommittee as the 
appropriations process continues.
    [The prepared statement of Congressman Frank Riggs 
follows:]

[Pages 2210 - 2215--The official Committee record contains additional material here.]


    Mr. Porter. Thank you very much.
    Does any member of the subcommittee have questions?
    Thank you very much. We will certainly try to do our best 
to follow the authorizing committee's recommendations.
    Mr. Riggs. Thank you.
    Mr. Porter. Thank you for coming today.

                              ----------                              

                                             Tuesday, June 3, 1997.

                               WITNESSES

HON. STEVEN ROTHMAN, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF NEW 
    JERSEY
ARTHUR ROTHMAN, M.D.

    Mr. Porter. Congressman Steve Rothman of New Jersey, 
accompanied by Dr. Arthur Rothman.
    Mr. Rothman of New Jersey. With your indulgence, Mr. 
Chairman, we are going to set up some easels.
    Mr. Chairman, first let me introduce myself. My name is 
Steve Rothman. I am a freshman from New Jersey. Thank you very 
much, Mr. Chairman, for all of your kindness and cooperation 
and consideration in rescheduling this and allowing us to 
provide 10 minutes on this very, very important subject.
    I want to thank my fellow Members of Congress for being 
here during your busy day. I know all of the devotion you have 
to this subcommittee and your work in Congress.
    With me here is not just my brother, but we represent more 
than 400,000 families in the United States. We also have some 
30 or 40 individuals, parents and their children with autism, 
some children in the hall who are making too much commotion and 
we decided not to bring them in rather than distract from the 
work of the committee.
    I urge your support for desperately needed funds.
    This is my twin brother, Dr. Arthur Rothman, who is a 
neurologist in New Jersey. If you remember anything about this 
disease, maybe you will see this was the disease that affected 
the Congressman's twin brother, not just my family but 400,000 
families in the United States.
    Without objection, if my statement can be submitted into 
the record in its entirety, I will give the vast majority of my 
time to my brother. Please allow me to introduce him so he can 
tell you more about autism.
    Dr. Arthur Rothman. Mr. Chairman, Members of Congress, let 
me tell you who I am. My name is Arthur Rothman, and I am a 
physician, a neurologist. I have worked hard in my professional 
life to understand and treat neurological disorders. I have 
seen and intimately know the horrible disorders of the brain 
from which mankind suffers. I have 9 minutes to tell you about 
one of them, autism, which is the most profound, most 
devastating, and most terrible disorders of the brain I have 
ever known; 9 minutes to remind you what autism is and to ask 
you to help the almost one-half million children and adults who 
suffer from this disorder.
    The experts say these children are born with a, quote, 
marked abnormality in social interaction and communication, 
have restricted, repetitive, and stereotyped patterns of 
behavior, interests, and activities. I can tell you that it 
renders those afflicted with an inability to understand or 
organize the world, a blindness to the meaning of things, 
people, events, and relationships.
    To put it simply, those with autism lack the essential 
gifts or qualities that define what it is to be human. They are 
strange, bizarre, and wonderful children who do not know how to 
play with toys; they do not know the purpose of language; they 
do not understand a gesture or a nod. Perhaps 5 percent of 
those afflicted will escape from their inner world to the real 
world outside, and while still oblivious to normal human 
interaction, they will be able to pass for normal. These 
children deserve your attention.
    I have listed on the first chart four childhood disorders 
of which you might be aware and the number of children affected 
in the United States. The second chart graphs the amount of 
money funded by the NIH per child in 1996 for research on these 
disorders. I do not know how to discuss these numbers without 
appearing to exaggerate the situation. The facts exaggerate 
themselves.
    While the number of children with autism in the United 
States is over 10 times that of cystic fibrosis and Duchenne 
muscular dystrophy combined, it receives less than 1 percent of 
the funds these disorders received. While the number of cases 
of autism in the United States is over 100 times that of 
pediatric AIDS, it receives less than 1 percent of that 
disorder as well. While the NIH spends over 1, 2, or 5 thousand 
dollars per child on these disorders, it allocates only $31.88 
per child for autism. These facts are unbelievable, 
incomprehensible. They inspire disbelief.
    Let me tell you who I am. I am the father of an autistic 
son. His name is Jack, and he just turned 6 years old. He is a 
beautiful and healthy boy. Since the age of 2, for 50 hours per 
week, he has had one-on-one teaching to help him grow up in our 
world and has had a constant companion to help him navigate, 
and now, at the age of 6, he still does not know more than a 
dozen words. He can answer questions only if both the question 
and answer are taught specifically to him, because he does not 
know what a question is. He cannot read or write, does not know 
what a person is or what I am to him. He cannot tell me when he 
is sad, tired, or needs comfort. He cannot love, hate, envy, or 
pity, although there are times I believe he experiences joy. He 
has lived his entire life in his own world. The outer world is 
a mystery to him, as he is to us. I cannot tell you what is 
missing; it is just everything. He has had profound effects on 
myself, my wife, and my other two sons, Ben and Sam, and they 
will necessarily be transformed and scarred by their gentle 
brother.
    Jack is part of an invisible population comprising almost 
one-half million people, most of whom are institutionalized or 
cared for by others. These are the children we turn our heads 
away from when we see them walking down the street or shopping 
in the grocery store. The strange boy grunting and flapping his 
arms grows up to be the odd and creepy man jumping up and down 
and smiling vacantly. We walk by these people, thank God our 
children are healthy and safe, and then we forget them.
    This is a quiet epidemic. We do not have ribbons or 
marches; we do not have telethons because no one would call. 
You have never heard of us. What we parents have is each other 
and hopefully you. We need your help; we need your efforts; we 
need your money. We need your money. We need your money to help 
us find a key that may unlock these children's hearts, their 
minds, and their souls.
    Let me tell you who I am. I am the twin brother of Steven 
Rothman, Congressman and representative of the Ninth 
Congressional District of New Jersey, and today I have a small 
voice, a 9-minute voice, to tell you that while all causes to 
raise funds for children are just causes, ours is the most 
desperate. While all of these disorders impact horribly on 
those they afflict, none so totally devastate or annihilate a 
human being, as does autism.
    Simply, there is no one that knows anything concrete about 
autism, what causes it, where it comes from; there are not even 
any good guesses. There is no one who has a definitive 
treatment for it, although there is promising work in something 
called applied behavioral analysis. Please review these charts 
and ask yourself, is this justice? Does this make sense?
    Make no mistake, every autistic child becomes an autistic 
adult, almost all of whom require continued, lifetime support. 
Over $20 billion is spent per year to care for those whom the 
Government feels $31.88 is appropriate.
    I am here today as a scientist, physician, father, and 
citizen who sees the neglected suffering of millions of people. 
However, I am also a realist. Today, I will not ask you for the 
same funding and research as these disorders. While there are 
more Americans with autism than with all of those other 
disorders combined, I will ask for only one-tenth, or 10 
percent, of their funding, $270 million.
    This would then raise the level of funding to $714 per 
child, still considerably less than the others. I ask you what 
other disease can destroy a human being so completely? What 
problem places a bigger financial burden on the country? What 
need is more pressing? What children suffer more?
    I will tell you a secret. It is indeed a terrible, horrible 
secret, a secret you may not believe or understand. In the 
night when I cannot sleep, when I am able to, I pray. I do not 
ask God for Jack to be a normal whole child anymore. That would 
be too much to ask. Instead, I ask and I pray and I wish that 
somehow if it were possible, he could have any other childhood 
disease, any other one, because maybe if only for a week, or a 
day, an hour or just a moment, he would be human, he would be 
alive, and he would laugh when he was happy, cry when he was 
sad, and I could hold him, stroke his beautiful hair and tell 
him I loved him, and he could understand me, look into my eyes, 
and tell me he loved me, too.
    Thank you very much.
    Mr. Porter. Dr. Rothman, thank you very much for your 
articulate and poignant testimony about this terrible disease. 
We obviously do not work in a vacuum here. We see the ravages 
of many diseases, and they are brought to us graphically and in 
many cases personally.
    The premise of your testimony, however, is that we sit here 
and fund by disease. We do not do that. We do not believe that 
funding for biomedical research should be decided politically. 
That would mean because autism affects relatively few, it would 
probably be even in a worse position because there would be 
more on other diseases to say that their demand on our 
resources is greater because there are greater numbers.
    We believe that you have to fund, as we do, by institute, 
and that the science that is available has to determine where 
are the best opportunities for the expenditure of that money.
    I know that you are aware that all scientific research 
funded by the National Institutes of Health is done on a peer-
rated competitive basis. What promise does this science have? 
What possibilities are there that it will lead to a result that 
is being sought? How many are proposing good science that can 
be funded in this area?
    While all of us have very, very deep feelings about 
priorities and we express them very strongly in the report 
accompanying the bill, and we will have very strong language on 
autism. Here we have had tremendous testimony not only this 
year, but last year as well, coming from parents like yourself, 
and that language will be read and listened to at NIH very 
strongly because we do not fund by disease. We can not sit here 
and guarantee you there will be more money in autism research 
next year than there was previously.
    I think we can guarantee that it will depend a great deal 
upon scientific opportunity and the proposals that are 
presented to the panels for their review as to whether that 
science has possibilities or not.
    What is important to us is that we provide increased 
amounts for biomedical research generally. And I have to tell 
you that, and I will tell Steve this because he is a member of 
the President's party and I was not, that I was terribly 
disappointed after all of the things that the President said, 
including coming to my own district in the middle of a speech 
on education talking about the importance of biomedical 
research, to see a budget that provided less than an inflation 
increase for all of NIH.
    I do not think that is honest. I do not think it is a 
correct priority for our country, and I can assure you that I 
am going to do everything in my power, and I know Mr. Hoyer is 
going to do everything in his power, and Mr. Miller, and I can 
not yet speak for Mrs. Northup, because I am not sure, but I 
know for many of the members of this subcommittee this is a 
tremendously high priority and we want to do everything we 
possibly can to provide the kinds of resources that will unlock 
the keys so that children like yours and so many others will 
not have to suffer from this terrible disease in the future.
    Members of the subcommittee, Mr. Hoyer?
    Mr. Hoyer. Doctor, first of all, you can be very proud of 
your brother. He does an outstanding job here. He is a terrific 
fellow to be a twin of.
    Secondly, as the father of three daughters and two 
grandchildren who, thankfully, have been healthy all of their 
lives, as a parent, I can empathize the pain you feel.
    Why do you suppose as a science that the disparity in, as I 
understand now your computation, is we spend approximately $12 
billion on the----
    Dr. Arthur Rothman. 12.05, yes.
    Mr. Hoyer. 12.09, but I round it up.
    Dr. Arthur Rothman. Those are the figures I got from 
Congress, from the NIH.
    Mr. Hoyer. You are asking for an increase of approximately 
$260 million.
    Dr. Arthur Rothman. Approximately.
    Mr. Hoyer. I accept your figures, 378,000 people in America 
suffer from autism, and your premise is that it costs us $20 
billion for the adult autistic as well as the child autistic, 
generally.
    Dr. Arthur Rothman. Right.
    Mr. Hoyer. Why do you suppose it is for a disease, muscular 
dystrophy, and you mentioned, with I think a bit of irony and a 
bit of bitterness, understandable, that we have a major Jerry 
Lewis telethon, major effort, muscular dystrophy, relatively 
few to the 378,000 there are, 10,000, is that what you project 
on this chart?
    Dr. Arthur Rothman. Yes, about 10,000.
    Mr. Hoyer. Children who suffer from MD. Why do you suppose 
there is that disparity? Chairman Porter correctly observed we 
try not to fund politically. We try, obviously, to leave that 
to the scientific community as to where there is an expectation 
of results of investment, to put our investment. Where there is 
none, it is not to put money there. I think you would support 
that as a scientist. But why do you think there is this 
disparity? What has gone wrong for us?
    Dr. Arthur Rothman. Sure. The first thing is there is a 
little problem with the cart and horse when we are talking 
about the scientists make proposals and then from those 
proposals, we decide what we should do as a country, and that 
certainly sounds appropriate. As a scientist and someone who 
has done research for the government in a way, I used to be a 
physicist. I can say that we made proposals based on the funds 
that were given. So if a large amount of money was allocated 
for disease X, I would be writing proposals for disease X. If 
it were for disease Y, I would write for that.
    Mr. Hoyer. I understand. What I am trying to get at isin a 
rational community, and I think we are rational, I think generally we 
do make good decisions, but your proposition is we have 10,000 folks 
over here who suffer from a disease; we have 378,000 who suffer from a 
disease. In some respects, autism is much more costly, in some 
respects.
    In others, we need not make the comparison. I am at a loss, 
I understand what you are saying. Why do not we spend more 
money there? Is it that there is no, the scientific community 
does not believe that investment will make a difference in 
autism?
    Dr. Arthur Rothman. No. First of all, autism has really 
only been diagnosed possibly in the past 30 years, maybe 
seriously in the past 10 years, so it is something that has 
been fairly recently recognized. We used to just say these kids 
are retarded, they are psychotic, and they used to immediately 
go into an institution. On the order of 75 percent end up in 
institutions by the age of 13 as it is right now. So why not 
more funding?
    Well, again I think it is a combination of we have just 
been able to recognize that this is a disorder, a distinct 
disorder. The characteristics of it as well as, I hate to go 
back to what I said before, science is self-perpetuating. If 
there is no money that goes into a disorder, no people are 
going to graduate school to learn about it, and et cetera. It 
just goes down the line. It is self-perpetuating. So what we 
need to do is inject a certain amount of money.
    I hate to put it so bluntly, to attract research grants, 
which attracts graduate students and students.
    Mr. Hoyer. Doctor, I am taking more time and I apologize, 
let me ask you the question this way: What prospects are there 
to ameliorate, prevent, or cure----
    Dr. Arthur Rothman. Good question.
    Mr. Hoyer. The disease, the condition. It is not a disease.
    Dr. Arthur Rothman. Not only myself, but there is no one in 
the country or world who can give you that answer. No one knows 
anything about autism, literally.
    Mr. Hoyer. Thank you, doctor.
    Mr. Porter. Thank you, Mr. Hoyer.
    Mr. Miller.
    Mr. Miller. Let me make a brief comment. Very powerful 
testimony. Thank you for coming and bringing it to our 
attention. My comment is the great frustration this committee 
has and I think the Chairman made that comment, is that the 
President only requested a 2.6 percent increase. This 
committee, Democrat and Republican, will support a larger 
increase. We have to fund IDEA programs, which I think would be 
an important program for children with autism, too. We fund the 
Head Start programs. We have some difficult choices here and if 
we increase biomedical research, which this committee will do, 
Democrats and Republicans, it is going to make it harder. We 
need to encourage the President to support even more money in 
this area.
    I was just pointing out our Republican leadership and the 
President did not make it one of the priority programs in the 
budget we recently passed. Since we are running short of time, 
I will not ask any questions. Thank you for coming.
    Mrs. Northup. Since the Chairman could not speak for me, I 
will speak for me. I am very supportive of NIH funding. I am 
proud last year when I was not here, but in the Kentucky 
general assembly, we did appropriate money for a research 
facility for this challenge that we face. I am hopeful that 
that opportunity and others around the country will maybe 
generate to the NIH real serious grant opportunities that would 
advance the research in this field.
    Mr. Rothman of New Jersey. Just one brief remark, this is a 
mystery. We are almost at the start of the 21st Century, and 
yet this disease is a total mystery to the brightest, smartest, 
most dedicated researchers in the world. What better way to 
open up the human mind and understanding of what it means to be 
a human being than to start to address the extraordinary unfair 
neglect and disparity in funding, to start to address it, would 
not only provide research into this disease, but in the whole 
scope of what it means to be a human being and perhaps relieve 
the $20 billion burden on the Nation and the burden on 348,000 
people.
    Mr. Porter. Representative Rothman, thank you. If I can say 
this, we would be happy to work with you to provide language 
for the report indicating the nature of the priority involved 
here.
    Mr. Rothman of New Jersey. Thank you very much.
    Mr. Porter. The disparity, and to send NIH a very strong 
message that we believe that it is receiving too little 
funding.
    Mr. Rothman of New Jersey. Again, on behalf of all of the 
people in the country who are affected by autism, I want to 
thank you again for your kindness and consideration throughout 
this whole matter.
    Mr. Porter. The other side of this is that this research 
will be found in several institutes, not just in one, and that 
maybe, perhaps, without knowing, the most important component 
will be in the new Institute on Human Genome Research, because 
perhaps there is a genetic basis to this disease that can be 
discovered through the genome project. We do not know. In any 
case, we certainly agree with you that it is a very, very high 
priority, and we will work with you to provide the right 
language in the bill and send the message we all want to send.
    Mr. Rothman of New Jersey. Thank you so much.
    [The prepared statement of Congressman Steven Rothman and 
Arthur Rothman, M.D., follows:]

[Pages 2223 - 2229--The official Committee record contains additional material here.]


                                             Tuesday, June 3, 1997.

                                WITNESS

HON. JIM BUNNING, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    KENTUCKY
    Mr. Porter. Our colleague, Jim Bunning, has been waiting a 
long time very patiently. You are up. Congressman Jim Bunning 
of Kentucky, the Chairman of the Social Security Subcommittee 
of Ways and Means, but I am not certain this is what you are 
testifying on.
    Mr. Bunning. It is.
    Mr. Porter. Jim, welcome.
    Mr. Bunning. Chairman Porter, members of the subcommittee, 
I appreciate the opportunity to testify before you today. As 
many of you know, last July, the House of Representatives voted 
overwhelmingly, 421 to 3, to amend the Labor-HHS appropriation 
bill to bar Social Security and Medicare Trust Funds from being 
used to fund union activity.
    Unfortunately, the Senate did not agree with the House and 
no action was taken. I continue to strongly believe that the 
Social Security and Medicare Trust Funds should be used for 
their intended purposes only, retirement, survivors, 
disability, and medicare benefits; not for union salaries and 
activities. I also believe these runaway union expenses must be 
stopped.
    This year, my request is very simple and straightforward: I 
ask your subcommittee, through its appropriation for the Social 
Security Administration, to protect the Social Security and 
Medicare Trust Funds from paying for union activity at SSA and 
to cap general revenue that are spent.
    In July of 1995, I called on the GAO to audit the use of 
taxpayers' money to pay the salaries and support services for 
SSA employees who fully worked on union activities. My request 
for the GAO audit resulted from discussions that began early in 
1995 with frontline SSA field office managers from all over the 
country. These managers sought me out because they were deeply 
concerned about the negative impact President Clinton's 
partnership initiative was having on SSA.
    This 1993 executive order made the unions full equal 
partners with management in the operation of SSA. Many field 
managers and employees believe that all balance between 
management and unions has been lost at SSA, and that union 
activity has escalated to the point that workloads in public 
service are suffering. In short, under the partnership, no one 
is looking out for the interests of the taxpayers and 
beneficiaries.
    Taxpayers' finance spending for union activity at SSA has 
doubled in 3 years from $6 million in 1993 to $12.6 million in 
1995. This represents a 110 percent increase, while the overall 
size of SSA and its work force has increased by a mere 1 
percent over the same period of time.
    The General Accounting Office found that 146 people at SSA 
worked full-time on union activities even though they draw 
their salaries from the taxpayers' funded trust funds. Their 
salaries average $42,000 a year. Another 1,800 SSA employees do 
union work part-time.
    I have asked the SSA Office of Inspector General to conduct 
a thorough audit of taxpayers financed union activities at SSA 
as a follow-up to the work done by the GAO.
    Last year, then Commissioner Shirley Chater testified 
before the Social Security Subcommittee that spending for union 
activity between now and the year 2000 would remain about the 
same. However, Acting Commissioner Callahan recently informed 
your subcommittee that taxpayer-funded expenses for union 
activity in fiscal year 1996 were $14.7 million. This 
represents a 17 percent increase in the prior year, and a 145 
percent increase since 1993.
    This is not how the Social Security Trust Fund should be 
used. I am certain seniors and taxpayers would agree, SSA and 
the union must be held accountable for these rising costs.
    I urge you to take immediate action through the SSA 
appropriation. I have attached to this statement a copy of my 
letter to Chairman Porter, which includes suggestive 
legislative language for your consideration. I look forward to 
working with each and every one of you regarding this important 
issue. I will be glad to answer any questions that you might 
have.
    [The prepared statement of Congressman Jim Bunning 
follows:]

[Pages 2232 - 2236--The official Committee record contains additional material here.]


    Mr. Porter. Jim, we agree with you, at least those of us on 
this side of the aisle agree with you, that this is a very 
serious matter. When you say legislative language, is it a 
limitation of funds?
    Mr. Bunning. It is.
    Mr. Porter. So that it would not be subject to a point of 
order?
    Mr. Bunning. It would not exceed the amount of money that 
they had in their trust fund appropriations last year, but it 
would be general fund money limited to $14.7 million.
    Mr. Porter. Is it similar language to the amendment that 
you passed on the House Floor?
    Mr. Bunning. It is very similar, yes.
    Mr. Porter. I am told that Mr. Miller would probably be 
offering such language in our markup if it is not in fact in my 
mark, so I think you can be assured that the issue will be 
taken up by the subcommittee.
    Mr. Bunning. I appreciate that very much, Mr. Chairman.
    Mr. Porter. Mr. Hoyer.
    Mr. Hoyer. Jim, let me ask you a question. Do you believe 
that, because I want to understand where we are differing, 
obviously, on this issue.
    Mr. Bunning. We did on the Floor, I believe.
    Mr. Hoyer. Actually, no, I am not sure we did not all 
support it on the theory that was better than what might be the 
alternative. That is why it got 410 votes. If we suggested to 
our folks on their side that they not be subject to a 30-second 
ad that said they were taking your trust funds to pay union 
people. All of our guys were, I think, smart enough to do that. 
But that aside, which was just political maneuvering, 
substantively, would I be correct that basically you do not 
believe that taxpayer funds ought to be used for paying the 
salaries or expenses of----
    Mr. Bunning. No, that is not my belief. My belief is that 
trust fund money out of Medicare and Social Security Trust 
Funds should not be used. This is the only instance in the 
Federal Government where they are used.
    Mr. Hoyer. That is important. The Civil Service Act of 1978 
that allows taxpayer money, that is appropriated funds, to be 
spent for that purpose, you are not opposed to it in principle. 
We may argue about the level.
    Mr. Bunning. The level and what I am concerned about is the 
escalating use of trust fund money. The only way we can get a 
handle on capping that money is through the appropriation 
process.
    Mr. Hoyer. Okay. Let me understand. I would just ask staff. 
As I understand it, the mix of funding of social security, of 
administrative costs, is $2 billion of general funds and $6 
billion of trust funds.
    Mr. Bunning. It is about one-third.
    Mr. Hoyer. One-third, one-quarter. Is that a total of 8 or 
6? It is 2 out of 6, one-third.
    Mr. Bunning. Yes.
    Mr. Hoyer. Obviously, if you have 2 billion in general 
funds, the $14.7 million, obviously, could be all spent from 
general funds. Your language, and I think what we did on the 
Floor, was said no trust fund money could be spent. I think we 
can all agree with that. You would go further and cap the 
amount? Whether it is from general funds or trust funds?
    Mr. Bunning. Well, it caps it because of the concern of the 
escalating drain on the trust funds. If you want to appropriate 
out of general fund dollars, that should be up to your 
subcommittee for that. I am not going to tell you what you 
should do with your dollars.
    Mr. Hoyer. I understand. Clearly there are $2 billion in 
general funds there. So your extrapolation, I take it, is if 
there is $15 million, for instance, that five would be out of 
general funds and 10 would be out of your--you are applying 
essentially the same----
    Mr. Bunning. That is almost the way they do it, isn't it?
    Mr. Hoyer. I am not sure.
    Mr. Bunning. This subcommittee could stipulate exactly how 
they do it. In other words, if you are going to fund 
Partnership 93 in the Social Security Administration, you can 
say no trust fund money can be used. That is exactly what it 
says. And it is up to the subcommittee to appropriate out of 
general funds for that activity.
    Mr. Hoyer. You are saying your expectation would be we 
would need a line item to specifically----
    Mr. Bunning. I think that is up to you.
    Mr. Hoyer. I understand that. I am asking you what you 
want?
    Mr. Bunning. I think that is the only way you can cap or 
limit the amount spent.
    Mr. Hoyer. Not more than 14.7 of the $2 billion general 
funds can be spent for this.
    Mr. Bunning. That is correct.
    Mr. Hoyer. We may disagree on the cap. We may agree on the 
limitation of the special fund. Frankly, for my purposes, more 
for political purposes, because I think because there is so 
much general fund money there, there is no reason why social 
security employees ought to be treated differently than 
defense.
    Mr. Bunning. I agree with that. I told the union people 
that is exactly my position.
    Mr. Hoyer. I appreciate that. Thank you, sir.
    Mr. Porter. Mr. Miller.
    Mr. Miller. I commend Mr. Bunning for bringing this to our 
attention last year in the legislation, and I intend totry to 
provide this language in there. It is just the tip of the iceberg what 
is happening. In the past 4 years there has been a dramatic increase in 
the time of the Federal Government. There is a letter to the editor in 
the Washington Times this morning that talks about the numbers you 
quoted about the Social Security Administration and the increase of it 
in other agencies.
    GAO has been trying to get a handle on how many hours we 
are talking about. We cannot get that information. It is 
unbelievable how difficult it is. But the recently, the Federal 
Labor Relations Advisory Board, which is equivalent to the 
NLRB, is now saying we can use official time to lobby Congress. 
We are going to pay to lobby Congress.
    Mr. Bunning. I saw that.
    Mr. Miller. I think we need to have some controls, because 
it has been increasing, not just at the Social Security 
Administration, but throughout the Government. We need to know 
how many hours are being used, so we have good records to work 
with. One thing I am going to request is we require 
documentation of how much time is there and put some limits, if 
we can. I do not know if we can do it in appropriations. I am 
glad you brought it up last year. I hope to follow up with this 
this year.
    Mrs. Northup. No questions. I want to welcome my colleague 
from Kentucky. As usual, he has a good idea and I appreciate 
your being here.
    Mr. Bunning. Thank you very much.
    Mr. Porter. Thanks, Jim.
                              ----------                              

                                             Tuesday, June 3, 1997.

                               WITNESSES

HON. JIM NUSSLE, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF IOWA
HON. GLENN POSHARD, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    ILLINOIS
    Mr. Porter. Another colleague from the Ways and Means 
Committee, Congressman Jim Nussle, also the Budget Committee. 
This was supposed to be a panel with Glenn Poshard on Rural 
Health Care Coalition. Being a Member from Illinois and 
recognizing that Congressman Poshard is running for Governor, I 
suspect he is not back yet from the weekend. Why don't you 
proceed. We will move him in if he arrives later.
    Mr. Nussle. I think that is the case, Mr. Chairman. I 
appreciate you allowing me to proceed. I think, by and large, I 
can cover some of the topics that he was going to cover. Glen 
and I are the cochairmen this year of the Bipartisan Rural 
Health Care Coalition, which a number of the members of this 
subcommittee are participants in, and I want to start with 
that, first to you, Mr. Chairman, and to the others of the 
committee, to thank them for their past support of many 
initiatives which have helped us significantly in rural areas 
as we try and battle the availability of primary care, as well 
as quality issues that continue to arise.
    We, this year, have put as a top priority in the Rural 
Health Care Coalition trying to even the playing field a little 
bit with our suburban and city colleagues, who, as the Chairman 
is well aware of, and others of the committee, have for 
historical reasons received a differing payment structure than 
rural areas have received. For instance, for the AAPPC, which 
is under the Medicare program.
    As part of that, I know this subcommittee has reached out 
in many different times and ways to assist in rural areas, to 
provide grants for different projects, and to provide for 
different incentives. I want to thank you for that support.
    I also, as you mention, come as a Budget Committee Chair, 
not Chair, but Member, and understand the spending constraints 
and share the concern about the budget and know that these 
times are tough. While I come requesting changes, I recognize 
the enormous pressure that all the committees are on as we make 
those kinds of changes. I recognize that as I begin.
    We had sent a letter to you, Mr. Chairman, on May 15th, 
which outlined some of the requests that we have involving 
National Health Service Corps, the rural health research 
grants, the rural health outreach network development and 
telemedicine grants, general grants that provide for incentives 
for health professionals. If I could just summarize, one of the 
things that we are concerned about in the community rural 
health network grants is that we need some more flexibility 
because current grant programs do not seem to provide the 
flexibility to provide resources for technical or developmental 
assistance necessary to develop networks in rural areas.
    What I mean by that, as you know, one of the visions Ithink 
that everyone shares as part of health care delivery is that we allow 
for more networking, particularly in rural areas. Anything that we can 
do in this area to provide for more flexibility so that that money can 
be used for technical and developmental assistance would be 
appreciated.
    As far as the second issue is incentives for practicing 
medicine in rural areas. As you know, there have been many 
people that over the course of time have tried different ways 
to provide incentives to health care professionals, primarily 
the primary care physicians, et cetera, to practice in rural 
areas.
    We would like to try and assist in this area again this 
year. One of the things that we are concerned about is the 
definitions that are used for the health professional shortage 
areas and in the medically underserved areas. That definition 
has not been updated since 1982. There has been a lot of 
criticism or concern that some of the money has been going to 
suburbs because they have technically met the definitions, and 
yet that is not substantially what the program was identified 
to try and solve.
    One of the things that we are requesting as part of your 
mark is that we update that definition, that we ask the 
Secretary of Health and Human Services to conduct a study and 
provide us with some assistance on what that definition should 
be and report back within 6 months. That is our suggestion. We 
would be glad to work with you on that. We think certainly the 
program has worked well, but anything we can do to help with 
that definition would be helpful to us.
    Just as a side note, I read with quite a bit of disgust, I 
am sure if you are from New York you may have a different 
perspective, but the article, and I think I have passed it out 
to the subcommittee members, about this has been back a few 
months ago where HCFA announced that during the next 6 years 
they would be paying New York State hospitals not to train 
physicians. This plan, of course, required no congressional 
action.
    This concerns me. They pan it in the press as being similar 
to, as the Chairman knows, coming from a good corn State, as do 
I, that this is similar to what we try to do with farmers 
during the last few decades, trying to get them not to plant 
corn. It concerns me that part of our program, particularly 
when you look from a rural perspective, needing physicians and 
health care professionals, to see any area of the country 
receiving money not to train, says to me that maybe some change 
in priority to shift around to some of those incentives grants 
may be part of it.
    Finally, before I turn it over to my friend and colleague, 
let me just touch on antitrust relief, which, of course, is a 
shared jurisdictional area. We were hoping that possibly a 
sense of Congress' portion of the mark could be added, which 
goes hand-in-hand with the whole issue of networking. It also 
goes hand-in-hand with the concern about a number of hospitals 
and other health care systems which have been prevented from 
merging or from sharing information or from working together 
because of the Department of Justice and a very long and 
antiquated system form of antitrust which does not necessarily 
take into consideration the concerns and pressures of rural 
areas and their need.
    If we are going to try and cut down on costs of sharing 
information and working together, not in an effort to, you 
know, game the system and to raise costs, but in an effort to 
try and not have 16 different locations doing the exact same 
thing when two or three could do it as well, if, in fact, they 
were able to share information and partner a little bit better.
    That is the thrust, other than the letter we provided, 
which is a little bit more specific. It is just a concern we 
have that it is a thank you on the one hand for all of your 
past efforts, and just to kind of come and to tickle the system 
and remind you we are still out here and very concerned about 
the future of rural health care.
    With that, I am glad to be joined by my friend and 
colleague. I will let him give the other perspective or rest of 
the perspective.
    Mr. Porter. We are delighted to see you, Glenn. Why don't 
you proceed?
    Mr. Poshard. Thank you, Mr. Chairman. The plane just 
happened to get in a little late. I do appreciate having us 
here, and I know my colleague and cochairman has articulated 
well the parts of the bill about which we are concerned.
    I guess, Mr. Chairman, I know members of the committee have 
a copy of my entire testimony, and I ask unanimous consent to 
have that accepted. I will just make a few brief comments.
    Mr. Chairman, you know about the great debate which our 
State legislature has just gone through in the State of 
Illinois wherein a third of the children of our State have 
about 12 to $15,000 a year spent on their education, and the 
remaining children average about $2,800 a year spent on their 
education.
    The most prolific debate in our legislature this year has 
been about that disparity and what that has brought about all 
over our State for all of our children.
    The very same disparity exists in health care for our 
people throughout the State. I think we have all accepted the 
notion at this point in time that we are not going to have any 
massive overhauling of the health care delivery system in this 
country, but one of the things that I think most of us here 
have embraced is that managed care is the wave of the future if 
we are going to deliver health care in a more cost-efficient 
way.
    It makes no sense to me as a simple matter of justice that 
managed care opportunities in a large urban area like Chicago, 
for instance, can treat a medicare patient and receive two-
thirds as much gain as the same patient being treated in the 
same way for medicare benefits in down State rural Illinois.
    We do not get managed care in the rural areas because the 
medicare reimbursement rates, the AACCP, is so low. Why would 
people bring managed care to a rural area if they can locate 
200 miles away in an urban area and get paid twice as much for 
the very same procedure on the same person? It does not make 
sense and it is prohibitive for us. That is what happened all 
over the country because of the way the formula is put 
together.
    We are asking you folks to begin to close that disparity 
gap. That is the major thrust of our bill. If we are going to 
bring any kind of parity to the rural areas of this country and 
encourage managed care to locate there.
    Jim has talked about our inability to get doctors into the 
rural areas. I think all of the district which I currently 
serve is, for Federal definitions, at least medically 
underserved by definition. Now, we need more doctors. Doctors 
do not want to locate in rural areas,because generally they are 
the only doctor in town. They do not have peer review. They have 
responsibilities 24 hours a day, 7 days a week. No one relieves them.
    We do not have enough nurse practitioners, physicians' 
assistants, people who can go out and locate in towns of 3,000 
to 4,000 people where doctors will not go. Obviously, we need 
help in doing that and our bill addresses a portion of that.
    Jim referenced the antitrust laws. Back at a given time, I 
suppose they were effective, when it was possible that one or 
two people or medicare delivery systems could dominate a rural 
area. That is not true today. We need some of those laws struck 
down so our people can cooperate and share resources, share 
technology, share specialists.
    Every rural hospital cannot have an MRI; it is impossible. 
We can certainly share them. There are many things that we can 
do to make medical care not just more accessible, but more 
affordable in the rural areas. But changing that AAPCC is 
really important to us.
    With that, I will conclude my remarks, except to say as an 
aside, and this has nothing to do with my testimony on this 
issue, to the extent that you folks can help us with those 
black lung clinics this year, help us out, Mr. Chairman. We 
really have a lot of folks that depend on those tremendously.
    [The prepared statement of Congressman Glenn Poshard 
follows:]

[Pages 2243 - 2244--The official Committee record contains additional material here.]


    Mr. Porter. Let me thank both of you for your testimony. On 
the definition question, my own feeling on this is that why 
don't we simply interface with the authorizing committee and 
get them to give us a new definition, rather than have the 
matter studied, if they are willing to do that, and then we 
will put it in our bill, if they permit us to do it. We will 
get from where we are to where we want to go in one step rather 
than two.
    I just had occasion earlier this year, and this was not in 
a rural area, but in an inner-city area, to see the work of the 
National Health Service Corps and to see the connection for 
telemedicine purposes, and I believe that these programs, both 
these programs, would help a great deal in rural areas. That is 
something that we can definitely provide support for.
    We cannot do anything about the allocations of medicare 
funding between rural areas and urban areas, because that is an 
entitlement program and it is determined by law and not by 
appropriations. I would say that if I were a physician though, 
that in the future, there might be a great deal of appeal to go 
to rural areas where you can practice medicine without somebody 
looking over your shoulder, exercising your professional 
judgment, which is being lost to physicians in HMO's in the 
inner cities and suburban areas, and that independence and 
ability to use your professional judgment, I think, would be a 
very strong appeal to a lot of people.
    Black lung, Glenn, I have always believed it is a very high 
priority and we have to do our very best to fund that. Let me 
end by saying, I think the antitrust issue, as it affects 
health care in America, really ought to be addressed by this 
Congress, and that, to me, is a place where a great deal of 
progress can be made. I am hearing it, you are saying as a 
Democrat, you think it ought to be addressed, Jim is saying the 
same thing. I do not know why we cannot get some movement on 
it. We do not have jurisdiction, but the authorizing committee 
ought to move legislation.
    Mr. Hoyer.
    Mr. Hoyer. Mr. Chairman, I think the authorizing committee, 
I think your suggestion is a good one, and that Jim, as a 
member of the committee that spends more money than the 
Appropriations Committee, may get that done.
    Mr. Nussle. I knew you were going to throw that out. If I 
could just add to the point that you made about the authorizing 
committee, and part of the reason why we were hoping that the 
administration, through HCFA gets involved in helping us with 
the definition, and we came up with this idea of give us a 
definition, is because oftentimes, as you know, in the past, we 
have gotten together and gotten the definition, regardless of 
the administration in charge.
    There seems to be an interpretive phase that goes on. If we 
can lock them into a definition first or together with us here 
in Congress, we might be better at holding that definition 
long-term. So that is the reason we put it. But we will 
certainly defer to your judgment on that point.
    Mr. Porter. Thank you both very much.
                              ----------                              

                                             Tuesday, June 3, 1997.

                                WITNESS

HON. SUE KELLY, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF NEW YORK
    Mr. Porter. We have been taking Members in order of their 
arrival in the hearing room. Next, would be Representative Sue 
Kelly to testify on Section 8002 of the Impact Aid Program. In 
welcoming Representative Kelly, I noted she is a graduate of 
Denison University. That gets you a lot of extra points here, 
Sue, because I have two children that graduated from Denison.
    Mrs. Kelly. Congratulations. Good for you. Wise choice. I 
thank you very much. I thank you, I thank Mr. Hoyer, and I want 
to thank Ranking Member Obey and everybody else on the 
committee for giving me a chance to testify this morning.
    There is a number of important programs that are under your 
jurisdiction, but I am going to speak to only two specific 
areas that are really of concern to my district. One is Impact 
Aid and the other is funding for Lyme disease research.
    First, I want to thank you for the sensitivity that you 
have shown to the importance of funding the Impact Aid Program, 
because without this program, specifically the Section 8002 
program, the Highland Falls-Fort Montgomery school district in 
Orange County, New York, would not keep its doors open.
    To make up for the loss, the town would be forced to impose 
an enormous property tax increase that would drive away 
homeowners and businesses.
    The fact is the people of this community should not have to 
pay Uncle Sam's tab. The Federal Government promised years ago, 
when it created Impact Aid, that it would reimburse local 
communities impacted by Federal property. They have every 
reason to expect, no, demand, that we honor that promise.
    I want to illustrate here with this map the unique 
situation that we have in my district. The map--I do not know 
if you can see this--as the map illustrates here, everything 
that is in color, everything there, is either West Point or it 
is owned down in here, it is a part of a State park. The only 
thing that is in this town is this little strip right along the 
Hudson River.
    In that strip, these people have no access to public water 
in this whole area because there is none available. They have 
to drive wells. There is no forced water. You can not open a 
fire hydrant, so you cannot build larger buildings to have 
commercial development in that area. We are working on that 
portion of it.
    Over 75 percent of this land is owned by the Federal 
Government. That means that they were promised the support of 
Impact Aid. About 93 percent of the lands within the school 
district are nontaxable. So it is increasingly impossible for 
the school district to raise the revenues necessary to provide 
the children with quality education.
    We have experienced an economic downturn in my region. With 
the downturn, with IBM and General Motors, we lost over 20,000 
jobs just since the 1990's. The Impact Aid Program and 
specifically Section 8002 of the program was created to address 
the situation of the land portion of the school districts that 
are impacted by the Federal Government.
    Congress recognized in 1950, when it passed this original 
Impact Aid Program, that Federal land acquisition significantly 
impacted the local governments' ability to generate revenue for 
the school system, and so to compensate for that, Section 8002 
reimburses the districts for their share of the revenues.
    Unfortunately, Mr. Chairman, the Federal Government has not 
lived up to the promises it made to the communities when it 
collocated within the Federal lands. This declining commitment 
to Impact Aid has put the Highland Falls-Fort Montgomery school 
district in a difficult situation. They have closed the school 
building, they have cut staff, they have delayed procurement of 
needed educational tools such as computers, and believe me, I 
have seen their schoolbooks, and they have maps that do not 
have current maps of many of the countries that you and I 
consider to be normally included in maps because they are using 
books that are, some of them, 15 years old.
    It is all because the Federal Government has been unwilling 
at this point to live up to its commitment to the community. 
They need the funding for education. This has been 
traditionally the function of State and local government, which 
is the way it should be. But when the Federal Government 
curtails the ability of the local government to raise money for 
their schools, as is the case here in Highland Falls, what we 
are faced with is a significant unfunded mandate.
    I am committed to our mutual goal of achieving a balanced 
budget, Mr. Chairman, but as we do so, we cannot lose sight of 
the compassion and we cannot lose sight of the obligations the 
Federal Government made to the Federally impacted school 
districts around our country and to those children. It is not a 
budget issue, it is a fairness issue.
    I join my colleagues in the Impact Aid Coalition in 
requesting $789 million for the Impact Aid Program in the 
fiscal year 1998. This represents a very modest increase over 
the funding of 1997. I would also urge the subcommittee to 
ensure that this increase is spread fairly to ensure that all 
impacted communities, including land impacted communities, 
receive the funding that they deserve.
    Finally, Mr. Chairman, I would like to touch upon the 
importance of funding for Lyme disease research. I speak not 
only as a Member of Congress, but as someone who suffers 
fromLyme disease. This disease has reached record levels in 1996. We 
had 16,000 diagnosed cases and approximately 100,000 unreported cases 
because, quite frankly, many doctors do not even know what they are 
looking at when a patient comes in presenting with Lyme disease 
symptoms.
    I strongly urge the committee to support the CDC and the 
NIH funding at the President's budget levels for $2.3 billion 
and $13.1 billion, respectively. I also ask the committee to 
encourage both agencies to renew their commitment to the 
studying of emerging diseases, such as Lyme disease.
    In Congress, we talk about reducing the cost of health care 
in the country, but we need to realize that the most effective 
way to do so is to invest in medical research and prevention.
    Mr. Chairman, those afflicted with Lyme disease feel 
abandoned. As a resident of one of the most Lyme-afflicted 
areas, I have a responsibility to see that this disease gets 
the attention it deserves so we can stop the suffering and find 
a cure.
    Please help us. Thank you.
    Mr. Porter. Thank you, Sue. I have to say that the 
gentlewoman from New York, when we were forced in 1995 to cut 
$9 billion in discretionary spending, saved the 8002 program at 
that time by forcefully pointing out to us what it was doing to 
her community if it did not exist. You convinced us. 
Unfortunately, you did not convince the President, because he 
zeroed it out in his current budget, a budget that I think is 
not an honest budget in this area.
    You said this was a matter of fairness. I think it is even 
beyond that. I think it is a matter of obligation. I am an 
appropriator and I do not like entitlements, because that means 
we have no oversight over a program. If anything ought to be an 
entitlement, Impact Aid ought to be an entitlement, because it 
is a Federal obligation in the nature of a contract that ought 
to be paid regularly every year at its full value, and not be 
subject to the whims of an appropriations process where it can 
be cut or even zeroed out in the President's budget.
    You can be assured that we will make if a high priority. It 
may be difficult because we may not have sufficient budget 
allocation to do so.
    On Lyme disease, I assume the figures that you gave us, 
$13.1 billion was the President's budget on NIH, and $2.3 
billion may have been a combination of the two institutes where 
funding for Lyme disease is found.
    Mrs. Kelly. Yes.
    Mr. Porter. In any case, I will give you my short sermon; I 
gave a longer one earlier. We do not fund by disease; we fund 
by institute. We leave the judgments of where this money can 
best be spent to science. We do put our opinions in the report 
accompanying the bill and those are considered by NIH and by 
the institutes in what they do in respect to funding in the 
following year.
    We think this is a high priority also, and we think that 
NIH, we had this discussion, I think, before you were in the 
room, but we think NIH is a far higher priority than the 
President's budget puts it at, where he provides a 2.6 percent 
increase, an increase less than the rate of inflation, and we 
think that is unconscionable, very frankly. This is a much 
higher priority and we are going to do our very best to put a 
figure on it that will reflect it as a national priority.
    Mr. Hoyer.
    Mr. Hoyer. Thank you. I do not agree with the Chairman's 
characterization of the President's budget. I may not agree 
with everything in it, but ``unconscionable'' I would not apply 
to it. Furthermore, as the Chairman well knows, President 
Clinton, in this instance, agrees with President Bush and 
President Reagan. No administration of either party has been 
particularly pleased with Impact Aid, as you know.
    Most administrations have zeroed it out and tried to 
eliminate it, and Reagan and Bush were no exception, nor is 
Clinton, nor was Carter. It is pretty bipartisan administrative 
hostility to this program.
    Let me ask you a question, the town you say is located 
along the river?
    Mrs. Kelly. Yes. If you look at the map----
    Mr. Hoyer. Are the orange lines the town?
    Mrs. Kelly. This is the river that runs along over here, 
that white spot. Everything over here that is in color is the 
town. That is all the town line. Most of it, as you can see, is 
West Point.
    Mr. Hoyer. My question, is the town line the orange line?
    Mrs. Kelly. No. This orange line, just ignore that orange 
line. That is for another reason. Just what is in color, that 
is in the town. Everything that is in color belongs to the 
town, except for this orange line over here, which denotes this 
little strip of the township that is usable.
    Mr. Hoyer. Let me ask you something. Are those the original 
town lines? Let me tell you what my speculation is, and maybe I 
am dead wrong.
    Mrs. Kelly. This is the original township. The color was 
the original township of the Town of Highlands. What you see 
over here delineated by these orange lines--Steve, maybe you 
can get over on this other side of this map and just run your 
finger along the orange line. That little tiny strip there, 
that is the township. This is the township, that is the town of 
Highland Falls and Fort Montgomery, two little tiny towns.
    Mr. Hoyer. Your school systems are by townships?
    Mrs. Kelly. No, our school systems do not follow town lines 
at all. The school system, this system happens to be totally 
within this town only because you cannot get over the 
mountains. So this is one of the few. There are a couple 
students that cross the Bear Mountain Bridge. The Governor's 
own children, come across the brink and come over from the 
other side. But they are included. Most of the school district 
is here, is in this one township. Which can't do--there is just 
not enough--not enough kids.
    Mr. Hoyer. The first year I came here, I am still here, it 
so happens I have a district which you may know which is 
heavily impacted by the Federal Government, both military, 
substantial military impact, a growing one, as a matter of 
fact, luckily for us, so I understand the problem.
    Mrs. Kelly. We are shrinking.
    Mr. Hoyer. I was wondering whether or not the town had 
expanded to include, but that is not the case.
    Mrs. Kelly. There is no way it can. This town is stuck. 
Basically, if you will forgive me, it is stuck between a lot of 
rock and a hard place and a lot of water. It is between the 
rock and the water, or the water and the hard place. There is 
no way that this town can expand. What isthere. They were 
promised this during World War II. In World War II, it did not have 
quite so much land. It went in and they expanded because they needed 
it.
    Right now, this whole area of West Point is where they are 
doing all the armaments training. I think there are several 
bases up in New Jersey and in Northern New York State that come 
in and they do major--the National Guard.
    Mr. Hoyer. They utilize it and take it off your tax rolls.
    Mrs. Kelly. Everything there has been taken off the tax 
rolls. These people have very little in here, and these two 
townships, they just cannot support the school system. The kids 
do not even have computers in this school system. They are 
graduating from high school with these aged computers, and they 
think they are learning how to handle a computer system.
    Mr. Hoyer. Despite the hostility of the Chairman to this 
program, we will probably include it on the bill.
    Mr. Porter. Yeah, right.
    Mr. Hoyer. Mr. Chairman, I think, has been one of the 
strongest proponents of this program since he served on the 
committee.
    Mrs. Kelly. I can understand why people could look at 
things and say the Federal Government, we are trying to cut 
back, and this looks like a good place to cut. It is not a good 
place to cut, for a number of us who have this Section 8002. I 
appreciate it.
    Mr. Porter. Can I ask a question also? What does rattle 
snake refer to?
    Mrs. Kelly. That is the rattle snake area. If you are 
deployed to the rattle snake area, you go up there and that is 
where you maneuver. The names of these areas, they are the West 
Point names. This is the range area.
    Mr. Hoyer. That means you can maneuver quickly.
    Mr. Porter. It sounds like a place you do not want to be 
sent.
    Mrs. Kelly. There are rattle snakes and copperheads all up 
through there.
    Mr. Porter. The place that is white and fairly large and 
next to the orange place, but not in color, what is that? Why 
don't you put your finger there. Yes.
    Mrs. Kelly. This is Palisades International Park.
    Mr. Porter. That is the State park?
    Mrs. Kelly. This is Palisades. The rest of this is all 
another, Black Root. Basically what you see here is surrounded 
pretty much. This is actually occupied, but there is a surround 
that runs through here that is nothing but park. You can walk 
from up here in this State park right straight through if you 
were willing to take the dare to walk through the back side of 
West Point, you can walk all the way down into New Jersey on 
parks.
    Mr. Porter. When those Westerners accuse you as an 
Easterner of not understanding government control of their 
land, I am sure you can put them in their place. You have more 
government land there than anything else.
    Sue, thank you very much. We will do our best.
    Mrs. Kelly. Thank you.
                              ----------                              

                                             Tuesday, June 3, 1997.

                                WITNESS

HON. JAMES OBERSTAR, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    MINNESOTA
    Mr. Porter. Next, and finally, Congressman James Oberstar 
of Minnesota, to testify on breast cancer research. Jim.
    Mr. Oberstar. Thank you very much, Mr. Chairman, for taking 
me out of turn. I appreciate your having scheduled me earlier 
in the day. I was absent not because of grand schemes or delay, 
but having been out of town for a couple of days, I was 
spending quality family time this morning. It is good to see 
you ambulatory. I expect we will find some funds for back 
research.
    I could not help but pick up on Sue's reference to Lyme 
disease. I think all three of us could remember Berkley Bedell, 
our colleague from Iowa, who might well still be in the 
Congress had he not been one of the early victims of Lyme 
disease which could not be diagnosed at the time. It was 
maldiagnosed until long after he left the Congress.
    I am here to congratulate this committee on its recognition 
of and funding for breast cancer research. All of the members 
of this committee, over a period of many years, going back to 
the chairmanship of Mr. Natcher, have been a driving force in 
providing adequate funding for breast cancer research. The 
gentleman from Maryland, who has just lost his wife, as I did 
mine a few years ago, understands the pain of loss, of cancer 
generally as a disease.
    My wife, Jo, would have been 61 years old last month.When 
she was first diagnosed with breast cancer, I think the total funding 
for research was in the range of $50 million. It is now nearing $500 
million. It is now spawning research initiatives in the public and 
private sector all over America. There are stunning results finally 
paying off.
    It takes a decade or more of intensive effort by the best 
minds in America to crack through and to find ways to attack 
this insidious disease that mutates once one brand of 
chemotherapy attacks and knocks it down, it finds a way to 
mutate, change, come back in another form, stronger and more 
virulent with each renewed waive, as we learned to our great 
pain and dismay.
    During that time that Jo struggled with breast cancer, over 
8 years, nearly 300,000 women died of that disease. Every year 
more women die of breast cancer than all the servicemen and 
women that died in the war in Vietnam. I have three daughters, 
all of whom have at a very early age registered for and had 
baseline mammograms because their mother had breast cancer and 
their grandmother had breast cancer, and they do not want to 
leave their children without a mother.
    Dr. Steve Rosenberg, whom I have known for many years and 
who testified at the hearings I chaired of the Budget Committee 
some years ago on health research, has written a book on the 
subject of gene therapy in breast and other forms of cancer, 
principally on skin cancer. He is the person who made the 
breakthrough on interleukin. He is the one who made the 
breakthrough on extracting cancer cells from the body, 
weakening them, then exposing them to the body's own white 
cells, growing them in a medium outside the body, and then 
reintroducing those white cells, now trained to search out and 
destroy the cancer cells, and I saw a patient of his literally 
with skin cancer cells the size of a fist. I saw them melt away 
over a 6-week period and the patient rehabilitated.
    He wrote in his book when we started we were looking for 
the slightest crack in a disease, a crack we could wedge open. 
Science works this way. Probing nature, finding an opening, 
hoping the opening leads somewhere. Now, we have found new 
cracks, new weaknesses in the shear, bleak face of cancer. We 
have wedged those cracks open. We hope, of course, to burst 
through them.
    The funding for research that you provide through this 
committee has made it possible for a plethora of researchers 
across the country to do exactly that, to wedge open that bleak 
stone face of cancer and find ways, new ways, to attack this 
insidious disease.
    The $530 million funding level is reasonable. Of course, it 
falls short of what the Breast Cancer Coalition has recommended 
of $590 million. I know the committee will do what it can in 
sorting out and balancing the equities, funding by institute at 
the National Institutes of Health, will do what it can and do 
the appropriate thing to move those funds up even higher.
    There are a few other items that I want to touch briefly 
on. LIHEAP, I just came from Minnesota this weekend. Summer has 
finally arrived. We have finally conquered the return of the 
Ice Age. My mother, in her little house in Chisholm, used up a 
half tank of fuel oil. That is about 200 gallons already this 
spring.
    She should not be using that much. But, you know, when you 
have to use that much fuel oil just to get through the spring 
season, you know that winter is not far behind and still just a 
step ahead of us. A decade ago LIHEAP was funded at $2 billion; 
it is now $1 billion. I sat at this table with Speaker Tip 
O'Neill to ask for the first funding of LIHEAP, and even though 
the funds have degenerated over time, winter has not become 
kinder.
    Your support for rural health care, particularly the 
community health centers which Mr. Poshard testified on 
recently, resonates strongly with me. My congressional district 
is the size of the East Coast from here to Connecticut, and it 
is about three-fourths the size of the whole State of 
Pennsylvania. Way on the northern reach by the Canadian border 
is the city of Grand Marais. The nearest other hospital is 100 
miles away. They too have the problem with large tracts of 
Federal land owned by public entities, Federal, State, and the 
Indian reservation; 94 percent of Cook County, which is 900,000 
acres, is in public ownership. If they do not get these funds, 
they can not continue to operate.
    I would urge the support for the Community Health Centers 
Program at $715 million. I listened with great interest to Sue 
Kelly's testimony on Impact Aid. It is a corollary to what I 
just raised. Every administration cuts out Impact Aid because 
they know Congress will restore those funds. It is a matter of 
priorities, theirs versus ours. It is a problem, it is 
insidious, and they should not be playing that game because 
then they force the Appropriations Committee to take money from 
administration priorities and move it over here.
    I will support this committee in moving to sustain the 
funding for Impact Aid. Again, a county like Cook, which--there 
are so many millions of acres in my district that are in public 
ownership, it is hard until you get to the southern end of my 
district, but they are all in the same bag.
    I urge your support for funding of higher education, but 
one of my favorite education issues is that of library 
services. I would hope that the subcommittee would target the 
$150 million level for library services so that we can, just 
for once, spend more money on library services than we do on 
military marching bands. I have nothing against marching bands 
in the military, all wars would be safer if we fought them with 
tubas and trombones, but libraries provide an extraordinary 
service.
    In my district in the early 1980's when we lost 55 percent 
of the work force in our core industry, 28,000 peoplemigrated 
out of the northern part of my district. It was the libraries that set 
up services for the workers in the iron ore mining plants to write 
resumes, to teach them how to use the computers to access job 
opportunities elsewhere than northern Minnesota. They even loaned toys; 
50,000 toys on weekends were loaned out by the library in Duluth and 
the smaller libraries, and they all came back, not a one of them was 
lost. They had diaper changing tables in the libraries for the fathers 
because occasionally the mother was working. The father would bring the 
babies in and change the diapers and take care of the child. The 
libraries performed this service. Please recognize their consideration.
    Finally, for adoption services, I urge the committee to 
provide a level of $13 million to recruit prospective adoptive 
families for particularly hard-to-place children. Our oldest 
child, Ted, now a father himself, was adopted, and we are very 
grateful for the joy and support we have had from that 
wonderful experience and hope that others can share it.
    Thank you Mr. Chairman, Mr. Hoyer.
    Mr. Porter. Jim, thank you for your testimony.
    I have said that one of my fears is--as it turned out in 
1995, it was a realized fear--but one of my fears this year 
will be that the subcommittee is forced to choose between such 
things as LIHEAP and biomedical research, that the allocations 
under the budget resolution will not be sufficient for us and 
we will have to simply do our best to work these things out.
    I wanted to tell you, though you did not testify to this 
effect directly, we are going to hold a special hearing next 
week, a week from today, June 10, on the allocation of research 
funding within NIH, because there have been a lot of questions 
raised about more money in AIDS, less money in cancer, more 
money in diabetes, and less money in heart and the like, and we 
thought the subject ought to be presented in a broad substance 
and spend some time on it. I am going to invite all Members of 
Congress to come in and listen to it and hear what NIH has to 
say about this.
    Mr. Oberstar. I would like to do that.
    Mr. Porter. If there is a lot of interest, we will move to 
a larger room, but I think it is an important subject and NIH 
should hear from Members about their concerns and we should 
hear what they have to tell us.
    Mr. Oberstar. I appreciate that. I congratulate you on that 
initiative.
    I have taken the opportunity several times to go out to NIH 
and see the facilities. They do the animal laboratory work and 
the bench laboratory work and the patient side. It is a world-
class facility. They obviously follow the direction of the 
Congress in establishing priorities and the funding levels that 
are available. I think your highlighting this area of research 
is a very, very commendable initiative.
    Mr. Porter. Mr. Hoyer.
    Mr. Hoyer. I thought that was excellent testimony, and, 
Jim, I would make an observation. I was flying back from 
Moscow, and I happened to be reading USA Today, that article.
    I do not know whether, Mr. Chairman, you saw it, but there 
has been--I cut it out, and you can have it--some researchers 
writing, I believe, in the New England Journal of Medicine, 
indicated that the 30-plus billion or so that we expended on 
research over the last 15, 20 years, cancer research, had not, 
from their standpoint, stemmed mortality rates across the 
board.
    Obviously, that is not true for specific types. It is an 
interesting premise, where they indicated that we ought to be 
spending more money on prevention, diet, smoking, et cetera, 
than on research because the research dollars are really not 
being as effective as they might be.
    Now, I do not necessarily--I do not adopt that premise, 
but, Mr. Chairman, it is an interesting premise. This is 
obviously very substantial researchers in a very credible 
journal, and in the front page of the USA Today----
    Mr. Porter. Will the gentleman yield on that?
    Mr. Hoyer. Yes.
    Mr. Porter. I think we have to remind ourselves that what 
we are funding mostly is basic research. It is not meant to 
lead anywhere, although there is certainly the hope that it 
will provide the foundation that the applied research will lead 
somewhere, and it is something that, if the Government does not 
fund it and do it, it would not be funded at all, there will be 
no foundation, because the private sector will see no profit in 
doing the kinds of things that are done through NIH research 
grants.
    We tend to apply to what NIH does external standards of 
results and because we want those results, but I think we 
always have to stop and say, wait a minute, let us remind 
ourselves that what we are funding is not a solution to cancer, 
although we hope that comes out. It is the kind of research 
that builds a base of understanding so we can find a solution 
to cancer. If we do not do that, it will never be done and 
there would not be any base. That is my comment.
    Mr. Hoyer. I am not suggesting that we reverse what we have 
done, but it was an interesting proposition. For those like Jim 
and myself and everybody, I do not think there is a family in 
America that has not experienced the ravages of cancer.
    You referred to Steve's book. Interestingly enough, in 
terms of stomach cancer, from which Judy died, stomach cancer 
incidence is going down, and, as a matter of fact, there were 
only 25,000 cases in America last year, of which only 8,000were 
morbid. It is a very difficult cancer to diagnose. I talked to Steve 
during the course of the illness on a regular basis. He worked with the 
Johns Hopkins doctors.
    It is such a frustration when we know how much we have 
spent, to face this illness with a feeling of helplessness.
    Mr. Oberstar. I appreciate the gentleman's observation on 
the reference. I think we have to be careful about these broad-
brush references that casual observers make and remember that 
our research at the National Institutes of Health has taken 
whole categories of disease off the table. People no longer die 
of a whole range of diseases that they did die of in earlier 
years, and now people are living long enough to incur cancer. 
They did not live long enough in the first half of this decade 
to incur cancer.
    We are learning more about diet, which is also part of the 
NIH, long neglected, I think, in our scientific and medical 
practice.
    Your reference to stomach cancer raises the statistical 
analyses of the Japanese immigration to the United States, 
extraordinarily low incidence of stomach or other intestinal 
cancers in Japan and China. When Japanese and Chinese people 
immigrate to the United States and adopt our diet, their 
incidence of stomach cancer rises.
    Mr. Hoyer. Jim, in fact, that is incorrect. It is the 
opposite. Since the incidence of stomach cancer in the United 
States is on the downward trend and the incidence in Japan is 
so high, and when talking to the doctors, in Japan, almost like 
mammography, since the incidence is so high, they have regular 
tests for stomach cancer.
    It took them 35 months to diagnose Judy's stomach cancer, 
and they are not sure why. I think you are correct on some 
cancers, but stomach cancer, it is the opposite, because in the 
Far East stomach cancer is at a higher incidence, and they are 
not sure why that is. It may be a difference in the diet as to 
what they eat, but apparently if you have stomach cancer you 
are better off in the Far East because they are more attuned to 
diagnosing it.
    One of the reasons it was difficult to diagnose--we were at 
Hopkins, we were not at some rural hospital that didn't have 
proper diagnostic tools, although we started there--is that is 
not an expectation in a woman, especially at 56 years of age. 
They diagnosed an ulcer. They ultimately found it.
    It is interesting, I think you will find this particular 
cancer, a higher incidence in the Far East and Japan in 
particular than there is in the United States.
    Mr. Oberstar. I stand corrected then. My understanding is, 
it was just the opposite.
    Mr. Porter. Thank you, Jim. We will do our best for you.
    [The prepared statement of Congressman James L. Oberstar 
and additional material submitted for the Record follow:]

[Pages 2256 - 2909--The official Committee record contains additional material here.]




                 M E M B E R S   O F   C O N G R E S S

                               __________
                                                                   Page
Baldacci, Hon. J. E..............................................  2276
Becerra, Hon. Xavier.............................................  2302
Bereuter, Hon. Doug..............................................  2165
Bilbray, Hon. Brian..............................................  2167
Blumenauer, Hon. Earl............................................  2304
Bosley, Hon. D. E................................................  1480
Brown, Hon. Corrine..............................................  2151
Bunning, Hon. Jim................................................  2230
Burton, Hon. Dan.................................................  2122
Capps, Hon. Walter...............................................  2083
Christensen, Hon. Jon............................................  1971
Christian-Green, Hon. Donna......................................  1992
Clay, Hon. Bill..................................................  1992
Clayton, Hon. Eva................................................  1992
DeGette, Hon. Diana..............................................  2086
Dicks, Hon. Norman...............................................  1971
Dooley, Hon. Cal.................................................  2266
Edwards, Hon. Chet...............................................  1971
Fattah, Hon. Chaka...............................................  2273
Foley, Hon. Mark.................................................  2172
Fox, Hon. J. D...............................................2271, 2280
Furse, Hon. Elizabeth............................................  2071
Goodling, Hon. W. F..............................................  2185
Hamilton, Hon. L. H..............................................  2313
Hansen, Hon. J. V................................................  2295
Hayworth, Hon. J. D..............................................  1971
Hilliard, Hon. E. F..............................................  2301
Hinojosa, Hon. Ruben.............................................  2100
Jackson-Lee, Hon. Sheila.....................................2026, 2285
Johnson, Hon. E. B...............................................  1992
Johnson, Hon. Nancy..............................................  2026
Kelly, Hon. Sue..................................................  2246
Latham, Hon. Tom.................................................  2283
Lazio, Hon. Rick.................................................  2268
Lehman, Hon. William...........................................791, 801
Maloney, Hon. Carolyn............................................  2026
McCain, Hon. John................................................  1353
McCarthy, Hon. Carolyn...........................................  2026
McKeon, Hon. Buck................................................  2298
Meek, Hon. C. P..............................................2151, 2177
Mica, Hon. John..................................................  2151
Millender-McDonald, Hon. Juanita.................................  1992
Moran, Hon. J. P.................................................  2091
Morella, Hon. Connie.............................................  2026
Neal, Hon. Richard...............................................  2317
Nethercutt, Hon. G. R., Jr.......................................  2145
Norton, Hon. E. H................................................  2026
Nussle, Hon. Jim.................................................  2239
Oberstar, Hon. James.............................................  2250
Olver, Hon. J. W.................................................  2281
Pallone, Hon. Frank, Jr......................................2105, 2274
Pomeroy, Hon. Earl...............................................  2314
Porter, Hon. J. E................................................  2358
Poshard, Hon. Glenn..............................................  2239
Riggs, Hon. Frank................................................  2206
Roemer, Hon. Tim.................................................  2127
Rothman, Hon. Steven.............................................  2216
Sanders, Hon. Bernard............................................  2278
Scott, Hon. R. C. ``Bobby''......................................  2262
Shays, Hon. Christopher..........................................  2308
Slaughter, Hon. L. M.........................................2026, 2111
Stearns, Hon. Cliff..............................................  2117
Tauscher, Hon. Ellen.............................................  2026
Visclosky, Hon. Peter............................................  2079
Waters, Hon. Maxine..........................................1992, 2200
Weygand, Hon. Bob................................................  2137
Whitfield, Hon. Ed...............................................  2159
Wynn, Hon. Albert................................................  1992
Young, Hon. Don..................................................  2127







                           W I T N E S S E S

                               __________
                                                                   Page
Alden, Michael...................................................  2904
Alexander, Richard...............................................  1771
Ali, Lonnie......................................................  1365
Ali, Muhammad....................................................  1365
Allen, W. R......................................................  2653
Alonso-Mendoza, Emilio...........................................  1371
Ammann, A. J.....................................................   983
Ammerman, H. K...................................................  2818
Anderson, A. W...................................................   838
Anderson, Denise.................................................   860
Anderson, Harry..................................................  1337
Anderson, John...................................................   860
Aquilino, J. D., Jr..............................................  1346
Aquilino, J. Z...................................................  1346
Arnold, W. E.....................................................     9
Aronson, Emme....................................................   258
Atkinson, W. B...................................................  2821
Avery, Martin....................................................  1706
Baker, S. P......................................................   249
Balster, Robert..................................................   298
Barker, F. M.....................................................  1015
Barnett, Alice...................................................   585
Bassett, Brenda..................................................   801
Batshaw, M. L....................................................  2468
Beattie, D. S....................................................   191
Bellermann, P. R. W..............................................  1586
Belletto, Peter..................................................  2609
Berns, K. I......................................................     1
Block, Alvin.....................................................  2344
Bosch, Erin......................................................  1505
Botset, Tracy....................................................   258
Boyan, B. D......................................................   872
Boyd, Merle......................................................  2757
Brannon, Patsy...................................................   155
Breedlove, Roy...................................................    20
Breedlove, Taylor................................................    20
Breslow, Jan.....................................................   117
Brody, W. R......................................................  2491
Bronson, Dr. Oswald, Sr..........................................  2151
Brown, L. P..................................................2340, 2533
Brown, Lynda.....................................................  1750
Brownstein, A. P.................................................   130
Bruton-Maree, Nancy..............................................   482
Bufe, N. C.......................................................  1714
Bye, Dr. R. E., Jr...............................................  2440
Calkins, C. L....................................................    69
Campbell, Christopher............................................   227
Carpenter, Jeanne................................................   762
Cazzetta, Ralph..................................................  1215
Cerqueira, Manuel................................................   945
Chadwick, Lynn...................................................  2605
Chaisson, Dr. Richard............................................  2894
Charytan, Chaim..................................................  1848
Ciccariello, Priscilla...........................................   105
Cioffi, Gina.....................................................  1213
Coben, J. H......................................................   695
Cohen, B. M......................................................  1935
Cole, Anthony....................................................  1327
Collins, Michael.................................................  2871
Conn, P. M.......................................................  1839
Coulter, H. L....................................................   578
Cox, C. M........................................................  2667
Crabbs, B. L.....................................................   687
Cryer, P. E......................................................  1639
Cunningham, M. P.................................................  1048
Davis, Rev. W. F.................................................  1723
Day, A. L........................................................  2889
Debakey, Michael.................................................    45
Demaret, C. A....................................................  1860
Dew, D. W........................................................  2481
Dickey, Lori.....................................................   860
Dinsmore, Alan...................................................  2840
Dixon, J. E......................................................   345
Downey, Morgan...................................................  1371
Drake, L. A......................................................   429
Drugay, Marge....................................................   896
Dubois, Helen....................................................  2379
Duggan, E. S.....................................................  2860
Durant, John.....................................................  1285
Dwyer, Kevin.....................................................  2884
Ehrlich, Michael.................................................    20
Ein, Dan.........................................................   780
Emmens, Matt.....................................................  2515
Erickson, A. G...................................................  1496
Feder, Miriam....................................................  2477
Fell, Linda......................................................   165
Fernandez, H. A..................................................   405
Fernandez, S. P..................................................   591
Finkelstein, L. H................................................  2484
Firpo, Adolfo....................................................  1945
Flynn, L. M......................................................  1621
Fonseca, Raymond.................................................  2522
Foreman, Spencer.................................................  2453
Fox, V. G........................................................   370
Friedman, Harvey.................................................  1177
Futrell, N. N....................................................   441
Gaebe, M. J. W...................................................   801
Galassi, Dale....................................................  1523
Gedance, Suzanne.................................................  1274
Geisel, R. L.....................................................  2563
Gibson, D. M.....................................................  1154
Gipp, David......................................................  2645
Gorham, Millicent................................................  1435
Gorosh, Kathye...................................................  2721
Greenberg, Warren................................................  1427
Guard, Roger.....................................................  1486
Guerrant, Richard................................................   203
Gumnit, R. J.....................................................  1549
Gustafson, J. S..................................................  1559
Hagen, R. J......................................................   639
Hains, Ann.......................................................  2887
Hanle, Paul......................................................  1075
Hannemann, R. E..................................................   461
Harper, Francis..................................................   309
Harr, P. B.......................................................   726
Harris, S. B.....................................................  2597
Hayes, Edward....................................................    79
Helderman, Harold................................................   179
Henderson, C. C..................................................  2406
Hendricks, Karen.................................................   287
Herrera, Stanley.................................................  2320
Hirsch, Jules....................................................  1783
Hoffheimer, Larry................................................  1371
Hryhorczuk, Daniel...............................................  2772
Hubbard, J. B....................................................  2675
Hughes, L. T.....................................................  1111
Hull, A. R.......................................................  1605
Hunter, Kathy....................................................  2334
Hunter, T. H.....................................................   203
Ikenberry, S. O..................................................  1199
Jackson, Beryl...................................................  1305
Jaffe, David.....................................................  1761
Janger, S. A.....................................................  2670
Javits, J. M.....................................................  2680
Jensen, Allan....................................................   815
Jesien, George...................................................  2887
Johnson, Carolyn.................................................   907
Johnson, David...................................................  2568
Johnson, E. B....................................................  2026
Johnson, Jennifer................................................  2766
Jollivette, C. M.................................................  2549
Jones, L. A......................................................  2347
Joyce, Michael...................................................   227
Kaeser, Lisa.....................................................  1294
Kapperman, Gaylen................................................  1224
Kenmitz, J. W....................................................  1316
Kenney, Kimberly.................................................   976
Kimmelman, Paul..................................................   849
Kissick, W. L....................................................   828
Klugman, Kate....................................................  1505
Kownacki, Sandra.................................................  1039
Kraut, A. G......................................................  1026
Krepcho, Dave....................................................   791
Lampkins, Thornton...............................................  1605
LaPolla, Sheila..................................................  1875
Larson, Dan......................................................  1665
LaRusso, Nick....................................................   130
Lavery, Jack.....................................................   995
Lazarus, G. S....................................................  1888
Levine, Felice...................................................   509
Levinson, Wendy..................................................  1896
Levitan, M. S....................................................   334
Lewis, D. E......................................................  2445
Lewis, Daniel....................................................  1090
Lewis, Rosalie...................................................  1090
Lichtman, M. A...................................................   653
Ligosky, J. R....................................................   108
Lindberg, Donald.................................................    45
Lindley, B. D....................................................   394
Lokhandwala, Mustafa.............................................  1065
Lokovic, J. E....................................................  2739
Lowe, W. L.......................................................    94
Lubinski, Christine..............................................   770
Luke, R. G.......................................................  1814
Maloney, Justine.................................................  2884
Marchand, Paul...................................................  2884
Marcus, Ann......................................................  2536
Marockie, H. R...................................................   567
Mason, Russell ``Bud''...........................................  2645
Mauderly, J. L...................................................  2558
Maul, K. I.......................................................   216
McEwen, B. S.....................................................  2691
McKnight, David..................................................   130
McLeod, Renee....................................................  2501
McMillan, Elise..................................................  1797
McMillan, Will...................................................  1797
McNulty, Joseph..................................................  1337
McSteen, Martha..................................................  2584
Mesulam, M. M....................................................  2901
Mitchem, Arnold..................................................   600
Modell, Vicky....................................................  1750
Molloy, Russ.....................................................  2528
Moody, J. K......................................................  2417
Morgan, D. H.....................................................   354
Morgan, R. C., Jr................................................  1189
Morgan, R. V.....................................................  1576
Mortensen, Colleen...............................................   165
Mullin, Leah.....................................................   704
Munro, Nancy.....................................................   493
Murstein, Denis..................................................  2507
Musser, Erika....................................................  1224
Myers, Terry-Jo..................................................  2473
Neas, K. B.......................................................  2884
Norton, Nancy....................................................  2370
Norton, Ruth.....................................................   105
O'Reilly, R. J...................................................    30
Olsson, C. A.....................................................  1121
Orelove, Fred....................................................  2324
Orr, Alberta.....................................................  2840
Owens, A. H., Jr.................................................  1459
Parker-Jimenez, Joy..............................................   317
Peck, S. B.......................................................   967
Perez, Daniel....................................................  1371
Perkins, Joseph..................................................   933
Phillips, F. B...................................................  1534
Pings, C. J......................................................  2716
Prothrow-Stith, Deborah..........................................  2879
Purves, Karen....................................................  1143
Quaranta, M. A...................................................   665
Quigley, C. N....................................................   552
Raezer, J. W.....................................................  1655
Rasure, Dana.....................................................    20
Rauscher, Frances................................................  1264
Reed, D. J.......................................................  1167
Reich, Gloria....................................................  1450
Reigart, J. R....................................................   532
Reynolds, Mildred................................................  1631
Rice, Donna......................................................   334
Rich, R. R.......................................................   919
Richter, M. K....................................................  2762
Rider, J. A......................................................   227
Riley, E. P......................................................   383
Robb, L. J.......................................................  1829
Robinowitz, Carolyn..............................................   417
Robinson, H. A...................................................   542
Rodney, Laxley...................................................  2835
Roos, David......................................................   704
Roper, W. L......................................................  2387
Rosenthal, Suzanne...............................................  2370
Rothman, Arthur..................................................  2216
Ruben, R. J......................................................   736
Sabolich, John...................................................   239
Sabshin, Melvin..................................................   504
Salazar, Javier..................................................   770
Samuelson, J. I..................................................  1738
Sanchez, Efrain..................................................  1569
Sandoval, S. O...................................................  2830
Saylor, A. V.....................................................  2458
Schoenwolf, G. C.................................................   714
Schuyler, William................................................  1867
Schwartz, P. E...................................................  1907
Schweikert, M. L.................................................  1686
Scrimshaw, Susan.................................................   750
Seatter, D. E....................................................   678
Sellers, Julie...................................................  1099
Sever, J. L......................................................  1957
Shalita, A. R....................................................  2807
Shapiro, Jan.....................................................  1516
Shaver, Joan.....................................................   472
Shortbull, Tom...................................................  1004
Silver, H. J.....................................................  2865
Simpson, B. C....................................................  1595
Smith, Barbara...................................................  2887
Snape, D. W......................................................  2525
Solomon, Liza....................................................   354
Sparling, P. F...................................................  1415
Stecher, Mary....................................................   630
Stephens, Martin.................................................  1403
Sterling, Richard................................................  1695
Stevens, Christine...............................................  2824
Stewart, Daisy...................................................  1132
Stossel, T. P....................................................   884
Stubbs, P. E.....................................................   956
Sturdivant, J. N.................................................  2410
Suttie, John.....................................................  1251
Tafel, Richard...................................................  1471
Tarantino, Rich..................................................   801
Taylor, S. D.....................................................   317
Terry, Sharon....................................................  2488
Thompson, Travis.................................................  1797
Thorson, Kristin.................................................  2706
Towers, Jan......................................................   451
Tuckson, R. V....................................................   268
Turino, Gerard...................................................   143
Valenzuela, Carmen...............................................   521
Van Zelst, T. W..................................................  2695
Vidis, Megan.....................................................  1450
Walgren, Kathleen................................................  2374
Waters, Patrick..................................................  1512
Weber, Dan.......................................................  1814
Weber, Phyllis...................................................   277
Weinberg, A. D...................................................  2347
Weiner, R. H.....................................................  2815
Weinstein, Michael...............................................  2577
Welch, S. H......................................................  1305
White, David.....................................................  2394
Williams, Elaine.................................................  1240
Wilson, Robert...................................................  2518
Wine, Blanche....................................................  1678
Wittenberg, H. R.................................................  2711
Wood, D. L.......................................................    58
Yager, D. V......................................................   613
Zingale, Daniel..................................................   770
Zudden, W. E.....................................................  1923








                 O R G A N I Z A T I O N A L  I N D E X

                              ----------                              
                                                                   Page
Ad Hoc Group for Medical Research Funding........................     1
AIDS Action Council..............................................   770
AIDS Drug Assistance Program.....................................     9
AIDS Healthcare Foundation.......................................  2577
Air Force Sergeants Association..................................  2739
Alliance for Eye and Vision Research.............................  1274
Alzheimer's Association..........................................  2901
American Academy of Child and Adolescent Psychiatry..............   417
American Academy of Dermatology..................................   429
American Academy of Family Physicians............................   726
American Academy of Neurology....................................   441
American Academy of Nurse Practitioners..........................   451
American Academy of Opthalmology.................................   815
American Academy of Orthopaedic Surgeons.........................    20
American Academy of Otolaryngology--Head and Neck Surgery........   736
American Academy of Pediatrics...................................   461
American Academy of Physicians Assistants........................  2620
American Association for Cancer Research.........................    30
American Association for Dental Research.........................   872
American Association of American Universities....................  2716
American Association of Anatomists...............................   714
American Association of Blood Banks..............................  2781
American Association of Colleges of Nursing......................   472
American Association of Colleges of Osteopathic Medicine.........    58
American Association of Critical-Care Nurses.....................   493
American Association of Dental Schools...........................   838
American Association of Immunologists............................   919
American Association of Neurological Surgeons....................  2889
American Association of Nurse Anesthetists.......................   482
American Association of Retired Persons..........................   933
American Association of School Administrators....................   849
American Association of University Affiliated Programs...........  2468
American Autoimmune Related Disease Association..................  2761
American Cancer Society..........................................  1048
American Chemical Society........................................    79
American College of Cardiology...................................   945
American College of Rheumatology.................................  2353
American College of Preventive Medicine..........................  2464
American Council on Education....................................  1199
American Dental Association......................................   956
American Dental Hygienists' Association..........................   967
American Diabetes Association....................................  1639
American Federation for Medical Research.........................    94
American Federation of Government Employees......................  2410
American Foundation for AIDS Research............................   983
American Foundation for the Blind................................  2844
American Gas Association.........................................  2785
American Heart Association.......................................   117
American Indian Higher Education Consortium......................  1004
American Legion..................................................  2675
American Library Association.....................................  2406
American Lung Association........................................   143
American Nurses Association......................................  1240
American Optometric Association..................................  1015
American Psychiatric Association.................................   504
American Psychological Association...............................  2751
American Psychological Society...................................  1026
American Public Power Association................................  2853
American Public Television Stations..............................   370
American Rehabilitation Association..............................  2777
American Sleep Apnea Association.................................  2525
American Sleep Disorders Association.............................  2394
American Social Health Association...............................  2811
American Society for Clinical Nutrition..........................  1783
American Society for Microbiology................................  2432
American Society for Nutritional Sciences........................   155
American Society for Parenteral and Enteral Nutrition............  1783
American Society for Pharmacology and Experimental Therapeutics..  1065
American Society of Clinical Pathologists........................   165
American Society of Hematology...................................   884
American Society of Nephrology...................................  1814
American Society of Transplant Physicians........................   179
American Society of Tropical Medicine and Hygiene................   203
American Sociological Association................................   509
American Therapeutic Recreation Association......................  1111
American Tinnitus Association....................................  1450
American Trauma Society..........................................   216
American Urological Association..................................  1121
American Vocational Association..................................  1132
Amyotrophic Lateral Sclerosis Association........................  2680
Animal Protection Institute......................................  1143
Arthritis Foundation.............................................   687
Association for Health Research..................................  2387
Association for Professionals in Infection Control and 
  Epidemiology...................................................  1099
Association of American Medical Colleges.........................   191
Association of Minority Health Professions Schools...............   268
Association of Organ Procurement Organization....................   277
Association of Outplacement Consulting Firms International.......  2746
Association of Professors of Dermatology.........................  2807
Association of Schools of Allied Health Professions..............  1154
Association of Schools of Public Health..........................   750
Association of University Environmental Health Sciences Centers..  1167
Association of University Programs in Health Administration......   405
Association of University Programs in Occupational Health and 
  Safety.........................................................  2772
Astra Merck......................................................  2515
Autism Society of America........................................  1039
Autism...........................................................  2588
Blue Cross and Blue Shield Association...........................  1177
Braille Training.................................................  1224
Center for Civic Education.......................................   552
Center for Victims of Torture....................................   521
Center Point.....................................................   317
Children's Brain Diseases Foundation.............................   227
Children's Environmental Health Network..........................   532
Chronic Fatigue and Immune Dysfunction Syndrome Association......   976
Cities Advocating Emergency AIDS relief..........................   542
City of Newark...................................................   585
Close Up Foundation..............................................  2670
Coalition for Health Funding.....................................   287
Coalition for Heritable Disorders of Connective Tissue...........   105
Coalition of EPSCOR States.......................................   394
Coalition of Northeastern Governors..............................  2804
College of Physicians of Philadelphia............................   828
College on Problems of Drug Dependence...........................   298
Consortium for Citizens With Disabilities........................  2884
Consortium for Research and Practicum on Minority Males..........  2835
Consortium of Social Science Associations........................  2865
Consortium on School Networking..................................  2849
Cooley's Anemia Foundation.......................................  1213
Core Center......................................................  2721
Corporation for Public Broadcasting..............................  2633
Council of Chief States School Officers..........................   567
Council of State Administrators of Vocational Rehabilitation.....  1595
Council of State Governments.....................................  1480
Cystic Fibrosis Foundation.......................................  2494
Dana Alliance for Brain Initiatives..............................   309
Digestive Disease National Coalition.............................  2370
Division for Early Childhood.....................................  2887
Dystonia Medical Research Foundation.............................  1090
Dystrophic Epidermolysis Bullosa Research Association of America.  2477
Empirical Therapies..............................................   578
Endocrine Society................................................  1839
Epilepsy Foundation of America...................................   762
ESA, Incorporated................................................  2344
Family Planning Coalition........................................  2701
FDA Council......................................................  1867
Federation of American Societies for Experimental Biology........  1251
Federation of Behavioral, Psychological and Cognitive Sciences...  2563
FHS Society......................................................  1390
Fibromyalgia Network.............................................  2706
Fleet Reserve Association........................................    69
Florida State University.....................................2440, 2549
Foundation for Ichthyosis and Related Skin Types (First).........   334
Fred Hutchinson Cancer Research Center...........................  2510
Friends of Cancer Research.......................................  1285
Friends of National Institute of Child Health and Human Dev. 
  Institute......................................................  1294
Friends of the National Library of Medicine......................    45
Genome Action Coalition..........................................  1621
Harvard School of Public Health..................................  2879
Haymarket House..................................................  1327
Health Professions and Nursing Education Coalition...............   591
Helen Keller National Center for Deaf-Blind......................  1337
Hispanic Association of Colleges and Universities................  1576
Humane Society of the United States..............................  1403
Illinois Collaboration on Youth..................................  2507
Immune Deficiency Foundation.....................................  1860
In Defense of Animals............................................  2855
Infectious Diseases Society of America...........................  1415
Injury Prevention Research Center................................   695
Intercultural Cancer Council.....................................  2347
International Center for Public Health...........................  2540
International Society for Technology in Education................  2849
International Union Against Tuberculosis and Lung Disease........  2894
Interstate Conference of Employment Security Agencies............  2734
Interstitial Cystitis Association................................  2473
Jaffee Family Foundation.........................................  1761
Jeffrey Modell Foundation........................................  1750
John Hopkins School of Hygiene and Public Health.................   249
John Hopkins Unversity...........................................  2491
Johnson and Wales Unversity......................................   801
Joint Concil of Allergy, Asthma and Immunology...................   780
Joint Steering Committee for Public Policy.......................   345
Juvenile Diabetes Foundation.....................................   704
Karuk Tribe of California........................................  2690
Labor Policy Association.........................................   613
Legal Action Center..............................................   639
LeGrange Children's Mental Health Association....................   630
Leukemia Society of America......................................   653
Log Cabin Republicans............................................  1471
Lovelace Respiratory Research Institute..........................  2558
Lupus Foundation of America......................................   995
McLean Hospital..................................................  1935
Medical Library Association......................................  1486
Mended Hearts....................................................  1427
Metropolitan Family Services.....................................  1496
Minann, Incorporated.............................................  2695
Montefiore Medical Center........................................  2453
Montgomery County Stroke Club....................................  1512
Mystic Seaport...................................................  2667
National Aging and Visoin Network................................  2840
National Alliance of State and Territorial AIDS Directors........   354
National Alliance for the Mentally Ill...........................  2458
National Alopecia Areata Foundation..............................  1516
National Assembly on School-Based Health Care....................  2417
National Association for State Community Services Programs.......  2795
National Association of Anorexia Nervosa and Associated Disorders   258
National Association of Community Health Centers.................  1523
National Association of County and City Health Officials.........  1534
National Association of Epilepsy Centers.........................  1549
National Association of Music Merchants..........................  1264
National Association of Pediatric Nurse Associates and 
  Practitioners..................................................  2501
National Association of Social Workers...........................   665
National Association of State Alcohol and Drug Abuse Directors...  1559
National Black Nurses Association................................  1435
National Center for Tobacco-Free Kids............................  2662
National Coalition for Cancer Research...........................  1459
National Coalition for Heart and Stroke Research.................  1505
National Coalition for Osteoporosis and Related Bone Diseases....  2448
National Coalition for Promoting Physical Activity...............  2766
National Coalition for Research..................................  1380
National Coalition of State and Alcohol Drug Treatment and 
  Prevention Association.........................................   639
National Coalition of Survivors for Violence Prevention..........  2882
National Coalition on Deaf-Blindness.............................  2871
National Collegiate Athletic Association.........................  2904
National Committee to Preserve Social Security...................  2584
National Congress of American Indians............................  2653
National Council of Educational Opportunity Associations.........   600
National Council of Social Security Management Association.......   678
National Council on Rehabilitation Education.....................  2481
National Depressive and Manic-depressive Association.............  1631
National Energy Assistance Directors' Association................  2800
National Federation of Community Broadcasters....................  2605
National Foundation for Ectodermal Dysplasias....................  2762
National Foundation of Brain Research............................  1371
National Fuel Funds Network......................................  2374
National Hemophilia Foundation...................................  2382
National Hep-Camp Association....................................  1569
National Indian Education Association............................  2358
National Indian Impacted Schools Association.....................  2609
National Institute for Automotive Service Excellence.............  2815
National Job Corps Coalition.....................................  2742
National Kidney Foundation.......................................  1605
National Marrow Donor Program....................................  2830
National Medical Association.....................................  1189
National Military Family Association.............................  1655
National Minority Public Broadcasting Consortia..................  2625
National Multiple Sclerosis Society..............................  2597
National Neurofibromatosis Foundation............................  1586
National Parkinson's Foundation........................1353, 1365, 1371
National Psoriasis Foundation....................................  1678
National Public Radio............................................  2445
National Senior Service Corps Directors Associations.............  1686
National Writing Project.........................................  1695
Navajo Nation....................................................  1706
New York University--School of Education.........................  2536
New York University Medical Center...............................  2791
Northwestern University Traffic Institute........................  1714
Nova Care Sabolich...............................................   239
NYU--Center for Cognition, Learning, Emotion and Memory..........  2533
Organizations of Academic Family Medicine........................  2711
Parkinson's Action Network.......................................  1738
Philadelphia Academy of Natural Sciences.........................  1075
Philadelphia College of Osteopathic Medicine.....................  2484
Polycystic Kidney Research Foundation............................  1665
Prostatitis Foundation...........................................  1771
Public Broadcasting Services.................................2860, 1305
PXE International................................................  2488
Reading is Fundamental...........................................  1829
Recording for the Blind and Dyslexic.............................  2563
Renal Physicians Association.....................................  1848
Research Society on Alcoholism...................................   383
Rotary International.............................................  1957
Sac and Fox Nation...............................................  2757
Science and Technology Advisory Committee........................  2821
Society for Animal Protective Legislation....................2650, 2824
Society of General Internal Medicine.............................  1896
Society of Gynecologic Oncologists...............................  1907
Society of Neuroscience..........................................  2691
Society of Toxicology............................................  2498
South Florida Bread Food Bank....................................   791
Sudden Infant Death Syndrome Alliance............................   860
Tri-Council for Nursing..........................................   896
United Distribution Companies....................................  1923
United Ostomy Association........................................  2379
United States Catholic Conference................................  1723
United Tribes Technical College..................................  2545
University of Medicine and Dentistry of New Jersey...............  2528
University of Miami..........................................2549, 2573
University of Pennsylvania School of Dental Medicine.............  2522
University of Puerto Rico........................................  1945
Vanderbilt University............................................  1797
Voice for Adoption...............................................   907
Wilson Foundation................................................  2518
Wisconsin Regional Primate Research Center.......................  1316

                                <all>
</pre></body></html>
